<html>
<title> - FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







    FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2019
_____________________________________________________________________________
_____________________________________________________________________________




                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                               _________

        SUBCOMMITTEE ON FINANCIAL SERVICES AND GENERAL GOVERNMENT

                      TOM GRAVES, Georgia, Chairman

  KEVIN YODER, Kansas                     MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington       JOSE E. SERRANO, New York
  MARK E. AMODEI, Nevada                  MATT CARTWRIGHT, Pennsylvania
  CHRIS STEWART, Utah                     SANFORD D. BISHOP, Jr., Georgia
  DAVID YOUNG, Iowa
  JOHN R. MOOLENAAR, Michigan

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                Dena Baron, Ariana Sarar, Marybeth Nassif,
                      Brent Baglien, and Brad Allen
                            Subcommittee Staff

                               _________

                                  PART 5

                                                                   Page
  Department of the Treasury...................................       1
  Internal Revenue Service.....................................      37
  General Services Administration..............................      65
  The Judiciary................................................      91
  Office of Management and Budget..............................     149
  Members' Day.................................................     193
  Securities and Exchange Commission...........................     213
  Federal Communications Commission............................     249




 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-599                    WASHINGTON : 2018                 














                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\               NITA M. LOWEY, New York   
  ROBERT B. ADERHOLT, Alabama               MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                        PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                 JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas               ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                     DAVID E. PRICE, North Carolina
  KEN CALVERT, California                   LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                        SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania             BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                       TIM RYAN, Ohio
  KEVIN YODER, Kansas                       C.A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                    DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                 CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee         MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington         DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                      MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California              GRACE MENG, New York
  ANDY HARRIS, Maryland                     MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                      KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                    PETE AGUILAR, California
  CHRIS STEWART, Utah                        
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia.
  ----------
  \1\ Chairman Emeritus

                     Nancy Fox, Clerk and Staff Director

                                   (ii)


 
   FINANCIAL SERVICES AND GENERAL GOVERNMENT APPROPRIATIONS FOR 2019

                              ----------                              

                                            Tuesday, March 6, 2018.

                UNITED STATES DEPARTMENT OF THE TREASURY

                                WITNESS

HON. STEVEN T. MNUCHIN, SECRETARY, UNITED STATES DEPARTMENT OF THE 
    TREASURY
    Mr. Graves. Good morning, Mr. Secretary.
    Secretary Mnuchin. Good morning.
    Mr. Graves. Thank you for joining us. We welcome you today 
to this hearing and look forward to hearing from you and 
discussing the Department's budget request that I know you have 
taken a lot of time to prepare, as well as some of the economic 
assumptions in the policies, including the President's overall 
request for the fiscal year of 2019.
    Before we get into the details of your budget request, I 
would like to just take a quick moment to look back over this 
past year, because 2017 has been a year of accomplishments, 
great accomplishments, and that couldn't have happened without 
the support and the leadership of the President and the 
administration, including yourself, Mr. Secretary, and we want 
to thank you for that. Because after years of high unemployment 
and stagnant wages, hardworking Americans finally saw the 
economy start booming again in 2017. Unemployment is now at a 
17-year low. Almost 2 million new jobs were created in the last 
13 months, and for us, that means 2 million of our constituents 
today are working that weren't working as of January in 2017.
    Wages are growing at nearly 3 percent, and according to the 
Department of Labor, this is the fastest growth in almost a 
decade. Manufacturing expanded in January at nearly the fastest 
pace since 2004, and small business optimism is at its highest 
level since Ronald Reagan was President. And this just didn't 
happen by accident. It happened because Congress and the 
administration worked together to reform the Tax Code for the 
first time in more than three decades. It happened because we 
slashed nearly 1,500 unnecessary rules and regulations, 
lightening the load of small businesses all across this 
country, and it happened because we freed businesses, both big 
and small, to grow and to thrive once again.
    So, Secretary Mnuchin, I know you played an important part 
in this success, so I just want to say thank you. Thank you for 
your hard work and for your commitment to making America reach 
these milestones that we have now seen over 2017.
    But now on to your budget request. As you look ahead, we 
know that your next year's request for the IRS is at $11.5 
billion, which includes program integrity cap adjustments of 
$362 million. In addition to this request, the IRS is seeking 
another $397 million to implement the Tax Cuts & Jobs Act over 
the next 2 fiscal years.
    Now this request includes $159 million for the Office of 
Terrorism and Financial Intelligence. And this is a $36 million 
increase from last year. This office has the dual purpose of 
safeguarding our financial system against illicit use and 
protecting our citizens from national security threats. And 
today, there is no problem more urgent than the serious threat 
posed by North Korea.
    The Treasury's budget is proposing $15 million in 2019 to 
isolate North Korea's regime, in addition to the supplemental 
request of $15.5 million for 2018. Now, this funding will allow 
Treasury to hire additional intelligence analysts and maximize 
economic pressure against North Korea and its enablers, so we 
will look forward to hearing more about that as you give your 
testimony later.
    The Secretary's budget today also proposes $17.5 million to 
support a terrorism financing targeting center in Saudi Arabia, 
which is a collaboration with the six Gulf Cooperation Council 
countries, and counters the financing of terrorism. This 
funding is in addition to the $9.5 million request in this 
year's supplemental.
    Now, I am curious to learn how Treasury plans to use this 
funding and carry out these initiatives, and I know you have a 
plan for that, and we would like to hear that today. Another 
important topic to me and this administration is cybersecurity. 
Your budget includes $25 million for Treasury wide 
cybersecurity investments. This account was established in our 
most recent government funding bill to strengthen Treasury's 
cybersecurity posture, and mitigate threats to the U.S. 
financial infrastructure. Cybersecurity is of critical 
importance to our national security, and I hope to hear from 
you today, Mr. Secretary, on how the Treasury is going to use 
these resources that were recently provided to protect against 
and to respond quickly to some of the cyber threats that you 
see and we face as a Nation.
    But before wrapping up my opening remarks here, I want to 
take a moment to commend the Senate Banking Committee and their 
chairman, Mike Crapo, for his bipartisan efforts to move the 
Economic Growth Regulatory Relief and Consumer Protection Act, 
which is a major regulatory reform bill.
    And as you know, our Financial Services Appropriations bill 
last year included many of these similar provisions that the 
Senate is now moving through their body.
    So I am curious to hear your thoughts on the Senate package 
and how that compares to what we have passed as a committee, as 
well, and for your thoughts on its potential for a final 
passage, and should we include some of those provisions in our 
2018 final bill here that we are working through the House.
    So, Secretary Mnuchin, thank you again. Thank you for your 
good work over the last year. Thank you for joining us today 
and taking time to share with us about your budget request, and 
we will all look forward to hearing from your testimony in a 
moment. And now, let me turn to my ranking member here, Mr. 
Quigley, from Illinois, for any remarks he may have.
    Mr. Quigley. Thank you, Mr. Chairman. I look forward to 
working with you over the upcoming fiscal year 2019 
appropriations season, and anticipate additional spirited 
discussions as we begin our hearing. Also, I would like to 
welcome the Treasury Secretary back to our committee. As I have 
said in the past, the vital role that the Treasury Department 
plays in both the domestic and global economy cannot be 
overstated. Not only do you and your Department oversee the 
Federal Government's ability to collect trillions in revenue 
and finance government operations, but you are also charged 
with investigating and protecting our financial system from the 
illicit and criminal activities, as well as carrying out 
sanctions used to deter hostile actions from foreign actors.
    But again, this year, the Treasury budget request before us 
would slash various programs that will help us--will make us 
less effective, less efficient and more vulnerable to outside 
risk. After almost a decade of cuts nearing $1 billion, leading 
to a loss of more than 17,000 employees, the IRS would suffer a 
$100 million reduction in this request. In order to meet this 
new funding level, the IRS would need to reduce staffing 
further by 6,000. These cutbacks would come from critical areas 
such as taxpayer services enforcement.
    It is hard to imagine why this administration would want to 
weaken the IRS and give taxpayers less resources right after 
passing a complex tax bill. After strong bipartisan support 
from Congress, I was also deeply troubled by the 
administration's refusal to back off its request to eliminate 
the Community Development Financial Institution Fund.
    CDFI plays a vital role in spurring both economic growth 
and revitalization in our most underserved and neglected 
communities. There are numerous other cuts to the Department 
that are harmful as well, including questionable reductions to 
cybersecurity enhancement at a time when hacking and identity 
theft are at an all-time high, and a premature 57 percent cut 
to the Special Inspector General for TARP, which is still 
charged with auditing the $38 billion in open TARP programs 
that will last until 2023.
    But I also want to quickly highlight one area, in 
particular, that I find concerning. Under the Terrorism From 
Financial Intelligence Program only four additional employees 
are budgeted for Russia-related sanction activities. That 
compares to 69 additional employees budgeted for North Korean 
activities. While I strongly agree that we must take seriously 
the North Korean threat to our national security, and provide 
TFI with the necessary tools to counter North Korean 
aggression, when placed side by side with a request for Russian 
activities, the obvious lack of urgency is quite stark.
    Taken together with other actions, or lack thereof, from 
the Treasury Department on the Russian threat, it shows an 
administration that does not prioritize the security of our 
elections, or punishing those who wish to harm our democracy. I 
look forward to discussing these and other issues with you 
today. Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Quigley, and now I would like to 
take the opportunity to recognize the chairman of the full 
committee, Mr. Frelinghuysen, with any opening remarks, and 
thank you for your great service. This may be your last time 
visiting with Mr. Mnuchin in a committee hearing.
    The Chairman. Perhaps in a hearing, but perhaps in another 
venue, as well. Thank you, Mr. Chairman, for the time. I also 
want to thank Secretary Mnuchin for appearing before your 
committee. Again, we look forward to your testimony in hearing 
your frank and candid views on a wide number of issues.
    As I say at every hearing, the power of the purse lies in 
this building. It is the constitutional duty of Congress to 
make spending decisions on the dollars you collect on behalf of 
the people we represent at home. We try to do our best in that 
regard. We intend to adequately fund important programs, 
including yours, while working to reduce and eliminate waste 
and duplication. With these priorities in mind, the committee 
and the full committee and the full House of Representatives 
passed the Fiscal Year 2018 Financial Services and General 
Government Appropriations bill last September. We continue to 
work with the Senate, our Senate colleagues to finish those 
bills, and to send a bill to the President for his signature.
    And I look forward, while she is not here, to continuing my 
work with our ranking member, Mrs. Lowey, and certainly with 
Mr. Quigley, to rapidly move the fiscal year 2019 
Appropriations bill forward, as well.
    I have long held, and I believe it is even more important 
now than ever before, we cannot take a step back from our 
responsibilities on the world stage. Like the chairman, I was 
pleased to read in your request a proposed increase in funding 
for the Office of Terrorism and Financial Intelligence and 
their activities to protect the U.S. and international 
financial systems, along with countering networks that support 
terrorists and rogue regimes.
    As we face increased threats from North Korea, Iran, and 
Russia, it is imperative we have the tools to respond to their 
aggression with maximum economic pressure. As you well know, 
Mr. Secretary, the United States and our allies around the 
globe are facing constant pressure from China and its expanding 
sphere of influence. While I note your Department's recent 
actions against a Chinese bank facilitating North Korean money 
laundering and sanctions evasion, I would like to hear, and I 
think all of us would this morning, how the Department is 
positioned to respond to China's every attempt to subvert and 
weaken our financial system.
    I have been doing some travelling lately, and have 
familiarized myself with the One Belt, One Road. It is not only 
a physical development that should alarm us, but they are also 
snagging a lot of different countries and putting them in a 
position which makes them beholden to the Chinese leadership, 
and I think that should be of concern to us. Of course, as a 
debtor nation, we should be mindful that a lot of those nations 
in Southeast Asia and around the world now find themselves in 
debt to the Chinese, and that debt is a political debt as well 
as a financial debt. But we look forward to hearing your 
testimony and thank you for the good work you have been doing 
on behalf of our Nation. Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Chairman, and thanks for your 
leadership in getting this bill and all 11 others through the 
House last year. And hearing your call, we are glad to have 
with us the ranking member of the full committee Mrs. Lowey 
with us, and I recognize you for any opening remarks you may 
have.
    Mrs. Lowey. Thank you, Mr. Chairman. I would like to thank 
Chairman Graves and Ranking Member Quigley for holding this 
hearing, and Secretary Mnuchin, welcome. Thank you for being 
here this morning.
    Mr. Secretary, your fiscal year 2019 budget request, as you 
know, I am sure you know, would harm taxpayers by slashing IRS 
funding by $100 million, and stall Federal investments in 
economic development by eliminating all discretionary grant 
programs in the Community Development Financial Institutions 
Fund.
    Under your budget, the IRS would not have enough manpower 
to catch bad actors, ranging from those who cheat on their 
taxes to those who perpetuate identity theft scams that prey on 
the elderly and nonnative English speaking populations. It is 
not just enforcement that we need to be concerned about, it is 
also taxpayer services.
    In her 2017 annual report to Congress, taxpayer advocate 
Nina Olson identified the IRS limited telephone service as one 
of the most serious problems facing taxpayers. She wrote, 
``Because of the IRS' archaic telephone technology and 
operations, taxpayers face long wait times with the worry that 
the IRS's telephone assisters will not be able to answer their 
questions if they are able to get through,'' yet your budget 
cuts the IRS by $100 million.
    This is all the more important as the Republican tax scam, 
which was rushed into law last year that has created a great 
deal of confusion, taxpayers are turning to the IRS for 
clarity, and just not getting it. This has been a particular 
issue in high cost-of-living areas, like New York. When you 
testified before this committee last year, I made clear how 
unwelcome any reductions to the State and local tax deductions 
would be in tax reform. Less than a year later, a deduction 
that 45 percent of my constituents take at an average of 
$26,000 has been slashed beyond recognition. I am sure you are 
aware of that. I think you are still a New Yorker, so I am sure 
you are aware of it, and I am sure you hear this from your 
friends and neighbors.
    The impact of this scam is so disastrous that I have called 
on the IRS to accept prepayments of 2018 State and local taxes 
that many New Yorkers made in 2017. At least 17,000 taxpayers 
paid some portion of their 2018 taxes in advance at an 
estimated $51 million. I hope that you and the IRS will at 
least give this break to families that will be hurt by the new 
tax policy for years to come. But quite frankly, I am concerned 
that your proposed budget cuts will make it harder for the IRS 
to assist my constituents.
    Let me be clear, capping the SALT deduction at $10,000 
targets residents of high cost States, like New York and 
California, which you know all too well. In 2015 alone, New 
York sent $48 billion more in taxes than it received. Senator 
Moynihan, the late Senator Moynihan, stressed that over and 
over again. Simply put, the new tax law is a scam that unfairly 
takes money from the pockets of hard-working families living in 
States that send more money to the Federal Government than we 
get back in Federal investment.
    One bright spot of your budget is the increase for the 
Office of Terrorism and Financial Intelligence of $36 million. 
This is an essential number, and an essential service, and I 
look forward to working with you. This is essential to 
combating terrorist financing, and other national security 
threats, and I am really pleased it is included.
    Mr. Secretary, I trust that you are aware of just how 
influential your position is, and I am disappointed by some of 
the distractions surrounding your tenure. It is my hope that 
going forward, you will respect the taxpayers I represent in 
New York by acting as a good steward of their dollars, both in 
policies you implement, and your actual use of them. I look 
forward to a productive discussion this afternoon, and to 
working to serve the best interests of the American taxpayer. 
Thank you for appearing before us.
    Mr. Graves. Thank you, Mrs. Lowey. Mr. Secretary, thanks 
again for joining us, and now we welcome any opening statement 
you may have, and as you can imagine there will be a few 
questions following that from each of the members here, but 
thank you again, and we look forward to hearing from you.
    Secretary Mnuchin. Good. Thank you very much. Chairman 
Graves, Ranking Member Quigley, and members of this 
subcommittee, it is good to be here with you today to discuss 
the President's budget and the priorities for the Treasury 
Department. Today, I would like to highlight the 
administration's priorities of protecting America's financial 
system and national security in implementing the historic Tax 
Cuts & Jobs Act.
    The President's 2019 budget request increased resources for 
the Office of Terrorism and Financial Intelligence and the 
Financial Crimes Enforcement Network. This will be used to 
economically isolate rogue regimes in North Korea and fund the 
new terrorist financing targeting center in Saudi Arabia.
    It will allow us to implement the Countering America's 
Adversaries Through Sanctions Act, including funding for our 
Russia and Iran programs, and counter illicit financial 
networks. We are aggressively targeting terrorist 
organizations, transnational crime organizations, proliferators 
of weapons of mass destruction, and other threats.
    As the importance of our economic tools continue to 
escalate, we need additional funding to enhance the 
administration's efforts and implement congressional 
priorities. This budget also provides for Treasury-wide 
cybersecurity protection. As I previously noted before this 
subcommittee, protecting both Treasury and the financial system 
from cyber attacks is critical for our Nation's financial 
stability. These attacks not only have the potential to affect 
financial markets and the broader economy, they implicate our 
national security as well.
    In particular, I want to highlight this Cybersecurity 
Enhancement Account. This initiative makes proactive and 
strategic investments in enterprise-wide cybersecurity 
capabilities. These capabilities will ensure the Treasury is 
better prepared to defend against cyber attacks, and respond 
appropriately when such attacks occur.
    I would also like to highlight two of the administration's 
priorities for the 2018 Appropriations bill. The Tax Cut & Jobs 
Act included hundreds of provisions that will provide tax cuts 
for middle income families and make American business more 
competitive. Implementing the tax law will require a great deal 
of work in 2018 and 2019. Accordingly, the IRS will need $397 
million in order to carry out this critical mandate. The 
administration is also requesting $25 million above the 
President's 2018 budget for TFI to fund the Terrorist Financing 
Targeting Center and to immediately deploy additional resources 
to counter posed threats by North Korea.
    Mr. Quigley, let me just comment on one of the things that 
you raised in your opening statement, which was the allocation 
between Russia and North Korea money in the request. Let me 
acknowledge that I was very, very involved in the top line 
request for the money. I always think of this as we have the 
ability to move these resources around, so I just want to 
comment that the allocation that is in the proposed budget is 
an oversight; it does not reflect my current thinking of the 
resources we would put in towards Russia, and at the time that 
this was raised to me, we had already printed this, so I want 
to acknowledge what you have said.
    The policies in the President's budget will foster economic 
growth, set our country on a sound fiscal path in the long-
term, and carry out the administration's commitment to 
protecting national security of the United States.
    Thank you very much.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Graves. Well, thank you, Mr. Secretary, and if you 
could, for a moment, just, I am going to just ask one or two 
questions as it relates to tax reform and the positive impacts 
that you see. We have heard today that there is a lot of 
concern about the impacts on the IRS. Could you address the 
impacts of tax reform on the average American and small 
businesses, and the positive impacts that you have noticed so 
far and what you expect to see in the days ahead?
    Secretary Mnuchin. Well, as you know, we are early in the 
process of implementing this, but I think we have been very 
pleased with the reaction so far. Our first priority was to 
make sure that the withholding tables were updated to reflect 
many middle class Americans getting tax cuts so that they saw 
that in their paychecks in February.
    We have also now released a withholding tax calculator to 
allow taxpayers to actually check the calculations themselves. 
We are also very pleased by close to 400 companies that have 
announced one-time bonuses or raises, so we are very pleased 
with what has gone on so far, but there is a lot of work at the 
IRS to implement this.
    Mr. Graves. As far as the impact on the average American 
family, there have been a lot of numbers thrown around as to 
the average family could expect to see more resources at home 
or in their paycheck as a result of tax reform. What is your 
latest figure that the average family can expect this year as a 
result of the passage and signing of this bill?
    Secretary Mnuchin. Sure. So the average family will see a 
direct reflect of a few thousand dollars, and on top of that, 
we expect over time that wages will increase close to $4,000. 
So it is quite a significant impact.
    Mr. Graves. And then as far as small businesses?
    Secretary Mnuchin. Small businesses now have the lowest tax 
rates since the 1930s. In particular, the ability for them to 
automatically expense capital investment we are already seeing 
the impact on that in the growth in that sector.
    Mr. Graves. That is great. Thank you. Thank you for your 
work on that. And now I would like to turn to Mr. Quigley for 
any questions he may have.
    Mr. Quigley. Thank you, Mr. Chairman. Mr. Secretary, last 
August we passed a pretty strong law in response to the Russian 
interference in our elections. This administration is refusing 
to follow through on its implementation, claiming the passage 
of the law itself is enough to deter businesses from dealing 
with Russia. Probably not. Regardless of how the President 
personally feels about the sanctions, or the fight he put up 
toward its passage, he signed them into law, and is obligated 
to act.
    By doing nothing, the President is effectively telling the 
world that there are no consequences for attacking our 
democratic process. I am a member of the Intel Committee as 
well, and I was there when Mr. Comey said ``the Russians will 
be back.'' At this point we are not prepared, and we are 
sending a message to them that it was OK. So the only piece of 
the sanctions bill that is being completed is, frankly, a 
laughable report on Russian oligarchs not nearly enough.
    So will this administration fully implement the Russian 
sanctions mandated by Congress?
    Secretary Mnuchin. Mr. Quigley, as I have testified before, 
I fully assure you that we will implement them. Last week, I 
gave the Senate a classified briefing on the report and where 
we are on sanctions. I would be more than happy to meet with 
members of the House to also do a classified briefing. There is 
an enormous amount of work that has gone into the report, the 
classified version with the intel community. As I have said, I 
expect, in the next several weeks, we will be moving forward 
with sanctions on Russia as a result of the act, so I can 
assure you that both in my discussions with the President, he 
is fully supportive of the work we are doing, and we have a 
large team working on it as we speak.
    Mr. Quigley. So the sanctions from the entire bill will be 
enforced?
    Secretary Mnuchin. Absolutely.
    Mr. Quigley. So is this, in your mind, contra to the 
President saying that we don't need to do this? I mean, I read 
you the quote. Has he changed his mind?
    Secretary Mnuchin. Again, I can tell you in recent 
conversations with the President, he is fully supportive of the 
work we are doing. As I said, there will be sanctions that come 
out. The Treasury Department is responsible for the sanctions 
on the political figures and the oligarchs. We are working with 
the State Department on the sanctions as it relates to other 
areas of industry.
    Mr. Quigley. Understand our confusion. The President at 
different times has said this is a hoax. It may not have been 
the Russians, it could have been a big guy in Jersey that did 
this. He has also said we are not going to enforce this. So, 
now, instead of the President announcing this, we have you, in 
a classified setting, telling people, Oh, we are, and today 
announcing that we are. So you can understand why we would 
question this and wonder. And why does it have to be a 
classified setting as to the fact that there are going to be 
sanctions, and why can't the President make that announcement?
    Secretary Mnuchin. Again, I have said in multiple 
unclassified settings, including today, including at the White 
House press room that sanctions are coming. Again, I am happy 
to explain the process. There is an enormous amount of work 
that goes into building each one of these packages from intel 
work to legal work. As I have said, the President is completely 
supportive of us moving forward with this.
    Mr. Quigley. You can also understand our concern when the 
numbers I brought out that you--and I appreciate your 
addressing them saying that the disparate number of resources 
based on targeted toward North Korea versus Iran, I took that 
to mean that you were going to look at that and make it right, 
for lack of a better word.
    Secretary Mnuchin. I added that into my opening statement 
because I wanted to acknowledge that that does not reflect my 
view of the relative resources, and as I have said, I always 
look at--we have a number of resources in TFI, and we actively 
move them around. So it is the same people that work on Russia, 
Venezuela, North Korea, and Iran. We constantly reprioritize, 
so the relative number that was put into the budget does not 
reflect my current thinking of the allocation.
    Mr. Quigley. And at some point, can you tell us the 
resources that you are going to spend on North Korea, Iran, 
Russia, Venezuela and all the other countries that we are 
concerned about? And Russia, in previous sanctions, as it 
relates to Ukraine?
    Secretary Mnuchin. Again, we had a very large amount of 
sanctions on Russia that we did last year that we did under our 
Ukrainian authorities. We will continue to use those 
authorities, as well as the new authorities, and, again, I can 
assure you the reason why we want more resources at TFI is 
because we firmly believe, and the President believes, that 
sanctions do work. We have seen this in North Korea. There is 
no question in my mind, a big part of the reason why they are 
coming to the table now and talking about negotiating is 
because our sanctions have had significant economic impact on 
their economy.
    Mr. Quigley. And I appreciate this dialogue, and, Mr. 
Chairman, I look forward to perhaps having a discussion where 
we can go into more details, because I went to Cyprus for a 
reason. There is a reason the Russians are laundering money 
there, and if folks can launder money and get around our futile 
efforts and lack of resources to look at it, it is not just 
what the Russians did, it is the real threat from Iran, from 
North Korea, as you know, counterterrorism because if they can 
get around sanctions by money laundering, we are much, much 
less safe. Thank you, Mr. Chairman.
    Secretary Mnuchin. I agree with you, Mr. Quigley.
    Mr. Graves. Mr. Yoder, and then Mr. Cartwright.
    Mr. Yoder. Thank you, Mr. Chairman. Mr. Secretary, welcome 
to the committee. I want to associate my remarks with those of 
the chairman related to the value of tax reform and its impact 
on constituents in our districts. Over the last few weeks, like 
many of my colleagues, I have been going around my community 
meeting with small businesses, talking to workers from, you 
know, blue-collar workers and checkout clerks at places like 
Home Depot or Walmart, you know, real Americans that are 
working hourly jobs who are talking about the bonuses they 
received, or the greater withholding in their--less withholding 
in their paycheck that they are getting a bigger paycheck, I 
guess.
    We have also seen the bonuses, salary boosts, benefits like 
family leave that some companies are adding, so, you know, 
workers are really benefiting from the tax reform. And I think 
they are really surprised that Washington actually did 
something to help them. They are used to Washington putting a 
greater burden on them, a greater regulation, a higher tax, and 
so the fact that we rolled that back and it really impacted a 
lot of middle class working class families, I think, has been a 
surprise, particularly with the media disinformation that 
occurred throughout all of that, so thank you for your work to 
implement that. My own district we think about the third 
district of Kansas, a typical family will be receiving a $2,728 
tax cut this year.
    Now the President's budget request projects around 3 
percent economic growth per year over the next decade. The 
goal, the Tax Cuts & Jobs Act, along with other elements of our 
progrowth agenda was to help to get to that number.
    What does that 3 percent do to the economy? What does it do 
to unemployment and job growth? How does it help families at 
home? And are we on track to hit that and are there other 
policy areas that Congress needs to address to get to 3 percent 
or more growth per year?
    Secretary Mnuchin. Well, thank you. We do think we are on 
track to meet that. We have had two quarters of over 3 percent 
growth. There is still some work to get to the long-term 
impact, because we want 3 percent or higher sustained economic 
growth. That will add trillions of dollars to the government, 
and tens of trillions of dollars to the economy. It is a 
combination of tax reform, regulatory relief, and trade 
negotiations, so that is a major focus of ours. As I said, we 
are pleased with the initial results.
    Mr. Yoder. Thank you, and I appreciate you bringing up 
trade, because I would like to ask you a little bit about the 
tariffs discussion that is happening and the recent policies 
that the administration has announced. You know, in Kansas, 
many of my constituents, many of our businesses rely on trade 
and exports. Over 400,000 jobs in Kansas are supported by 
trade, $17 billion in annual exports to help boost our economy. 
And many of my constituents, many of our local businesses, many 
of our farmers believe that tariffs and the potential trade 
wars that could result could inevitably create big challenges 
for Kansas workers and farmers.
    Tariffs on steel and aluminum, for example, are going to 
negatively impact Kansans who work in manufacturing. I have got 
a GM plant in my district with 2,200 people employed, and 
retaliation from our trading partners will also end up hurting 
Kansas farmers and ranchers who are already struggling as they 
try to export wheat, beef, and other agricultural products 
around the world.
    I am concerned that after everything we have done to help 
our constituents through tax reform, that tariffs that the 
President recently announced are going to undermine some of 
these recent gains. Do you share any of these concerns about 
the impact of these tariffs, and do you believe that these 
tariffs will make American businesses more competitive on the 
global market?
    Secretary Mnuchin. So first let me just say, I have 
participated, and we meet on a weekly basis on trade on our 
economic team. These things are discussed very carefully, and 
we are trying to balance different issues. The President is 
personally involved in these decisions. I think on the steel 
and aluminum tariffs, we are trying to balance protecting these 
industries, which are very important, with making sure that we 
don't do undue harm to the economy.
    So as the President just announced, Canada is a very 
significant partner that buys steel and sells steel. To the 
extent that we are successful in renegotiating NAFTA, those 
tariffs will not apply to Mexico and Canada, but we look 
forward to the President releasing the specific details and 
working with other people. We are not looking to get into trade 
wars. We are looking to make sure that U.S. companies can 
compete fairly around the world.
    Mr. Yoder. Well, and that brings to mind the separate trade 
dispute over Chinese washing machines and solar panels. We are 
already seeing retaliation on our sorghum producers in Kansas. 
Kansas sorghum, our farmers produce over half of the U.S.'s 
sorghum supply, so this Chinese retaliatory action poses a 
direct threat to their livelihood at a time when commodity 
prices are already very low.
    So this indicates to me, in a very real-world example, that 
the tariffs on those washing machines and solar panels actually 
led to a retaliation at the detriment of American farmers, 
constituents of the President and mine. Is the President aware, 
and are you aware, Mr. Secretary, that these retaliatory 
measures are already occurring, and is he aware of the 
potential for retaliatory impact to Kansas farmers, should 
other countries retaliate because of the new tariffs on steel 
and aluminum?
    Secretary Mnuchin. Well, as it has been reported in the 
press, I and Director Cohn, Ambassador Lighthizer met with Liu 
He last week, who is now our primary counterpart and an adviser 
to President Xi on trade issues. We had very direct 
discussions. The Chinese understand and agree that the 
objective is to lower the trade deficit. This is something that 
the President is very focused on. I think the good news is that 
President Xi and President Trump have a very close relationship 
and communicate regularly on these issues, but President Trump 
has been very clear. We want to make sure that U.S. companies 
have the same ability to do business in China as Chinese 
companies have here.
    Mr. Yoder. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary.
    Mr. Graves. Mr. Cartwright, and then Mr. Stewart.
    Mr. Cartwright. Thank you, Mr. Chairman. Thank you for 
being with us, Mr. Secretary. I want to follow up the 
discussion on trade a little bit. You have indicated recently 
the administration is considering reentering negotiations on 
the Trans-Pacific Partnership, and I do have a lot of 
constituents in my district in northeastern Pennsylvania who 
were seriously harmed from the impact of trade agreements like 
NAFTA. If the administration plans to go back into TPP talks, 
what specifically are you going to do to ensure that American 
workers come out as winners from any new trade pact? 
Specifically, will you fight to protect improved labor and 
environmental standards from the other trading countries with 
actual enforcement mechanisms?
    Secretary Mnuchin. So let me just comment that, you know, 
our priority at the moment is to renegotiate NAFTA and to focus 
on our trade relationship with China and have fair and balanced 
trade with China.
    When the President was at Davos, he did say that he would 
consider going back into TPP if we could renegotiate the deal, 
and I think that is something that I have had some discussions 
with my counterpart. I would say we are not in active 
negotiations with that at the moment, nor is that the priority. 
But again, I think it is a willingness on the President's part 
to say we want the best deals for American companies to be 
treated fairly. If we can do it bilaterally, that is our 
preference. If we can enter multilateral agreements under the 
right terms, we will consider that as well.
    Mr. Cartwright. All right. Now I want to shift gears. You 
recently spoke at UCLA regarding a number of issues, including 
the White House's economic agenda, and the obligation that you 
personally feel toward helping working families. The 
administration's tax plan that you have been talking about, has 
been touted as an example of that. As we are seeing that tax 
plan take effect, and you talked about it earlier, it appears 
that only a small percentage of the $150 billion tax windfall 
is going to workers, while the majority is going to 
shareholders. In fact, you mentioned that--you cited 400 
companies that have announced one-time bonuses or raises. Gosh, 
if we only include traditional C corporations, there are 1.7 
million of them in the United States. My math is that means 400 
divided by 1.7 million is three-tenths of 1 percent, meaning 
99.7 percent of traditional C corporations are not on your list 
of 400 companies announcing one-time bonuses or raises.
    According to a report recently by JUST Capital, only 6 
percent of the $150 billion tax windfall ends up in the pockets 
of employees. Sixty percent ends up in shareholder dividends. 
Now, 80 percent of stock value in this country is owned by the 
wealthiest 10 percent of Americans. In November of 2016, you 
pledged that any tax plan would not give an absolute tax cut to 
the wealthiest Americans. That has subsequently been dubbed the 
``Mnuchin Rule.'' I think the last time you testified here, you 
said, Well, that is not really a rule. But here is the 
question: As the Secretary of the Treasury, what are you going 
to do in the future to make sure the working families of 
America get a fair shake?
    Secretary Mnuchin. Well, thank you, and I think you raised 
some very good points. I do not agree with necessarily the 
numbers that you have referenced. We believe that the majority 
of the benefits in the tax bill will go to the middle class, 
and will go to companies that will pass on those benefits to 
the middle class. So our primary objective on the tax bill was 
make U.S. businesses competitive. We have had a worldwide 
system that if you deferred the tax, left trillions of dollars 
offshore, we wanted to fix that. We wanted to have a 
competitive tax rate for both big business and small business, 
which we did, and we believe that those will be passed on to 
workers. So we cited the number, and I realize there is 
different people who cite different things. We believe that it 
will be over 70 percent of the tax burden is borne by the 
worker, and that will be passed on.
    Just briefly I just want to clarify this so, yes, I did say 
originally, it was the President's objective that there was not 
going to be a reduction on the top end. That was never a 
pledge. That was our objective, OK. I was not the one who named 
the Mnuchin Rule it was Senator Wyden who dubbed it the 
``Mnuchin Rule,'' and we worked very closely with the House and 
Senate as we designed this, to get what we thought was a 
competitive tax bill for our businesses and for the middle 
class.
    Mr. Cartwright. Last question, Secretary Mnuchin. 
Obviously, the expected growth from the tax cut is what is 
fueling a lot of what the benefits you are talking about. That 
is what the hope is. My question is, aren't you concerned, or 
are you concerned, about sinking our Nation $1.5 trillion 
deeper into debt, what effect that will have on the national 
growth rate?
    Secretary Mnuchin. Sure. Well, let me just comment. I am 
concerned about the size of the debt. The Nation's debt has 
gone from $10 trillion to $20 trillion in the previous 8 years. 
What I have said before I will repeat. I am comfortable--and, 
again, our assumptions I believe will be correct, but we will 
see--that the tax cuts will pay for themselves. Having said 
that, there are other spending issues. This year it was a big 
priority of the President to get additional funding for the 
military. As a result of getting that passed, there is big 
increases in nonmilitary spending, but I do share your concerns 
about the size of the debt, and the issue of budgets in the 
future.
    Mr. Cartwright. Thank you, sir. I yield back.
    Mr. Graves. Thank you, Mr. Cartwright. Mr. Stewart, and 
then Mr. Serrano.
    Mr. Stewart. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being with us once again. I am sure you look forward to 
these. You know, I have something I want to talk to you about, 
which is CFIUS. But I want to come back and address some of the 
questions or issues that have been brought up by other members 
of the committee, and elaborate on a few of them if we could. A 
very easy one that I just want to put on the table and allow 
you with clarity to state, and that is, there has been some 
concern over cuts to the IRS budget. Can you assure the 
American people that the IRS will have the manpower that is 
necessary to enforce current law and to collect the taxes that 
are due to the Federal Government?
    Secretary Mnuchin. Sure. Let me just comment. I do not 
always look forward to testifying, but I do look forward to 
coming to this committee because you control important funding 
that we need, so it is always a pleasure to be here.
    Mr. Stewart. We appreciate that.
    Secretary Mnuchin. As it relates to the IRS, I am meeting 
every day with a combined team of the Office of Tax Policy at 
Treasury, and members of the IRS leadership team. It is one of 
my top priorities, making sure we implement the tax plan, which 
impacts literally everything at the IRS from customer service 
to forms to technology. That is why it is so important that we 
get the additional funding for it, and I can just say, look, 
there have been issues at the IRS in the past. We have tried to 
deal with these issues, but the vast majority of the workers at 
the IRS, I think, are incredibly hard working people.
    Mr. Stewart. Mr. Secretary, I want this to be a simple 
answer. Just tell us yes or no, can you enforce the law so we 
collect our taxes?
    Secretary Mnuchin. Yes, we can.
    Mr. Stewart. Thank you. And I just--I want you to say that 
with clarity, because there are some that will say we are 
unable to, and I think that is nonsense. Of course we can. You 
know, I love people to talk about tax reform, and the longer 
our Democratic colleagues talk about it, the better it is for 
us I think, because the American people aren't stupid. And when 
80 or 90 percent of them look at their--look at their earnings, 
and actually see that they are making more money now than they 
were a year ago and when they see the economic growth--again, 
you can call it a scam, and I love Mrs. Lowey, she is one of my 
favorite people in Congress. I wish she wouldn't have left 
because I would like to say that to her, but you can call it a 
scam, but the American people aren't dumb, and they can see 
whether this is benefiting them or whether it is not.
    And the fact is, is that 80 or 90 percent of them it is, 
but I think your point about--you know, we have two elements to 
this: One is that they are getting a tax refund, they are 
getting more money, they are able to keep more of their money, 
but I think the more important thing is what you said in your 
opening statement, and that is that the economy is growing. You 
said it is something like $4,000 for an average family. Can 
you, very quickly, help connect the dots for members of this 
committee and other Americans why this tax reform leads to 
economic growth? And then I am going ask my second question, 
because I want you to try and divide this up in the 2 minutes 
we have left. I am concerned about CFIUS. As a member of the 
Intel Committee, we have very real concerns about how that 
plays out from an intelligence and from a security concern. Are 
you willing to work with us to support some reforms in the 
CFIUS process that would address some of those national 
security concerns that we have?
    Secretary Mnuchin. Yes, so on the first part, you know, we 
fundamentally believe we can get to 3 percent economic growth. 
The single most important issue is to create growth in the 
economy. The tax bill is the center stage on that and that 
critical to the growth.
    In regards to CFIUS, I share your concerns with the current 
CFIUS. There is limitations. We have been working with the 
Senate on the FIRRMA bill. We look forward to working with you, 
as well. We need additional resources for CFIUS with new 
controls, expanded controls. So that is a top priority for us 
working with Congress.
    Mr. Stewart. And in the minute we have left, can we 
balance--and tell me, and I don't know if you can address it 
here, maybe this isn't is the right forum, but can we balance 
our strategic economic concerns, and that is, when we partner 
and when we have the free flow of information and capital 
across borders, et cetera, that is generally a good thing, but 
we have to do it knowledgeably and recognizing that we have to 
protect our security, and also protect, I think, strategically, 
our economic interests. Can we do both of those, and what 
reforms would you suggest would help us to do that regarding 
CFIUS?
    Secretary Mnuchin. I believe we can, and I look forward to 
working with you and your staff on the specific reforms and 
some of the shortfalls.
    Mr. Stewart. OK. Thank you, Mr. Secretary. Thank you, and 
Mr. Chairman, I yield back.
    Mr. Graves. Thank you, Mr. Stewart. Mr. Serrano, and then 
Mr. Young.
    Mr. Serrano. Thank you, Mr. Chairman. Secretary, thank you 
for being here. As you know, Puerto Rico has gone through an 
unprecedented humanitarian crisis because of two Category 4 
hurricanes that struck the island 6 months ago. As a result, 
Puerto Rico has lost tax revenues and even had to lend $300 
million to PREPA, the island's electric utility. The Governor 
of Puerto Rico has informed us, that the Treasury Department 
has yet to approve the community disaster loan, which was 
approved by Congress last October, and that Treasury is only 
offering $2.06 billion out of a possible $4.7 billion, so I 
have a couple of questions. My first one is, mindful that the 
78 municipalities are submitting separate CDL applications, why 
is Treasury only offering a fraction of the amount approved by 
Congress? And why has Treasury taken so long in approving the 
CDL loan?
    Secretary Mnuchin. Well, thank you for asking that 
question, and I share your concerns of obviously the impact 
that this has had on the economy there.
    So first of all, let me just clear up certain issues. 
Within the overall bill, there was money that can be allocated 
to Puerto Rico. Not the entire bill was allocated to Puerto 
Rico, so that is number one. There are restrictions as to what 
can be allocated.
    Number two, which has been misreported in the press, we 
have given the Governor and the committee a term sheet, so we 
are prepared to move forward with documents. We have been doing 
that. We have documents in front of them. They are asking for 
certain things, but we stand ready to lend them the money. We 
are also monitoring their cash balances on a weekly basis, and 
as part of my commitment to this I am actually going to stop in 
Puerto Rico on the way back from the G20 Finance Ministers 
Meeting to see the damage and make sure that the money is 
getting there quickly. So we are working with them, and I can 
assure you we have a team at Treasury that stands ready to lend 
them money right away. We are not holding this up.
    Mr. Serrano. Now, what is the main holdup, though? I mean, 
it is being held up. You are saying you are not holding it up.
    Secretary Mnuchin. Again, I would be happy to sit down with 
your staff and talk about this privately. There are things that 
they--they are asking for more, but I do not want to go into 
what the negotiation here is in this setting, but I can tell 
you there are documents that are in front of them that we are 
ready to lend, A; and, B, we are monitoring their cash flows to 
make sure that they have the necessary funds.
    Mr. Serrano. Well, I hope we can get that money flowing as 
soon as possible, and feel free to share with us when you wish 
what the problems may be because maybe we can be helpful with 
you.
    Secretary Mnuchin. Thank you.
    Mr. Serrano. And, you know, with the government on the 
island.
    Most CDL loans have historically been forgiven by the 
Federal Government. Why is Treasury more concerned with 
imposing stringent terms on the loan than in forgiving CDL 
debt, something that is very concerning in light of Puerto 
Rico's precarious financial situation?
    Secretary Mnuchin. We are not making any decisions today 
whether they will be forgiven or they will not be forgiven. 
What we are focused on is, as I said, making sure that they 
have access to the funds, and we are prepared and ready to lend 
to them now.
    Mr. Serrano. So you are prepared to lend to them now, and 
you will make at a later date the decision whether these loans 
will be forgiven or not? I mean, this is historically something 
that has been done. This is not--wouldn't be something that you 
would be called out for in the press or anywhere for doing. It 
has been done before often.
    Secretary Mnuchin. Again, we are happy to follow up with 
you and your staff and talk through the specifics of that and 
get your views.
    Mr. Serrano. OK. There seems to be a lot of, I wouldn't 
call it secrecy, but a lot of things you can't say in public 
about the dealings of Treasury with Puerto Rico. I hope that 
that secrecy or inability to say these things in public does 
not continue to hold up the funds.
    Secretary Mnuchin. There is no secrecy. What I am being 
very clear on, and let me be perfectly clear, we have documents 
in front of them that we are prepared to lend. I think it would 
be inappropriate in this forum, there are changes that they 
want to these documents. I think it would be inappropriate for 
me to go through that level of detail. There are no secrets. 
Again, we are ready to fund to them now. There are things that 
they are asking for that is holding this up. But let me assure 
you, we are monitoring their cash balances, and as I have said 
to you as function of the importance of this I am actually 
stopping in Puerto Rico on the way back from my trip to the 
G20.
    Mr. Serrano. So in 2 seconds, the headline for today's 
meeting, and my question is, are you ready to lend now?
    Secretary Mnuchin. Absolutely. Money is ready.
    Mr. Serrano. Thank you.
    Mr. Graves. Thank you, Mr. Serrano. Mr. Young has stepped 
out for a moment, so we will go to Mr. Moolenaar, and then Mr. 
Amodei.
    Mr. Moolenaar. Thank you, Mr. Chairman, and good morning, 
Mr. Secretary, and thanks for joining us today for your 
testimony. My guest for the State of the Union was a gentleman 
from Clare, Michigan, Mr. Greg Rynearson, and I believe you had 
the chance to meet him before the speech that night. He is a 
former police officer, who, along with eight of his former 
colleagues on the force, saved the local bakery and doughnut 
shop from closing, and now nearly a decade later, they have 
worked hard, grown their business, and it is really an American 
success story.
    They are excited about tax reform. They say it is going to 
help their business. They recently announced plans to open a 
new store in our State. And another company in my district, a 
printing company with two locations, announced bonuses are 
being paid to their employees' retirement accounts. And so all 
of this, as you would agree, is good news: higher wages; 
bonuses; better benefits; helping the hard-working people in 
our State keep more of their hard-earned money, and that is 
always a good thing. I want to compliment you, because Treasury 
turned around very quickly the implementation of the 
withholding rate that passed as part of tax reform, and your 
budget asked for $397 million to help implement this new law.
    And I am wondering, how much of it will go towards 
improving better service for those who need help from the IRS, 
for example, hiring employees to answer phone calls of 
concerned constituents, and I am sure you are already getting 
calls already, but how much of it will go towards improved 
service in that way?
    Secretary Mnuchin. Sure. Thank you. So, first of all, that 
request is a 2-year request, but that is money we need ASAP to 
implement this. A lot of it will go to service, some of it 
directly, where we will hire more people to answer the phones, 
particularly during the peak of tax filing season. A lot of it 
will go to technology that will help interact and everything 
else. It was commented earlier, we have antiquated telephone 
systems. We want to modernize the technology so we can provide 
better customer service. We need to update all the forms to 
reflect the simpler ability to file, so there is--a lot of this 
money will help directly and indirectly. That is a major focus 
of ours.
    Mr. Moolenaar. Thank you. And if I can shift gears a minute 
and talk about the question of sanctions that we have been 
discussing. Your Department is asking for increased funding for 
the implementation of sanctions on hostile nations, including 
Russia, North Korea, and Iran, and I am pleased to hear that 
you are implementing those sanctions and want to encourage you 
to move swiftly and decisively because I agree with you, I do 
think those sanctions in the case of North Korea, as you 
mentioned, are bringing them to the table and have been 
effective.
    Your Department is monitoring financial transactions all 
over the world, and has the incredible task of identifying and 
dismantling threats to our country's financial system, 
including cyber attacks. I am wondering which countries and 
organizations are launching the most attacks on our financial 
system, and what is the cost of these attacks to Americans?
    Secretary Mnuchin. So, again, let me just first comment on 
the sanctions. We just released, 2 weeks ago, the largest 
package of sanctions that we have ever had on North Korea, so 
as you know, North Korea has been our number one priority. We 
are now reallocating a bunch of these resources for Russia 
sanctions, which are going to come out very shortly. On cyber 
and on the banks, again, we are constantly taking in lots of 
information from the banks, big data dumps to look at illicit 
activity.
    In regards to cyber, I am not comfortable mentioning which 
countries specifically, but I am pretty sure you know the 
highlighted ones, and we are very focused on this.
    Mr. Moolenaar. And do you need increased funding to prevent 
these attacks? Is that something we are going to see more of in 
the future?
    Secretary Mnuchin. It is.
    Mr. Moolenaar. OK. And then another question I had is how 
can we improve information sharing with Department of State and 
other agencies to make sure sanctions are imposed effectively? 
It seems that there are a number of departments, agencies 
involved in this process, and what can we do to improve the 
communication there?
    Secretary Mnuchin. I actually think that works very well. I 
would say, first of all, through the NSC, we meet on a regular 
basis, multi times a week we are in communication.
    Any of our sanctions do go through, whether we are doing 
them or not, they do go through what we call an interagency 
clearing process of both getting the Intel declassified and 
then seeking consent of State and others. So I think this 
process is working very well, both through the NSC coordinated 
process as well as direct conversations between myself, 
Secretary Tillerson, and our staff.
    I also have regular meetings with Director Pompeo and other 
members of the National Security/Intel areas, because we could 
not do our work without what they do.
    Mr. Moolenaar. Thank you very much.
    Mr. Graves. Mr. Amodei, then Mr. Young. And then if there 
are additional questions, we will alternate between both sides, 
based on seniority down the dais here.
    Mr. Amodei.
    Mr. Amodei. Thanks, Mr. Chairman.
    Good morning, Mr. Secretary.
    Secretary Mnuchin. Good morning.
    Mr. Amodei. Real quick first, CFPB. I had seen in some of 
your earlier ruminations that, first of all, CFPB. Let's just 
say you were interested in the concept of a five-person board. 
And I know you guys are doing the best you can with Mick 
Mulvaney kind of filling in, but your thoughts changed on going 
to a five-person board for governing that outfit?
    Secretary Mnuchin. No, my thoughts have not changed. I 
think that, one, it should be subject to appropriations. I see 
no reason why that agency should be off balance sheet. And two, 
I do support the concept of a board to oversee it.
    Mr. Amodei. OK, great. Thank you.
    The second thing is a little more pedestrian, but 
nonetheless, and I think we had let your staff know. It is 
like, hey, I don't want to talk to him about this in the 
appropriations hearing, but we are kind of where we were before 
that.
    I had a request from a constituent who is entitled to some 
payments out of the Guam World War II Act, World War II claims 
fund. And so she had contacted our office, because she had been 
pursuing this through Representative Bordallo's office, who had 
sent Treasury Department, 2 months after you were sworn in last 
year, a letter asking about some interpretations. And that 
letter was in April, and she sent it to you and to Interior 
Insular Affairs, and Interior sent her back a response on the 
11th.
    So we contacted your office 2, 3 months ago and said, hey, 
you know, what is the deal on this letter? And we have 
contacted them about three times. And so I am not going to 
spend a lot of time on it. And rather than going through the 
gee whiz and all that other sort of stuff, my request is, can 
you send somebody from your Department under your supervision 
to my office to give us a briefing on this and whatever the 
response is to the letter that Representative Bordallo has been 
waiting for for over a year?
    Secretary Mnuchin. Absolutely. That will happen tomorrow, 
whenever is convenient. It is unacceptable that we have not 
responded to you. I can tell you I have met with them several 
times on this issue. We want to get it resolved. It is a little 
bit of a complicated issue, but it is unacceptable we haven't 
been responsive to you. So we will, whether tomorrow or the 
next day, whenever is convenient for you, we will have people 
come over.
    Mr. Amodei. Thank you. Good morning.
    And I yield back, Mr. Chairman.
    Secretary Mnuchin. Thank you.
    Mr. Graves. Thank you.
    All right. Let's see. Mr. Young, do you have any questions 
for us down there? Then we will start over.
    Mr. Young. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.
    Secretary Mnuchin. Thank you.
    Mr. Young. I was just out in the hallway talking to a 
farmer from Iowa, and he says there is not a day on the farm 
where a farmer doesn't touch steel. The agricultural industry 
and everyday farmer are worried about these tariffs on aluminum 
and steel. How much do you know about the proposed tariffs?
    Secretary Mnuchin. I know a lot about the proposed tariffs. 
I can tell you the President loves farmers and the agricultural 
community.
    Mr. Young. It doesn't seem so with some of the policies 
that are coming out. And there is great concern with folks in 
the heartland and concerns as well with retaliation and what 
that may mean to our economy. We have seen that the Tax Cuts 
and Jobs Act was great. We are really feeling the benefits of 
that. And there is a fear out there that any kind of a 
potential trade war or retaliation could really blunt the 
positive effects with the economy from the Tax Cuts and Jobs 
Act. Can you comment on that? Are you concerned at all with 
that?
    Secretary Mnuchin. Again, I am well aware of the fears of 
trade wars. I can tell you I have had very specific 
conversations with several of my counterparts. We are trying to 
deal with this on a case-by-case basis. The President is very 
involved in this. Again, I look forward to having the details, 
the exact details of this released. We are trying to get it out 
as quickly as we can this week.
    Again, I think when people see this, again, I want to be 
clear that the President does want to make sure we protect the 
steel and aluminum industry. He does understand the potential 
impacts it has on the economy, and I think we have a way of 
managing through this.
    Mr. Young. So when the President's team was going through 
this and deciding whether or not to issue tariffs on aluminum 
and steel, did they meet with the stakeholders out there who 
could potentially be impacted by this? Did they meet with the 
agricultural leaders on this?
    Secretary Mnuchin. I can assure you that the Secretary of 
Agriculture has had significant input into these discussions. I 
can assure you that Director Cohn and myself have received lots 
of feedback on all these issues, and we are balancing the 
various issues.
    Mr. Young. So you are supportive of the President's move on 
the tariffs on aluminum and steel?
    Secretary Mnuchin. I am supportive of them. I am supportive 
of the mechanism as the President has announced, and I look 
forward to him announcing the specific details; that in the 
case of Canada and Mexico, our objective is to have a new 
NAFTA. Once we do that, which I am cautiously optimistic on, 
the tariffs will not apply to them.
    Mr. Young. And regarding NAFTA, I certainly welcome the 
relooking at NAFTA and making sure that it is enforced and 
modernized. I would just urge that the administration not scrap 
NAFTA altogether. That would be devastating to the American 
economy, let alone the agricultural economy. And I thank you 
for being here.
    I yield.
    Mr. Graves. Thank you, Mr. Young.
    Mr. Secretary, I think you have a few more minutes with us. 
We have some remaining questions. I know I have a couple, and 
then we will see if Mr. Quigley and others do.
    You have in the past referred to the Senate bipartisan 
regulatory reform bill as a balanced and thoughtful approach, 
and you have called on both chambers to move that bill through. 
There are many--I guess most of the components of the Senate 
bill, there are similarities with what we passed in the House 
CHOICE Act, of which this committee included basically the 
entirety of the CHOICE Act in our 2018 appropriations bill. And 
as we are wrapping up that final discussion, we are finding 
there are some similarities of a common thread of some of the 
Senate bill that is in our proposal.
    Can you give us a little bit of your thoughts about the 
Senate bill provisions and your prospects for how that may move 
through the Senate, the House, or a conference, and whether or 
not we should include those provisions in our final 2018 
conference bill?
    Secretary Mnuchin. Sure. Well, let me just first say I meet 
with Chairman Hensarling and Chairman Crapo on a regular basis. 
These are very important issues that we address. I am very 
pleased that things are moving forward in the Senate. I think 
this is very important legislation that strikes the right 
balance, particularly as it relates to community banks and 
regional banks and making sure that they can grow.
    One of the big issues we have is that the top eight banks 
are too big. We need to make sure that community and regional 
banks can grow; they know how to lend. And I look forward to 
working with the members of the committee in the House as this 
moves forward.
    Mr. Graves. Are those provisions you would like to see in 
our 2018 conference bill? Because we have currently included 
those provisions and more, and much more. And I think Chairman 
Hensarling and myself and others would like to see a more 
robust package, understanding where the Senate is. But there is 
a thought that maybe some of those should be included in our 
Financial Services appropriations bill as well, including CFPB, 
as you referenced earlier.
    Secretary Mnuchin. Look, you know my views on CFPB. I look 
forward to working with the House and the Senate on these 
issues. I think the most important issue is that we do get a 
bipartisan bill passed, that we need these changes and we need 
it to help the economy and our banks.
    Mr. Graves. OK, thank you.
    And then as it relates to the Terrorism Financing Targeting 
Center, you and I have had some good discussions about that. 
What is the administration's vision for the Center? If you 
could just sort of describe that to us in a little bit more 
detail today.
    Secretary Mnuchin. Sure. Well, this is one of my major 
priorities. I went to Saudi Arabia last summer to launch it. We 
have three buildings there that the Saudis have provided to us. 
We need to make sure we now have the appropriate staffing.
    One of the buildings is designed specifically for us. We 
need to build out our necessary intelligence capabilities. One 
building is a shared building where everybody can come and work 
together. And then another building is for the Gulf countries.
    I have committed to go back every year to make sure that we 
follow through on this. We need to get staff on the ground. The 
idea is to share intelligence and to do joint sanctions, and I 
think these can be very meaningful in our shared goals to stop 
illicit financing and combat terrorism. The money that we will 
spend on this has huge, huge, huge returns in its capabilities.
    Mr. Graves. And with your current request, we will have, I 
guess it is $25 million worth of request. What will the other 
countries be--what would be their involvement or their 
resources that they are including in this?
    Secretary Mnuchin. Again, the Saudis have paid for the 
physical buildings and various aspects there. The other 
countries will be contributing resources of similar amounts. We 
expect all the Gulf states to make a significant commitment to 
this.
    Mr. Graves. That is good. That is something we want to 
hear--that we are not financing this solely ourselves, but we 
have partners.
    Secretary Mnuchin. No, not at all. This is a shared vision.
    Mr. Graves. Thank you, Mr. Secretary.
    Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman.
    Mr. Secretary, I just want to make sure we understand your 
commitment to come back to the committee with the details of 
how you are intending to use resources to enforce the sanctions 
that we spoke of earlier.
    Secretary Mnuchin. Absolutely. We will follow up with you 
on that.
    Mr. Quigley. Thank you.
    We are talking about the tax bill. Let me just throw out a 
few numbers and get your reaction. The independent Joint 
Committee on Taxation estimates that the plan will add $1.5 
trillion to the deficit over the next 10 years. They are saying 
under the best of circumstances, even after accounting for 
economic growth, we are adding a trillion, which pushes back on 
your point that it would, with respect, pay for itself.
    But Goldman Sachs, not exactly a bastion of liberal 
economic thought, concluded that it would add as little as 0.3 
percent to the GDP over the next 2 years and could be slightly 
negative if we trend to the time in 2020 and beyond. The Tax 
Policy Institute--I am sorry, the Tax Policy Center estimates 
that the new tax law will increase GDP by 0.8 percent in 2018, 
but with trends, little effect by the end of the next 10 years.
    So we are talking about a manufactured extraordinary 
addition to the debt crisis with, over time, extraordinarily 
little results to counter that. Your reaction to these pretty 
conservative institutions?
    Secretary Mnuchin. Let me just say I respect different 
people have different views, and the numbers will be clear. I 
think we are beginning to see the numbers, but this is all 
about economic growth.
    Again, the bill scored to a trillion and a half dollars 
static, $500 billion of differences between baseline and 
policy. We look at it as a trillion dollar issue. That is about 
30 basis points of growth is the break even. So we think there 
will be close to 90 basis points of growth, but there is about 
30 or 35 basis points of growth. Although certain things I 
agree with Goldman Sachs on, their research is not one of them.
    Mr. Quigley. I pass this on. Thank you, Mr. Chair.
    Mr. Graves. Thank you.
    I am going to ask a question or two on behalf of my 
colleagues who have stepped out a second.
    On cybersecurity, given a lot of the national security 
threats and implications that we have already discussed in the 
financial sector, a lot of cost associated with that. Can you 
help us understand what Treasury is doing to establish and 
maintain cybersecurity standards across the industry? And then, 
as a former information officer yourself in the finance world, 
what is your impression of the cyber threats in the private 
sector now that you are Treasury Secretary? You have a 
different vantage point today, obviously.
    Secretary Mnuchin. Sure. Well, again, this is something I 
am spending a lot of time on, and it is something we need to 
continue to spend a lot of time on and take seriously, since 
these cyber threats will only increase, not decrease over time.
    Yesterday, I participated in a principals meeting that DHS 
led specifically on cyber. We have responsibility for the 
financial sector. It is something that we take very seriously. 
This is a function of both--it is a private-public partnership. 
The primary responsibility for the financial sector is 
obviously in private companies, but we are working with them 
very closely. We are sharing intelligence with them closely. We 
are also working with the regulators very closely.
    So, through my role on FSOC, I have convened the 
regulators, through the Financial and Banking Information 
Infrastructure Committee (FBIIC) and other areas. We are very 
closely working with all the appropriate regulators and making 
sure we have a coordinated approach to cyber.
    Mr. Graves. Thank you. I understand it is very, very 
complicated.
    Mr. Serrano, do you have any further questions?
    Mr. Serrano. Thank you.
    Let me first say, Mr. Chairman, that I was very nervous for 
a second. Whenever I hear one of my colleagues mention the 
Jones Act, I get nervous because not too many people know that 
there are two Jones Act. One has to do with shipping, and one 
was this week in 1917 Puerto Ricans got American citizenship. 
So I hope they don't make a mistake when they tinker with the 
Jones Act. Don't take away the wrong one, in my case.
    Mr. Secretary, the CDFI Fund has helped entities invest 
billions of dollars in economically underserved areas, 
including in my district in the Bronx, New York. Nevertheless, 
your fiscal year 2019 budget proposes to eliminate all CDFI 
discretionary grant programs. I will be working with my 
colleagues on both sides of the aisle, with all due respect, to 
make sure that that does not happen.
    However, since you propose to eliminate CDFI, how do you 
plan to cover the gap in providing affordable credit and 
investment capital to low-income communities and individuals?
    Secretary Mnuchin. Sure. Well, thank you. First, let me 
just acknowledge that the CDFI funds do provide significant 
benefit to many communities, and I know there is bipartisan 
support. So we look forward to working with you on this.
    The decision to eliminate the CDFI was just a difficult 
decision as we looked at spending priorities across the 
Department and thinking that there are other mechanisms that we 
have and that there are private sector solutions. But, having 
said that, if Congress decides that they want to fund that, we 
will dutifully do that, and we acknowledge there are 
significant benefits.
    Mr. Serrano. Well, that took care of my second question, 
because you do admit publicly, which is a good thing, that it 
has bipartisan support--it always has--and it does a good job. 
And I hope that we can work together on saving the program and 
helping it grow, honestly.
    Mr. Secretary, one last question. You have been quoted as 
saying that cutting personnel from the IRS can actually hurt in 
the collection of revenues. And I have always had to describe 
this concern that every time we cut an agent, we lose money, 
money that could be collected.
    You are cutting thousands, it seems to me. How do you 
balance what you have said in the past and what you are doing 
in the budget? And I understand that some of these decisions 
are not easy to make. You just admitted the CDFI, you were not 
against it, but it was a decision that had to be made. What is 
the problem here?
    Secretary Mnuchin. Well, again, let me just say, you know, 
as we look at the IRS--and let me just commend, as I said, the 
many people at the IRS that do an incredible job collecting our 
revenues. It is an enormous organization, and we are making 
some difficult decisions on funding.
    So, we asked for additional funding. We have also asked for 
an additional $386 million in what we call program integrity 
cap adjustments. I know this is something that Congress has 
been reluctant to give us in the past, but I would encourage 
you to look at. It is a way of us raising additional money that 
can be used appropriately.
    Specifically, in your comment in enforcement, there is no 
question additional people we put in enforcement do yield 
significant benefits in terms of revenue. We have asked for 
correction error authority, which will also simplify things.
    So, again, we are just trying to manage difficult resource 
requirements across the IRS.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Graves. Thank you.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Secretary, I just want to make sure I am clear on where 
we are at in terms of tariffs on Canadian aluminum and steel. 
Did you say the plan is to exempt Canada from those tariffs?
    Secretary Mnuchin. Again, I want to be careful about going 
into the specifics. The President will be announcing the 
specifics of this later in the week. But what I can confirm, 
and he has mentioned this, to the extent that we reach our 
objective in renegotiating NAFTA, which is the priority, that 
Canada and Mexico will be exempt from those tariffs.
    Mr. Cartwright. OK. And the other thing is, you were 
recently in the news about gun safety legislation. Obviously, 
we had another horrific shooting in Florida. We are at a point 
now in our republic where nine out of ten Americans support 
universal background checks. Eight out of ten Americans support 
banning sales to individuals who are on Federal no-fly lists 
because of being suspected terrorists.
    You were testifying in front of the House Ways and Means 
Committee and you were questioned by Representative John Lewis, 
our colleague, and you said, quote: ``I will say personally I 
think the gun violence, it is a tragedy what we have seen 
yesterday, and I urge Congress to look at these issues.''
    And then later, I think that same day or the day after, a 
Treasury spokesman walked that back. But I want to hear it from 
you, Mr. Secretary. Do you still urge Congress to look at these 
issues and, if so, what is it you are urging us to do?
    Secretary Mnuchin. Okay. Well, first of all, thank you, and 
I am glad I have the opportunity to clarify that. I, like most 
Americans, think that the shooting was obviously a tragedy and 
I think that gun violence is an issue, number one.
    Number two, my comment that we clarified--it was not 
intended to be walking back; it was intended to clarify. When I 
urged Congress to look at these issues, it was a question in 
regards to do we have enough funding for different things on 
gun violence.
    Let me just say this is an area, and although there are 
many things in the government that I focus on and I think I 
have some level of expertise, this is not in my lane. I do not 
have much expertise on this. I do commend the President for 
getting people together and the fact that he is willing to 
address this issue. It is an important issue and, you know, 
that is something that I know he is focused on.
    Mr. Cartwright. To be clear, are you urging us to do 
something?
    Secretary Mnuchin. Again, what I was urging, the question 
was, is there enough money, in that part I was responding to, I 
urged Congress to look at the money issue.
    As it relates to Congress and congressional legislation, 
this is completely out of my line. But, again, I know the 
President has been having active discussions on both sides of 
the aisle and reaching out to people, and this is an area that 
he cares a lot about.
    Mr. Cartwright. So, yes, you were urging us to look at the 
money issue as respects gun safety. What money issue are you 
talking about?
    Secretary Mnuchin. Again, it was a question as to whether 
there was enough money in the budget for gun safety and other 
issues. But, again, I want to acknowledge, like most Americans, 
this is a tragedy, and I am glad that the President is working 
with Congress in looking at these issues.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Cartwright.
    I understand Mr. Quigley has no more questions.
    Mr. Serrano, any more questions?
    Mr. Cartwright.
    Mr. Cartwright. No.
    Mr. Graves. Mr. Secretary, thank you again for joining us. 
As you have noted in the past, this is a very thoughtful and 
insightful committee and great questions and concerns about 
budget requests and policy. And I thank you for taking the time 
to join us today, to give us good, complete, and thorough 
answers to the best of your abilities. And we certainly 
understand the limitations of some places in which you can 
discuss and respect that. But I am grateful that you offered 
yourself and your staff to join members in alternate settings 
to help clarify any questions they may have.
    Secretary Mnuchin. Glad to be here.
    Mr. Graves. But thanks again, Mr. Secretary.
    Meeting adjourned.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 11, 2018.

                        INTERNAL REVENUE SERVICE

                                WITNESS

DAVID J. KAUTTER, ACTING COMMISSIONER, DEPARTMENT OF TREASURY
    Mr. Graves. Well, good morning. Good morning, everyone. And 
we are going to go ahead and call this meeting to order and we 
look forward to hearing the testimony today from the Acting 
Commissioner, Mr. Kautter. So thanks for joining us, and we 
appreciate your service and willingness to be a part of this 
subcommittee this morning to discuss the IRS budget for 2019. 
And we realize you are testifying before us in this committee 
for the first time, but this is also a very busy time of year 
for you, so thanks for taking the time to be with us.
    Late last year, Congress passed and President Trump signed 
into law the Tax Cuts and Jobs Act. And as a result of this 
historic tax reform legislation, American families are taking 
home more of their hard-earned money. Businesses are expanding 
and confidence in our economy is growing, which means more jobs 
and opportunities for the American people.
    As Mr. Kautter is well aware, implementation of this law 
falls primarily on the IRS, which is why we provided $320 
million for its implementation in last month's government 
funding bill. Specifically, this funding will go toward 
updating 100 different IRS IT systems to accommodate more than 
100 new tax code provision before the next filing season. This 
subcommittee is also committed to providing an additional $77 
million in 2019 to finish the law's implementation. So, I look 
forward to hearing how this implementation is progressing and 
how we can maintain that momentum as we move ahead through this 
year.
    But continuing on to the 2019 budget request that is before 
us, it also includes more than $500 million for Operations 
Support. And I know the Inspector General and the Government 
Accountability Office repeatedly commented on the IRS 
mismanagement of IT projects in the past. From insufficient IT 
work plans to legacy systems that run on software language from 
the 1950s, this mismanagement puts our tax collection 
operations at risk.
    This committee expects better as I know you do as well, Mr. 
Acting Commissioner. So, I look forward to discussing how these 
funds will contribute to the replacement of legacy systems in 
the days ahead, and the positive impact it will have on the 
overall taxpayer's experience.
    Additionally, the IRS is a prime target for cyber and 
identity theft, because of the massive amount of personal 
information it receives and stores. We learned just a little 
while ago that over 2 million attempts any given day are 
against the IRS and that information. In recent years, the IRS 
faced problems from data breaches in some of its e-services 
such as the GET Transcript Identification Protection Pen Apps, 
and the Free Application for Federal Student Aid Form, which as 
we know, is parents with kids going to college as FASFA.
    These breaches allowed cyber criminals to access taxpayer 
information and file fraudulent tax returns. The IRS must 
improve its cyber defenses and do more to protect taxpayer 
data. Similarly, improving a taxpayer's experience is a major 
focus of this subcommittee and has been for the years that we 
have all served on it. In the past two annual appropriations 
bills, we have provided the IRS with targeted funds to improve 
the customer service experience.
    With the 2018 filing season drawing to a close, I am very 
interested in learning what kinds of improvements our 
constituents are experiencing, and what they can look forward 
to this year. But to that end, my top priority on this 
committee and in writing the appropriations bill as we look 
ahead is ensuring that the taxpayer is truly respected. The IRS 
is on the front lines but it does not have the best track 
record. So, I look forward to hearing how our targeted 
investments are making life easier for the taxpayers and 
holding the IRS accountable for bad behavior.
    So, before wrapping up my comments, I want to zoom out our 
focus just for a moment and as we begin to look at the 2019 
bills, and as a subcommittee, not forget the success we had 
last year. We had tremendous success, not only as a 
subcommittee but as a full committee, in defying all the odds 
as we passed all 12 appropriation bills for the first time in 
over a decade and regular order with a lot of minutes, a lot of 
debate, and a lot of discussion.
    So I hope that we have that same commitment this year. All 
of us together, to work together to do the same as we have 
begun our hearing process and hopefully have all our hearings 
done as a subcommittee by the end of the month, and maybe full 
committee next month, and have them all out of the House in 
June. Would not that be great if we could do that? Or early 
July, I would be OK with that.
    That said, Mr. Kautter, thank you again for taking the time 
to meet with us today. I look forward to working with you and 
hearing your testimony. Thank you for your position that you 
have taken here. I know that you have two hats, two jobs that 
you are performing, and I look forward to hearing your 
testimony. But at this moment, I would like to turn to my 
ranking member here, Mr. Quigley from Illinois, for his 
comments.
    Mr. Quigley. Thank you, Mr. Chairman. I share your 
optimism. I know, I am a Cub fan, so I am not sure what that 
means. I want to also join you in welcoming the Acting 
Commissioner for the IRS, David Kautter, to this subcommittee. 
Mr. Kautter, I want to thank you for taking time and look 
forward to listening to your testimony. I am going to keep my 
remarks brief in the interest of allowing sufficient time for 
our witness to share his thoughts in response to the panel's 
questions.
    This hearing comes at an important time as taxpayers 
nationwide prepare to submit a tax return for the 2017 tax 
year. The IRS is tasked with the core Federal responsibility 
for the collection of more than 3 trillion in taxes, 
distributing more than 400 million in refunds and providing 
service to millions of taxpayers in the process. Funding to 
support the IRS's mission constitutes the single largest 
category of spending under this subcommittee's jurisdiction. 
And we take seriously our responsibility to ensure that the 
agency is able to perform its functions in a fair and competent 
manner.
    With this in mind, I was disappointed and surprised to see 
the President's budget request for the IRS in fiscal year 2019 
seeks a reduction in resources for the agency. This comes at a 
time when the national taxpayer advocate has sounded the alarm 
on irresponsible cutbacks to frontline employee training. The 
Inspector General for the Tax Administration is reporting that 
24-hour taxpayer assistance centers, which provide a crucial 
in-person service for many older and rural taxpayers, are 
currently closed during the height of the filing season, due to 
insufficient funds.
    Even more confusing is the fact that for the fiscal year 
during which this administration's new tax law is due for 
implementation, this budget proposes to reduce taxpayer 
services, staffing at the agency by thousands of positions. 
After multiple years of inexcusably long wait times and 
unanswered phone calls, taxpayers finally saw an improvement in 
the level of service delivered last spring during the filing 
season. And yet, for the coming year, when taxpayers face a 
brand new system of rules and systems, your budget request 
promises a drop from 78 percent level of service down to just 
54 percent.
    This year, with the resources appropriate for the IRS by 
Congress, the IRS will make 7,761 staff available in answering 
the toll-free phone line. Your fiscal year 2019 Request will 
cut the number of staff for this purpose to just 6,023 
available to answer the IRS toll-free line. I sure hope that 
you can help us make sense of this during our discussions 
today, and I thank you again, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Quigley. I would like to 
recognize the acting commissioner for his testimony. I know you 
have a statement for the record, but feel free to make some 
remarks if you would like to here. And then we will go in to 
some questions that we may have for you. Thank you again for 
joining us, Mr. Kautter.
    Mr. Kautter. Perfect. Thank you, Chairman Graves, Ranking 
Member Quigley, and members of the subcommittee. And thank you 
for the opportunity to discuss the IRS Budget and current 
operations.
    I want to begin by thanking Congress, and especially this 
subcommittee, for providing the IRS with an increase in funding 
for fiscal year 2018 in the Omnibus Budget Bill enacted last 
month. This funding will allow the IRS to continue delivering 
on critical priorities including improving taxpayer service, 
updating our information technology infrastructure, increasing 
cybersecurity, and safeguarding taxpayer data. I also want to 
express my appreciation for the additional $320 million in 
funding to implement the Tax Cuts and Jobs Act and especially 
for the flexibility we were given to shift resources between 
accounts.
    Implementing the new tax law is a critical priority for the 
IRS this year and next. This is the first major tax reform 
legislation in more than 30 years and will require extensive 
work by the IRS. Our goal is to ensure taxpayers and tax 
professionals can understand and navigate the changes made by 
the new law.
    Implementing tax reform is a huge undertaking. We estimate 
the IRS will need to create or revise about 450 tax forms, 
publications, and instructions. We will need to publish 
extensive guidance, including regulations, notices, frequently 
asked questions, and we will need to reprogram about 140 inter-
related, integrated tax return processing systems to be ready 
for the 2019 filing system.
    So I am extremely grateful that we are receiving this 
additional funding in the early stages of our work on the new 
tax law. It ensures we can start critical implementation 
activities on time, and knowing funding is available through 
next year allows us to let contracts appropriately and have the 
resources needed to test our processing systems in the first 
quarter of Fiscal 2019, shortly before the beginning of the 
next tax filing season. The broad scope of our efforts required 
us to begin our implementation work almost immediately, as soon 
as the law was enacted.
    Our initial steps to implement the new tax law included 
revising the withholding system to take into account the 
various changes by the statute. We have also begun issuing 
guidance including several notices to help corporations begin 
complying with the new transition tax under code section 965. 
Our work to implement the new tax law as continued while we 
have been administering the 2018 filing season. Even with this 
challenge, I am pleased to report that the filing season has 
gone well.
    As of last Friday, April 6, the IRS has received more than 
103 million individual tax returns which is about two-thirds of 
the returns we expect to receive. We have issued more than 79 
million refunds for more than $226 billion. About 80 percent of 
the returns filed so far claimed a refund with the average 
refund totaling about $2,900. These numbers are consistent with 
those for 2017 with the number of returns received up from last 
year by about 150,000, which is about one-tenth of 1 percent. 
The number of returns filed electronically up by about 440,000 
or one-half of 1 percent, and the average size of the refund up 
$13.
    The other major challenge during the filing season was the 
need to implement tax-related provisions in the bipartisan 
budget agreement, enacted in February. This required us to 
reprogram our processing systems to handle the retroactive 
extension through December 31 of this year of more than 30 
individual and business tax benefits that expired at the end of 
2016. It was the first time the IRS had ever been required to 
implement retroactive tax extensions in the middle of a filing 
season.
    Looking ahead, the President's Fiscal 2019 Budget requests 
an appropriation of $11.497 billion for the IRS which is 
$11.135 billion in base resources plus $362 million provided 
through a Program Integrity Cap adjustment. The President's 
budget submission seeks less costly ways of delivering taxpayer 
service and maintaining enforcement using technology, training, 
and internal efficiency. The budget balances competing 
priorities and increases funding to operations support by 6.2 
percent.
    Dedicated funding is needed now to modernize IRS hardware 
and software so that we have the technology needed to run day-
to-day operations, transform the taxpayer experience, improve 
cybersecurity, and ensure we can continue to safeguard taxpayer 
data. The IRS is subject to 2.5 million attacks on average each 
day, 1 million of which are sophisticated attacks. Some of the 
attacks are efforts to acquire taxpayer data and some are 
efforts to disrupt the functioning of the United States 
government.
    Against this backdrop, it is important to realize that 59 
percent of the IRS hardware and 32 percent of its software is 
obsolete. In regards to taxpayer service, we understand 
Congress' concerns. We are taking steps to improve service on 
our various channels and we look forward to working with 
Congress in this area. I would note that the investments needed 
to improve IRS information technology that I mentioned a moment 
ago are critical to our efforts to improve taxpayer service. It 
is clear that one of the most important things we can do for 
taxpayers is upgrade our IT infrastructure.
    In addition to ensuring adequate funding for the agency, 
Congress can also help the IRS by enacting three pieces of 
legislation that will improve tax administration: renewing 
stream-lined critical pay authority, allowing correction 
procedures for specific errors, and giving IRS authority to 
require minimum qualifications for tax return preparers. These 
provisions, along with the other items highlighted in the 
budget, will help the IRS continue building on its work to 
serve the Nation's taxpayers.
    Chairman Graves, Ranking Member Quigley, and members of the 
subcommittee, that concludes my statement and I would be happy 
to answer any questions.
    [The information follows:]
    Mr. Graves. Thank you, Mr. Kautter. And this morning, we 
have a lot of subcommittees meeting today, so I think over 50 
percent of the appropriations subcommittees are meeting, so we 
will have members come in and out. And I know even some of our 
members here even have other committees they need to join this 
morning.
    So, I am going to defer my questions to a little bit later 
this morning and I think Mr. Quigley has agreed to do the same. 
And with that, we will start with Mr. Moolenaar and then Mr. 
Cartwright will be next with any questions they may have for 
the Acting Commissioner. Mr. Moolenaar, you are recognized.
    Mr. Moolenaar. Thank you, Mr. Chairman. And thank you, Mr. 
Kautter. I appreciate you being here today with us. I wanted to 
follow up with you on some of the issues you have raised on IT 
modernization. You mentioned that more than 59 percent of the 
IRS's hardware is past its useful life and 32 percent of the 
software was behind.
    And so, I just wondered if you could comment in more in-
depth on what your plan is to ensure that the hardware and 
software are updated. And can you explain why this has 
happened. Because that seems to be a pretty serious problem, 
especially in this era of cybersecurity.
    Mr. Kautter. Sure. Thank you. I think it is important to 
recognize that although 59 percent of the hardware and 32 
percent of software is out of date, the IRS has done a pretty 
good job, in my opinion, over the last several years of 
prioritizing where it spends its money. The core processing 
system for filing and processing tax returns has been 
modernized and updated.
    And that is where a substantial amount of the funding that 
this committee has appropriated to the IRS has gone. The cyber 
defenses around that system have operated fairly well, but 
cyber criminals are constantly evolving and changing their 
approaches and so the IRS spends a substantial amount of money 
trying to ward off those cyber attacks.
    Where a lot of the inefficiency, where a lot of the 
obsolete equipment and software rests, is in the day-to-day 
equipment used by IRS employees. So the laptops, the printers, 
fax machines, and so forth. Last week, we conducted a series of 
four calls with IRS managers.
    And so, as somebody new to the agency--I have been with the 
IRS about 5 months--it was interesting to participate in those 
calls. What I took away from the call, frankly--those four 
calls, we had about 3,000 employees--was a desire on the part 
of people at the IRS to do a good job, to perform at a high 
level, and to carry out their responsibilities for taxpayer 
service.
    The sense of frustration with laptops that might take 2 or 
3 weeks to be repaired, with software, with help support 
questions that took a day or two to be answered, with software 
updates that were not quite working the way they were supposed 
to and interfacing, was one of the most clear messages anybody 
could have received. So, you know, I think when we talk about 
how much is obsolete, it is easy to get concerned that the core 
system is in bad shape. That is not the case. That is in pretty 
good solid shape in my opinion. But a lot of surrounding 
operations is where the challenges are.
    Mr. Moolenaar. So, if I were to summarize, you do not feel 
like taxpayer personal data is at risk because of these 
outdated systems or machines, but maybe in terms of the work 
environment and the frustrations of sort of day-to-day 
operations that that is where the problem lies?
    Mr. Kautter. I think that that is a fair way to state it. I 
do worry about cybersecurity every minute of every day, to tell 
you the truth. And I do worry about hardware that is out of 
date and software. When we say obsolete, what we mean is that 
the software is at least two updates behind.
    Mr. Moolenaar. OK.
    Mr. Kautter. And that worries me. But the core system, we 
are really focused intently on that and I think doing a pretty 
good job.
    Mr. Moolenaar. OK. And then, I wanted to just change 
directions a little bit and talk with you a little bit about 
some of the cryptocurrency or virtual currency that has become 
popular. And my understanding is that in 2017, one Bitcoin 
equaled over $19,000, U.S. dollars. And the most recent IRS 
guidance on existing tax principles applied to transaction 
using virtual currency goes back to 2014. And I am just 
wondering what your plans are, either to update that guidance? 
I understand it is considered property, and do you believe that 
should be updated?
    Mr. Kautter. That is a topic that we are very intently 
focused on. You are exactly right. The latest guidance is 2014. 
We treat cryptocurrency as property, as basically capital asset 
and not as a currency. There are many unanswered questions that 
we are dealing with, with respect to cryptocurrency. There are 
so-called ``forks'' with cryptocurrency where the currency sort 
of divides, and we have a taskforce, we have a group within the 
IRS, focused on those questions.
    The biggest concern we have got, frankly, with 
cryptocurrency, is not just the tax treatment. It is the fact 
that cryptocurrency seems to be a way to evade Federal Income 
Tax. And so, the Criminal Investigation Division is very much 
focused on this. They have got some investigations underway. 
So, it is both issues, both the technical side and then what is 
happening on the tax evasion and avoidance side.
    Mr. Moolenaar. Thank you very much.
    Mr. Kautter. Yes, sir.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    Mr. Graves. Mr. Cartwright and then Mr. Yoder.
    Mr. Cartwright. Thank you, Mr. Chairman. And thanks for 
being here, Mr. Kautter. I appreciate you taking the time and I 
want to talk about a couple of things. The effect of the cuts 
to your administration asked for in The White House Budget. I 
understand the President's proposed funding cuts will have a 
particularly harsh effect as you all implement the new tax 
plan.
    Last year, roughly 25 percent of Americans who attempted to 
contact the IRS could not get through. National taxpayer 
advocate, Nina Olsen, reported to Congress that up to 60 
percent of Americans will not be able to get through during the 
2018 filing season. My question first is: is additional funding 
the only barrier keeping the IRS from better serving the 
American people?
    Mr. Kautter. I would say funding is a key factor. Yes, sir.
    Mr. Cartwright. OK. And other than requesting additional 
funding, what specific steps have you taken to develop or 
implement a plan to deal with that particular issue?
    Mr. Kautter. With the taxpayer service issue?
    Mr. Cartwright. That is right.
    Mr. Kautter.Well, what is actually interesting, I think, is 
that of the calls the IRS receives, only about 5 percent relate 
to the tax law itself. Ninety-five percent relate to account 
questions, refund questions, things like that. We have tried to 
move as much of that online as we can and do it in a user-
friendly fashion.
    For the taxpayer assistance centers, for example, there are 
363 of those. They will help about 5 million taxpayers this 
year. About half the people that call for an appointment at a 
taxpayer assistance center get their question answered on the 
phone. And so, a lot of the technical assistance for taxpayers, 
we are trying to put out as much as we can in terms of guidance 
on www.IRS.gov. And we are trying to connect forms around the 
country and help tax return preparers get up to speed as well 
as our own people.
    I know, as a 40-year tax practitioner and being on the 
other side of the table from the IRS, taxpayer service from the 
IRS is critically important. I know how important it is and I 
have lived it day in and day out. The choices in the budget 
that have been submitted, it is basically a recognition. Not 
that taxpayer assistance is not important; it is important. It 
is recognition that at 2.5 million cyber attacks a day, we have 
got to make sure that we have got our equipment and our 
software up-to-date and we fend off those attacks.
    Mr. Cartwright. OK. And not to put too fine a point on it, 
the President's budget for fiscal year 2019 asks for 24.5 
million in cuts. You do not want that, am I correct in that?
    Mr. Kautter. I would say the IRS could put to good use any 
money that this subcommittee decides to appropriate.
    Mr. Cartwright. OK.
    Mr. Kautter. We have plenty of use.
    Mr. Cartwright. Another place that money is well-spent is 
on audit staff, right?
    Mr. Kautter. Yes, sir.
    Mr. Cartwright. It is the backbone of our ability to catch 
tax cheats in America, right?
    Mr. Kautter. Yes, sir.
    Mr. Cartwright. Now, there has been a steady decline in 
annual audits and what we have is a new tax plan that really is 
rife with opportunities for tax avoidance that can set the 
stage for significant increases in tax evasion in this country. 
So, my question is first, the IRS has stated in the past that 
increased cuts lead to lower rates of enforcement which results 
in about $5 billion in tax revenue going uncollected each year. 
We continuously make these cuts to taxpayer services, weaken 
tax enforcement, and create more opportunities for evasion 
under these circumstances. Do you believe that we can afford to 
sustain this system of voluntary compliance and keep reducing 
audit staff?
    Mr. Kautter. There is a point, Congressman, at which the 
cuts in enforcement and the reduction in enforcement will have 
a dramatic effect on revenue. I do not know, nor can anybody 
tell us, exactly where that point is. But the audit rate 
overall is down 37 percent over the last 10 years. It is down 
in every single area that we audit but one, which is estate and 
gift tax, which is sort of hard to explain. But in some areas 
the audit rates are down 40, 50 percent and we have been able, 
I think, to manage fairly effectively. I think the agency has 
done a fairly good job but it is at a point where I think we 
need to start focusing on additional resources.
    Mr. Cartwright. All right. And finally, your testimony 
speaks for itself, of course. But instead of the $24.5 million 
in cuts as came out of The White House Budget, what is the 
increase you are looking for?
    Mr. Kautter. Well, we are looking for the additional 
funding for tax reform implementation. And I think we have not, 
at least to my knowledge, Congressman, decided on a specific 
number that we would recommend. So at this point, I am 
supporting the $11.1 billion. I think the Program Integrity Cap 
of $362 million would help a lot. So I think that added to the 
$11.1 base budget would help us quite a bit.
    Mr. Cartwright. Thank you. Mr. Chairman, I yield back.
    Mr. Graves. Thank you, Mr. Cartwright. Mr. Yoder.
    Mr. Yoder. Thank you, Mr. Chairman. Mr. Commissioner, 
thanks for being with the committee today. I appreciate your 
testimony. I want to start by asking you about the minimum 
standards ideas for qualified prepares who provide tax 
services.
    And I know in your testimony, you echoed the President's 
budget request proposal to require that all tax preparers meet 
minimum standards to prove they are qualified preparer 
services, and I think you state that there are around 400,000 
uncredentialed tax preparers in the country. And I guess I 
would like to know what is the impact of that? How does that 
impact our tax collection? How does it affect fraud? How could 
creating a set of minimum standards improve the efficient 
collection of taxes or reduction in fraudulent payments?
    Mr. Kautter. Sure. Thank you, Congressman Yoder, for that 
question. About 56 percent of all returns prepared are prepared 
by paid tax return preparers. There are about 650,000 tax 
return preparers in the country, 400,000 of which, as you point 
out, are uncredentialed, which means they are not attorneys, 
they are not CPAs, and they are not enrolled agents. Our 
experience has been that individuals who are not credentialed 
do not tend to file returns at the same level of accuracy that 
credentialed preparers file.
    We are also concerned that some of those uncredentialed 
preparers engage in fraud and impose burdens on unsuspecting 
taxpayers. It is also expensive from an administrative point of 
view, right? The time that we have to spend chasing people who 
have improper returns where the returns filed that do not match 
the data that we have on hand. And so our experience has been 
that credentialed preparers' returns tend to be of a higher 
caliber and require less effort on the part of the IRS to 
enforce the law.
    Mr. Yoder. And so, one of the solutions that the IRS has 
proposed over the years is to go to this tax preparer 
qualification program.
    Mr. Kautter. Yes, sir.
    Mr. Yoder. Does the IRS currently have statutory authority 
to pursue such a program? And if yes, are you working on 
developing such as system? Do you need changes in law? And can 
you describe for the committee what that tax preparer 
qualification program would look like? How would the preparers' 
qualifications be assessed?
    Mr. Kautter. Sure. In 2011, we attempted to impose or issue 
a tax return preparer program, and it would require certain 
levels of education and competency. That was struck down in 
2014 by the courts. In 2014, we embarked on a volunteer 
education program for tax return preparers which has been very 
modest in its success, so we believe we would need statutory 
authority to issue or provide such a program for tax return 
preparers. So, legislative authority, we believe, is necessary.
    Mr. Yoder. OK. I want to turn our attention to our error 
and fraud rates in general and what we are doing to combat 
that. This is my 8th year on the committee, and with your 
predecessors, I think almost every year we have talked about, 
in particular, the Earned Income Tax error and fraud rate.
    Your agency has stated publicly that between 21 and 26 
percent of all Earned Income Tax credits or claims are paid out 
in error, which is a staggering number for government programs, 
which we know have lots of bureaucracy and waste in everything, 
really, that we try to do at a governmental level. But 21 to 26 
percent fraud or error is really its own league in how 
problematic that is. And that accounts for tens of millions of 
taxpayer dollars that were improperly paid out.
    According to the Treasury Inspector General, as of March 1 
this year, the IRS has already processed 9.4 million returns, 
with $46.9 billion in EITC refunds. In the PATH Act passed by 
Congress in 2015, the IRS is required to hold back EITC refunds 
for returns that trigger additional review. Can you tell the 
committee what percentage of total returns claiming the EITC 
have been flagged for review, what indicators are most common 
for triggering review, and have we made any progress in 
reducing the fraud and error rate in this program?
    Mr. Kautter. Congressman, I do not have the statistics for 
this year yet. We have implemented a series of additional 
filters and screens to try to identify in the EITC program. We 
are focused on it. I think the PATH Act provisions requiring us 
to hold those returns until February 15th has been very 
helpful. I think we will find that that has substantially 
reduced the amount of improper payments. We are in the midst of 
filing season. We have got 6 days to go, and so I can get those 
numbers for you as we have them.
    Mr. Yoder. Well, I know you are quite busy right now, but I 
would love to see those numbers.
    Mr. Kautter. Yes, sir.
    Mr. Yoder. Because we want to see if we are making 
progress. So, if you would follow up with the committee and my 
office, I would really appreciate it.
    Mr. Kautter. It is a serious problem. Yes, sir.
    Mr. Yoder. Thank you, Mr. Commissioner.
    Mr. Kautter. Thank you.
    Mr. Graves. Thank you, Mr. Yoder.
    Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. Thank you again, Mr. 
Kautter. The National Taxpayer Advocates' 2017 annual report to 
Congress highlighted the implementation of the IRS' private 
debt collection program as one of its most serious problems and 
concerns. The report found that not only is the program failing 
to generate revenue, but also the implementation is 
inconsistent with the law and disproportionately focuses on 
low-income and average working taxpayers.
    Can you give us your take on that report and specific 
actions the department will take in response to the report's 
findings and recommended actions to improve the IRS's private 
debt collections program's oversight and administration?
    Mr. Kautter. Yes, sir. A little bit of background, and we 
are in the process of responding to the Taxpayer Advocates' 
report. Last April, we entered into contracts with four private 
debt collection agencies. Since that time, we have turned over 
about 305,000 accounts for collection. That is about a little 
over $2 billion of outstanding debt that individuals owe. We 
have spent about $45 million so far on getting the program up 
and running, and we have collected about $35 million under the 
program.
    Now, the $45 million represents the total cost of getting 
the program up and running. Part of that cost was we wanted to 
be meticulous in making sure that taxpayer data was 
appropriately secure and that the systems that the various debt 
collections were using were secure. We have also conducted 
onsite visits with each of those debt collection agencies and 
have found that, for the most part, they are acting in 
accordance with IRS regulations and standards. We will go back 
again shortly and do another review of those debt collection 
agencies.
    I understand that this is a very sensitive issue. A large 
number of those accounts that are turned over are accounts that 
are below, say, 250 percent or 400 percent of the poverty 
level, so it is a lot of low-income accounts that are turned 
over. It turns out that when you look at the data for where the 
outstanding debt is, a substantial amount of the outstanding 
debt in that taxpayer group.
    Mr. Quigley. When you turn these accounts over, is there 
sort of a sensitivity or awareness of who you are targeting?
    Mr. Kautter. It is----
    Mr. Quigley. I mean, is there also a balance that you may 
be going after people who just do not have the money?
    Mr. Kautter. Every account that is turned over is an 
account where a taxpayer, we believe, owes the Federal 
Government money. If it turns out that the money cannot be 
collected, we engage in our normal processes, and if we cannot 
collect it, it cannot be collected. But we try to pursue what 
is available under the law and what is expected of us in terms 
of pursuing a balance that is owed the Federal Government.
    Mr. Quigley. How do you compare the effectiveness of what 
they are doing versus--if you can, apples to apples--with how 
you normally collect, go after it from a debt collection point 
of view?
    Mr. Kautter. It is a very similar process, congressman. The 
only accounts that are turned over are accounts that the IRS 
pursued to the full extent of its resources and has concluded 
we just do not have the capability, the resources to pursue the 
account any further. And so, those are the accounts that tend 
to be turned over to the private debt collection agencies.
    Mr. Quigley. Does that mean they are harder to collect?
    Mr. Kautter. They are harder to collect, yes, sir. We have 
tried everything we can before we turn over an account. It is 
not that we just select a group of accounts and turn those 
over. We go through our full array of processes in dealing with 
taxpayers before the account is turned over to a private debt 
collection agency.
    Mr. Quigley. If there is more time, I would go into more 
debt--more concerns on these things. But, you know, we used to 
have concerns about people posing as debt collectors. Has this 
not muddied those waters, where we used to tell them that there 
are not private people doing this, and now there are? So, it is 
harder to advise people who are particularly vulnerable, like 
senior citizens, of how to distinguish this.
    Mr. Kautter. It is. We have tried to put in place processes 
so that it is clear who is acting on behalf of the IRS and who 
is not. Having said that, we have problems across the board 
with individuals trying to impersonate the IRS and basically 
defraud people out of their own money. And those techniques 
continue to evolve.
    This year, there is a technique where somebody will call 
you be on the phone, usually the elderly, claim they are from 
the IRS, claim that an excess refund went into their account, 
and they owe the IRS money. And if they do not pay the IRS the 
money almost immediately, that they will levy on the account. 
And it is not an IRS person; we do not do business that way. 
So, it is a constantly evolving challenge to keep track of the 
ways individuals will try to defraud people out of money and 
using the IRS as its imprimatur.
    Mr. Graves. Thank you, Mr. Quigley. Mr. Young, from Iowa, 
you are recognized.
    Mr. Young. Thank you, Mr. Chairman. And I want to pick up 
on the conversation you were just having with my colleague, Mr. 
Quigley, regarding those scams that are out there. It is April; 
people are doing their taxes. And many times, in their 
interactions with the IRS they realize something is not quite 
right, and maybe their identity has been stolen, or there has 
been some real issue.
    Aside from what you just highlighted with Mr. Quigley, what 
are some of the other kind of IRS-type scams that are out there 
that the American people need to know about? One. And, two, how 
are you informing the American people about these, and how to 
be watchful for them?
    Mr. Kautter. Well, Congressman, whenever we become aware of 
a scam, we immediately issue press releases; we try to get on 
radio; we try to communicate with taxpayers in whatever way 
that is available to us. Sometimes the fraudsters are so 
convincing and so compelling that, no matter what we say, 
people are intimidated into believing the IRS is after them, 
and they are defrauded from their money. So, the scams are 
important for us to focus on.
    And as I said, it would be nice to be more proactive, but 
we end up being reactive, because we do not know where the 
crooks are going until they actually engage in that sort of 
behavior and we hear about it. I think the one area where we 
have made a lot of progress is with respect to taxpayer 
identity theft. And we have worked closely with the tax return 
preparer industry and with state revenue departments. And with 
respect to tax-related identity theft, the reported cases have 
gone down from about 697,000 two years ago to 242,000 at the 
moment.
    We have set up a separate unit within the Wage and 
Investment Division of the IRS to help people who are the 
victims of identity theft. We resolve those cases now; 75 
percent of those cases get resolved with 3 months, maybe 3 to 4 
months, which is about half of the time it used to take. So, 
when we become aware of something that is systemic, we put in 
places processes and procedures to deal with it. And I think we 
have had pretty good success, but it is the continuously 
evolving nature of these scams that is the biggest challenge.
    Mr. Young. There are a lot of them out there, a lot of bad 
people who want to bilk people of their money. I would advocate 
that you highlight somewhere--maybe it is just on your website, 
or have a social media account, Twitter account--you talk about 
issuing a press release about the scams out there. I know you 
probably go beyond that.
    Mr. Kautter. Yes, sir.
    Mr. Young. But highlight those right away on social media, 
what to look out for, those kinds of things. And you say that 
75 percent of those cases of ID theft get resolved. When you 
find the perpetrator, they get sent over to the Department of 
Justice for prosecution. Tell me about that.
    Mr. Kautter. So, there are two aspects, the victim and the 
perpetrator. And the victim is where we set up that separate 
unit, and we get those cases resolved, as I said, 3 to 4 
months--robably closer to 4, as I think about it. We also get 
the Criminal Investigation division of the IRS involved in 
these particular situations. They work very closely with the 
Department of Justice on referrals with respect to prosecution.
    We try to highlight those prosecutions as a deterrent for 
others who would think that they may engage in this sort of 
behavior. And my personal experience is the Criminal 
Investigation division at the IRS is a very effective division. 
They do a very good job. They are very thorough, they are very 
quick, and I have had great confidence in the job they do.
    Mr. Young. So what are the penalties? The people who are 
taking others' identities; are they just getting a fine? I want 
to see them in jail.
    Mr. Kautter. It is. I mean, it depends on the nature of 
what they do, but it could be tax fraud, which could be 
criminal, could be a felony. And we try to prosecute to the 
full extent available under the law.
    Mr. Young. Do you find that the DOJ is cooperating with you 
all in making sure that this is a priority?
    Mr. Kautter. They are. We have a very strong working 
relationship with the Department of Justice, and they are very 
responsive to our needs.
    Mr. Young. Thank you for your testimony and for being here 
today.
    Mr. Kautter. Thank you.
    Mr. Graves. Thank you Mr. Young. I have a couple of 
questions, and then if members have some additional questions 
afterwards, we will continue.
    I wanted to ask you a little bit about the Income 
Verification Express Service. It was something that in a recent 
funding bill, we had some report language directing the IRS to 
write a report on potential automation of the IVES program, 
which is known as data-sharing API. Today, I understand the 
process still involves some paper and fax machines to do some 
of this work. And this is really some important information 
that lenders need to provide more capital to the small 
businesses and such. So, can you give us a little update on how 
a change like this can occur, and hopefully will occur, and 
what the process is for that?
    Mr. Kautter. Sure. Thank you, Mr. Chairman, for that 
question. We have been working with the mortgage industry to 
make sure that the IVES system works in a way that facilitates 
their needs. We have gotten third-factor identification; so, 
username, password, and then a text.
    When we first implemented that, that created some problems 
for the mortgage industry. We worked through that; we have set 
up a working group that is meeting periodically and with the 
managed services industry to make sure that they can get access 
to the information they need, while balancing the risks to 
taxpayer privacy as part of that system.
    There is no right answer to this system. Different people 
would do it different ways. The inspector general would do it 
differently than the way we are currently conducting it. I will 
tell you, I have had some discussions with representatives of 
the mortgage industry, and they are, in fact, looking at 
another alternative to accessing the IRS databases, and we are 
fully supportive of helping them facilitate whatever needs to 
be done to make sure that system works effectively. I think it 
has been working pretty good. We have gotten favorable comments 
back recently.
    Mr. Graves. That is good. Well, is this a process that will 
take some time still? It sounds as if you have begun the 
process and are still working with the industry, but you are 
open to modifications as time goes on.
    Mr. Kautter. That is exactly right. As I said, the industry 
has been looking into another database at another agency which 
they think may serve their purposes, and if that works better 
for them, we will do everything we can to facilitate that. We 
want the system to work. It is that balance between giving 
third parties access to taxpayer information and making sure 
that we do not improperly disclose taxpayer information.
    Mr. Graves. Right. Thank you. We spoke a little bit earlier 
about the new tax reform law that has been implemented, and 
this is going to be a huge challenge, I know, for the IRS in 
its implementation. We have some additional resources to work 
with, and the President signed an additional $320 million for 
that implementation. Can you describe the progress that is 
being made to update--and I know a lot of this is going to be 
IT-related--a lot of your systems to accommodate this new law? 
Because it is going to be tremendous.
    And then, as we move forward, I know that as taxpayers--
looking to the next 6 days as the filing season comes to a 
close--it will be the last time that the old tax law is being 
used to comply with and going into the new one. And so, I know 
you are taking a lot of steps. You have additional resources. 
But my hope, and maybe you can reassure this for me, that next 
year will be easier from a filing perspective, but also an 
imitation from the IRS's interface with the customer.
    Mr. Kautter. Sure. So, first of all, for the third time, 
thank you again for the $320 million. It is a great benefit, 
and especially the flexibility. The way we plan to spend that 
money: 73 percent of the funds are earmarked; we believe will 
be used for technology. So, updating those 140 integrated tech 
systems that operate the taxpayer filing programs.
    About 19 percent of the funds will go for taxpayer 
education and outreach. We expect probably an additional 4 
million calls as a result of the tax bill, so a significant 
part of the funding will go for outreach, education, and 
seminars for tax return preparers.
    Four percent of the funds will go for forms, instructions, 
and publications, and another 4 percent of the funds will go 
for guidance, regulations, frequently asked questions, and 
other press releases and other guidance. We expect we are going 
to have to update about 450 forms--it could be less than that--
put forms, publications, and instructions.
    Where things stand; we expect by the end of this month to 
have most, if not all, of the forms for next year drafted. We 
expect to have the instructions for those forms pretty much 
done by the end of May. The plan is to release over the summer 
those forms and instructions for public comment and review. We 
will be working on the publications over the summer as well and 
may release some of those, but we do not often release those 
for comment.
    Starting at the end of April, once we have the forms 
designed, the core forms, the technology piece will start. So, 
we will start in May to revise our programs to incorporate the 
revised forms and instructions. Guidance we are working on 
continuously. There are 79 grants at regulatory authority in 
the bill, not to mention other broader grants that we have.
    We have issued a number of notices. We are working on 
regulations constantly. We hope to have a steady stream of 
guidance in the form of frequently asked questions, notices, 
proposed regulations, and final regulations coming out this 
spring--we have already issued some--but the spring, summer, 
and fall. It will take us a couple of years at least to get 
guidance out on the entire bill.
    I think the two most challenging parts of the bill, from an 
administrative point of view, to implement will be the new 
international provisions and the 20 percent deduction for pass-
through entities. In both those situations, we are basically 
building new tax regimes that did not exist before, so we have 
gone from a worldwide system of taxing our multinationals to a 
pretty much territorial system. And that is a completely new 
system for the United States.
    It comes with base erosion provisions, which are 
controversial. Some of our international trading partners have 
some concerns with some of those provisions. So, that is an 
enormous part of the challenge. The pass-through provision I 
think is going to be challenging to draft. I think we can do 
it, but I think we will spend inordinate amounts of time on 
those two parts of the law, implementing that.
    Mr. Graves. We have great confidence in you. That is an 
ambitious schedule, and thanks for laying that out. That helps 
us. And I know 6 months ago or so, when you stepped into your 
role here, you probably did not anticipate the challenges that 
lie ahead. Thank you for the progress and laying out the plan 
there. Mr. Quigley?
    Mr. Quigley. Thanks, Mr. Chairman. I just want to follow up 
on that. The original estimate from the IRS was about $495 
million for the cost of implementation. Was that over a period 
of years, or you just settled for $320 million because that is 
what you could get?
    Mr. Kautter. That is a great question. Thank you. So, the 
$495 million was an estimate that was sort of a back-of-the-
envelope estimate that we came up with, looking at 
implementation of the Tax Reform Act in 1986.
    Now, in 1986 there was no internet; there were no PCs; and 
a large part of the cost of implementing the 1986 Act was 
printing forms. Well, that is a much smaller cost today. So, 
what we did was, after doing that back-of-the-envelope 
calculation, we went back and did a grassroots bill of all the 
forms we thought we had to change, all the instructions, all 
the publications, and try to refine the numbers best we could. 
And what we found was the cost of printing and distributing 
forms had gone down substantially; the internet and the ability 
to communicate technologically dramatically helped our ability 
to reduce the cost in implementing this bill.
    And so, $397 million is a number that has been developed 
from the operating divisions up, and it is fairly detailed. Is 
it perfect? I doubt it. But we did the best we could, and I 
think we will be in pretty good shape with that amount of 
money.
    Mr. Quigley. But it runs into next year's request----
    Mr. Kautter. Oh, yes, yes.
    Mr. Quigley. Which is a downward departure. I am just 
curious: how do those two flush together to allow you to move 
forward?
    Let's say this is enough, and you are absolutely right, to 
do what you need to do and probably can do in 2018. But 5 
percent of the calls that you say that come about the tax law 
now; the decimal point may even move over next year. So, how 
does the fact that you may have enough this year run into next 
year's request?
    Mr. Kautter. Sure. So, we put the budget together before we 
knew what the number was going to be for tax reform 
implementation. And so, that is why, for this year and next 
year, we requested a separate amount of $397 million for tax 
reform implementation, in addition to the $11.1 billion base 
request. So, we have got $320 million that we can use this year 
and next year; our original request was for the $397 million; 
our belief is we still need that additional $77 million. The 
flexibility to use that money over 2 years is really very 
helpful.
    Mr. Quigley. And have you talked to the administration 
about what you just said in terms of what your needs are going 
to be?
    Mr. Kautter. Yes, sir.
    Mr. Quigley. And their reaction?
    Mr. Kautter. Well, the $397 million number that we have 
proposed was developed with full discussion with the Secretary 
of the Treasury. In fact, I meet with the Secretary every day 
on tax reform implementation. And so, he is fully supportive of 
the $397 million number.
    Mr. Quigley. So, this next time year, it is going to be a 
happy-happy, joy-joy discussion, things will have folded under? 
You are going to have enough money, right?
    Mr. Kautter. If we get 397, I think we can do the job. I 
think we can do it.
    Mr. Quigley. Thanks.
    Mr. Kautter. Yes, sir.
    Mr. Graves. And I can say that I have had multiple 
conversations with the Secretary of the Treasury about that 
very same number, and he has full confidence as well. And you 
have an additional role; I know that you work very closely as 
Assistant Secretary to the Treasury of Tax Policy.
    Mr. Kautter. Yes, sir.
    Mr. Graves. Correct? Mr. Amodei has joined us and has a 
question for you.
    Mr. Amodei. Thank you, Mr. Chairman. Mr. Commissioner, 
welcome. And you may not know this, but if you do not, that is 
fine. I can take the answer offline. You know, we hear a lot of 
talk these days about agencies responding to, or not responding 
to, requests for various committees, at least in the House, 
regarding data information for stuff they are looking at.
    As we sit here, are you aware of any outstanding data 
requests from any committees in the House that have not been 
fulfilled? And if you are not, that is fine. But I would just 
like to ask you on the record to kind of check on that and give 
us an answer to say, ``Hey, as far as''--I know some of that 
stuff started quite a while ago in the previous administration, 
but as we are finding out, there is a lot of stuff from the 
previous administration that is still hanging fire. So, I am 
just curious as to, is there anything outstanding where 
information is forthcoming?
    Mr. Kautter. I will follow up on that.
    Mr. Amodei. I appreciate that. I yield back, Mr. Chairman.
    Mr. Kautter. Thanks. Mr. Amodei, I will say, at one point 
in my career, I was a Senate staff person for a member of the 
Senate Finance Committee, and sensitivity to responding to 
Members of Congress and their requests is paramount, in my 
mind.
    Mr. Amodei. And I appreciate that. And it is not the reason 
I get up in the morning, but when you hear that it is an 
extended amount of time, whatever you like, in your business, 
and mine, you do not always like the news, but you think you 
have got a right to know what the information is. So, I 
appreciate it.
    Mr. Kautter. It is a fair point.
    Mr. Amodei. Thank you.
    Mr. Kautter. Thank you.
    Mr. Graves. Easiest question of the day right there. I have 
an additional quick question, and then, Mr. Young, if you have 
a question after that, you are recognized. I guess it was 
earlier this year, and just last month, the Ways and Means 
Committee, one of our subcommittees, released a draft proposal 
called the Taxpayer First Act, and I just want to get your 
thoughts on that.
    Mr. Kautter. Sure.
    Mr. Graves. And if you can share, how does that fit into 
your plan and the IRS's plan moving forward? And any feedback 
as they work through that.
    Mr. Kautter. Sure. We have had discussions with the Ways 
and Means Committee staff as they put that bill together, and 
for the most part, we are supportive of the provisions in that 
bill. I mean, we would have to go through them one by one, but 
for the most part, we think it is pretty constructive.
    I do think there is one provision that seems small but is 
very important to me as someone who has come into the 
government from private practice, and it is the ability to 
allow the IRS to change its structure after consulting with 
Congress. The current structure of the Internal Revenue Service 
was put in place in 1998, so it is 20 years.
    There are not many organizations in the country who have 
had the same operating structure for the last 20 years, and I 
think there are things that can be done to facilitate taxpayer 
service. So, organizational management, the basic thing is that 
structure follows strategy.
    If the strategy is taxpayer assistance, and we are not 
happy with the level of taxpayer assistance at the moment, then 
I think we have to figure out what needs to be done to improve 
that and implement a structure that supports that strategy. And 
other than that, the provisions are fairly straightforward, 
very functional, and I think for the most part pretty sound.
    Mr. Graves. Great, thank you. And I encourage you and your 
staff, the team you are working with--that is encouraging to 
know you have that relationship to give them your thoughts 
there as well. Mr. Young, questions?
    Mr. Young. Thank you. Just one question. My understanding 
is when there is a dispute between the IRS and the taxpayer, 
the IRS will reach out the taxpayer and say, ``There is an 
issue here,'' or sometimes the taxpayer will reach out to the 
IRS and think there may be an issue there with their return or 
something to do with the IRS. And there is an appeals process, 
and they go through that.
    For the taxpayer to get the information they need to have 
everything necessary for the appeal to present their case, they 
have got to go through a FOIA request to the IRS to get the 
information the IRS has that they may be using as an 
information or a tool against them. Do you think that is 
ridiculous? Because I do, and a lot of people do.
    Mr. Kautter. One of the areas that the Ways and Means 
Committee is working on as part of this restructuring bill is 
exactly that.
    Mr. Young. That is the FAST Act?
    Mr. Kautter. Yes, how the appeals process works. And I do 
think there are changes that could be made there that would 
facilitate taxpayer knowledge and assistance and simplify the 
process, frankly, for both the IRS and the taxpayer.
    Mr. Young. So, we have your full endorsement of the 
legislation?
    Mr. Kautter. I did not know that I said that exactly.
    Mr. Young. You did not, but it is good to hear that, just 
internally, you recognize there are ways to improve this for 
the experience for the taxpayer; transparency, accountability, 
and cooperation. It is needed. Thank you for recognizing that.
    Mr. Kautter. I agree, and that is why I think the IRS 
restructuring act can be a catalyst for generating change with 
the agency. So, I think it is a good path to get at, frankly.
    Mr. Young. Thank you for recognizing that there are 
commonsense approaches that we can all agree on. Thank you.
    Mr. Graves. Mr. Kautter, thank you for your thoughtful 
responses to a very thoughtful committee. They have a lot of 
great questions and insights here and hope you see that we look 
forward to working with you. And we want to make sure that you 
are successful, and your agency is successful. Because that 
means our constituents' needs are being met, and that they are 
pleased with their interactions and interface with the IRS, 
which is not always the most pleasant interaction to ever have.
    So, thank you for your willingness to step in as an acting 
commissioner this time in your career. And I know you have 
other responsibilities. It is a busy time of year for you, as 
it is for us. Thanks for your time today in joining us.
    Mr. Kautter. Thank you, Mr. Chairman. Thank you, Mr. 
Quigley.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Tuesday, April 17, 2018.

                    GENERAL SERVICES ADMINISTRATION

                                WITNESS

EMILY W. MURPHY, ADMINISTRATOR
    Mr. Graves. Good morning, everyone. We will call this 
hearing to order. I would like to welcome the General Services 
Administrator, Emily Murphy, to the hearing today. Glad to have 
you. I know this is your first hearing before our subcommittee, 
but you have been a part of other hearings and you have a great 
distinguished history of being a part of this process. So you 
are no stranger, and we know that, and we look forward to 
spending some time with you this morning.
    Last year, we were on a very abbreviated timeline and we 
expect to do the same this year. We are going to accelerate the 
timeline, and hope to have things done this year in committee 
and the House by early summer.
    You are a part of that process here. I am going to take a 
few minutes to share with you some of my thoughts this morning. 
Mr. Quigley will do the same. We will have some questions for 
you but look forward to hearing your testimony in just a few 
minutes.
    As I reviewed your request, I was pleased to see that you 
included funds to help address the land ports of entry backlog 
that we have all experienced, which is a top priority for many 
of our members, including Martha McSally in Arizona. We heard 
from her several times last year.
    Additionally, this request builds off the IT investments 
that we all made as a subcommittee and full committee in last 
month's government funding bill through the Technology 
Modernization Fund. This is something we heard about from many 
members, including Will Hurd from Texas and the majority 
leader, and members on the other side of the aisle as well.
    Cybersecurity is one of my top priorities. I know it is one 
of Mr. Quigley's top priorities as well. I am interested to 
hear a little bit more from you on how GSA will use these funds 
to secure and improve the efficiency of the IT platforms across 
all the different agencies and different infrastructures we 
have.
    Finally, I want to highlight the committee's commitment to 
shrinking the Federal footprint, which you oversee, and 
divesting the government of unnecessary property that is no 
longer being used. Last month's government funding bill 
established the Public Buildings Reform Board which will help 
dispose of underutilized and unused Federal properties. And we 
would like to hear a little bit more about that today, the 
implementation of it and how those funds will be used.
    With that, I would like to turn it over to Mr. Quigley, the 
ranking member from Illinois, for any comments he may have this 
morning.
    Mr. Quigley. Thank you, Mr. Chairman. And thank you so much 
for being here. We appreciate your work and your service. This 
year, the GSA budget includes significant new spending for 
construction, and repairs, and alterations. I am pleased to see 
the proposal for much needed investment in maintenance and 
improvement projects in light of a massive 1.4 billion backlog 
of projects currently waiting for action.
    I agree with the chairman. I am also interested in learning 
more about the steps you are taking to reduce unused or 
unutilized real property, in particular, how the $31 million 
request to assist agencies with improving their real property 
inventory will be used to modernize the Federal real property 
profile, which has remained unreliable and unusable for far too 
long.
    At the same time--excuse me--I am extremely disappointed 
and confused as to why the GSA scrapped a decades long plan to 
build a new FBI headquarters in the DC metro area. After 
widespread interest by Members of Congress and tens of millions 
already spent to see this project through, GSA has decided to 
instead build a new headquarters on its current site. The 
economic and national security justifications provided by GSA 
remain insufficient, and I am encouraged that the GSA's 
inspector general is investigating this sudden reversal.
    But until the findings are made public, too many questions 
remain unanswered. I also remain troubled by the leasing 
arrangement between GSA and the Trump International Hotel 
located at the Old Post Office Pavilion. This time last year, I 
questioned the then acting administration on possible conflicts 
of interest.
    At that time, we were provided with little clarity into how 
the GSA could have determined that President Trump is not in 
violation of the Trump Hotel lease, despite the fact that the 
President will personally profit from the hotel. Because the 
President overseas both you and the GSA, he effectively became 
landlord and tenant when he was sworn in to office. This, of 
course, is prohibited, since the lease agreement clearly states 
that no elected official of the government of the United States 
shall be admitted to any share or part of this lease or to any 
benefit that may arise therefrom.
    I remain concerned with the lack of transparency in the 
GSA's review of the lease terms, as well as your ability to 
objectively enforce the lease. I look forward to further 
discussing this very important issue with you today. And thank 
you, again, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Quigley. Ms. Murphy, it is a 
delight to have you here this morning to be with this 
subcommittee. As you can see, there are a lot of subcommittees 
meeting this morning from our Appropriations Committee, as we 
are on this accelerated time schedule to get our work done. So, 
you may see members come and go throughout the morning.
    At this moment, if you are ready to give some opening 
remarks, know that your full statement is already submitted for 
the record. We look forward to hearing from you this morning 
and offering some questions a little bit later.
    Ms. Murphy. Good morning, Mr. Chairman, Ranking Member 
Quigley, and members of the committee. As the new Administrator 
of GSA, I am grateful for your invitation to testify on the 
President's fiscal year 2019 budget request for the agency. 
GSA's mission is to deliver value and savings in real estate, 
acquisition, technology, and other mission support services 
across government.
    First, I would like to thank the committee for the funding 
provided in fiscal year 2018. The monies appropriated by this 
committee will allow GSA to undertake important projects that 
will improve the security of our Nation's land ports, 
facilitate critical repairs to our public buildings, enable 
agencies to modernize their antiquated IT systems, and enhance 
the effectiveness and efficiency of government through the 
implementation of shared services and smarter acquisition 
strategies.
    For fiscal year 2019, I would like to first highlight our 
support for the Nation's Federal infrastructure. Our public 
buildings serve a critical role in helping agencies conduct 
their missions. They house over 100 agencies across 422 
bureaus, encompassing 371 million rentable square feet.
    GSA has a duty to maintain public buildings and ensure they 
meet modern standards. Unfortunately, our repair backlog is 
over $1.4 billion. With the support of this committee, we have 
an opportunity to change this. For fiscal year 2019, the 
President's budget request is $10.1 billion for the Federal 
Building Fund. Of that amount, GSA is requesting a total of 
$2.2 billion in construction acquisition and repairs and 
alterations to make much needed investments in GSA's owned 
inventory.
    Numerous studies show that housing Federal agencies in 
owned space is better for the American people. For example, the 
fiscal year 2019 request includes $768 million to purchase the 
lease facility that houses the Department of Transportation 
headquarters. This will meet the department's long-term housing 
needs and save lease costs of $49 million per year.
    GSA is also requesting $70 million for the consolidation 
program to better utilize Federal space. Since its inception, 
GSA has funded 78 consolidation projects which, when complete, 
will result in an annual lease cost avoidance of $132 million 
and a space reduction of almost 1.7 million square feet. The 
fiscal year 2019 request allows provides for initiatives to 
make the government's real estate footprint more efficient, 
including funding for implementation of the Federal Assets Sale 
and Transfer Act and GSA's Real Property Utilization and 
Disposal Program.
    In conjunction with the Modernizing Government Technology 
Act, GSA is requesting $210 million for the Technology 
Modernization Fund. The TMF is an important first step in 
changing the way the government manages its IT portfolio. It 
will enhance our ability to protect sensitive data, reduce 
costs, and deliver services to the public. In addition, GSA 
proposes a $6 million investment to support a digital identify 
management pilot. This will improve the security of citizens' 
digital interactions with government agencies.
    To promote an efficient and effective Federal Government, 
the fiscal year 2019 request proposes $50 million to improve 
the Federal Government's ability to recruit and retain top 
talent and reskill the workforce to meet 21st century needs by 
providing one-time funding for targeted workforce initiatives 
across the government. GSA will continue critical government-
wide policy activities, including supporting coordinated 
regulatory review processes with the agencies in the public, 
managing the government-wide guidance, such as the FAR and the 
Federal Travel Regulations, and delivering important 
information to decisionmakers, including through the Federal 
Real Property Profile.
    The request also provides $2 million for the activities of 
the Office of Shared Solutions and Performance Improvement. 
This will support management in oversight of high-quality, 
high-valued shared services that improve performance and 
efficiency throughout government. As a lead for the Shared 
Services Initiative and the President's Management Agenda, I am 
also pushing all of GSA to identify ways we can better support 
shared services across government.
    The funding that this committee invests in GSA is 
essential. It supports the programs and activities that allow 
agencies to focus and deliver on their core missions. I look 
forward to working in partnership with this committee, thank 
you for the opportunity to appear before you today, and I am 
happy to answer any questions you may have.
    Mr. Graves. Thank you very much. This morning, I want to 
pass on any questions of my own in the beginning and go to Mr. 
Quigley, if he has any questions first. And if not, I would go 
to Mr. Bishop. Mr. Bishop, you are recognized, and then Mr. 
Moolenaar would be next, if he is ready for any questions.
    Mr. Bishop. Thank you very kindly, Mr. Chairman and Mr. 
Ranking Member. And welcome to you, Ms. Murphy. Let me get 
right to it. The Federal Assets Sale and Transfer Act of 2016 
requires GSA to establish a publicly accessible database with 
specific information about each property. And the GSA has 
published a data set with much of the required information. 
However, the data on utilization rates is incomplete, as no 
data is yet available on annual operating costs.
    I would like for you to tell me whether or not GSA has a 
timeline for when the data set will include all of the 
information that is required by the Federal Assets Sale and 
Transfer Act. And secondly, the real property management has 
been on the Government Accountability Office's high-risk list 
since 2003. The ongoing issues identified by GSA is the fact 
that GSA only lists warehouses as unused if they are in the 
process of being disposed.
    As a result, GSA listed as used some warehouses that have 
been vacant for many years. GSA indicated that it was 
developing a guide for strategic warehouse planning that might 
address this concern. Could you tell us whether GSA has 
completed this plan; if not, is there a timeline for the 
completion?
    And the third question is the omnibus for 2018 provided 
$100 million for the Technology Modernization Fund. This is 
less than the $228 million that the administration requested. 
So, I would like for you to address what your priorities will 
be to be funded with the 2018 appropriation.
    Ms. Murphy. Thank you, sir. I appreciate the questions. If 
I could start with your question on the Federal Real Property 
Profile? As required by law, GSA published the first version of 
the data for fiscal year 2016 in December of this year. We 
published the updated data in March of this year. So, we have 
the 2017 data as now available.
    We are working very hard with our agency partners to 
improve the quality of the data. There is a working group right 
now that is working to first improve the search capabilities 
and then we are also looking at providing geolocation data, as 
well as trying to improve the accessibility of the utilization 
rates and the utilization data, because we understand this is 
an important tool for policymakers such as yourself.
    Your second question, I believe, dealt with the issue of 
the high-risk list. And the high-risk list is one of my top 
priorities. I have been meeting with the comptroller general. 
He has been kind enough to agree to meet with me every other 
month, so we can really dig down into these areas. I also hired 
someone who came from an I.G.'s office who is coordinating 
GSA's response to both the management challenges and the high-
risk list to make sure that we are not seeing those just as a 
paper exercise, but that we are looking at those as systemic 
issues and really looking at them as ways we can improve the 
direction of the agency and live up to our mission of 
delivering value.
    I have to confess that I am not aware of the warehouse 
issue. I would like to take the opportunity to go back to my 
staff and find out an answer for you so that I make sure that I 
give you the correct information. And your third question, I 
believe, dealt with the Technology Modernization Fund.
    And so, in terms of the Technology Modernization Fund, 
first GSA is very grateful for the $100 million that this 
committee arranged to have appropriated as part of the fiscal 
year 18 appropriations bill. And GSA serves as the custodian of 
those funds, and we are a member of the board that makes the 
decisions. The board is meeting once a week now and is 
reviewing all of the plans that agencies have submitted for 
ways that they can address technology modernization 
requirements.
    Specifically, they are looking at technology that can be 
leveraged across agencies, so it is not just a one-time fix. It 
is something that we get long-term return out of. That it is 
not a new issue. It has got to be an identifiable issue that we 
can really address. And we have been working very hard with 
them to establish that criteria.
    Just yesterday, I announced that we have appointed an 
executive director who is going to help coordinate the 
technical reviews of those proposals, as well as the fiscal and 
business reviews of the proposals, to make sure that the 
dollars spent come back with a return on investment, that they 
are able to repay the fund, and continue that cycle of 
reinvesting. That is part of the reason GSA is requesting 
another $220 million this year, as part of our fiscal year 2019 
request. This is the last year that we are authorized to 
request funds for the fund.
    But given that the Federal Government spends about 90 
billion a year on IT and IT services, and we have a 
demonstrated need to do a better job in managing and addressing 
those services, I will give you an example. In GSA, I have 173 
systems that support the Federal Acquisition Service. That is 
down from over 7,000 the last time I served at GSA.
    So, GSA has made an important commitment to reducing those 
systems. However, many of them still use COBOL as the 
underlying programming language. In doing so, that creates the 
number of systems drive processes that create barriers to entry 
for small businesses, which is something I take very seriously. 
But they also create barriers to access for customer agencies 
that want to access our contract vehicles. And more 
importantly, they also drive business processes that are 
outdated and do not best reflect our ability to deliver value 
to taxpayers. So, trying to make sure that we invest in those 
areas and really do a better job at understanding that our 
ultimate customer, the taxpayer, is served is one of my top 
priorities.
    Mr. Bishop. With the Technology Modernization Fund, are you 
prioritizing, also, security measures for your IT?
    Ms. Murphy. GSA is indeed prioritizing security measures. 
We spend about 7 percent of our IT funds on security right now, 
including support for the public key infrastructure across 
agencies. GSA is having action items under half of the 
recommendations to the President in the report on technology 
modernization. We are supporting DHS in its work on helping 
smaller agencies address their cybersecurity initiatives. And 
we are also, through our data center consolidation initiatives, 
not only saving taxpayer dollars but helping agencies improve 
their cybersecurity and their security posture.
    Mr. Bishop. Thank you. Thank you very much, Ms. Murphy.
    Ms. Murphy. Thank you, sir.
    Mr. Graves. Thank you.
    Mr. Moolenaar.
    Mr. Moolenaar. Thank you, Mr. Chairman. Thank you for being 
here, and your testimony. In the last 3 years, this committee 
has funded the construction of 13 Federal courthouses, 
addressing what was a longstanding backlog in courthouse 
construction. However, in the same time, funding was provided 
for only three land ports of entry. And I wondered if you could 
speak to the need for construction funding for our Nation's 
land ports of entry, and is this a priority, as well as how 
closely does GSA work with Customs and Border Patrol on 
identifying project and funding needs for land ports of entry.
    Ms. Murphy. Thank you, Mr. Moolenaar. GSA works very 
closely with CBP. We each year sit down with them; we have a 
list of their ongoing requirements, but each year we sit down 
and try to reprioritize those to make sure that we are 
addressing their most pressing requirements as we are 
formulating our budget requests. This year, I know that we have 
got a request in for funding for the Calexico land port of 
entry for phase 2. I know that last year we were grateful to 
the committee because it did provide funding for two of the 
land ports of entry.
    That said, I know that we have got a backlog on land ports 
of entry. I believe in your district we have got the Sault 
Sainte Marie port of entry, and we are closely monitoring the 
situation there and trying to work with CBP, and hopefully with 
this committee, on ways to address that.
    Mr. Moolenaar. Just on that note, I did last year visit 
Customs and Border Protection's station in Sault Sainte Marie, 
and at that point, it was No. 21 of 71 on DHS's priority list. 
And it is a leased building, an old grocery store built in the 
1950s, with many safety and security insufficiencies. For 
example, asbestos is prevalent throughout the building, there 
is no fire suppression system, and the building did not even 
have smoke detectors until last year. And to my knowledge, the 
lease on this building, which is set to expire in October of 
2018, has yet to be evaluated.
    And I am just wondering, since the building is leased by 
GSA, does GSA or DHS have the responsibility to evaluate the 
safety and security of the building? I just wonder, how does 
GSA ensure that the managed facilities are safe and secure 
working environments?
    Ms. Murphy. Thank you, sir. It is actually a shared 
responsibility between GSA and the Department of Homeland 
Security through the Federal Protective Service. It is actually 
the issue I believe that your colleague Mr. Bishop was asking 
about the GAO high-risk list. This is an area where GAO has 
specifically drawn GSA/DHS's attention to the fact that we need 
to do a better job of coordinating the security assessments 
that the Federal Protective Service, within the Department of 
Homeland Security, does with the work the GSA does on physical 
security, and that is one of my priorities.
    I have met with the Department of Homeland Security about 
ways we can address the issue. I hope to be making progress on 
this, but I understand that, you know, there are substantial 
issues there that we need to address as part of the lease 
renewal. Actually, there is also a wall in Sault Sainte Marie 
that is in a phase of starting to collapse and that we need to 
make sure that is addressed so that it continues to serve its 
important purpose of actually facilitating the border 
crossings.
    Mr. Moolenaar. So, can I use a baseball analogy? Do you 
like baseball?
    Ms. Murphy. I am a Cardinals fan.
    Mr. Moolenaar. You are? OK, good. Well, you will get this. 
So, you know, in baseball, when there is a pop-up fly ball, you 
know, you have got two fielders running to it. One of them has 
to make the call and, you know, not kind of go back and forth. 
And I guess I am wondering, in this case, who ultimately makes 
the call?
    Ms. Murphy. Ultimately, GSA will either award or recompete 
the lease, so that part of it will be our call. The program 
requirements will always be--and whether the building meets 
those program requirements--CBP's call. And I know that that 
sounds like a terribly bureaucratic answer, or perhaps maybe a 
lawyer answer, where I am just pointing back and forth, but 
statutorily, that is how the responsibility has been set up. 
And so, it does require that important level of coordination 
between the two agencies. I actually met with the former Deputy 
Secretary of DHS recently, and this was one of the issues that 
we discussed; how we can do a better job here.
    Mr. Moolenaar. OK. And I appreciate that you brought up 
Sault Sainte Marie, and I would say it is on your radar screen.
    Ms. Murphy. It is.
    Mr. Moolenaar. So, thank you for that. With that, I yield 
back, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Moolenaar.
    Mr. Quigley.
    Mr. Quigley. Thanks, Mr. Chairman. Thank you so much for 
being here and, again, for your service. To your knowledge, 
when did the administration make the decision not to build the 
suburban FBI facility and instead rebuild where it is?
    Ms. Murphy. Thank you, sir. It is my understanding--and, 
again, I was confirmed in December of last year, so I want to 
be clear that I was not involved with many parts of this 
decision, but I am going to try and answer your question as 
fully and completely as possible--that last July the GSA and 
the FBI, working with OMB, reevaluated the lease exchange that 
had previously been proposed for building a new FBI 
headquarters and prioritizing the need that there was a new FBI 
headquarters that is absolutely required.
    EPW, the Environmental Public Works Committee--forgive me--
asked GSA and the FBI to go back and provide them with a 
report, a plan, on the alternatives, given that it had also 
been 14 years since the original program requirements had been 
developed.
    Mr. Quigley. Before you go there, who briefed you on this 
to catch you up?
    Ms. Murphy. The Commissioner of the Public Building Service 
and some of the individuals within the National Capital Region 
provided me with the details of the history of the program, and 
then I also spoke with the director of the FBI.
    Mr. Quigley. Was anyone else at the White House involved 
with briefing you? Or, to your knowledge, did the President or 
any of the other officials at the White House consult with any 
of these agencies in the decision-making process?
    Ms. Murphy. Sir, the FBI came to me and said that their 
requirements had changed. They no longer required a campus for 
11,000 individuals. They were looking at a campus, and they 
only had a requirement for about 8,300 individuals. And based 
on that, they wanted to put the J. Edgar Hoover site back into 
play. They actually requested that GSA consider renovating the 
building.
    In my conversations with GSA, and then with the FBI, we 
pushed back and did not believe that that was the right answer. 
We thought that the renovation of the building was a point to 
address the setback issues, and, frankly, given that it uses 
something called post-tension cabling to support it, that any 
hardening we tried to do with the building would not be 
successful. And it would be a long-term project that put the 
FBI's mission at risk.
    So, GSA then suggested that instead, if the requirement was 
to stay in proximity to the Department of Justice, and that 
location worked, and it had the infrastructure in place, that 
GSA proposed instead taking the opportunity to demolish the 
current FBI headquarters and rebuild on that site something 
that had the setbacks, that could have hardening, that could 
meet the requirements of the FBI for that new reduced 
headcount.
    Mr. Quigley. But, again, to your knowledge, was the 
President or anyone at the White House involved in those 
discussions, either with your predecessors or people you are 
working with now or yourself?
    Ms. Murphy. Sir, to my knowledge, the direction that we got 
came from the FBI. It was the FBI that directed GSA as to what 
its requirements would be. Given that it is a substantial 
budget request, we coordinated that request with OMB to provide 
for funding, but the requirements were generated by the FBI.
    Mr. Quigley. So, correct me if I am wrong. I am looking at 
a spreadsheet that talks about the differences. Full 
consolidation; new campus--and, again, it shows 11,000 workers, 
but I understand what you are talking about--versus the rebuild 
of 8,300 workers. The rebuild I am showing at $5.180 billion, 
and the new campus at, roughly, a little over $4 billion. Are 
those numbers accurate, to your knowledge?
    Ms. Murphy. Those are not the numbers that I am familiar 
with, and so I am not sure of the spreadsheet you are using. I 
would be happy to have someone come in and walk you through all 
the numbers, though.
    Mr. Quigley. So, what is your understanding of the numbers?
    Ms. Murphy. Between GSA and the FBI, we currently have 
about $700 million that has been appropriated for new 
headquarters. We have requested another $2.2 billion. It was 
first requested as part of the 2018 ad-back through your sister 
subcommittee with CJS last year. This year, we have requested 
instead $200 million to be used as a payment towards a civilian 
building fund that is being proposed as part of the new basis 
for the infrastructure environment; over $2.2 billion.
    Mr. Quigley. I am sorry, I do not mean to interrupt, but I 
am just short on time. I want to take into consideration what 
we are hearing is a $479 million cost for swing space, right? 
Moving everybody out and back in, which has other issues. And 
if we need to go back to the next round, Mr. Chairman, that is 
fine to do this. Does that take into consideration with your 
figures? And also, what is your complete understanding of the 
total cost, new construction versus rebuild?
    Ms. Murphy. I do not have the specific numbers in front of 
me. This is too important for me to get it wrong, so I want to 
make sure I get it right. And I have asked the question 
directly that the numbers that we proposed as part of the 2018 
ad-back and then the $2.2 billion, including the $700 million 
that has already been appropriated, do indeed include the swing 
space for the FBI employees.
    Mr. Quigley. Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Quigley. I am going to ask a 
couple questions and then go to Mr. Cartwright. Calexico--is 
that the administration's top priority in terms of land ports 
of entry right now?
    Ms. Murphy. That is our top priority for fiscal 2019, sir.
    Mr. Graves. OK. On to construction projects. The 
administration transmitted $3 billion in new construction and 
major repairs requests in the fiscal 2018 addendum to the 
budget request. The funding bill we enacted provided for 
several courthouses and one land port of entry. So, looking 
ahead, in 2019, of all the projects that were not included, how 
do you prioritize those projects in the 2018 addendum and 2019 
request?
    Ms. Murphy. Thank you, sir. As you know, the 2018 addendum 
was formulated at the same time we were formulating the 2019 
request, so it was an interesting balance for the two. But each 
year, we sit down with our partner agencies. We make sure we 
understand their priorities. We have an ongoing list of needs, 
but we each year revisit those needs to make sure that, you 
know, do any of them need to be escalated?
    Can any of them step back in exchange for another? What are 
the current priorities of our customer agencies? And then we 
propose those as part of the President's budget. I do want to 
say thank you for the three courthouses last year and the two 
land ports of entry you provided us. We are very grateful, and 
we have already started getting to work on those.
    Mr. Graves. Thank you. Back to the FBI headquarters, when 
will there be an updated prospectus and justification for the 
requested funding level?
    Ms. Murphy. Sir, I met with the Commissioner of the Public 
Building Service yesterday about the steps that are being taken 
to prepare that. We are working on it. We are working with the 
FBI and OMB on trying to make sure that we are moving forward 
with that.
    Mr. Graves. So, no specific timeline?
    Ms. Murphy. I made a commitment, at one point in time, that 
we were going to meet the deadline for the report that was 
promised by the Deputy Commissioner of the Public Building 
Service in August, and we missed that. And I do not ever want 
to miss another deadline. I take it very seriously. I spent 9 
years as a Hill staffer. When people promise you a deadline, 
you had better be able to back it up. So, I want to make sure 
that we are working on it, and I am happy to give you progress 
reports. I do not want to commit to a specific deadline if I am 
not positive that I can make it.
    Mr. Graves. I understand. Knowing the accelerated timeline 
we are on as a subcommittee and full committee, and the 
questions you have from the ranking member and myself and, I 
imagine, some other members as we look ahead, it is probably 
good to have that report sooner than later.
    Ms. Murphy. Yes, sir.
    Mr. Graves. And then, lastly, before going to Mr. 
Cartwright, in the 2018 funding bill that we just enacted, we 
had $5 million in funding for the Asset Proceeds and Space 
Management Fund. You addressed that earlier in your opening 
comments, because this subcommittee is about reducing the 
footprint of the Federal Government as much as we can and doing 
away with unused properties. Can you just give us a quick 
little update on that?
    How will you use funding that we provided you in 2018? And 
as far as standing up the board, when do you see it up and 
running? When do you expect the fund will begin implementing 
the board's recommendations? When will we begin seeing that 
reduction? There is strong interest, particularly from Mr. 
Denham from California, in this effort here.
    Ms. Murphy. First of all, thank you for the funding as part 
of 2018. We are holding that money. We have worked with the 
Office of Management and Budget to make sure we have all agreed 
upon the criteria that the board will be using, that we have 
got the data in place for them to be assessing.
    We have gone out with two data calls to agencies to make 
sure that they have already gone and identified properties and 
that we are ready as soon as--obviously, the chairman of the 
board needs to be confirmed by the Senate, and the other six 
Members are presidentially appointed in consultation with the 
Speaker of the House and the minority leader, sorry, the Senate 
majority leader and the Senate minority leader. So, as soon as 
those individuals are in place, we are ready to go.
    I think that because we have done so much preparatory work, 
they should be able to hit the ground running. And so, we see 
the, you know, initial funding helping support their initial 
analysis in the contracts, and the additional funds would be to 
do the necessary environmental remediation or adjustments so 
that we can get the full value or we can get the best value for 
those properties that we are auctioning off, or for the 
consolidation efforts that the board is going to be 
undertaking.
    In my confirmation hearings, I had to say that we had 372 
million square feet of office space. I can now say that we have 
371 million square feet of office space, and I want to see that 
number go down. I have been meeting with each of the Cabinet 
Secretaries or their deputies to actually talk to them about 
their utilization rates, so I can get a commitment from the top 
that they are going to work with me to push those numbers down, 
so we can deliver a better value.
    Mr. Graves. Thank you for your work on that. It is not too 
uncommon for us to hear that someone is waiting on the Senate. 
We hear that quite a bit. Mr. Cartwright, and then Mr. Amodei.
    Mr. Cartwright. Thank you, Mr. Chairman, and welcome, 
Administrator Murphy.
    Ms. Murphy. Thank you.
    Mr. Cartwright. On behalf of the subcommittee, I apologize 
for Mr. Moolenaar's using a baseball analogy. For anyone from 
Michigan to represent that they know anything about baseball 
when the Tigers are four and nine is a blatant 
misrepresentation.
    But I wanted to ask you a little bit about the Inspector 
General. Of course, we have inspectors general in the Federal 
Government, and they act as watchdogs over the agencies, and 
GSA is no exception. Right? You guys have an inspector general, 
right? GSA's Inspector General recently issued a report that 
found that last year, GSA followed a new policy for 
communicating with Congress, with us, based on ``oral guidance 
and direction from the White House.'' And you are familiar with 
that report, I take it?
    Ms. Murphy. I am, sir, yes.
    Mr. Cartwright. According to the Inspector General for GSA, 
the new policy prohibited responding to ``oversight'' or 
``investigative'' congressional inquiries made by Members other 
than chairmen. GSA officials told the IG that the policy was a 
change from GSA's prior practice, and the IG reported, ``GSA 
officials stated that the prior practice had been to process 
all congressional inquiries for a substantive response, while 
sometimes providing redacted responses or more limited 
information to Members than would be provided to chairmen.'' 
First, are you familiar with that, and do you agree with that 
characterization?
    Ms. Murphy. Sir, I am familiar with the IG's report, and as 
I mentioned, I have been on the job now for 4 months. One of 
the first things that I did was go back and direct that they 
revise the communications policy to address the IG's concerns 
to make it absolutely clear that whistleblowers and others have 
the right and the obligation to bring forward issues, and that 
no policy at GSA keeps them from doing so.
    I have also used my position as the Administrator to make 
sure that we are responsive to all Members of Congress. And I 
think that if you look at the last 4 months, you will see that 
GSA has been very responsive to any requests we have gotten, 
whether from a chairman, a ranking member, or other Members of 
Congress.
    Mr. Cartwright. I do not mean to interrupt you. Are you 
done?
    Ms. Murphy. Yes, sir.
    Mr. Cartwright. Are you disagreeing with the Inspector 
General's statement about what the policy is?
    Ms. Murphy. I believe that they are referring to a policy 
that was in place last year. I have issued a new policy and 
made it absolutely clear and have also testified to this policy 
in front of the Oversight and Government Reform Committee that 
GSA will be responsive to all Members of Congress.
    Mr. Cartwright. Now, is that a written policy or an oral 
policy?
    Ms. Murphy. There is a written policy that addresses how we 
respond to Members of Congress. I spent 9 years as an Oversight 
staffer. And I had the experience of asking GSA for information 
and not getting my call returned, or not getting the 
information sent back to me, or waiting on a letter, or waiting 
on a report. And when I showed up at GSA, one of my first 
questions was, ``Do I now get the briefing I have been asking 
for?'' So, I do not want to ever put anyone else in that 
position. I want to be as transparent as possible and provide 
you all with the information you need to do your jobs.
    Mr. Cartwright. OK, so that is a change from policy, which 
would have prohibited responding to oversight or investigative 
inquiries. Is that correct?
    Ms. Murphy. I am not sure that I would characterize the 
original policy as prohibiting response, but I wanted to make 
it explicitly clear that GSA responds to requests, yes.
    Mr. Cartwright. Well, that was how the IG characterized the 
prior policy. And you are saying that has changed now.
    Ms. Murphy. And that has changed.
    Mr. Cartwright. OK.
    Ms. Murphy. And I believe if you talk to any of our 
oversight committees, they will tell you we have been trying 
diligently to make sure that we are responsive.
    Mr. Cartwright. The IG reported on May 19, 2017, the White 
House provided GSA's Associate Administrator for the Office of 
Congressional and Intergovernmental Affairs written guidance on 
responding to letters from Members of Congress. Are you 
familiar with that written guidance?
    Ms. Murphy. I am, sir, in that I know that there was an 
additional letter that was provided by Mr. Short to Senator 
Grassley----
    Mr. Cartwright. Well, stay with me.
    Ms. Murphy. OK.
    Mr. Cartwright. I am talking about the May 19, 2017 written 
guidance. Will you provide a copy of that written guidance?
    Ms. Murphy. It is not a GSA document, so I want to make 
sure that I am allowed to provide that. If I am allowed to, 
then we will work to make sure you get it.
    Mr. Cartwright. But you are saying to us today, no matter 
what anybody else says, your office is going to be responsive 
to oversight or investigative inquiries from Congress.
    Ms. Murphy. That is correct. And I believe that Mark Short 
sent a letter to Senator Grassley, explaining that the heads of 
agencies have broad discretion, and I intend to use that 
discretion to be as responsive as possible.
    Mr. Cartwright. Thank you. I yield back, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Cartwright. I think, with Ms. 
Murphy's extensive background on the Hill, she understands the 
importance of communication with each and every office. She has 
got great, great history, and a legacy. Mr. Amodei, and then 
Ms. Herrera Beutler.
    Mr. Amodei. Thank you, Mr. Chairman. Welcome, Madam 
Administrator.
    Ms. Murphy. Thank you, sir.
    Mr. Amodei. I am not going to take much time. I just wanted 
to use our time here today to let you know that I want to get 
on your staff's calendar to get sort of an in-depth briefing on 
the little bit that you do in northern Nevada.
    My understanding is that your holdings consist of a couple 
courthouses and a Federal building that are in kind of the 
urban area of my district. And so, I just kind of want to get 
with them to say, ``OK, here is what we have got. Let's make 
sure we know what we have,'' and then to see what is going on.
    I think your regional office is probably located in San 
Francisco for that area. But to talk about what the plan is, if 
there is any, in terms of how GSA stays nimble in terms of 
those areas where it owns square footage and also is at least 
open-minded to opportunities to upgrade or modernize. Because 
one of them is a fairly new courthouse, which I am sure is 
probably OK; but another Federal building and another older 
courthouse, whether there are asbestos issues in those 
buildings, and the operational type of stuff.
    So, I would like to use that time with your staff to go, 
``So, what is the usual policy in terms of assessing where our 
properties are, what they are in terms of--I know there is 
square footage and the rental income. But what is the state of 
the building? And then, also, to see what, if any, there is any 
medium- or long-range plan for GSA operations in western 
Nevada, in this instance. So, I am assuming that that is just a 
matter of getting a hold of whoever your liaison is and getting 
with the right folks. And we will come to you.
    Ms. Murphy. Yes, sir. And I believe you are right: We are 
three Federal buildings in the Second District of Nevada. We 
have got a 1995 courthouse, which I think is the largest of the 
properties, in Reno. There is another Federal building in Reno 
as well, and then there is a third building that I believe is 
in Carson City that is smaller. The second building in Reno is 
from 1965, and the other building is, I think, a 1970s 
building.
    So, yes, we do an evaluation of those buildings every year. 
I would be happy to give you an in-depth briefing on how we 
look at them and the long-term strategy as we look at our 
overall portfolio.
    Mr. Amodei. OK, great. Thank you. Thank you, Mr. Chairman.
    Mr. Graves. Ms. Herrera Beutler, and then Mr. Young next.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. Thank you, 
Ms. Murphy, for being here with us. I was happy to see that you 
addressed the Technology Modernization Fund in your opening 
comments. Modernizing our government IT. infrastructure to be 
more secure, more cost-effective, more efficient, more 
streamlined, especially as we expand our digital platforms, is 
critical. I mean, we often compare it to the private sector, 
and it is a challenge.
    Now, I understand you have named the members of the 
Technology Modernization Board and sent initial guidance out to 
eligible agencies. And since we just approved $100 million for 
the Fund in the 2018 Omnibus, I have a few questions. And I 
understand that Mr. Bishop asked about priorities and 
prioritizing security, so I am going to skip to my second 
there. Given your strong mission focus on improving citizen 
services and increasing the effectiveness of government 
operations, how do you anticipate using TMF funds to help 
enhance delivery of citizen services? And is improving mission 
delivery a priority for this TMF funding?
    Ms. Murphy. Thank you very much, Congresswoman. You are not 
going to remember me, but I had the privilege of staffing you 
when you were on the Small Business Committee years ago.
    Ms. Herrera Beutler. Oh, my heavens. Years ago, because I 
am so old now.
    Ms. Murphy. No, no. I think Jessica Wixon was your staffer 
at the time.
    Ms. Herrera Beutler. Yes, she just left. I am 
brokenhearted.
    Ms. Murphy. She was wonderful. I very much enjoyed working 
with you back then.
    Ms. Herrera Beutler. Good.
    Ms. Murphy. So I look forward to the opportunity to do so 
again. GSA appointed the Commissioner of the Federal 
Acquisition Service, Alan Thomas, as GSA's representative. 
There are representatives from other agencies as well that have 
been appointed. Citizen services; GSA is the custodian of the 
Federal Citizen Services Fund, so it is something we take very 
seriously, and we work very hard on.
    Furthermore, since I have come into office, we have created 
a center of excellence that actually focuses on citizen 
services and is working with the U.S. Department of Agriculture 
on how we can improve citizen services for them. I spent some 
time with them, actually, in Kansas City, meeting with farmers 
on the challenges that they are facing in terms of the outdated 
technology that the USDA is using and how we can leverage that. 
I believe that USDA, among others, are going to be submitting 
business cases to the TMF that will allow for the improvement 
of those citizen services. I will give you an example.
    There was one wonderful woman who was a farmer there who 
was telling us the story of her tractors; actually talk to 
satellites and can tell you exactly how many acres have been 
plowed. And then they have to transmit that data, though. They 
have it themselves. When they go to get crop insurance or deal 
with USDA, USDA uses old paper maps that are not nearly as 
accurate. And so, how can we improve that process? We also 
heard about two different offices that require the same data in 
different formats, and both required paper. So, it takes them 
an hour and a half to go each way. So, how can we improve that 
process?
    And I think that there are simple, low-dollar value 
approaches we can work on there, and I think that one of the 
great uses for the Technology Modernization Fund would be to 
invest in citizen services, especially in a way we can leverage 
across other agencies.
    Ms. Herrera Beutler. How often do you find that two or 
three or multiple agencies are requiring different technology 
and in paper form? You know, it is basically conflicting. How 
often do you find that?
    Ms. Murphy. Frequently, actually. And so, I had a 
conversation with one Cabinet Secretary who was telling me 
about a challenge he had where his agency is required to 
receive paperwork that then has to be Fed-Exed back to the 
person who sent it to them, who then has to send it to another 
agency, who then sends it back to them, who then sends it to a 
third agency, who sends it back to them, and asked if we could 
help them come up with a way that we stop, first of all, the 
back-and-forth, which is costing small businesses and our 
citizens a lot of money, but also improve the process and do a 
better job there. It is also a case inside of agencies as well, 
though. I saw a great robotics process automation 
demonstration. I am going to get a little geeky, if that is all 
right.
    Ms. Herrera Beutler. That is fine.
    Ms. Murphy. I saw a great process where a GSA employee, on 
their own initiative, went and figured out a way that they 
could take a process that normally takes an hour and bring it 
down to under 20 seconds. And we are looking to see if this is 
something we can replicate, but if it is, it means I can use my 
contract specialists to be working on higher-value ad, better 
interaction with citizens, better services to other agencies, 
rather than doing paperwork and data entry, which is--I think 
one of the great tenets of the President's management agenda is 
looking at high-value work rather than low-value work, and how 
do we move the talented men and women who work for the Federal 
Government to that high-value work.
    Ms. Herrera Beutler. That is good. I appreciate it. In the 
last 15 seconds, your 2019 budget proposal included a request 
for $210 million for TMF. Given the complexity of kind of what 
you just discussed, and Federal IT needs, and the need to 
modernize, is $210 million sufficient?
    Ms. Murphy. I think so. This is a proof of concept, and 
this is the second and last year we are allowed to ask for 
appropriations under the legislation, so we are asking for the 
$210 million. That would give us a total of $310 million. It is 
a revolving fund; it allows us to go and make targeted 
investments, get the return on those dollars, reinvest them 
into the next set of projects, and have this as a continual 
improvement process.
    It also should highlight areas where we can get 
demonstrable savings, and then agencies can themselves come 
back and ask for additional appropriations as necessary.
    Ms. Herrera Beutler. Got it. All right. I yield back. Thank 
you.
    Mr. Graves. Mr. Young, then Mr. Quigley.
    Mr. Young. Thank you, Mr. Chairman. Administrator, welcome.
    Ms. Murphy. Thank you, sir.
    Mr. Young. I appreciate your pledge to be responsive, 
having been on the other side as a staffer in the oversight 
process. Myself, having been a staffer as well--and regardless 
of who is in the White House, Republican or Democrat, it gets 
frustrating, so I appreciate your pledge to be responsive.
    How do we get a list of all the GSA properties in our 
districts? Is there a magic website somewhere that we have not 
found yet?
    Ms. Murphy. There is. There actually is.
    Mr. Young. This is a great day.
    Ms. Murphy. I am happy to give you that list. I am also 
happy to have someone pull the data for you. There is a Federal 
real property profile database, and for GSA properties, it will 
not only give you a list, but it will actually do geolocation 
for you. So, it will, you know, show you on a map where they 
are as well.
    Mr. Young. So, with those properties, will it tell us how 
long those properties have been under the management of GSA, 
ownership of GSA and the Federal Government?
    Ms. Murphy. I believe. I want to be careful, but I do 
believe that is does have the age of the property as one of the 
factors. For GSA, some of those date back to 1949, when Harry 
Truman signed GSA into being, but some of the properties 
themselves are older than that.
    Mr. Young. What is the process when GSA takes a look at 
that list and says, ``I do not know why we still have that; the 
community and the public may have a need for this''? What is 
that transfer like? What is that process like? How long does it 
take?
    Ms. Murphy. First, to identify the properties, GSA works 
with other Federal agencies, because usually--it is rare that 
it is just GSA occupying a space. It is usually other Federal 
agencies in that space. If those agencies tell us they no 
longer have a need for the space, or we can work with them on 
consolidation so that we can free up that space, we will then 
make it excess.
    Excess property we turn around and we offer to other 
Federal agencies first, and then, if they are not willing to 
purchase the property from GSA, we will then declare it 
surplus. Surplus property; we then go through a screening 
process where we look at whether or not State and local 
governments or qualified nonprofits, especially those helping 
the homeless, are interested in the property.
    Generally, once we have cleared title on the property, 
which can sometimes be very complicated, and dealt with 
environmental issues, it takes us about a year to dispose of 
it, which is one of the reasons I am very grateful that 
Congress, in 2016, passed FASTA, because that gives us the 
opportunity to pilot an expedited disposal, so we can see a 
faster return on those underutilized properties and turn them 
into funds that can actually support ongoing operations.
    Mr. Young. Great. I know the GSA is currently attempting to 
acquire land in Des Moines for a new courthouse. I would just 
urge you--whether it is Des Moines or any other municipality or 
city--with that process, to make sure that you are always 
informing the constituents, the people in those areas, about 
the process, what you are looking at, public comment, those 
kinds of things. Because it did not start out that way with the 
Des Moines courthouse, and we kind of had to rattle some cages 
here with GSA to make sure that the public was being informed 
and that the city was being informed about the process and what 
was being looked at.
    It is just good to build that relationship, to build that 
trust, to make sure people's voices were heard. Not everybody 
may agree with the end result, but they can agree that a 
process went forward that was fair and where people were heard. 
So, I would just urge you to continue to do that or make that a 
policy.
    Ms. Murphy. Sir, one of my four priorities is transparency. 
As I said, ethical leadership, increase in competition, 
reducing duplication, and improving transparency. I want to 
make sure we are as transparent as possible in dealing with 
communities, with stakeholders. I know that there was a meeting 
last week that I believe one of your staffers and many of your 
constituents attended dealing with the courthouse in Des 
Moines, and I look forward to continuing to work with you to 
make sure we get to the right result.
    Mr. Young. Thank you for that. And then, finally, public 
benefit conveyance. There are certain qualifications a State or 
local government and nonprofits must meet for public benefit 
conveyance. Sometimes this is for educational purposes, parks, 
recreation, homelessness assistance, and those kinds of things 
and more. But there was recently a case in the Third District I 
represent where a transportation company was not allowed to 
receive a public benefit conveyance because public 
transportation was not considered a public benefit.
    Can you think of any good reason why that would not 
considered a public benefit, and if you would be opposed to any 
kind of movement to consider public transportation within the 
definition of public benefit? And if you would, could that be 
done internally, or is the onus on Congress to make that fix?
    Ms. Murphy. Sir, I appreciate you bringing it to my 
attention. I would really like to learn more about this and 
where the definition of public benefit came from. Before I make 
any commitment, I want to understand what the statute says----
    Mr. Young. Fair enough. Thank you.
    Ms. Murphy [continuing]. And make sure that I give you a 
complete and thorough answer.
    Mr. Young. We will connect our staffs together.
    Ms. Murphy. I would love to work together, yes. Thank you.
    Mr. Young. Thank you. And I yield back the last--well, I do 
not have any time left. Thank you, Mr. Chairman.
    Mr. Graves. You always have more time. Mr. Quigley, and 
then Mr. Stewart.
    Mr. Quigley. Thanks again, Mr. Chairman. I have got to tell 
you, this question would be a lot easier if you were not so 
nice and apparently conscientious, and I appreciate your 
wanting to get back. But I think these are fair questions, and 
I would at least like your reaction. But I appreciate your 
service, and I want you to know that I think that we need to do 
these things on an ongoing basis, because circumstances change.
    I mean, currently, I believe the President owns about a 77 
percent interest in the Trump hotel lease. That arrangement 
seems to allow the President to invest today's profits into the 
hotel and then receive profits after he leaves office. And 
given who can use that facility, it opens up, if not real, the 
possibility of conflicts. And it can be, I believe, and is a 
conflict of interest for the President to appoint the head of 
an agency tasked with administrating that very lease.
    So, what analysis was done? What analysis goes on on an 
ongoing basis to ensure that the contract with the President 
has not resulted in the President receiving any emoluments from 
foreign governments? And does the GSA have concerns that it may 
be administrating a contract that violates the Constitution? 
Again, not just how it got to that point initially, but what it 
has done since then.
    Ms. Murphy. As you know, sir, last March, a career 
contracting officer made a determination, supported by other 
career lawyers, that the tenant for the Old Post Office was not 
in violation of his lease. Since that time, GSA has cooperated 
with the Inspector General. We have turned over a large number 
of documents for their review so that they can do a review of 
the analysis that took place. There is ongoing litigation that 
is directly addressing the questions you are raising.
    Obviously, we know that GSA is watching those cases very 
closely, and we are looking to a final determination by the 
courts. However, given that there is ongoing litigation, it is 
inappropriate for me to go into, you know, a lot of detail 
about it. We are watching those cases, and we will obviously 
follow any final determinations.
    Mr. Quigley. But the fact that there is ongoing litigation 
does not limit, as you would understand, the responsibility to 
review this on an ongoing basis. You can at least say that you 
are reviewing the practices on an ongoing basis, correct?
    Ms. Murphy. As the Administrator, I am trying to be very 
careful to never put my finger on the scale to weigh one 
contract or another. I believe that it is my job to make sure 
that we have got the right people and the right processes in 
the job; that they are being conducted in a transparent 
process; that if people have concerns with how they are being--
those processes are being implemented; that they have the 
ability to raise those to their supervisors or as 
whistleblowers; and that we respond to inquiries from 
committees, from Members of Congress; that we also, you know, 
work, you know, with the courts as they are looking at 
important constitutional issues and as they resolve those.
    Mr. Quigley. I understand you referenced the Inspector 
General. But to your knowledge, is there any other process that 
allows you to take this, again, to some other neutral third 
party to review, analyze--someone independent, perhaps, to give 
an opinion?
    Ms. Murphy. For contract administration, we really do not 
have another option that I am aware of. I mean, GSA is 
considered to be the expert on the interpretation of its own 
contracts. That is why we have worked very closely with the 
Inspector General on that. In cases of litigation, obviously, 
we defer to the courts.
    Mr. Quigley. Let me just go back to the FBI headquarters 
for a second.
    Ms. Murphy. Yes, sir.
    Mr. Quigley. And if you cannot answer any of these, these 
would be more--I would be appreciative if you could get back to 
us. The CIA, DIA, NSA, and the Department of Homeland Security; 
they all have their own campuses to mitigate both physical and 
espionage threats.
    As I understand it, the FBI is the only member of the intel 
community with its main campus located in an urban setting that 
does not have a standalone campus, you know. To your knowledge, 
did the FBI discuss this issue with you? Did GSA comment on 
that and raise--did either raise concerns about that? And I 
guess--so I can get all these out in the short period of time--
what changed since fiscal year 2017 that no longer makes the 
best option to consolidate the FBI in either Maryland or 
Virginia?
    If the FBI decided that this was no longer the best option, 
what was GSA's role in helping to come to that decision? Does 
the GSA not have a role in advising other Federal agencies to 
make the most cost-efficient decision compatible with the 
agency's mission?
    And, finally, can you commit to the committee that the 
FBI's new plan to consolidate in its current location is more 
cost-efficient than the earlier plan to exchange FBI Hoover 
building for a new site in either Virginia or Maryland?
    Ms. Murphy. Sir, I am going to try and answer those 
questions quickly, because I know that I am running over on 
time.
    Mr. Quigley. I am, too.
    Ms. Murphy. All right. So, on the issue of a main campus, 
the FBI told GSA that they considered proximity to their parent 
department, Department of Justice, to be paramount, so that 
they wanted to make sure that they were close to their parent 
organization. They also said that, you know, they wanted to be 
close to transportation, that they had other security 
requirements.
    As to your question as to is it not GSA's job to help them 
inform their requirements: yes, it is. However, GSA does not 
have the expertise to substitute its judgment on matters of 
national security for that of the FBI. What we do have the 
ability to tell them is here are the most cost-efficient and 
cost-effective ways to meet those requirements.
    When the FBI came and told GSA that they believed that 
proximity to the Department of Justice was paramount, that 
changed the calculation. The other item thatchanged the 
calculation was that instead of looking for a requirement to 
accommodate 11,000 employees, they were now looking for an 
option that would accommodate just over 8,000 employees. That 
put the site on Pennsylvania Avenue back in play. There would 
have been no possible way to accommodate 11,000 employees at 
the current J. Edgar Hoover site. However, there is a way to 
accommodate those 8,000 employees at that site.
    I am trying to think if there were other questions that I 
missed, and if there are, I would be happy to get back to you 
on them. Hopefully, that will address your concerns.
    Mr. Graves. You did well. Mr. Stewart, Ms. Herrera Beutler, 
and then Mr. Amodei, and that should wrap us up today.
    Mr. Stewart. Thank you, Chairman. We appreciate your 
patience and understanding. Like everyone, we have got multiple 
hearings and bounce back and forth. Ms. Murphy, thank you for 
being here. It is always fun to read your people's resumes, and 
yours is impressive; 11,600 people is an enormous 
responsibility. I also found it interesting you were one of the 
leaders in a technology startup company, because my question is 
going to lend itself in that direction, if we could.
    I am curious to hear about GSA's efforts to improve the 
information technology, especially on the kind of citizen-
facing applications. I am older than you; I am older than most 
people in the room, maybe everyone in the room.
    Ms. Herrera Beutler. Not me.
    Mr. Stewart. Yes, I am definitely older than Ms. Herrera 
Beutler, by a lot. You know, people in my age and generation, 
we generally kind of seek face-to-face interactions with 
agencies or with businesses; certainly not true of my kids. You 
know, we text way more than we talk. I would prefer to talk, 
but, you know, it is just easier, and you end up texting all 
day, which I enjoy as well. And when a citizen needs 
interaction with the government, again, we need to consider 
that.
    I saw something interesting, and I think maybe my staff can 
back me up. It might have been an IRS study. But they said that 
a personal interaction was about $54 per interaction versus an 
electronic one was pennies, like 20 or 30 pennies is all.
    Now, last thing, and then I will get to my question. Last 
year, Congress enacted the Modernizing Government Technology 
Act, which I am sure you are familiar with. It appropriated 
certain money--$100 million--and I want to know what you guys 
have done with some of that money. What is the status of TMF 
within GSA? And give us some good news, will you, please?
    Ms. Murphy. Yes, sir. Thank you very much. The 
appropriations for $100 million--we are very grateful to this 
committee that we received those last month. GSA moved quickly. 
The OMB Director appointed the board; I appointed as GSA's 
representative a gentleman named Alan Thomas, who is the 
Commissioner of the Federal Acquisition Service, who has got a 
lot of expertise actually working for a small business that was 
trying to do business with the government, which I thought was 
an important point of context as well as being technologically 
savvy.
    They are in the process right now of reviewing the second 
round of business cases, and they have established criteria. We 
have appointed an executive director to help support some of 
those--in the assessments. We want to make sure that the 
investments that are made with that $100 million deliver 
returns to taxpayers.
    Mr. Stewart. I am going to accelerate your answer, if you 
could.
    Ms. Murphy. Okay.
    Mr. Stewart. So, you are in the process of defining and 
putting a team together to implement, true?
    Ms. Murphy. The team is in place.
    Mr. Stewart. So, give us an idea of what your goal is. I 
mean, what do you envision is going to be different once you 
have been able to design and implement your plans?
    Ms. Murphy. My understanding is the board's criteria are 
that they are looking for investments that will see a positive 
return, so they can repay the fund quickly; that will have 
technology that they can leverage across agencies, so they will 
not just be hitting a specific issue; that will be improving 
the security of the data and the information that is being--and 
that are going to improve citizen services.
    I wanted to comment on your--you were discussing contact 
centers or how we make it possible. One thing GSA is doing 
outside of the Technology Modernization Fund is we are in the 
process of putting in place a new contact center contract for 
other agencies that works with them, and we have also got a 
center of excellence trying to further it, to make it easier 
for individuals to contact the government the way they want to, 
whether it be trying to make sure first that their websites 
have the information available easily and readily so that they 
do not need to call--because if you can avoid a phone call to a 
government agency, that usually makes most people happy.
    But when they do need to contact, can they do it through 
text message, through phone? What is the way that they want to 
reach us, and how do we facilitate that happening, so they get 
the result quickly and that we respect their time? As a small 
business owner, I think you probably know that time is what 
kills everyone in dealing with the government. So, trying to be 
respectful of that.
    Mr. Stewart. Yeah. I appreciate that. And so, bottom line, 
are you optimistic that we are going to have a better 
experience for U.S. citizens on this?
    Ms. Murphy. Oh, yes, I am. And I will tell you another 
reason I am optimistic about it. If you look at the President's 
management agenda, it puts an incredible amount of emphasis on 
the citizen experience and making sure we always put that first 
in all the investments or all the initiatives we are trying to 
pursue.
    Mr. Stewart. And this will take how long?
    Ms. Murphy. The Technology Modernization Fund--we are just 
starting the President's Management Agenda. We have quarterly 
deliverables that are supposed to be accompanied by successes. 
However, it is a 10-year plan with quarterly milestones that, 
each quarter, we come back and we deliver.
    Mr. Stewart. I was loving your answer until I hear the 10-
year plan part. But----
    Ms. Murphy. I think 10 years is actually--I think you 
should love 10 years, because if we told you we could do it in 
a year, it would not be a candid answer. If we told you that we 
were going to take successes every quarter and build upon those 
and have it be an iterative process, that is a real answer.
    Mr. Stewart. Okay, I can accept that. I appreciate your 
candor. We have already established I am old. I might not even 
be alive in 10 years, but do what you can. Chairman?
    Mr. Graves. Ms. Herrera Beutler, and then Mr. Amodei.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. I am going to 
switch over to transportation. The budget proposes to purchase 
the DOT building headquarters located here in DC. I am 
pointing, because it is that way. Let's see, where are we? Yes. 
It is not too far. We walk by it from time to time.
    Ms. Murphy. Yes, down by the ballpark.
    Ms. Herrera Beutler. Yes, down by the ballpark.
    Ms. Murphy. It is all back to baseball.
    Ms. Herrera Beutler. For $768 million. GSA is currently 
renting the building for about $490 million annually. Two 
questions: Where does GSA prioritize this lease purchase among 
the other construction requests in the Federal budget fund? And 
secondly, are there timing constraints for executing this lease 
purchase, and what are they?
    Ms. Murphy. If I answer the second question first, and 
then----
    Ms. Herrera Beutler. All right.
    Ms. Murphy. There are, indeed, timing constraints. The 
building was a build-to-suit for the Department of 
Transportation. It is a 15-year lease, and we have got a 
purchase option that we can exercise at a fair market value. We 
have to notify the vendor--sorry, the lessor--of our intention 
to exercise that option so that we can achieve the savings.
    If not, we can pay them to extend that option, but that 
again means more cost for taxpayers. So, that is why it is part 
of this year's budget, and that is part of how we prioritized 
the requirement.
    Obviously, the Department of Transportation needs a 
headquarters within the District. We have got a site that meets 
their requirements. Having them move and build a new site is 
not--is going to cost billions of dollars. This will allow us 
to have that property and continue to maintain and invest in it 
for decades to come, so it can be a long-term asset and part of 
the Federal patrimony in terms of our infrastructure.
    Ms. Herrera Beutler. Okay, great. So, in terms of 
prioritization among other construction requests in the 
building fund, it is up there?
    Ms. Murphy. It is. One of our top requests for 2018. I 
think, dare I say, we have got a few other requests in there as 
well--the land port of entry at Calexico is a priority--and so 
all of these together we think are an important--they make a 
comprehensive package request.
    Ms. Herrera Beutler. Got it. Thank you. I yield back.
    Mr. Graves. Thank you, Ms. Herrera Beutler. And for the 
final question, Mr. Amodei is recognized.
    Mr. Amodei. Thanks, Mr. Chairman. Madam Administrator, if 
you could just have your staff figure out which assisted living 
facility Mr. Stewart will be in at that 10-year thing, and if 
you could get him that information----
    Ms. Murphy. We cannot speak to that.
    Mr. Amodei [continuing]. That would be great. I will go 
ahead and pay for that out of my campaign account. Just let me 
know.
    Okay, I want to expand our earlier discussion just a little 
bit. If it could include also, to the extent that your agency 
knows, its lease portfolio in that neck of the woods, I would 
like an idea of that, because that follows on to--I do not know 
if you are aware or not, but if you are, what other agencies 
are not going through you to perhaps lease properties in the 
area? And, obviously, the reason for wanting to know that is 
what is the Federal footprint in a given area?
    I know that your actual ownership footprint is not that 
extensive, which brings to me to the last one. I would like to 
have a discussion with your folks on FASTA and the concept of 
Federal lands bills. And everybody goes, What is he talking 
about? Well, when you are in the West, you are talking about 
the fact that the Federal Government, usually through the 
Department of the Interior--skip the Department of Defense for 
now--owns a heck of a lot of land.
    And there are lands bills that come from time to time, and 
in my district, there are two that are being prepared for the 
counties in both urban areas of the state, which is Washoe 
County, where Reno is, and Clark County, where Las Vegas is.
    And so, when we talk about this appropriations process, and 
it is like, Well, hey, if you want a Federal building or 
whatever, then that costs money, and you have got to go through 
the--I get all that, except that in some instances where there 
may be a Federal estate which can, quite frankly, potentially--
GSA can be given a piece of land on the perimeter that somebody 
else wants to do something else with that can potentially 
provide some proceeds to do something downtown or wherever 
else. Now, I am fully cognizant of the phrase earmark, but if 
it is not for just one district, or if it is--you know, there 
are ways to do that legitimately without making it that. But I 
suggest that only as something that maybe ought to be looked at 
in terms of providing another funding source for the Federal 
Government consolidating its administrative footprint in areas 
where it operates.
    So, I would like to have that on the table, too, when we 
talk; the lease picture, as well as--has anybody thought about 
the potential application of something like that to use the 
Federal estate to Federal benefit where there is a growth 
issue?
    Ms. Murphy. Thank you, Congressman, and I would be happy to 
make sure we give you all the lease information as well. As you 
know, about half of our square footage at this point in time is 
leased, and so, to get a full picture of what our portfolio is, 
you do have to look at the lease space. We are making every 
effort to move people out of leased space and into Federal 
buildings. I actually met with the GAO, and we are actually 
helping them move all of their offices into Federal buildings 
and consolidate those right now.
    Mr. Amodei. And so, I guess it goes without saying that for 
those buildings that are yours that you lease, you lease them 
at a rate where GSA breaks even or makes money. It is not a 
red-ink proposition for leasing space in a Federal building to 
a Federal agency. Is that correct?
    Ms. Murphy. When we lease space from the private sector, we 
pay the negotiated rent that goes through a prospectus process 
here and is approved by both our authorizing committees and 
ultimately through the appropriations process.
    When we are leasing out space within Federal buildings, we 
do it at commercial rates so that we do break even, and we can 
maintain the building. The exception being things like land 
ports of entry or where there is really not a commercial 
equivalent, where they are so specialized, and we do those at a 
return on investment rate.
    Mr. Amodei. So, potentially expanding your fee hold or 
interest in Federal space is not a money-losing proposition, 
because the user pays whatever the costs are for that.
    Ms. Murphy. I want to be careful, because I have not though 
about this before, and I want to make sure I give you a full 
answer on it. But it is something I would love to talk to you 
about and make sure that we get you the information necessary.
    Mr. Amodei. Fair enough. Thank you. I yield back, Mr. 
Chairman.
    Mr. Graves. Thank you very much. Ms. Murphy, thanks for 
joining us today. It has been a delight to have you, and 
congratulations on making it through your first Appropriations 
Subcommittee hearing. You did very, very well, and we 
appreciate your thoughtful responses to a lot of thoughtful 
questions by the committee members.
    I am looking forward to working with you in the days ahead 
as we finalize this product and move it through the committee 
and through the House floor. Thank you very much, and with 
that, this hearing is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 18, 2018.

                             THE JUDICIARY

                               WITNESSES

HON. JOHN W. LUNGSTRUM, CHAIR, COMMITTEE ON THE BUDGET OF THE JUDICIAL 
    CONFERENCE OF THE UNITED STATES
HON. JAMES C. DUFF, DIRECTOR, ADMINISTRATIVE OFFICE OF THE UNITED 
    STATES COURTS

                  Opening Statement of Chairman Graves

    Mr. Graves. Good afternoon. We will call this hearing to 
order. Today we would like to welcome Judge John Lungstrum. 
Thanks for joining us today and being a part of this hearing. 
As the new chair of the Budget Committee for the Judicial 
Conference, we welcome you to your first hearing.
    I have enjoyed our time together, as we have met 
previously, and I know that you have taken over a role from 
somebody we had dear affection for and that is Judge Gibbons 
who was fantastic. We know that you will fill those shoes very 
well in your tenure as budget chair. Mr. Duff, we welcome you 
back.
    Mr. Duff. Mr. Chairman.
    Mr. Graves. You have been a longstanding participant in 
these hearings and have done a magnificent job, and we 
appreciate your service. I expect today we will have members 
coming and going throughout the day. We have a busy schedule 
for all Members on our 12 subcommittees as we have an 
accelerated process right now to move the appropriations bills 
through the subcommittees and full committee.
    So, as you see members come and go, we will ask you each 
questions throughout the afternoon. We certainly look forward 
to your testimonies and remarks, and if the ranking member has 
any opening remarks, he will be recognized right now.

              Opening Statement of Ranking Member Quigley

    Mr. Quigley. Thank you, gentlemen. Thank you, Mr. Chairman. 
I would like to join you in welcoming Director Duff back before 
the subcommittee, as well as Judge Lungstrum for his first 
appearance--is that correct?
    Judge Lungstrum. Yes, sir, that is correct.
    Mr. Quigley. Very good. We will keep our remarks brief in 
the interest of allowing sufficient time for questions. And as 
I have said many times, a well-functioning Federal court system 
is a key pillar to our democracy and is fundamental to ensuring 
the constitutional rights of all Americans are not infringed.
    But it cannot properly function without the support of this 
committee. It is crucial that we provide these courts with the 
resources needed to effectively and efficiently perform their 
constitutional duties. As a former practicing lawyer, I 
understood and deeply value the work that you do.
    The recently enacted fiscal year 2018 appropriations bill 
included an increase of $184 million over the prior year's 
discretionary appropriations, and you budget request for the 
fiscal year 2019 continues the work to rebuild and invest in 
the future of our court system.
    In particular, it is my view that the adequate funding of 
the Federal Defender Services Program must be a priority. I was 
pleased that Congress was able to provide a 3 percent increase 
for the program in 2018 and I would like to follow the needs 
closely to be sure that we stay on top of the resource 
requirements.
    I remain a staunch advocate and defender of the work you do 
and will do all I can to ensure that robust funding for the 
judiciary remains a priority. Once again, welcome, and we look 
forward to your testimony. Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Quigley. Judge, you are 
recognized for any opening comments you may have. We know that 
you have submitted a written statement for the record and we 
have all viewed that.

                  Opening Statement of Judge Lungstrum

    Judge Lungstrum. I will make very brief oral remarks in 
keeping with the thought to save as much time as we can for 
questions.
    Chairman Graves, Ranking Member Quigley, and other members 
of the subcommittee as you may come and go, thank you for the 
opportunity to appear here today with Director Duff to testify 
on the judiciary's fiscal year 2019 budget request.
    In February, I succeeded Judge Gibbons as chair of the 
Judicial Conference's Budget Committee. Judge Gibbons, of 
course, appeared before this panel many times. I look forward 
to working with the subcommittee in my new role.
    In the interest of time, I will make very brief opening 
remarks, highlighting our 2019 funding priorities and our 
ongoing cost-containment efforts in our space and facilities 
program.
    First, and most importantly, I want to thank the 
subcommittee for the 2.7 percent increase we received for 2018 
and the recently enacted omnibus appropriations bill. We are 
particularly grateful for the $10 increase in the daily payment 
to citizens performing Federal jury service, as well as the $6 
increase to the hourly rate paid to private attorneys serving 
as court-appointed defense counsel. We greatly appreciate you 
again making the judiciary a funding priority.
    For 2019, we ask for a 3.2 percent overall increase above 
the 2018 appropriation level that we assumed in building our 
request. We are recalculating our 2019 appropriations 
requirements based on the final enacted 2018 funding and will 
inform the subcommittee of the changes that the recalculation 
will bring about later this month.
    A 2.4 percent increase is necessary to maintain current 
services. The remainder of the request is for targeted 
enhancements for courthouse security and infrastructure costs, 
initiatives in our probation and defender services programs, 
and other priorities.
    We seek funding increases for several security-related 
items, including $5.5 million to begin implementation of a 
multi-year strategy to replace aging building access systems 
and $2 million for additional court security officers to 
improve courthouse security. Our request also includes $12 
million associated with new courthouse construction projects. 
GSA funds the construction of new courthouses, but certain 
telecommunications, security, and other infrastructure expenses 
are the judiciary's responsibility. So, we are requesting funds 
for those also.
    In our probation program, we are requesting $13 million to 
replace the case tracking system which our officers use to 
supervise offenders released from prison and living in the 
community and defendants on pre-trial release. This enhancement 
is much needed and will improve officer and public safety.
    In our defender services program, we seek an additional $2 
million for an additional $6 increase to the hourly rate paid 
to court-appointed private attorneys. The Judicial Conference's 
goal is to attain the full statutory authorized hourly rate of 
$147 and the requested increase would put us within $1 of that 
goal.
    We also seek $3 million to support hiring in federal 
defender offices consistent with recently developed staffing 
formulas. Other enhancements include four additional magistrate 
judges to address workload needs in Puerto Rico, Texas, South 
Dakota, and Georgia, and several other smaller initiatives for 
cybersecurity and training.
    We have a number of cost-containment efforts under way, 
which include those in our space and facilities program, which 
are achieving significant savings. Our space reduction efforts, 
combined with changes to rent pricing policies that were 
negotiated with the GSA, generate judiciary rent savings of 
nearly $80 million annually.
    I discuss these savings in greater detail in my written 
testimony. Thank you again for the opportunity to appear here 
today, and I reiterate that I look forward to working with the 
subcommittee.
    I ask that you make part of the record my statement and the 
statements of the other judiciary entities on whose behalf we 
submit budget requests. That concludes my remarks, and I am 
happy to respond to any questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Graves. Great. Thank you, Judge. Before we go to 
questions, we will recognize Director Duff to share any remarks 
he may have. Thank you again, Director.

                   Opening Statement of Director Duff

    Mr. Duff. Thank you, Mr. Chairman and Ranking Member 
Quigley. It is great to be with you and members of the 
subcommittee again today. I am pleased to appear before you and 
to provide also very brief opening remarks. A more detailed 
written statement has also been provided to the subcommittee. I 
first will join the thanks of Judge Lungstrum for our 2018 
appropriations. We are very grateful for that.
    My first task today as Director of the Administrative 
Office of the United States Courts is to present its budget. 
For fiscal year 2019, the A.O. requests $89.9 million, which 
represents current services levels.
    Although there are no new spending initiatives planned for 
fiscal year 2019, our request will provide critical funding to 
sustain the work of the A.O. as it facilitates the judiciary's 
national programs and policymaking processes, and supports 
courts, probation and pre-trial services offices, and Federal 
defender organizations around the country.
    My second task is as secretary of the Judicial Conference 
of the United States and that is to ask for the subcommittee's 
support for a handful of Judicial Conference priorities that 
are beyond the Administrative Office's own budget request and 
extend to the judiciary as a whole.
    The first of these priorities is continued, 1-year 
extensions of eight temporary judgeships whose authorizations 
otherwise would expire in fiscal year 2019. Without these 
extensions, affected districts could lose a critically needed 
judgeship, which will increase caseloads for the remaining 
judges and slow the processing of cases.
    While we continue to hope that the authorizing committees 
will create new permanent judgeships in these districts, we 
respectfully request your assistance in obtaining the necessary 
interim extensions.
    A second Judicial Conference priority for which we are 
seeking the subcommittee's support is the sufficient funding of 
judiciary needs within the budget of the General Services 
Administration. For fiscal year 2019, we request $25.4 million 
for GSA's Capital Security Program. The Capital Security 
Program addresses serious security deficiencies in courthouses 
where renovations are viable alternatives to new construction.
    In addition, we ask that any funds for new courthouse 
construction be applied consistent with the Courthouse Project 
Priorities plan that is in effect at the time the appropriation 
is made.
    We understand that there are many competing demands for the 
funding in your subcommittee's jurisdiction and for that reason 
remain very grateful for your generous and continued support of 
the judiciary's priorities and needs. That support directly 
enables the judiciary to perform its vital constitutional role.
    As always, we hope to retain your confidence and your 
support moving forward through another year of effective 
performance of our duties and careful, efficient stewardship of 
taxpayer resources. That concludes my opening remarks, and I 
would be pleased to answer any questions you may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           JUDICIAL VACANCIES

    Mr. Graves. Thank you both. I have a few questions, and I 
know Mr. Quigley will as well. When Judge Gibbons was before us 
last time, we had a discussion about judicial vacancies. Can 
you give us an update on what you have seen in terms of the 
filling of these vacancies? It seemed like it was well over 100 
at the time. Has it improved?
    Mr. Duff. Judicial vacancies are being filled in the 
current Congress and the administration. But we are also having 
judges take senior status, which creates new vacancies. We have 
about 140 vacancies at the moment, and it is important that we 
do fill those as best we can.
    Of the 140 vacancies that exist, 68 of those vacancies are 
what we consider emergencies, and that is a determination that 
is made by a couple of formulae. One is having an excess of 700 
cases per judge in a particular district where a judgeship is 
vacant. Another is if there is a greater than 18 months vacancy 
period of time. So, vacancies remain a very important part of 
our agenda and we work to see that they are filled as best we 
can.
    Mr. Graves. We recognize that it is a little bit out of 
your control given the Senate confirmation process. It seems to 
be a little slower than we would like to see right now. How do 
you reflect the vacancies in your budgeting? That has got to be 
a challenge.
    Judge Lungstrum. What we generally do is make an assumption 
based on historical trends. And then, of course, we have to 
adjust if, in fact, there are fewer confirmations than history 
would predict; then, that means we have allowed for too much. 
On the other hand, if there are more, then we go the other 
direction.
    With this number of vacancies, should they, in fact, be 
filled over a short period of time, that would be a budgetary 
pressure because we are not predicting that necessarily based 
on historical figures. So, that higher than usual vacancy 
number could play out as requiring some adjustments in terms of 
how to pay for that.

                             CYBERSECURITY

    Mr. Graves. Addressing cybersecurity, I think each of you 
referenced it in your statements as one of the pressing issues. 
I think we recognize that and I know Mr. Quigley joins me with 
concerns about those issues throughout all the different 
agencies we oversee in this committee. Can you give us a little 
update on the judiciary and cyber readiness?
    I know we provided, $85 million in the last spending bill. 
There was a new request for $95 million this year. Can you 
justify the new spending? Is it something we should expect each 
year?
    Judge Lungstrum. Let me sort of start with the last part of 
the question and work back. The answer is yes, sadly, because 
the people who are out there trying to engage in activities 
that we do not want to have take place keep developing new 
approaches, new techniques. They try to outsmart whatever 
hardware, software, and behavioral techniques are used to 
defeat them.
    So, our thought is that we are probably going to be looking 
at an ongoing request at about this year's level because it is 
just that complicated an issue. I am not a technology person, 
in terms of my own personal skills and understanding, but the 
best minds that we can find tell us that it is just going to be 
an ongoing consideration. We have to deal with attempting to 
prevent intrusions. We have to deal with recognizing when 
somebody has beaten the firewalls or whatever and deal with the 
problem if that should occur.
    And we have to make sure that the user, both court 
personnel and judges alike, are very sensitive to all of these 
activities. And that simply, both in terms of hiring people and 
in investing in various programs, is an expensive proposition. 
And frankly, I think we are just left with a situation of 
having to come back and continue to ask for a significant 
amount of funding to deal with what is our number one 
administrative priority within the judiciary.
    Mr. Graves. So, as you look at spending this money, it will 
be on people, infrastructure, software. A combination of 
things. We met with GSA earlier this week and they have a 
priority as well government-wide.
    I know our committee has concerns about rebuilding a lot of 
silos that ultimately are not connected, or are not 
communicating, or are not in parity with software versions, or 
modern technology, or abilities. How do you keep parity? And 
how do you work with the GSA as well?
    Judge Lungstrum. Jim, I will defer to you on that.
    Mr. Duff. Sure. And we have additional challenges in that 
we are coordinating among all the districts around the country 
and all the circuits around the country in our efforts. So, it 
is a massive coordination challenge for us. We have devoted 
substantial resources, both in, thankfully, the appropriations 
we have received and the people we have put on the task.
    Trying to stay ahead of those who are trying to break into 
the system is a challenge, not only for us in our branch, but 
for government and business as a whole, as you know. But just 
to give you a sense of that challenge, we have had in fiscal 
year 2018 already 11 million attempted break-ins to the system. 
So, it is, as you have articulated, a challenge. But it is one 
that, as Judge Lungstrum mentioned, is our highest priority in 
the branch.
    Mr. Graves. Great, thank you. Mr. Quigley, you have any 
questions?

                       FEDERAL DEFENDER STAFFING

    Mr. Quigley. Thank you, Mr. Chairman. Thank you again for 
being here. The Federal Defender Program took a hit during 
sequestration. Can you give us an update of where we are now 
and how your fiscal year 2019 request addresses that?
    Judge Lungstrum. Thank you for asking about that because 
that is a subject, I think, that we are very much desirous of 
making sure we get it right with our request, and I think we 
have. The defenders lost a considerable amount of staff during 
the period of sequestration and we have had to work hard to get 
them built back up. And that has largely been accomplished back 
to the pre-sequestration levels.
    With this year's request, we would then put them up to 
approximately 98 percent of their work measurement formula that 
is relatively new to the defenders.
    Mr. Quigley. What percentage of cases do they handle?
    Judge Lungstrum. I cannot give you an accurate number with 
that, compared to Criminal Justice Act (CJA) panel attorneys, 
other than based on my own district. I know in my own district 
it is about a 60/40 split. With the work measurement formula, I 
think we have gotten more people in defenders' offices. So, 
that means that defenders can take cases, other than where 
there is a conflict, to a greater degree than they were able to 
before, which lowers the CJA panel attorney utilization.
    On the other hand, we do not want to keep CJA panel lawyers 
from handling cases too much, diverting cases to the defenders, 
because they need to be able to keep their expertise on those 
cases. So, it is kind of a delicate balance to keep the CJA 
panel attorney numbers as high as possible.
    But I think, generally speaking, the proportion of cases 
handled by the defenders compared to CJA panel lawyers has been 
on the increase over the last couple of years.

                        DAILY JUROR COMPENSATION

    Mr. Quigley. We got an increase in juror pay for 2018 and 
glad to be a part of that. I appreciate my colleagues support 
on that. Just how much has that mattered? I mean, are we able 
to analyze what the impact is in the system for just how much 
jurors are getting paid?
    Judge Lungstrum. I think it is too soon to tell whether, in 
fact, that is going to make an actual difference in terms of 
the rate of jurors who attend rather than try to figure out 
some way not to attend. But I cannot tell you how appreciative 
we are of that increase. $10 does not sound like a lot of 
money, but it has been sitting at this level since 1990 while, 
if it had been adjusted for inflation, they would be making 
closer to $75 a day.
    And so, even though $10 does not get to even a realistic 
number compared to what inflation would be, I think, if nothing 
else, it shows a commitment by all of us, both the judiciary 
and the Congress, to treating citizens well who are spending 
their time making very difficult decisions, only because their 
name came up by a random draw. And in many places, it may be 
only 40 percent of businesses actually help out with jurors 
when they lose pay by virtue of serving.
    So, how it is going to translate into better numbers of 
people showing up? It is too early to tell. But I am convinced 
that it is going to make people feel better. We are trying, and 
I think it is going to make them feel like the experience is a 
better one for it.
    Mr. Quigley. Can you explain, just so we have a public 
understanding of this, how that relates to the grand jury 
situation and how long they sometimes sit?
    Judge Lungstrum. Honestly, the grand jury situation is a 
whole other matter. I mean, as you know as a person that 
practiced law, you can have a jury trial that lasts a day or 
two. You can have a jury trial that lasts months. So, you can 
have that in a jury situation. Almost all grand juries sit for 
as much as 18 months. And they may come in every month or 6 
weeks and take 2 or 3 days of their time. So, how those people 
are able to function with that----
    Mr. Quigley. Do they get paid the same amount?
    Judge Lungstrum. They do. I wish there were another 
approach to that. I have presided over grand juries as a 
district judge a number of times. I have been a district judge 
since 1991. So, I have presided over a number of grand juries. 
And when you select that grand jury, those folks come in and 
you say, ``Congratulations. You are going to get to be with us 
for the next year and a half.'' And you will see a lot of 
people looking like they have just gotten some bad news handed 
to them.
    [Judge Lungstrum submitted the following for the record:]

    Effective May 7, 2018, Federal jurors will be paid a fee of 
$50 for each day of actual attendance at a trial or hearing. 
This amount is set in statute (28 U.S.C. 1871) and, as noted by 
Judge Lungstrom, applies to both petit and grand jurors. The 
statute also provides that petit jurors serving more than 10 
days on a single case or grand jurors serving more than 45 days 
of actual service may be paid an additional $10 per day, at the 
discretion of the presiding judge. For this reason, you may 
find some grand jurors sitting for multiple months and 
receiving higher compensation than other grand or petit jurors 
who are participating in shorter proceedings.

    What is interesting--and this is, I think important not to 
forget--both with trial juries and grand juries, almost always, 
when you talk to them after they finish their service, they 
have felt that it was really worthwhile. Once they get past 
that initial shock, that they are having to do this, having 
done it, they almost always say, ``Wow, this is something I am 
glad I had the chance to do, to participate as part of our 
system.''
    I always explain to the jurors in the voir dire process 
that, in addition to voting, this is one of the times in which 
you are actually exercising that citizen's right and power to 
be part of your governmental structure.
    And by the time it is all over, they are feeling pretty 
good about it. So, I am somewhat reassured that, generally 
speaking, the process is well received. That does not mean it 
is not a hardship or an inconvenience. And I think that is an 
issue.
    Mr. Graves. Mr. Cartwright, you are recognized.

                           WORKPLACE CONDUCT

    Mr. Cartwright. Thank you, Mr. Chairman. Judge Lungstrum, 
thank you for being here. And Director Duff, you too. Director 
Duff, as head of the Federal Judiciary Workplace Conduct 
Working Group----
    Mr. Duff. Yes, sir?
    Mr. Cartwright. I do not want to try to pronounce the 
acronym for that. I trust you can shed some light on some of 
the specific initiatives that you have taken to improve 
reporting procedures for misconduct in the workplace.
    Mr. Duff. Yes, sir.
    Mr. Cartwright. There is an awful lot of talk about that 
lately, and probably rightly so.
    Mr. Duff. Yes.
    Mr. Cartwright. In your letter to Senators Grassley and 
Feinstein, you say that, ``the working group is removing 
barriers to filing complaints.''
    Mr. Duff. Yes, sir.
    Mr. Cartwright. And so, what I am interested in is if you 
can shed some further light on specifically what barriers have 
been removed and can you describe how filing a complaint now 
differs from how filing a complaint was before the working 
group's current initiative?
    Mr. Duff. Thank you for the question, and I am pleased to 
report on the progress of the working group. As you know, I was 
directed by the Chief Justice in his year-end report to put 
together the working group. His year-end report was issued on 
January 1st. We assembled the working group by January 12th. We 
have met as a group. We have eight members--I would say seven 
distinguished members and myself--so totaling eight.
    But we have met three times in person and been in daily 
contact since January 12 with regard to our efforts to analyze 
and improve processes and procedures within our branch of 
government on workplace conduct, complaints, and issues. And we 
have been able to determine where some immediate improvements 
can be made.
    We had an initial challenge of some misunderstanding with 
regard to our confidentiality provisions in our ethics rules 
that were implemented, frankly, in the aftermath of social 
media to preserve confidences within the branch, 
understandably.
    But those had been misinterpreted by some employees and law 
clerks as to prohibiting disclosure of workplace misconduct. 
That was never intended. And so, we have made revisions already 
to the confidentiality provisions in our ethics guidelines for 
our employees and law clerks.
    But there are a number of other areas where we have already 
discovered potential improvements, and we have opened up our 
process of review to employees and law clerks for their 
participation. We have had a lot of feedback directly to our 
working group and within the circuits around the country from 
employees and law clerks as to what those barriers to filing 
complaints might be. This is still an ongoing process; we have 
not finished our work and probably will not. It will be an 
ongoing project because we will want to review the progress 
that we have made.
    But what we have determined, clearly, is that one of the 
barriers to filing is the formality of our complaint process. 
There are really two mechanisms to file a complaint right now. 
One is under the Conduct and Disability Act, which is a 
statutory provision with very detailed requirements to file a 
formal complaint. And the second formalistic complaint process 
is through the employment dispute resolution process. There 
again, it requires a formal complaint. And what we have been 
hearing, and what is supported by all the studies that we have 
examined up to this point, is that employees need and want a 
less formalistic process. The formal complaint process works to 
the extent it is utilized.
    But many employees just want guidance, counseling, and, we 
think, intervention earlier on in the process so that you do 
not need to get to the formal complaint process.
    And so, we are going to create other outlets for employees 
within the branch, both at a national level and throughout the 
circuits. And we have relied on an EEOC study which, I think, 
demonstrates what we have also learned in our process of 
listening to employees and law clerks as to their concerns.
    And the EEOC study, which was an 18-month study of 
workplace conduct in all walks of life--both public and 
private, determined that 75 percent of people who have 
experienced harassment in the workplace never file a report, 
never report it to their superiors never pursue process.
    And that figure is stunning. And so, we took the approach 
of how do you identify those barriers? How do you remove them? 
How do you ensure that our employees have a safe work 
environment and one in which they feel free to complain without 
retaliation?
    Mr. Cartwright. That is where I was going to go. And if the 
chairman will indulge me one more question? I think about the 
close-knit confines of judicial chambers.
    Mr. Duff. Yes, sir.
    Mr. Cartwright. You have a brand-spanking new lawyer out of 
law school: bright-eyed, bushy-tailed, and regards the Federal 
judge that he or she works for as a part of the pantheon of 
demigods and----
    Judge Lungstrum. They are soon disabused of that.
    Mr. Cartwright. But it is such a small, close-knit 
operation that what I wonder is the working group doing 
something to enlarge the protections that an employee has who 
files a complaint, either formal or informal?
    Mr. Duff. Yes. And again, I think providing more options to 
the employees and to the law clerks----
    Mr. Cartwright. I mean protections against retaliation, as 
you mentioned.
    Mr. Duff. Yes. And, actually, those protections exist. 
Within the model employment dispute resolution plan, there is a 
specific provision that prohibits retaliation against those who 
complain.
    Judge Lungstrum. If I could just interject for a second. I 
have been a chief judge and I have been a district judge for a 
long time. And I think one of the points that Jim is trying to 
make is that there is a misunderstanding about confidentiality 
compared to trying to have grievances addressed. Because 
obviously you do not want your law clerk going out to their 
friends and saying, ``Wow, I am working on this case and it 
could well invalidate a patent''--obviously, whatever it might 
happen to be. That has to be strictly confidential. That is 
what the confidentiality thing is all about.
    I do not expect my law clerks to not talk. If they want to 
go out and say I am not a very good judge, that is up to them. 
If they want to go out and say they do not like the fact I am 
bald, then that is fine. We are not hung up on those things.
    At the most pertinent stage of things, I think we recognize 
there are bad apples in any barrel. But I think, by and large, 
we all recognize we are held to very high standards for the 
reasons that you have stated, and that we should be held 
accountable if we violate those standards.
    So, I think once some of this informational situation is 
taken care of so that people understand where things are, I 
believe that will help. Because I think a lot of it is tied up 
in what I have just described.
    Mr. Duff. And I think it is education, too, within our 
branch and with our employees. Many of them were unaware of 
these outlets that already exist.
    Mr. Cartwright. And protections.
    Mr. Duff. And protections. In particular, the protections 
against retaliation. They were simply unaware of them. So, we 
have to elevate and raise the level of training.
    And one of the things we are going to do in the orientation 
process for new employees and new law clerks is have a separate 
session on this topic. It will not be on the same day you are 
getting all your orientation about your insurance coverage, 
where you are inundated with paperwork and it is just added on 
to that. We are going to have a separate day of orientation 
that educates our employees and law clerks as to----
    Mr. Cartwright. Is that new?
    Mr. Duff. Yes, sir. Yes.
    Mr. Cartwright. Thank you. I yield back, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Cartwright. The gentleman from 
Iowa, Mr. Young, is recognized.

                 THE JUDICIARY'S RELATIONSHIP WITH GSA

    Mr. Young. Thank you, Mr. Chairman. James, how are you 
doing? It has been a while. Still a big Wildcat fan?
    Mr. Duff. Oh. Yes, sir.
    Mr. Young. Yeah.
    Mr. Duff. We have Georgia football. We have Loyola 
basketball. We have got it all covered up here today.
    Mr. Young. Nice to see Kansas represent the South.
    Mr. Duff. Do not leave.
    Mr. Young. Well, I see GSA did not make a request for a 
courthouse this year. What is your relationship like with GSA 
and do you feel that we are addressing the judiciary's needs 
for courthouses adequately? Just tell me about your 
relationship with GSA on that.
    Mr. Duff. Thank you for the question. Our relationship with 
GSA is improving. They have challenges. And we have challenges 
with them, certainly in certain pockets of the branch and in 
certain courts.
    But we have been working with them very closely on a 
validation initiative that has recalculated how they determine 
what our rents will be. We have to pay rent to GSA for our 
courthouses. And we have seen great improvement there and a 
willingness on the part of GSA to work with us on that. So, I 
would say that the relationship is improving greatly.
    Mr. Young. Yeah, we were just--the Third District, Des 
Moines, is going to get a new courthouse here soon and GSA has 
been working on that. I just wondered what your involvement was 
on that? Do you have certain specification, the metrics that 
have to be met for the land and the site, and that kind of 
thing?
    Mr. Duff. We do. And we understand that for the courthouse 
in Des Moines, there is progress that is being made with GSA 
and with the city of Des Moines. I know the location of it was 
an issue.
    Mr. Young. An issue that has been corrected simply through 
making sure that there is participation by the folks in the 
Third District. Transparency. A chance to weigh in and just 
have their voices heard. So, thank you for that help.
    Mr. Duff. Yes, sir.

                    COURT SECURITY OFFICER STAFFING

    Mr. Young. I know you are all in your third year of the 
phased implementation of the new court security officer 
staffing standards. My understanding. And I see you have 
requested 35 new CSOs when last year the number was flatlined.
    And I wonder, here with this new request, is this 
sufficient? Are you simply acting within your budget 
constraints? Or are you really pushing for the number that you 
need? Tell me a little bit about that number.
    Judge Lungstrum. Thank you. That is an excellent question. 
When the Marshals Service came to us a few years ago and said 
that they felt that we needed to increase the number of CSOs by 
almost 350, both the Marshals Service and the judiciary 
recognized that that was something that would have to be phased 
in over time. That was not only from a budgetary standpoint, 
but also simply from the standpoint of the ability to bring 
people onboard. It is not that easy to hire a CSO, as it all 
turns out.
    Well, that is kind of what caught up with this zero-out of 
the past round. That was simply catching up with what the 
Marshals Service was able to do to get us to the number of CSOs 
that they could bring onboard.
    Now we believe we are in a position to bring an additional 
amount onboard each year incrementally for the next several 
years to bring us up to 100 percent. We have met about 50 
percent of that goal now, with this request, and over a few 
more years then we will work our way up to 100 percent.
    I think that is reasonable. The need for those CSOs, I 
think, is for forward watch positions to be concerned about 
active shooters or terrorism; for positions in the control 
rooms, particularly in the large courthouses, to monitor 
cameras; and especially positions at the screening lanes. 
Notice, that could be the Rayburn Building today, which had a 
huge long line.
    Well, we have that same situation with courthouses, only a 
lot of those folks coming in maybe are not just here to talk to 
their representatives about what they would like to have going 
on in their district, but some of them are coming in with maybe 
a different mindset. So, it is important to have an adequate 
physical presence in the screening lane. And we have had some 
problems in the past with inadequate staffing of the screening 
lanes.
    But I think the Marshals Service is confident that if we 
continue on pace with this request and keep this request up 
over the next several years--and probably increasing a little 
bit incrementally--we will be fine.
    Thank you for that interest, though, because it is very 
important. Of course, that security is for the public that is 
there on their business, as well as the courthouse staff. It is 
a very important public issue that we are concerned about.
    Mr. Young. Well, unfortunately, we have to worry more and 
more about security in this world. And I wish we did not have 
to do so, but we have to take precautions. Thank you.
    Judge Lungstrum. Yes.
    Mr. Young. Mr. Chairman.
    Mr. Graves. Thank you. And Judge, I wanted to inform you 
that your representative, Mr. Yoden is doing his duties. He is 
actually chairing another subcommittee--his own subcommittee--
at this moment and was unable to be here.
    Judge Lungstrum. Well, would you please tell him I missed 
seeing him today, and, ``Rock Chalk.'' Would you pass that on 
to him?
    Mr. Graves. I will--I wanted to make sure you knew he was 
working hard on behalf of his constituents.
    Judge Lungstrum. I will report to the people of Kansas that 
Mr. Yoder is doing his job.

      CHANGING ENFORCEMENT PRIORITIES AT THE DEPARTMENT OF JUSTICE

    Mr. Graves. One final thought from me, and maybe you each 
could address. I know the administration has taken a new 
interest in immigration and enforcement policies. How is that 
impacting the judiciary, and your budgeting, and your 
forecasting? How do you account for that? Is it just more court 
time? Maybe just give us a feel for that, what you are 
experiencing.
    Judge Lungstrum. Thank you. That is a very good question. 
As of yet, the impact has not really hit. And that is largely a 
function of how long it has taken to get new U.S. Attorneys in 
place.
    It is amazing how much difference that makes. If you have a 
district that does not have a confirmed U.S. Attorney, they are 
kind of out there just doing whatever they have been doing. 
When they get a new U.S. Attorney in there, that individual 
tends to set an agenda and maybe follow an agenda that is maybe 
being driven from higher up.
    So, we have not seen yet as much of a dramatic increase as 
I think we expected to see or are probably going to see. And it 
is not our practice to budget for something that we think is 
going to happen. We do not want to come to you and say, ``Hey, 
pie in the sky. Give us some money.''
    But if, in fact, enforcement is more aggressive, as the 
administration has indicated it would be, that will affect us 
at all levels. It will run up a need for defenders or for CJA 
panel counsel. It will run up probation office workload. And of 
course, as it is, our five border courts have 75 percent of the 
felony immigration cases and 25 percent of the felony drug 
cases across the country. And this is just in five courts on 
the border.
    But those immigration cases, they affect Chicago. They 
affect Kansas City. I am sure they affect Dalton, Georgia. They 
affect people all over the country because folks do not just 
stop when they get across the border. They come to various 
places. And so, therefore, it can have an impact on the 
workload of judges throughout the United States. But we have 
not seen the impact yet. We just anticipate it.
    Mr. Graves. So, you are prepared and have the ability to 
monitor the pipeline.
    Judge Lungstrum. Absolutely. And it is something we are 
really keeping track of. And if it comes to pass in the next 
year, that would be factored in probably to requests that we 
make.
    Mr. Graves. Great. Thank you for your explanation. Mr. 
Quigley, you are recognized.

                      PANEL ATTORNEY COMPENSATION

    Mr. Quigley. Sure. Well, to finish the thought on how 
different pay matters. We talked about Federal Defenders and 
jurors. But the panel attorney, we got a bump again, six above 
COLA increase in the hourly payrate. Are you able to gut, 
Judge, just how much that pay impacts willingness to 
participate and quality of attorneys? Have you been able to do 
that over recent years?
    Judge Lungstrum. I can do that sort of backwards because I 
cannot tell yet what this actual increase is going to do, other 
than anecdotally in talking to my friends who are CJA panel 
lawyers or people who appear in my court who are CJA panel 
lawyers, who are very grateful. And of course, I tell them it 
is Congress. We have been asking but it is Congress who 
delivered for them. So, they are very appreciative.
    But what we do know is that the survey that was done as 
recently as 2015 showed that over a third of judges had 
encountered difficulty getting lawyers to serve on CJA panel 
appointments. And over half the time that is because of pay 
issues. That same survey reflected that numerous lawyers on the 
CJA panel were indicating they just simply could not afford to 
do it because their regular average hourly rate is really about 
twice of what the panel rate is now. Even with the increase to 
$140 an hour they have average overhead that is maybe more than 
half of that $140 an hour.
    And really, the struggle is this. I know it is great that 
we got that $6 increase. I cannot thank you enough. I would 
like to get that next $6 increase because we need to keep these 
really well-experienced CJA panel lawyers. Being a Federal 
defense lawyer is not just being a good advocate. It is not 
just being Perry Mason, coming into the courtroom, and showing 
that somebody else did it.
    It is being an expert on the intricacies of the sentencing 
laws and various other Federal statutes that are so 
complicated. When I first became a judge, I had been mainly a 
civil practitioner, and I was shocked to see the guideline 
manual. It was like the IRS code. You cannot just be a good 
lawyer and be handed a Federal criminal case and be expected to 
defend it competently.
    So, you need to be experienced and you need to understand 
what is going on. So, we have implemented programs to try to 
bring new lawyers in and train them--with the Second Chair 
program, for example, that we are very active with in our 
district to be able to build up that experienced bench, so to 
speak. So, I think it is very important that we continue to 
fund the CJA panel rate at as close as possible within your 
budgetary constraints to what the law allows because I think 
that benefits everybody. It benefits the public because it is 
in the interest of justice to make sure people have a vigorous 
defense.
    But a lot of times a vigorous defense involves knowing when 
not to have a trial. Or knowing when to resolve something in a 
way that saves time and money for everybody down the line. So, 
in some ways, having really good counsel works to everybody's 
benefit, not just the individual who is being represented. So, 
I do not mean to get up on my high horse here, but I think it 
is a really important point.
    Mr. Quigley. Yes, for me and those who I knew who did a lot 
of this is it was some sense of responsibility to help. But 
none of them are going to make a living.
    Judge Lungstrum. Well, certainly in Chicago they are not, 
and not even in Kansas City, probably.
    Mr. Quigley. If they had time----
    Judge Lungstrum. Right.
    Mr. Quigley [continuing]. All the overhead is there with 
their office and staff. Sort of the logic is the marginal costs 
are not as great as in others. And frankly, especially during 
hard times, there are fewer and fewer people who can just pay 
outright.
    Judge Lungstrum. Right, and there is a pro bono component 
to it, in a sense. As you say, a lot of lawyers do it because 
they think it is a good thing to do. But it is not fair either 
to expect people to come in and devote the quantity of time 
that it takes. You might be appointed to a criminal conspiracy 
trial that takes weeks. Well, okay.
    That means you are not out doing something else. You are 
sitting there in Judge Lungstrum's court. I have had 10 or 12 
defendant trials where the Federal public defender maybe has 
one of those defendants and the other ones are all CJA panel 
lawyers. Well, they are sitting in front of me for weeks at a 
time and that is really all they are able to do.
    Mr. Quigley. Final point, I think it impacts the rest of 
their practice.
    Judge Lungstrum. Yes, it does.
    Mr. Quigley. They are not out getting other people.
    Judge Lungstrum. It does.
    Mr. Quigley. Thank you.
    Mr. Graves. Thank you, Mr. Quigley. I have no further 
questions, and I do not think Mr. Quigley does either. I do 
want to thank both of you. Thank you for joining us today for 
your first hearing before us. Fantastic job.
    I want to thank you for your preparation and your 
thoughtful responses, as well for presenting the budget on 
behalf of the judiciary and how that impacts each of our 
districts in its own unique way. Good to see you. Good to be 
with you today. Thanks for your work. And with that, this 
hearing is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 18, 2018.

                    OFFICE OF MANAGEMENT AND BUDGET

                                WITNESS

HON. MICK MULVANEY, DIRECTOR
    Mr. Graves. Good morning! We will call this subcommittee to 
order. I would like to welcome today's witness, my good friend 
from South Carolina, OMB Director Mick Mulvaney. The OMB 
Director is always a headline hearing, but this is truly a 
first for us. We also have the Consumer Financial Protection 
Bureau Director with us, testifying before the Appropriations 
Committee.
    So, Director Mulvaney, is this the first Appropriations 
Committee meeting you have attended as the Director of the 
CFPB?
    Mr. Mulvaney. Yes, sir.
    Mr. Graves. We are delighted to have you. Thank you--in any 
capacity, we are always glad to hear from you. We appreciate 
your service, particularly your dual-hat capacity in which you 
serve the administration and our country.
    Before we get to the details of your budget request, I 
would like to point out how far we have come since the last 
time you testified before this subcommittee. 2017 was a great 
year of accomplishments, and I know you played a big role in 
moving the administration's pro-growth vision forward. The 
results are making a real difference for American families, for 
my constituents, and for our constituents across the board 
here.
    For example, unemployment is at a 17-year low; 2.5 million 
new jobs have been created since President Trump took office 
and you took over in your new role. Wages are growing at nearly 
3 percent. That is the fastest growth in almost a decade. Small 
business optimism is at a historic high level. We all know this 
didn't happen by accident. This happened because Congress, the 
administration, yourself, we all worked together to reform the 
Tax Code for the first time in more than three decades. It has 
happened because we slashed nearly 1,500 unnecessary rules and 
regulations. It has happened because we freed businesses, big 
and small, to grow, and to thrive.
    Director Mulvaney, let me just say thank you. Thanks for 
the important role you have played in all of this over the last 
several months.
    Now, on to today's hearing. In addition to your budget 
request, there are a few areas I would like to discuss in a 
little bit more detail, and I know Ranking Member Quigley would 
as well.
    We have all seen the reports of the rescissions package 
from the White House. Overall, I think this is a good tool. It 
is a good idea. I am interested to hear your thoughts as we 
move forward. But I would like to encourage you, as we have 
discussed, to reach out to members of the authorizing 
committees, reach out to members of the Appropriations 
Committee and committees of jurisdiction about the areas under 
consideration. I think you will find great cooperation there.
    I think it is safe to say some Members of Congress have 
many great ideas about where we can continue to save taxpayer 
dollars, and we would all like to hear more about how you plan 
to use this tool and your congressional outreach plan as well.
    Finally, I am curious to hear about your work as the Acting 
Director of CFPB. Prior to your tenure, this agency earned a 
reputation as an unaccountable, unconstitutional Washington 
bureaucracy. I am interested to hear a little bit more about 
your efforts to rein that in and to reform this agency.
    So we look forward to hearing from you this morning. Before 
we hear your testimony, I would like to recognize Ranking 
Member Quigley for any remarks he may have.
    Mr. Quigley. Thanks, Mr. Chairman. Thanks for holding this 
hearing.
    Director Mulvaney, welcome back. This is your second 
appearance before this subcommittee in your capacity as OMB 
Director. Thanks again for making time to be here.
    Obviously, we are primarily here to discuss OMB's request 
for its own budget needs in fiscal 2019, but one of the OMB's 
core responsibilities is the production of the President's 
budget governmentwide. I understand that cheers some and 
disappoints others, but it is clear that the President's budget 
would create an annual deficit of $984 billion in its first 
year. This trend continues in subsequent years, adding up to a 
grand total of $7 trillion over 10 years.
    To make matters worse, the President's budget fails to 
honor the recently passed Bipartisan Budget Act by funding 
agencies at $57 billion below the new nondefense discretionary 
cap.
    It is easy to write off the importance of a category within 
a title of nondefense discretionary, but just so we are all 
clear on this: This category of funding, where your budget cuts 
more than $57 billion below the cap is where one finds 
resources for activities including veterans' programs, law 
enforcement, diplomatic operations, education, research, and in 
fact; this is precisely where the government is poised to 
invest in the very efforts that boost jobs and improve economic 
security. And yet your budget seeks $103 million for OMB, a 2-
percent increase above 2018, this after your agency received a 
6-percent increase, by far the largest growth in salaries and 
expenses across all the agencies in the entire financial 
services bill.
    By comparison, the salaries and expenses account was cut by 
10 percent for the Department of Treasury, 18 percent for the 
Federal Communications Commission, 2 percent at the Federal 
Trade Commission, 13 percent at GSA, and the list goes on.
    In your testimony, you suggest that your request reflects 
belt-tightening since, compared to 527 FTEs at OMB in 2010, 
your request of 493 is a significant reduction. But that is not 
actually a fair representation.
    While President Obama was in office and you were serving in 
the House, the FTE numbers at OMB dropped to an all-time low of 
457, thanks to the refusal of congressional Republicans to 
provide adequate funding. In fact, you yourself voted for bills 
that would have cut it even below that level. Yet, as of 2018, 
you expect to be back up to 487, fully 30 FTEs above the level 
in 2013 and 2014. And now you are asking for six more FTE. 
Meanwhile, your budget request for other agencies under the 
jurisdiction of this subcommittee includes cut after cut to 
agency administrative budgets and staffing levels. And that is 
just the FSGG subcommittee.
    Director, while you leave $57 billion on the table, which, 
by the way, was passed through Congress on a bipartisan basis 
and signed into law by the President, these are just some of 
the significant activities and functions that are eliminated in 
your budget request: the Legal Services Corporation, the 
National Endowment for the Arts, the National Endowment for the 
Humanities, the Corporation for Public Broadcasting, the Global 
Climate Change Initiative, the Manufacturing Extension 
Partnerships, the Rural Business and Cooperative Services, and 
the Economic Development Commission.
    We look forward to discussing these and other issues with 
you today.
    Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Quigley.
    Director Mulvaney, you are recognized to present your 
testimony, and then we look forward to asking you a few 
questions.
    Mr. Mulvaney. Mr. Chairman, thank you very much, as always, 
for having me.
    Ranking Member Quigley.
    It is good to see all my former colleagues again.
    By the way, to your opening point about have I ever been 
here before as the chairman or the Director of the Bureau of 
Consumer Financial Protection--which, by the way, is the formal 
name of the CFPB. The CFPB technically doesn't exist. We have 
tried to start using BCFP instead of CFPB. It is very difficult 
to do, but the actual name of the agency, the Bureau, is the 
Bureau of Consumer Financial Protection. And no, a Director has 
never been before any Appropriation Committee before because 
the Bureau does not receive appropriations. So I look forward 
to maybe talking about that some today.
    Real briefly. I am not going to read my opening statement. 
You all have seen it. I know we get a chance to talk about it 
at your pleasure. I will point out that we are asking for a 
small increase from 101 to 103, so just under 2 percent, much 
of which is going to be directed to the Office of Information 
and Regulatory Affairs. We can talk about that. We can talk 
about the ITOR budget.
    I do want to raise two specific issues which I do address 
in my opening statements, which I want to draw to your 
attention. Number one is to thank you for what we call the TMF, 
the technology modernization fund. You all put a bunch of money 
in there. We really appreciate that. This is I think a very 
innovative program where we have a group of folks from all over 
the executive branch who get together and essentially we have a 
competitive process where we will pick programs that we think 
might actually work, and we will spend money on those to try 
and update our IT.
    I encourage you folks to continue your oversight of that. 
We would be happy to share information with you. We think it is 
one of the most innovative programs that we have come up with 
together, the administration and the Congress. We look forward 
to keeping you all abreast of the progress there.
    The other is to draw your attention to something that is 
not functioning as well, which is the Federal Building Fund. 
This is the money we use for buildings. It is one of the rare 
things where the name is actually what it is. About $7.2 
billion has been diverted from that in the last several years, 
and we fear that, if that trend continues--and it did continue 
in the omni--that it will start to materially impact our 
ability to maintain the physical infrastructure of the 
government. But that is all in the opening statement.
    The fun part about these hearings for me is that I am 
liable to be asked everything, literally everything. You 
mentioned our fiscal year 2019 budget. Mr. Quigley talked about 
the proposed fiscal year 2018 budget we sent to Congress, and 
in fact, I think we sent two different versions of it because 
of the various pivots and so forth.
    My guess is I will get questions on rescissions, SNAP, 
something called SNPLMA when Mr. Amodei walks in, the Southern 
Nevada Public Land Management Act, and, obviously, the Bureau. 
So all I can tell you is I enjoy it. It is a fascinating 
intellectual pursuit for me to sit here and see what the 
questions are going to be.
    All I can tell you in advance is there is no way to prep 
the entire Federal Government. So it may be that some of my 
answers are ``I don't know; can I get back to you?'' And I look 
forward to working with you folks on getting all your questions 
answered as best as we possibly can.
    With that, I thank you, Mr. Chairman.
    Mr. Graves. Thank you. I have not known you to answer ``I 
don't know'' before. So, if we reach that level, we have dug 
pretty deep today.
    Mr. Mulvaney. I am up-to-date on SNPLMA, I think, when 
Amodei gets here.
    Mr. Graves. Well, I will start with the rescissions. That 
seems to be something in the news of late after the recent 
budget and passage of the spending bill that was signed into 
law by the President. And I think this committee knows that the 
House, the Senate, and the White House were working together to 
come up with the recent budget agreement.
    As you have discussed previously, there is a rescission 
package being presented by the administration. Can you just 
give us an update on that? And, prior to that, let me just say 
for our committee's sake that I think we all recognize this is 
a useful tool. It has been used by administrations going back 
many, many years, but it is not something that we have used 
recently. So it is new, in that respect, and there may be a 
little bit of education here. But I think it is a useful tool, 
especially in conjunction with consultation with the 
authorizing committees and appropriators, so I appreciate you 
bringing forward this tool for more efficiency.
    Mr. Mulvaney. Thank you. It is new, but it is certainly not 
unique. It is new to many of us, myself included, because if 
you have only been here since 2010, you have never done one of 
these things before. Actually, that is not true. If you only 
have been here before 2000, you have never done one before.
    It is part of the 1974 Budget and Impoundment Act. Every 
President that was able to use it--Ford, Carter, Reagan, Bush, 
and Clinton--used them. So Presidents from both parties with 
control of Congress in both parties used rescissions in the 
past. For various reasons, it was not used during the George W. 
Bush administration nor was it used during the Obama 
administration. But there have been I think several thousand 
rescissions sent to the Congress by the White House over the 
course--since the 1974 act was passed into law.
    So, while it is new, since it hasn't been done since 2000, 
it is not at all unusual. In fact, there are a lot of folks out 
there now who are saying that they would never countenance 
voting for one who have actually voted for them in the past, 
which I find interesting.
    The system works very simply, which is that we find things 
either in the omnibus or that are not in the omnibus that we 
just don't think you should spend the money on. That is 
important, by the way. It is not just the matters that were 
addressed in the last spending bill. There is money that has 
been previously appropriated that hasn't been spent yet. These 
are carryover funds, they are zero-year funds, they are 
multiyear funds that we might look at and together say: You 
know what? Even though we thought 4 years ago that was a good 
program to spend some money on, either we don't need to spend 
any more on it or our priorities have changed. And rescissions 
give you the ability to do that.
    So we look forward to working with both the House and the 
Senate to send those down. If we do, the process is 
fascinating. If we send you a rescission package, then the 
spending on whatever we propose is automatically stopped for 45 
days. Then there are various ways for votes to be taken in the 
House and the Senate that bypass the ordinary rules. One-fifth 
of your body can require a vote in the House. One-fifth of the 
body can require a vote in the Senate. And it is a majority 
vote in both bodies. So it is one of those rare things, again, 
under the Budget Act of 1974, as we deal with reconciliation, 
for example, that only requires a simple majority in the 
Senate.
    So it is a fascinating tool, a tool that has been used by 
both parties over the course of the decades, and we look 
forward to working with you, Mr. Chairman, and whoever is 
interested in maybe bringing some sanity to the spending to see 
what we can do together.
    Mr. Graves. Can you give us any sense of timing? Is it one 
package, or is it something that can be done throughout the 
year? Is it tethered to the passage of a spending bill?
    Mr. Mulvaney. No, it is not tethered to the passage of a 
spending bill. The only limitation seems to be that we cannot 
send you the same rescissions twice. We could, I guess, in 
theory, send you a thousand separate rescissions, which we are 
not going to do, but we can send some now, some a month from 
now, some later on in the fall. Again, that just depends on our 
discussions with you folks and our own internal discussions as 
we sit there and try to figure out what would be the 
appropriate things to send down for you folks to consider to 
rescind on spending.
    Mr. Graves. And timing?
    Mr. Mulvaney. Hope to have something here in the next 
couple of weeks. I know that we don't have any big House breaks 
again until the Fourth of July. So it is a chance to do a good 
bit of work, with the House at least, between now and 
summertime.
    Mr. Graves. Great. Thank you.
    Mr. Quigley.
    Mr. Quigley. Thank you, again, Mr. Chairman.
    The appropriation bills passed in 2017 and this year, they 
stated that prior approval from the Appropriations Committee 
must be secured before an agency can reprogram funds for a 
variety of purposes, including creating or reorganizing 
offices, programs, and activities.
    It has come to our attention that at least one agency under 
this subcommittee's jurisdiction initiated a reorganization 
plan that involved the closing of two regional offices without 
notification to the subcommittee and the committee, let alone 
securing approval.
    The agency contended that they had been authorized to 
proceed on account of OMB's approval, but that is not, in my 
mind, what the law stipulates. What is your view on the 
responsibility of agencies to follow the law? We are talking 
about Federal Labor Relations.
    Mr. Mulvaney. Okay. That was my question, is which--because 
that one didn't immediately come to my attention.
    The answer is we follow the law. That is what we do, right. 
I am not familiar with the specific limitation. We are working 
on a governmentwide reorganization, which we have been very 
public on. And I guess, to the extent we have been spending 
time on it, we have been spending money on it. I am not sure 
about the specific closure of the two--is it the Federal Labor 
Relations board offices you are talking about?
    Mr. Quigley. Federal Labor Relations Authority.
    Mr. Mulvaney. Mr. Quigley, I am sorry. Not only am I not 
familiar with it, I have never heard of that. So I will have to 
find out what that is all about.
    Mr. Quigley. They are moving forward with consolidation, is 
the understanding. It is within the appropriations bills that 
there at least must be notification--we believe approval--
because this is an alteration.
    Mr. Mulvaney. I guess my question, Mr. Quigley, and I don't 
know the answer off the top of my head, is closing an office 
that the agency considers to be surplus, is that technically a 
reorganization?
    Mr. Quigley. Sure.
    Mr. Mulvaney. I don't know the answer----
    Mr. Quigley [continuing]. If you are moving, I think the 
definition of reorganizing, because you are moving people 
around. Let's have this discussion.
    Mr. Mulvaney. I would be happy to.
    Mr. Quigley. If you could get back to us with how you 
believe this constitutes--how this doesn't seem to apply to the 
appropriation bills passed, again, in 2017 and this year. But 
they do state that prior approval from the Appropriations 
Committee must be secured before an agency can reprogram funds 
for a variety of purposes----
    Mr. Mulvaney. We didn't do that, right? We are agreeing we 
didn't do that.
    Mr. Quigley [continuing]. Including creating or 
reorganizing offices, programs, or activities.
    Mr. Mulvaney. Right.
    Mr. Quigley. It seems like it is in that--give us your best 
argument, if not today, then at some point, why this doesn't 
apply.
    Mr. Mulvaney. I will be happy to. Again, off the top of my 
head, I can't imagine that simply closing two offices--I have 
no idea how many offices they have, if it is 2 of 2, or 2 of 
100--how that constitutes a reorganization. Reorganization, Mr. 
Quigley, is something a lot more dramatic than that. We would 
actually move functions, for example. If I have got 100 offices 
and two of them are in areas that are no longer needed, I don't 
think closing those offices constitutes reorganization.
    Mr. Quigley. Well, let's have that discussion.
    Mr. Mulvaney. Happy to.
    Mr. Quigley. Appreciate it.
    In your testimony, you discussed the need for OMB to hire 
staff at OIRA. You are familiar with this?
    Mr. Mulvaney. Yes, sir.
    Mr. Quigley. With tax expertise. I understand that OMB and 
IRS have agreed to a memorandum of understanding that OMB will 
in fact play a role in the development and review of certain 
tax regulations.
    Mr. Mulvaney. Yes, sir.
    Mr. Quigley. I am sort of hoping you can help us understand 
this. Why is it OMB's view that it was necessary to change what 
was a past practice of Treasury having independence in the 
promulgation of tax law regulations? Do you understand the 
distinction?
    Mr. Mulvaney. I don't know what the distinction is. I would 
be happy to explain the memorandum of understanding with 
Treasury and why it leads to the need for the additional 
personnel.
    Mr. Quigley. The point being the IRS already had the 
personnel in place with this expertise, and that is how we did 
it before.
    Mr. Mulvaney. Fair enough. That is how you have done it for 
a period of time.
    Mr. Quigley. The possibility of duplicative actions.
    Mr. Mulvaney. No. In fact, the exact opposite is the truth. 
This goes back to I think it is a memorandum of understanding 
or agreement between Treasury and OMB that dates to the 1980s, 
and what it did is sort of move part of Treasury out of OIRA 
oversight for a variety of reasons. We think, and Treasury 
tended to agree, because, again, we worked very closely with 
Treasury on addressing this situation, that the practice had 
grown beyond the intent of the original memorandum of 
understanding.
    Here is the classic example I use, Mr. Quigley. One of the 
functions of OIRA is the cross-cutting, the cross-agency 
analysis that we do on regulations. If Commerce passes 
something or wants to do a regulation, propose a regulation, 
there may be a circumstance where that impacts, say, I don't 
know, the Department of the Interior. Commerce is not set up to 
sort of share its information with all the other agencies in 
the executive branch. OIRA in OMB performs that function for 
them.
    Treasury is no different. Treasury may be doing something 
that is impacting Commerce, but Treasury is not 
organizationally set up to do that sort of cross-cutting type 
of analysis; OIRA is. And that is what we brought in. And that 
is one of the reasons we were able to reach that understanding 
with Treasury, because I think they acknowledged the value of 
that. Again, this is a voluntary agreement between Treasury and 
OMB.
    Mr. Quigley. Thank you.
    My time is up.
    Mr. Graves. Thank you. Mr. Stewart, and then Mr. Cartwright 
will be next.
    Mr. Stewart. Thank you, Mr. Chairman.
    Mr. Mulvaney, good to see you.
    Mr. Mulvaney. Hey, Chris.
    Mr. Stewart. We are proud of you and the work you are 
doing. You are in the fight. I know it is not easy----
    Mr. Mulvaney. It is fun.
    Mr. Stewart. But you are doing a great job. The chairman 
said he didn't think you would answer any questions with ``I 
don't know.'' Can you tell me, Mr. Mulvaney, when is my 
birthday?
    Mr. Mulvaney. I am going to blame my staff for poor prep 
work on that, Mr. Stewart.
    Mr. Stewart. Mr. Chairman.
    Mr. Mulvaney. I know Mr. Amodei's birthday because he 
doesn't have one. He was sort of just hatched.
    Mr. Graves. I did say I haven't known him to answer that 
way. That is now new.
    Mr. Stewart. Again, Mr. Director, CFPB, BCFP?
    Mr. Mulvaney. BCFP, yes, sir.
    Mr. Stewart. We will try to comply with your new acronym 
for that.
    I think--and I would be surprised if you don't agree with 
me on this--I think it is one the top two or three worst pieces 
of legislation ever written. It is a good illustration of 
something that we have seen, and that is in the heat of the 
moment--don't tell me your staff----
    Mr. Mulvaney. July 15. Interestingly, however, it did not 
put the year. So we saved you that one.
    Mr. Stewart. Thank you. Obviously, it was many, many years 
ago.
    Again, it is a piece of legislation I think that is a great 
example of when we legislate after a crisis, many times we 
overreact. I think the PATRIOT Act is a good example of that. 
Rather than being thoughtful, I think the CFPB and some of the 
other--Dodd-Frank legislation is we overreacted after a very 
emotional and what some people call a crisis. And it was, no 
question, a dramatic event. I think, in those instances, it is 
a good thing to go back and see if we can moderate or improve 
some of this legislation.
    One of the problems many of us have the BCFP is that it is 
not accountable. It is not accountable to Congress. It is not 
accountable to the President. It is not accountable to any 
oversight. It is not accountable to the American people. The 
Director, like yourself, is not elected in any way.
    I know that you have suggested that we can do better on 
that, maybe a five-person bipartisan commission. I believe you 
have suggested that in the past. I would certainly support 
that.
    Share your thoughts on that, will you please, and how we 
can actually implement some of these changes, because if we 
can't do something that is achievable, then we are just 
thinking. What can we do to actually bring accountability to 
this?
    Mr. Mulvaney. I will give you the short answer, because we 
just sent our semiannual report to the House Financial Services 
and the Senate Banking Committee and I encourage you folks, if 
you are curious about that, to take a look. We actually lay out 
the details on four specific proposals.
    I will give you the big one: Please appropriate us. 
Seriously, I just don't get it. I don't get why Republicans and 
Democrats don't agree that maybe the Bureau should be 
appropriated. I just don't understand why you all would 
voluntarily give up that control----
    Mr. Stewart. I couldn't agree with you more.
    Mr. Mulvaney [continuing]. And the insight that comes with 
it, Mr. Stewart. And this is what is important: I testified 
just last week to the House and Senate and reminded them, 
pointed out to them--I am sure for the first time--370 people 
who work for me at the Bureau make more money than you do: 370 
people.
    My guess is you would never know that but for me telling 
you that. You would know that if you put us on appropriations.
    What else? Half of the time of our professional economists 
is spent doing self-directed research on things that can have 
nothing to do with financial services. You all would never know 
that but for me telling you that. But if you put us on 
appropriations, even if you want to spend more, you want to 
spend less, that is not the point; the point is it brings that 
sunshine, and you get to ask questions of what goes on at the 
Bureau that you don't get to ask otherwise.
    I am voluntarily giving it to you because I want to sort of 
open the doors, but if a future Director doesn't want to, he or 
she doesn't have to. In fact, I think I have made news by 
pointing out that I did not have to answer questions. I did not 
have to respond to questions at the Senate or the House the way 
the statute is written right now. The statute can be improved. 
There are a bunch of ways to do it. Putting us on 
appropriations, making us come to this committee, would be the 
best thing you could do.
    Mr. Stewart. I appreciate that. We are glad you are here. 
We are glad you are sharing that information. But the next 
Director might not. I think that is our concern. Once again, 
though, would you address the five-member board? Do you think 
that is a step forward? Is it possible? Would you support that?
    Mr. Mulvaney. I would. It was not in our four things 
because we focused on things that we thought would have more 
immediate--I think doing the five-member commission, which I 
absolutely support, that is not my point--I think that prevents 
some of the dramatic sways in the direction that the Bureau can 
take. All right. I am a different person than the previous 
Director, and he wanted to go this way, and I wanted to go this 
way. All right. I think if you have a five-member commission, 
it sort of reduces the dramatic swings that you might get from 
a single-person Director. I think that is advisable. I think 
that the industry has the right to know what the future holds--
I think consumers have the right to know what the future 
holds--and not be subject to this wild uncertainty based upon 
who is running the place. So, yes, I absolutely support that 
proposal.
    Mr. Stewart. Thank you, Mr. Mulvaney.
    I will just conclude. My time is nearly up. I imagine or 
try to imagine when this legislation was created, what is it 
that they thought was so sanctified about this board or this 
organization that it could not have any oversight by anyone 
ever?
    Mr. Mulvaney. Elizabeth Warren didn't think that a 
Republican would ever win a Presidency.
    Mr. Stewart. Yeah.
    Well, thank you.
    Mr. Chairman, I yield back.
    Mr. Graves. Mr. Cartwright, and then Mr. Moolenaar.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Mulvaney, since being placed at the helm of the 
Consumer Financial Protection Bureau, the CFPB, I am troubled 
that you have essentially been working against the work you 
have been entrusted to do because you don't agree with the aim 
of the CFPB.
    For example, you froze hiring. You froze new protections 
going into effect. You froze civil penalty payments for your 
first 30 days. You issued a memo to your staff stating that the 
CFPB will no longer, quote, ``push the envelope,'' unquote. You 
have brought no new actions against financial institutions. 
And, as reported by Reuters, you are dragging your feet on the 
Equifax investigation. In an interview with the Credit Union 
Times in 2014, you described the CFPB as a sick, sad joke. And 
then you reconfirmed those sentiments to Senator Jeff Merkley 
during your OMB confirmation hearings.
    On February 13 of this year, an article that you authored 
appeared in USA Today, and you stated, referencing the CFPB, 
quote: ``If I am going to run a government agency like that, I 
am going to do it with humility toward those we serve,'' 
unquote.
    You have changed the CFPB mission statement to focus 
foremost on deregulation. In January, you issued requests for 
information, RFIs, and specifically asked for feedback from 
financial institutions on how they would most like to be 
regulated.
    Can you please clarify for us who it is you serve with 
humility and why it seems consumers' interests--which was the 
point of the CFPB--it seems consumers' interests under your 
tenure have taken a back seat at the Bureau, a bureau created 
to protect them?
    Mr. Mulvaney. I serve the law. I serve the statute. That is 
what I do. That is what a member of the executive branch does: 
I execute the law.
    I can go through these very quickly, if you want to. We 
didn't freeze the Civil Penalty Fund for 3 days. I think we did 
it for about 24 hours just so I could figure out where the 
money was going.
    Mr. Cartwright. Yes, you did. You froze it for 30 days.
    Mr. Mulvaney. No, sir. Actually, I think we made the 
payments right after I was there. I was appointed November 22. 
I think the first checks went out the end of November, the 
first week in December. And I approved them the second or third 
day--first or second day I was there.
    The data collection freeze, I haven't talked about that. We 
do have a cyber problem over there. No new actions. That is a 
true statement. Mr. Cordray didn't make any in his first 6 
months. We have pursued 25, and we have about 100 ongoing 
investigations.
    The Reuters article is just flat out wrong, which anybody 
could look at--could confirm by simply looking at Equifax's 10-
Qs and 10-Ks.
    My conversations with Mr. Merkley are always a lot of fun.
    The mission statement did not put de-reg first and 
foremost. We simply added it because it is in the statute. The 
statute says we are supposed to look for overly burdensome 
regulations and so forth, and that had never been in the 
mission statement for some reason in the previous 
administration. So we added that to the mission statement 
because it is in law. We serve the law. You all make it; we 
execute it. That is the way it is supposed to be.
    Mr. Cartwright. How are the American people supposed to 
have faith in your ability to lead the CFPB when you are 
actively trying to transform this agency from a watchdog for 
the American consumers into a lapdog for the financial 
institutions they are supposed to regulate?
    Mr. Mulvaney. I have the ability--we have 26--when I took 
over, we had roughly 26 lawsuits ongoing. I had the discretion, 
the absolute discretion, without answering to anybody, 
including you folks, of dismissing all 26 them. I dismissed 1 
because the other 25 I thought were pretty good lawsuits. We 
were actually executing the law, going after bad actors, which 
we will continue to do, under my leadership. That is how you 
convince people back home that we are still taking care of 
consumers.
    Mr. Cartwright. I want to talk about the 3-percent growth 
that you talk about a lot.
    Mr. Mulvaney. Yes, sir.
    Mr. Cartwright. You have said, you have warned Americans 
not to trust headlines bellowing slower growth and a stalling 
economy or projections saying sustained 3 percent growth is 
unreasonable.
    As you know, the CBO, the Federal Reserve, and reputable 
private institutions have stated that 3 percent growth--we all 
want that, we would all love that--but these reputable sources 
have said that should only be expected for the next 1 to 2 
years and that growth will settle at around 1.9 percent for the 
following 8 years.
    Can you tell us specifically why your growth projections 
outstrip CBO, Federal Reserve, and reputable private economic 
institution projections, they are so much higher than these, 
and why the American people should trust you and not these 
reputable sources?
    Mr. Mulvaney. Sure. Because we have been right so far, and 
the CBO has been wrong. That is why they should trust us. The 
CBO said that growth this year--with Obama leaving office and 
us coming in, the CBO said growth this year would be about 1.9 
percent. We are going to be just under 3 already, by the way, 
which is 3 years I think sooner than we thought we would get it 
when we first drafted the budget. So we have been right so far.
    Yes, the CBO has finally found religion and decided that 
the economy is going to grow faster than 1.9 percent this year, 
which is why they raised their projections for this year and 
next year. But then, the year after, they fall back into the 
same mistakes they made before of assuming that 1.9 percent 
growth is the new normal. We absolutely reject that.
    Why do we think it is sustainable? Because we have done a 
lot more than just lower marginal rates. I would argue too, Mr. 
Cartwright, that lowering rates like the Bush administration 
did in the early 2000s, is a short-term boost to the system. It 
is a sugar high. We have done a lot more than that. We have 
changed the fundamental structure of the American economy in 
how we create and tax wealth. It goes well beyond taxes and 
deals with things like our deregulatory policies, our energy 
policies, our trade policies. We think we have actually changed 
the fundamental structure, and that is why we think 3 percent 
growth is sustainable.
    Mr. Cartwright. Mr. Chairman, I yield back.
    Mr. Graves. Mr. Moolenaar and then Mr. Bishop.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    Director Mulvaney, good to see you again.
    Mr. Mulvaney. Mr. Moolenaar, sir.
    Mr. Moolenaar. Last year, we discussed the Soo Locks.
    Mr. Mulvaney. Yes, we did.
    Mr. Moolenaar. As you know, they are in northern Michigan. 
Your office was kind enough to work with us on clearing up a 
couple of issues. That being said, the Soo Locks, specifically 
the Poe Lock, remains a single point of failure in a multi----
    Mr. Mulvaney. Did you just say Poe Lock?
    Mr. Moolenaar. I know. I get a hard time every time I say 
that. It is the Poe Lock.
    Mr. Mulvaney. I am as much Polish as I am anything else. I 
just don't know if I should take that, Mark.
    Mr. Moolenaar. Well, a Homeland Security report dubbed the 
Achilles' heel of the Great Lakes navigation system and the 
North American industrial economy. Nearly 100 percent of our 
domestic supply of iron ore flows through this single lock, and 
a shutdown could cost 11 million Americans their jobs.
    Last year, when we talked about this, you mentioned you had 
recently found out that OMB uses a discount rate of 7 percent 
whereas the Army Corps of Engineers uses a discount rate of 
3.125 percent. In the unique situation we have with the Soo 
Locks, I remain concerned that policy, use, and feasibility 
analysis don't accurately assess or reflect the value and 
national significance of a project, as you know, that could 
significantly change how the project is viewed on paper.
    Since that time, have you been able to determine why those 
two rates are used, and are there any changes that can be made 
that would help improve this process?
    Mr. Mulvaney. It is a historical--I don't think it is 
statutory--it is a historical thing that OMB has used a number 
and the Army Corps has used a different number. We don't really 
think it changes many outcomes because, as long as we look at 
all of our projects at OMB with the same discount rate, it 
doesn't prejudice one program over another.
    We are looking at a bunch of different ways to change the 
way we analyze this, along with the Army Corps, to sort of, for 
example, prioritize non-Federal shares. But I do know that 
there was $28 million for this project in the budget this year, 
which includes $3 million for dredging and $2 million for gate 
repair. So we did take your words to heart last year, 
recognized the importance of this, and look forward to 
continuing to work to improve that infrastructure.
    Mr. Moolenaar. Because it is a 50-year-old piece of 
infrastructure--and I appreciate the maintenance efforts in 
trying to keep it up and running--but I think, in the long 
term, even in the near short term, we are going to have to have 
a new lock there. I just don't see another way around it.
    I think the Assistant Secretary of the Army for Civil 
Works, Mr. James, is planning on taking a trip to the Soo 
Locks. I know he was interested in having someone from OMB go 
along with him to review the project. If that is something you 
could support, I think it would be a big help.
    Mr. Mulvaney. We have done that for several Members of 
Congress in both parties and Governors as well to go out and 
actually physically look at the stuff, because you are right: a 
lot of times there is no substitute for actually going to look 
at stuff on the ground.
    Mr. Moolenaar. Thank you.
    And then another topic we discussed last time was the Great 
Lakes. As you know, the Great Lakes hold nearly 20 percent of 
the world's fresh water and 90 percent--95 percent of our 
Nation's supply of fresh surface water, and drinking water for 
48 million people. They are vital for interstate and 
international economic commerce, bordering two countries.
    Last year, I had asked you about what you saw as the 
Federal role in support of the Great Lakes. I know, in the 
budget, it didn't really reflect too much support. In the 
appropriations process, we have been able to fully fund the 
Great Lakes Restoration Initiative, but I was disappointed to 
see it was a 90-percent cut again.
    I am just wondering if you are able to take a closer look 
at the Great Lakes Restoration Initiative and funding that.
    Mr. Mulvaney. We absolutely will continue to work with you. 
And there are a lot of delegations, obviously, that are 
interested because it does touch seven States or I can't 
remember how many. That 90 percent reduction is actually not as 
much a reduction as the previous year. When I was here last 
year, I was defending a 100-percent reduction. I think one of 
the points that you made was that what was unique to the Great 
Lakes, at least unique in some fashion, was the international 
component and some of the other factors. So we did put I think 
$30 million in the budget proposal. Obviously, the omnibus 
spent more than that. So we will continue to work with you on 
that.
    We continue to have concerns about it, Mr. Moolenaar. Maybe 
the increase that we put in there last year as part of your 
inquiry should just signal our continued willingness to work 
with you folks.
    Mr. Moolenaar. Just one last quick question on the high-
intensity drug trafficking areas.
    Mr. Mulvaney. Yes, sir.
    Mr. Moolenaar. Do you have a timeline for HIDTA grants and 
programs to be available and what would be the best information 
I could get to law enforcement agencies who might be interested 
in applying?
    Mr. Mulvaney. This is going to be really close to an ``I 
don't know.'' My understanding is that the grants are ongoing. 
Some grant programs fund all at one time. These are ongoing. So 
I don't know the best way to answer your question, but we are 
happy to get you some more details on that.
    Mr. Moolenaar. Thank you.
    Thank you, Mr. Chairman.
    Mr. Graves. Mr. Bishop, and then Mr. Yoder.
    Mr. Bishop. Thank you very much, Mr. Chairman.
    Welcome, Mr. Mulvaney. I have got a couple of questions for 
you. The first one: The President's budget request for fiscal 
year 19 proposes to slow the frequency of step increases and 
install a pay freeze for all employees in fiscal year 2019, 
while increasing performance-based pay for workers in ``mission 
critical'' areas.
    GAO and the Chief Human Capital Officers Council Working 
Group have identified critical skills gaps in cybersecurity, 
auditor, human resources specialists, contract specialists, 
economists, and generally in the science, technology, 
engineering, and mathematics fields.
    Can you tell me what mission critical areas will receive 
the increased pay under the President's budget? Are they the 
same ones that were identified by GAO and the Chief Human 
Capital Officers Council Working Group, and if so, does that 
mean that law enforcement, air traffic controllers, lawyers, 
doctors, nurses, among others, won't receive a pay raise in 
fiscal year 2019 under the proposal?
    And let me just ask a second question quickly. You issued 
the ``Comprehensive Plan for Reforming the Federal Government 
and Reducing the Federal Civilian Workforce'' on April 12, 
2017, and the memorandum lifted the hiring freeze instituted by 
the President on January 23, 2017. In addition, the memorandum 
sets forth steps that the executive branch department and 
agencies were directed to take to fulfill other requirements of 
the hiring freeze memorandum and the March 13 Executive Order 
13781 on reorganizing the executive branch.
    OMB was required to develop an agency reform plan, detail 
agency actions to achieve near- and long-term Federal workforce 
reductions, and outline agency actions to improve employee 
performance.
    What progress has been made on developing the agency reform 
plan, and how will the reports be evaluated and reported, and 
what is the schedule for evaluating the implementation?
    Mr. Mulvaney. Thank you, sir.
    Very quickly, on the first matter, the proposal was rooted 
in data that we had that essentially--I am going to paint with 
a very broad brush here; I would be happy to get more detail in 
a followup, if you like--of the analysis of the way that we 
paid Federal workers seemed to indicate that we overpay at the 
lower levels and underpay at the upper levels.
    Keep in mind, the GS system, which most of you work on--
folks at the Bureau do not, which is why they can make so much 
more money at the Bureau of Consumer Financial Protection--but 
the GS system was created I think in 1949 and hasn't really 
been dramatically overhauled since, and it has led to a 
situation where we pay entry level more than we probably 
should, but we don't pay the really advanced, experienced 
people as much as we should.
    So, with the proposal, we say: Look, we are going to freeze 
everybody and then put a bunch of money in this pot to try and 
give us the flexibility necessary to reward the people that 
were really performing well.
    Again, I hope we can all agree, with 2 million nondefense 
Federal workers, that some of them might be good at their jobs, 
and some might not be. Yet we come close to paying them pretty 
much the same. There can be improvements there. And that is 
what our proposal was based on.
    As to the re-org, we have made a lot of progress in that, 
and we are hoping to I think roll it out in May, is when it is 
coming out.
    How do we get to that reduction we talked about? One of the 
things we focused on is duplication of services. I am going to 
butcher the numbers here--and I apologize because I didn't 
expect this exact question--I think we have 46 different 
Federal workforce training programs across 16 different 
agencies. That doesn't make much sense, and it probably opens 
the question as to whether or not there is duplication of 
services that could be more efficiently provided.
    And, by the way, we have data on some of them that actually 
work. The apprenticeship program, for example, we have hard 
data that says, if you go into an apprenticeship program, you 
are likely to get a higher paying job than you were if you 
didn't go in the apprenticeship program.
    Most of the programs don't have that type of results-driven 
data. So what we try and do is redirect attention to programs 
that work and consolidate programs that don't.
    Mr. Bishop. I thank you for those answers. On the step 
increases, it seems to me that what you do when you put the 
freeze there and you remove those step increases is you remove 
the incentives to get people to work for the Federal Government 
who are highly skilled or who have hopes of a good career that 
would be remunerative to them and makes it less competitive 
than the private sector.
    Mr. Mulvaney. I absolutely agree, Mr. Bishop. I contrast it 
with this: If you and I go to work at the Department of 
Commerce and we come in the exact same day, have the exact same 
background and you do a great job and I dog it, the tools 
available to our managers to differentiate between our pay are 
extremely limited. And we are trying to fix that. So that we do 
reward folks like you in that circumstance who do good work and 
make it easier to either pay me less or get rid of me if I am 
performing poorly. That is what we are shooting for.
    Mr. Bishop. But, normally, you do performance reviews.
    Mr. Mulvaney. I do that actually at the Bureau. So it is 
not exactly apples to apples because of the way we are 
structured.
    There used to be a five-category performance review, and 
you had to be in the top two to get your step increase or 
whatever we called them at the Bureau. The previous management 
reduced it I think to two, either pass or fail. I think the 
pass rate was 99-point-something percent. So you can 
effectively get to the point where it is a completely 
meaningless review process, and we are trying to avoid that. We 
are trying to reward the folks who do a good job, because that 
is when we can look the taxpayers in the eye and tell them it 
is a good idea.
    Mr. Bishop. You could have gone back to the five-step 
review process.
    Mr. Mulvaney. I am not going to tip my hat. I have a 
collective bargaining agreement with the union. Of course, any 
changes we would make would abide by all of our agreements with 
the third parties and so forth. So, yes, sir, we were going to 
look at ways to run the Bureau more efficiently.
    Mr. Bishop. Thank you. My time is up.
    Mr. Graves. Mr. Yoder and then Mr. Amodei.
    Mr. Yoder. Thank you, Mr. Chairman.
    Director Mulvaney, welcome back to the committee. I note 
the dialogue we have been having this morning about the CFPB 
and some dissatisfaction that some Members of Congress have 
with decisions that you have made at the CFPB.
    This committee has actually been fairly bipartisan in its 
support for putting the CFPB back on budget and even has had 
some bipartisan support for the five-member board. And what I 
would suggest to my colleagues that are dissatisfied with your 
actions is that, if we want an agency that is unaccountable to 
Congress and has been called the most powerful, most 
unaccountable agency ever created in the Federal Government, 
then, depending on who wins the Presidency, you are either 
going to love or hate what the agency does, and there is going 
to be very little consistency, very little predictability, and 
those problems are going to, sort of, to the victor go the 
spoils.
    It would be much smarter for those who proposed a CFPB in 
the first place to work with Republicans to reform it to make 
it an effective, consistent agency.
    So I just sort of leave those comments. I think there are 
real opportunities, and I would encourage my colleagues across 
the aisle. I think we could really work together to reform and 
fix the agency in a way that might make both parties happier.
    Mr. Mulvaney, I want to turn your attention to regulatory 
reform and recall Executive Orders 13771 and 13777. 13777 
directed Federal agencies to create regulatory reform task 
forces. And my first question would be: Have all Federal 
agencies subject to this regulation successfully created their 
regulatory reform task forces? And if not, which agencies, and 
how far away are they from completion?
    Mr. Mulvaney. I think everybody has, Mr. Yoder. If that is 
not the case, we will clarify. I am trying to think off the top 
of my head. Everybody has been in my office with de-reg ideas. 
So I imagine they--I have not asked that specific question. We 
judge them more by their conduct. And they are all working on 
the issue. So I imagine they have put them together, but I can 
clarify that for you.
    Mr. Yoder. That would be helpful. And then my second 
question is on Executive Order 13771 that required Federal 
agencies to identify two existing regulations to eliminate for 
every new regulation that is promulgated by the agencies.
    Are all agencies subject to the executive order currently 
compliant with its requirements? And, if not, do we know which 
agencies aren't complying and what steps are being taken to 
bring them into compliance?
    Mr. Mulvaney. It may be, Mr. Yoder, that individual 
agencies are not compliant right now. Because what we told them 
we would do was look at them on an annualized basis. So we did 
not require them to do two and then one and then two and then 
one. If you wanted to create a new one and then, after the 
fact, get rid of four, that was fine with us. We didn't want to 
micromanage how they did it.
    And keep in mind, sometimes you have to put out a new 
regulation to fix an old regulation. Is that a deregulation or 
not? So it was a gray area there, and we tried to give them the 
flexibility. But they all know, by the end of the year, they 
have to be at the two-to-one.
    The good news is, I think the last time I looked at this, 
writ large, we were 16 to 1 for a while and then 22, 23 to 1 
after that. So we are exceeding those targets without question. 
Whether or not each individual agency is at two-to-one right 
now, I can't tell you.
    Mr. Yoder. Well, I appreciate your work and the work of the 
administration in that regard.
    As we travel our districts and talk to small business 
owners and entrepreneurs and folks that are trying to create 
jobs and grow the economy, they feel palpable reductions in 
weight from the Federal Government on their efforts to create 
this economy. It is noticeable. We hear about it in the 
district.
    I would love to see what numbers your administration is 
churning out in terms of the economic results of that, the 
correlation that we are seeing.
    You know, Americans now, their second biggest line item in 
their budget is the expense of Federal regulation. I don't 
think most Americans realize how pervasive it is in everything 
they do, from buying groceries to buying a house to clothes for 
their children to paying for healthcare expenses.
    So that hidden tax is really a regressive tax, hitting the 
poorest of our constituents the hardest, because it is a much 
bigger portion of their income. And so, when we look at things 
like the Clean Power Plan, one of the things that the left 
conveniently leaves out is who pays for it. Right. The poorest 
of my constituents, which their electric bill is maybe one of 
the biggest bills they pay, are going to pay for that. The 
richest of my constituents, they don't really even notice those 
expenses.
    So these regulatory costs are a critical part of what you 
are doing when it comes to tax reform and the tax cuts that 
many working families in our districts or most working families 
in our district are receiving, but the regulatory reform is one 
that we need to continue to press on.
    Mr. Mulvaney. You make an excellent point. I have often 
told the story--I think you and I have talked about this 
before--everyone tells the story about how, when you wake up in 
the morning and you turn on the lights, you are taxed; you go 
to the refrigerator, you are taxed; you turn the water on, you 
are taxed; you get on your cell phone, you are taxed; you get 
in your car, you are taxed.
    That same thing throughout your entire day can be said 
about you are regulated. That adds additional costs on top of 
the tax.
    To answer your question, I don't think we have got really 
solid data yet on the individual contribution of that, but I 
will point out that the economy turned around before we passed 
the tax bill--before you passed the tax bill. That is in large 
part we think attributed to the deregulatory agenda of the 
administration, things we were able to do before taxes to jump-
start the economy even before we expected to.
    Mr. Yoder. I can tell you I haven't had many constituents 
come and say: I wish I had a new Federal regulation that came 
from an unaccountable bureaucrat to respond to and which I 
don't have the personnel to handle.
    That conversation has never happened. But I have had, as my 
colleagues will say, hundreds, if not thousands, of 
conversations or contacts from constituents who have said: This 
is making it harder for me to do my job. This is marking it 
harder for us to provide customer service. This means our small 
banks are going to have to close. This means that we may not be 
able to keep our lights on.
    We all, I think, need to agree in a bipartisan way that 
those regulations have a cost on people, and your relief of 
them is helping the economy in many ways maybe more than the 
tax cuts in a way that people don't necessarily recognize. So 
thank you for your work there, and I will yield back my time.
    Mr. Mulvaney. Thank you, sir.
    Mr. Yoder. Mr. Amodei, and then Mr. Young.
    Mr. Amodei. Thanks, Mr. Chairman. Good morning, Mick.
    As you can imagine, my questions might center more on the 
State of residence of the true superstar of the Mulvaney 
family, which is your brother.
    Mr. Mulvaney. He likes to refer to it as Re-yes, not Re-no.
    Mr. Amodei. The short part first. You have----
    Mr. Mulvaney. For those of you who don't know, my brother 
is one of his constituents, which frightens me to death, but 
that is fine.
    Mr. Amodei. Which is a fact that I try to lever every 
chance I get. Thank you for disclosing that, Mr. Director.
    So, for the second year in a row, you have proposed in your 
budget stripping the unappropriated funds in the Southern 
Nevada Public Lands Management Act. I don't want to spend much 
time on it; just that I have, when all else fails, read the 
bill.
    So I would like to ask for a followup in terms of--I get 
balancing the budget and things like that--but what OMB thinks 
is the authority for stripping those funds based upon a reading 
of the act, which says: Here is what you can use the money for.
    I assume that that is something that you are going to have 
to take a look into. And if there is a strong case to be made, 
we think those are available for changing from what the purpose 
stated in the legislation is to put into the Treasury, then we 
would just like kind of citation to that authority.
    Mr. Mulvaney. Yeah. And I don't know if I have to have 
specific statutory authority to propose a rescission, but I 
will speak to your point, which is, listen, we would love to 
work with you. Here is the problem. That money has been sitting 
in that fund for a long time. You all have done some really 
good work. I have got some notes here. I think you spent like 
$3 billion on this program already, which is great; it has 
worked to that point. But there is like $600 billion sitting 
there. And some of it has been sitting there for several years. 
So we would love to work with you on figuring out a way to use 
it properly.
    The one criticism of the plan is that you all have run out 
of good projects. So let's work together to find good projects 
so that you can use the money. If not, we will go back next 
year and ask for it to be rescinded again just because I am not 
in the job of letting $600 billion of money sit around and not 
be well used.
    Mr. Amodei. I appreciate that, and I look forward to that. 
If there is some authority--you say, listen, I think it is 
general authority or whatever it is; I am not suggesting what 
the answer is--but whatever the answer is we would kind of 
appreciate that offline.
    I want to draw your attention to an Interior account that 
deals with the Bureau of Land Management specifically. You and 
I had talked about it, and it is my fault that I haven't 
followed up on it since, but I will with your staff; you gave 
me the name of a person.
    But I want to paint a picture for you, and that is, unlike 
no other State in the Nation, the Bureau of Land Management 
controls the vast, vast supermajority of the State, somewhere 
in the mid-80s. So I try to bring that point home by saying 
this: That State director and his or her six district managers 
control by a factor of 7 much more real estate in the State of 
Nevada than the Governor, the legislature, any county 
commission, and any city council, which means that their jobs 
are very, very important and that we need to have good people 
in there and they need to be staffed.
    Now, I am not a guy who says more money is the answer to 
every problem, but when you talk about a Western State with 
growth issues like that and you have real estate slots that are 
open and other slots on the nonfire side of those budgets that 
have to do with the everyday multiple-use management of that 
Federal estate and it takes years to do routine stuff, it is 
like: Hey, we need to take a look at that.
    And when I see budgets that, quite frankly, talk about 
moving that agency in Nevada back to 2011 levels, I am a little 
disturbed.
    Now I get that we need to separate fire from the nonfire 
stuff, so we will do that already, but I want to let you know 
that I am going to be knocking on the door of your staff to 
say: Hey, if we have got people that are misused, then let's 
get them used directly, but that these kind of continuing 
cuts--and I won't speak for other States, but I will just tell 
you this--Mr. Stewart left--I would love to have control of 25 
percent of the acres in my State. I am at about half of that.
    So what that agency does in managing the Federal estate is 
phenomenally important. So we are going to be coming to you as 
we go through this process. We have done some stuff 10 years--
we looked back 10 years, we looked at the last year, that sort 
of thing--to try to sensitize OMB as well as the budget folks, 
the Under Secretary for budget purposes at Interior to go: Hey, 
we need to look at what the mission is here. Is it resourced 
properly? Do you need to move existing assets, things like the 
real estate slots?
    As you can imagine the two urban areas of the State, Las 
Vegas and Reno, when those districts' offices are down on staff 
and it takes them 2 years to process a routine right-of-way 
request on an existing right-of-way, that may be some 
organizational issues, but I know when there are empty slots, 
there are also some resource issues.
    So we are going to be kind of coming at you on that. I know 
what the history has been. And by the way, this is not a 
Republican thing. It is bipartisan. I know that State and 
defense are kind of the sexy things, but in my neck of the 
woods, no disrespect, Interior is a phenomenally important 
Federal agency.
    Mr. Mulvaney. Well, I appreciate the work you have done 
with me, including when I was in this Chamber as one of your 
colleagues, on educating somebody from the Southeast, where the 
Federal Government owns almost none of our land--Mr. Graves is 
in the same situation in Georgia. I had no idea that happens. 
That influences things like BLM. It influences PILT, something 
you didn't mention. It influences fire management. So we do 
appreciate you taking the time to get us up to speed on those 
issues. I look forward to continuing to work with you.
    Mr. Amodei. I do, too.
    Mr. Graves. Mr. Young, and then Ms. Herrera Beutler.
    Mr. Young. Thank you, Mr. Chairman. It is good to see you.
    Director, $20 trillion in debt. Both sides are complicit in 
this----
    Mr. Mulvaney. Twenty-one.
    Mr. Young. $21 trillion. Thank you for that, for 
clarifying.
    Mr. Mulvaney. Sorry.
    Mr. Young. It is realistic. It is reality. That is where we 
are. We talk about the next generation, handing that down to 
them. We are probably, what, 10 generations down, what we are 
doing to the future of this country?
    Tough decisions have to be made, primarily by Congress, 
through legislative means, but we need a willing partner at the 
other end of Pennsylvania Avenue as well.
    How are we doing in convincing the President and your 
colleagues in the administration that we need to come to the 
table to really make these tough decisions? And they are going 
to be tough decisions, but we have to make them.
    Mr. Mulvaney. Thank you for that, Mr. Young. I encourage 
you to take a look at the budget--I know you probably have--but 
look specifically at the proposals we have made in mandatory 
spending.
    We come under criticism sometimes because people accuse us 
of not looking at mandatory spending, what some people call 
entitlement programs. And nothing can be further from the 
truth.
    When the President ran, he said he wasn't going to change 
your Social Security or Medicare. And we don't. But we have 
made some really good proposals on how to change, for example, 
Social Security Disability Insurance, how to fix payments in 
Medicare to non-Medicare folks.
    I had no idea until I got in this job that we use Medicare 
money to pay for graduate medical tuition. We use Medicare 
money to pay hospitals for delinquent accounts from folks who 
didn't pay who aren't on Medicare.
    So there are a lot of abuses of the system where money is 
siphoned off into other things. We propose to fix that. Those 
are big things.
    The budget we sent up last year is the largest proposed 
reform of mandatory spending in the history of budgets. So we 
look forward to continuing to do that. Because you are actually 
right: a dollar is a dollar. We have to look for every one that 
we possibly can. You are absolutely right: you can't get $21 
trillion in debt without both parties being complicit.
    We look forward to being part of the solution and working 
with you and the Democrats, if they like, on doing just that.
    Mr. Young. You and the President have a pretty powerful 
bully pulpit, and I would ask you to exercise it on this issue 
as often as you can.
    Mr. Mulvaney. Yes, sir.
    Mr. Young. Regulations. First of all, you talked about your 
budget that you released. Thank you for that. You do it 
annually. It is the law.
    I love the fact that at the end of the budget you have got 
a list of all the folks who worked on the budget. You have got 
their names there. They own it. When we introduce bills and 
amendments, we have to put our names on those bills and 
amendments.
    When it comes to regulations, we talk about the nameless, 
faceless bureaucracy. We don't say that just to say it. It is 
pretty much true. Because when rules and regulations come out, 
nobody signs. The many, many people who work on those and issue 
those, we don't know who they are, because they don't sign 
their name to it.
    I would just ask you again to look at a bill that I 
introduced, H.R. 1460, the Fingerprints Act, which says, under 
any administration, any rule or regulation that comes out, the 
people who work on it and write it, they have got to write 
their name on it and their title. I think that can be--because 
when you do that, when you own something, you are going to 
offer a better product because, if you don't, they know where 
to go. So there is a transparency there, and it is 
accountability, as well.
    I think this is something you all can do administratively, 
if you really took a look at it, and I would ask you just to--
--
    Mr. Mulvaney. That is a great idea. By the way, thank you 
for the comments about the Office of Management and Budget. I 
would love to take credit for that, but that is a longstanding 
tradition at OMB. I am pretty sure it is not statutory. They 
want to do it. They are proud of the work they do. They are 
just as proud of the work they do for this administration as 
they did for the previous administration. I have got some folks 
who I think who have been here since the Carter administration. 
I know I have had folks there since the Reagan administration. 
They are good bureaucrats. I know that has word has come under 
a lot of pejorative sort of attack, but they are good folks, 
and they take pride in their work. But you are absolutely 
right. There is no reason we could not do that voluntarily at 
every single agency, and I will mention that to the Cabinet.
    Mr. Young. Right. And on the budget, they put their name on 
it because they are proud to own it.
    Mr. Mulvaney. Yes, sir.
    Mr. Young. They want to let people know. So thank you very 
much. Thanks for what you do.
    Mr. Mulvaney. Thank you.
    Mr. Graves. Ms. Herrera Beutler, you are recognized for 
questions.
    Ms. Herrera Beutler. Thank you, Mr. Chairman.
    Thank you for being here.
    A few different things. I do want to associate myself with 
the remarks of the gentleman from Kansas with regard to the 
regulatory reform. This is one of the areas where I agree it is 
not as easy to link the cause and effect, but we know we are 
seeing more economic vitality because we are deregulating, 
period. It is amazing to see. And you are right, that economic 
turnaround started before the Tax Cuts and Jobs Act, although 
now I think you talk about the 3.3-percent projected growth, I 
would add a big part of that is because we then followed on 
with tax reform. And that is why 1.5 percent wasn't good 
enough, at least not for the folks I serve and for the folks 
that the administration is serving. So I am very excited about 
what we are seeing there.
    On the regulatory side, I think I could use your help in a 
few areas. The first one has to do with a bill that we passed--
Congress passed in 2014. It was bipartisan. It marked more than 
5 years of work by the West Coast Congressional delegation to 
fix problems with regard to West Coast fisheries. We call it 
the REFI Act. I can't tell you what the acronym stands for 
because I never pay attention to acronyms. But the bill was 
bicameral, and it had administrative support.
    What it did was it provided authority needed to refinance 
the commercial fishing loans for fishermen participating in the 
Pacific ground fish fishery. However, as we sit here today, the 
bill is still not enacted.
    So, while CBO noted that the legislation was fully graphic, 
meaning there were no new appropriations required, this is not 
difficult, and they were required to implement under law, OMB, 
under the previous administration, who had input beforehand--
afterward, just said: Well, no, we are not going to do it. We 
need an additional $10 million, and we need transfer authority 
to refinance the $26 million loan.
    It really--we have not gotten to the bottom of it. It has 
been very, very difficult. So these fishermen are facing very 
high regulatory costs that threaten to drive them out of 
business. While they fish, they have sacrificed--really, we are 
having a real difficult time here.
    In addition to the regulatory costs, these fishermen pay 
the Federal Government another 5 percent off the top every 
single time they land their catch.
    So, Congress passed it, the President signed it into law, 
CBO gave it a zero score, and yet we still cannot seem to get 
it moving. And I wanted to see if you could provide an update 
and you can help me identify someone on your staff to help, if 
there are specific challenges, have someone help us work 
through it.
    Mr. Mulvaney. I have got some notes on it. I don't think it 
answers your specific questions. The person you can call is me. 
By the way, you are supposed to use my new email address at 
OMB; you can't use my old email address. It is very strange. I 
am now subject to FOIA.
    By the way, this goes to all of you. If any of you have 
called me on my old number, I don't--it is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b7fdd8dfd999fa99fac2dbc1d6d9d2cef7f8faf5">[email&#160;protected]</a> 
or something like that.
    Anyway, let me know, and we can get on it. I do have some 
notes, but I don't think I am going to be able to 
satisfactorily respond to your question. It may have to do with 
administrative PAYGO, is the first thing that comes to mind. 
But that is not a very satisfying answer. So we can get you 
something in more detail.
    Ms. Herrera Beutler. That would be great. It was something 
I wanted to get to the bottom of. It was something we passed a 
number of years ago.
    The other thing I wanted to bring up, and it had to kind of 
follow along with what Mr. Amodei talked about with regard to 
Federal lands in the West.
    Mr. Mulvaney. Yep.
    Ms. Herrera Beutler. I am glad this is an area where folks 
who maybe don't have as much Federal ownership in their land 
are joining the cause. One of the challenges I have really been 
seeing has to do with our Federal forests--I mean, there are a 
number of challenges--and what seems like an unwillingness of 
local regional directors in certain areas to just help us with 
good ideas.
    So one of my counties is 97 percent owned by the 
government; 85-plus percent is federally owned. When the 
Federal Government came in and said, ``You can't cut down any 
more of these trees, we are going to protect a bird,'' the 
families that depend on this land have really been driven near 
poverty. I mean, police, fire, counties, schools. It is a 
travesty.
    They have had some really good ideas with comanagement 
ideas and with some of the local foresters. We have had great 
ideas. And I just can't get some of the bureaucrats who are 
sitting on top of it even to let us try some innovation.
    And so this is an area where--and I realize you are not 
directly over Interior, but in terms of the budgets that you 
all submit, when you see that there is less revenue coming in 
and you make cuts, part of the reason there is less revenue is 
because of there is an unwillingness to work it in a way that 
is both beneficial to the environment and to the endangered 
American taxpayer.
    So this is an area where I would like to maybe provide more 
information as we move forward and so that I think this can be 
more of a revenue-generator, quite frankly, and so you might 
not need to cut as much when you are looking at the forest 
lands, BLM, Fish and Wildlife. Again, another issue there. I 
think maybe if there is, again, someone on your staff or on 
your team, we could bend their ear. I would like to peel back 
some layers.
    Mr. Mulvaney. We would be happy to talk about it because we 
absolutely agree. There is no reason for folks to know this, 
but when we sent up the supplemental on the forest fires, I 
guess it was last fall, we included a bunch of land management 
reforms because we know that, if you don't fix it, you are just 
going to have the same problems again and again.
    I have talked to Secretary Zinke about this generally. 
There is a lot of stuff he wants to do. There is some stuff he 
can do administratively, but a lot of stuff is going to take 
statutory change. So we look forward to working with you on 
trying to get the necessary legal changes.
    Ms. Herrera Beutler. Absolutely. Tell us what tools you 
need. I have said that to him as well. I know there is a lot 
going on. I know you guys put together the budgets.
    Mr. Mulvaney. Yes, ma'am. You have got it. I look forward 
to doing that with you.
    Ms. Herrera Beutler. I yield back.
    Mr. Graves. Director, we may have a few more questions. I 
think some members still have some interest. I will start off.
    I was intrigued by your comments earlier regarding the CFPB 
and your directorship there and the fact that you are not 
required to appear before the Appropriations Committee. There 
is no oversight. There is no accountability. But you seek that, 
which is against your own self-interest. So I applaud that.
    Mr. Mulvaney. Actually, it is a little deeper than that, 
Mr. Chairman. It is not that I don't have to appear before the 
Appropriation Committees. The statute very specifically says 
that I shall appear before Congress twice a year--twice in the 
House and twice in the Senate, so four times--and that I shall 
appear. That is it.
    Mr. Graves. Not respond, not reply.
    Mr. Mulvaney. If you look at other sections of Dodd-Frank, 
other directors of other agencies and bureaus have to appear 
and testify or appear and answer questions. I just have to 
appear.
    So I would suggest to you, as I suggested to Mr. Hensarling 
and Senator Crapo, that I could have come in, made my 
presentation, kicked back my feet up on the table, twiddled my 
thumbs, and not answered a single question. Obviously, I didn't 
do that. I stayed as long as they wanted to. We didn't even do 
a hard stop.
    But ask yourself in the future: What if a Republican comes 
in? Are you going to be satisfied with that? Or, if a Democrat 
Director comes in, are you all going to be satisfied with that?
    The bill was written very quickly. I can't remember who it 
was who said that bills that we do in response--maybe Mr. 
Stewart--to emergencies are sometimes not our best drafting 
efforts. This thing can be fixed and can be improved, and that 
is one of many, many examples.
    Mr. Graves. I think it is in the best interest of each of 
our constituents to have accountability, whether we like or 
dislike the direction of the agency, to have that oversight, 
that accountability.
    So, assuming that our efforts are successful and that Mr. 
Quigley and I and others can come together and agree in a 
bipartisan fashion that you should be under appropriations, as 
you have personally requested, what would you request in fiscal 
2019? If you were to present your budget to us, what would it 
be?
    Mr. Mulvaney. I think the number we put in was 450 and 
change. We are running it right now at just north of 6. I think 
450 would take us back to 2015 levels. I don't think anybody 
was complaining that the CFPB wasn't doing enough in 2015. I 
think we can run a very effective agency at that level. 485 was 
the number that we asked for in 2019. So someplace in that 
neighborhood would be the request.
    Mr. Graves. Is that something you have seen in statute that 
we could do? Could we write that in this fiscal year 2019 
appropriations bill?
    Mr. Mulvaney. I have not seen anything that says you 
cannot. My guess is because the statute right now--the statute 
contemplates that we take money from the Federal Reserve and 
that, if there is not enough money in that to run the agency, 
then we have the ability to come and ask you for an 
appropriation.
    I see nothing that says you can't appropriate on the front 
end. You all, in fairness, appropriate unauthorized programs 
all the time, even though you are not authorized to do that. 
The State Department hasn't been authorized for two decades I 
think.
    So I think you absolutely have the ability to do it and 
look forward to chatting with you about that.
    Mr. Graves. So it is very possible we could appropriate, 
which would then not require you to draw down from the 
Treasury. You would use those funds as appropriated.
    Mr. Mulvaney. Let's make perfectly clear what the statute 
says. I don't have it in front of me. I am going to get it 
fairly close because I have looked at it more than once: I 
shall, taking into consideration other funds, ask for enough 
money from the Federal Reserve to run the Bureau. If there are 
other funds that are available to me through appropriation, 
that is money that I am completely entitled legally to consider 
in making my request to the Federal Reserve.
    Mr. Graves. Thank you. A different topic. There has been a 
lot of discussion about CRAs, about some previous rule makings. 
Under the previous Director, Mr. Cordray, the CFPB had passed a 
few regulations or had pursued some in the small dollar credit 
area.
    I know there is a CRA by Dennis Ross that has bipartisan 
support in the House, which is rare when it comes to a CRA. I 
know you are familiar with it.
    Can you tell us a little bit about your thoughts about the 
CRA? Is it important that we pass that through the House? Does 
that impact your direction? And what steps are you taking 
currently so we can work in parallel?
    Mr. Mulvaney. I love CRAs. As a bureaucrat, which for 
better or worse is what I am now--I am a member of the 
bureaucracy, I am a member of the executive branch of 
government, I am a bureaucrat, I am one director for one 
bureau, right--clarity is my friend. Clarity, by the way, is 
your friend because, if you leave stuff ambiguous, then I get 
to interpret it. You might like the way I interpret it. You 
might not like the way I interpret it. It would change 
depending on who is sitting in my particular chair.
    You give me clarity. You give the executive branch clarity 
when you pass these CRAs. Not only, by the way, do you--and a 
lot of folks don't realize this--not only do you undue that 
which has been done, but you prevent us from doing it again. 
And that sends a very strong message, which is the legislature 
has spoken, and we will follow the rules. Not only are we 
undoing what you did, don't go do it again.
    That is the type of clarity that I would appreciate, as a 
member of the executive branch, because it allows me to focus 
my attention on stuff that I actually should be working on. If 
you don't want me to work in an area, tell me. And the way you 
do that is by passing a law. That is what a CRA is. We welcome 
more of those, not fewer.
    Mr. Graves. What efforts are you taking internally to 
address this particular issue?
    Mr. Mulvaney. That was the last thing that my predecessor 
passed. In fact, he passed it quite literally on his way out 
the door. And I got there and asked what my options were, and 
they said: Look, it is too late to undo. So we are not going to 
undo it, but it is completely within my discretion and my legal 
ability to give notice that we are going to reconsider the rule 
under the parameters of the Administrative Procedure Act, which 
is exactly what we are going to do. We are going to do notice. 
We are going to comment. We are going to collect data. It may 
be that I come to the same conclusion when reviewing the data 
that my predecessor did. I may come to a different conclusion. 
But we are going to follow the law. We have no preconceived 
notions about what we are going to do, but we are going to do 
it the right way. We are going to do it by the book. And we are 
going to follow the law.
    Mr. Graves. Thank you.
    Mr. Quigley, do you have any further questions?
    Mr. Quigley. Yes, sir. Thank you, Mr. Chairman.
    Thank you, Director.
    As I ask this question, Director, I would like your 
thoughts on the role you think OMB plays in overseeing agency 
resource practices. Purchasing. Okay. Our FSG appropriations 
bill in section 710 stated that the head of any department or 
agency appointed by the President may not obligate or expend 
funds in excess of $5,000 to furnish, redecorate the office, or 
purchase furniture, or make improvements, unless advance notice 
of such furnishing or redecoration is transmitted to the 
Committee on Appropriations.
    Obviously, Monday, the GAO found that the EPA Administrator 
had violated that 2017 omnibus spending bill. We are aware of a 
whistleblower at HUD discussing this, and Secretary Carson has 
been before other subcommittees discussing this. But they don't 
seem to be episodes standing in isolation. What role do you see 
OMB playing in overseeing these functions?
    Mr. Mulvaney. We are actually involved in that process. We 
are aware of the GAO report at HUD. You didn't ask the 
question; we are aware of a similar GAO report at EPA. And we 
will investigate them.
    We take the antideficiency statute very, very seriously. If 
they have been broken, we will follow the rules. We will 
enforce the law, and we will do so in a transparent fashion. 
Mr. Quigley, I am not interested in covering for anybody else.
    Mr. Quigley. Where are you in the process of those 
investigations?
    Mr. Mulvaney. That I don't know. I know we just got the GAO 
thing. I was more prepared about the EPA because we just got 
that report this week. And I know we have not started our 
work--have we started--either we have not or have just started 
our work on that.
    Mr. Quigley. I am sorry. Take your time. On which one?
    Mr. Mulvaney. The EPA report. The GAO report.
    Mr. Quigley. Okay.
    Mr. Mulvaney. I don't know where we are on the HUD one. It 
is a little bit older, so my guess is we are already into that 
one. But I can get back to you on that.
    Mr. Quigley. In your mind, what are the remedies over the 
repercussions as you go forward with this under the rules as 
you see them.
    Mr. Mulvaney. Oh, HUD procurement did not happen? Was it a 
procurement issue?
    Mr. Quigley. I am aware he stopped it.
    Mr. Mulvaney. That is fine. That is why I didn't know about 
HUD. Okay. Again, the antideficiency statute, what is it? It is 
spending money that is not appropriated. Since HUD didn't 
actually spend the money, it doesn't fall under the 
antideficiency statute.
    If we were, let's speak more generally, to define an 
antideficiency statute violation. Technically, it is a criminal 
law. I don't think anybody has ever been charged criminally 
with a violation of the antideficiency statute. But we would 
talk to the lawyers and figure out what the appropriate 
statutory steps are that we are supposed to take. Again, we are 
going to be completely above board on this one. I am not any 
happier about it than you are.
    Mr. Quigley. Is there an education process that you see 
here? I mean, you are obviously in communication with these 
agencies. Is there--are you taking a tack now to put the others 
on notice that they ought to be aware of this, but if not, here 
are the rules?
    Mr. Mulvaney. I think it is a misunderstanding of the role 
of OMB. We don't micromanage every particular expenditure in 
every particular agency. We are involved in the appropriations 
process, in the apportionment process, and so forth.
    But it would not surprise me that something like this could 
happen at HUD or at EPA without us knowing about it. That would 
be very unusual I think for us to know about something. Again, 
a large sum of money, when you consider what was done, but in 
the greater scheme of the government, not something that might 
rise to the level of sharing with the Office of Management and 
Budget.
    Mr. Quigley. I guess, just to be specific, it is not your 
belief that, given what you have seen here and these episodes 
not standing in isolation, does it make sense to let the other 
agencies know that you are concerned about this, and are you 
contemplating that?
    Mr. Mulvaney. Let me answer it this way: Earlier on, we had 
some issues within the administration regarding the use of 
private air travel. And what we did there was, under the 
auspices of the chief of staff, was put out specific rules, 
guidelines, and also bringing to the attention of the folks 
that the rules already exist.
    There are rules on this, just like for me, there are for 
you, in terms of when you can buy business class travel, when I 
can pay for business class travel. There are rules. I think 
they come out of OPM, on when we can do that. To remind people 
of those rules, to clarify those rules, and to the extent the 
administration wants to go further on those rules, which I 
believe we have, to let folks know about that, as well.
    Mr. Quigley. Thank you.
    Thank you, Mr. Chairman.
    Mr. Graves. Mr. Yoder, and then Mr. Cartwright.
    Mr. Yoder. Thank you, Mr. Chairman.
    Director Mulvaney, just a couple of quick questions here.
    I have heard from a number of constituents concerned about 
the Medicare durable medical equipment program, including 
patients who rely on home respiratory therapy in order to 
remain in their homes. Unfortunately, the CMS bidding system 
for durable medical equipment has hindered the ability of 
Medicare patients to access these vital devices.
    I am aware that an interim final rule from CMS that 
addresses this issue is currently at OMB. The rule has been 
pending since August of last year. As you know, Congress 
included report language to accompany the fiscal year 2018 
omnibus urging that the rule is finished.
    Can you share an update on where this rule is in the 
process and how far away from finalization it might be and what 
steps OMB is taking right now to review the rule in a timely 
manner.
    Mr. Mulvaney. I can share with you where it is in the 
process, Mr. Yoder, but because of where it is in the process, 
that is going to be the only answer I can give you, which is it 
is currently under review at the Office of Information and 
Regulatory Affairs. And we do not comment on the process once 
things are at OIRA.
    I will say this: I probably receive more phone calls about 
this than any other rules put together. We are aware of the 
urgency to members of both parties. I am interested in getting 
it out as quickly as we possibly can. That being said, it is a 
fairly complex rule, and it is absolutely critical we get it 
right because of the scope of this one. So I won't be able to 
comment.
    Mr. Yoder. I don't think we can ask for anything more, 
other than you are clearly aware that this is a critical issue 
for a lot of our constituents, and you are going to work on it 
as fast as you can, but do it the right way.
    Mr. Mulvaney. Yes, sir.
    Mr. Yoder. I also wanted to ask you about the Technology 
Modernization Fund, which was created under the Modernizing 
Government Technology Act, which Congress passed last year. I 
was a cosponsor of the legislation.
    The goal of the fund is to allow government agencies to 
invest in technological improvements that can improve their 
services, strengthen cybersecurity, and increase efficiency. 
OMB's budget request includes $210 million for the technology 
modernization fund. The fiscal year 2018 omnibus included a 
funding level of $100 million.
    Your agency released guidance in February with information 
from agencies on how they can apply for these funds. Can you 
just give the committee an update on the process of this 
program, as we know it is in its early stages, and what types 
of projects have applied for the funds and what outcomes are 
you hoping to see from a successful deployment of the TMF?
    Mr. Mulvaney. Actually, I am not going to punt on this, but 
the woman in our office who actually is sort of running it is 
sitting behind me. So I encourage you after the meeting to grab 
her and get the specific details.
    I think we have identified three programs so far.
    So we have heard from nine, and we have not made any final 
decisions on who is going to get that first allocation of 
funds. But the process is--I think you would be satisfied with 
the way the process is working. I encourage you to reach out to 
my office, specifically Ms. Kraninger, who is sitting behind 
me, to get the specific details. We are very excited about the 
stuff that we have seen so far.
    Mr. Yoder. Do you expect greater participation? You have 
nine. Do you view this as something that you are going to see a 
lot of interest in?
    Mr. Mulvaney. Yes, sir.
    Mr. Yoder. That is all I have, Mr. Chairman.
    Thanks, Director Mulvaney. Keep up the good work.
    Mr. Graves. Mr. Cartwright, you are recognized.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Mulvaney, I want to talk about a couple of things. 
First off is the new tax plan is going to add over a trillion 
dollars to the annual deficit. From your budget, it is pretty 
clear what you are trying to do is graphic the additional 
deficit by cutting programs that are important to the American 
people, programs like Medicaid and SNAP, and completely 
eliminating some programs, such as LIHEAP, the Low-Income 
Heating Assistance Program, which Americans depend on daily.
    Of course, LIHEAP was started by Congress in 1984. So that 
it wasn't just about helping northern climates, we included 
assistance for cooling bills for Americans in warmer climates 
in the South. This is an enormously important program, Mr. 
Mulvaney. The budget that you wrote eliminates LIHEAP.
    I come from a northern climate in northern Pennsylvania. 
Monroe County, Pennsylvania, has 3,495 homes that got LIHEAP 
assistance in the winter of 16-17. Lackawanna County, where 
Scranton is, had 6,573 family homes assisted by LIHEAP. Luzerne 
County, 11,803 homes in that winter were assisted by LIHEAP.
    Do you really mean to cut these people off and leave them 
shivering in their homes?
    Mr. Mulvaney. A couple of different things, Congressman. 
You mentioned that the new tax plan added a trillion dollars 
additional deficit this year. The total deficit is going to be 
roughly that number. So, clearly, the tax plan by itself does 
not account for 100 percent of that. Spending makes up a good 
portion of that.
    Regarding LIHEAP, you are absolutely right: it was started 
in the 1980s. Our understanding is that almost every major 
utility provider in the country now has protections for the 
folks you just mentioned to make sure their utilities are not 
turned off in the wintertime up North and not turned off in the 
summertime down South. So, to a certain extent, the need that 
existed in the 1980s no longer exists.
    Finally, you mentioned a couple thousand people in each of 
your counties. And I absolutely respect that. I represented a 
relatively poor area of South Carolina. You didn't mention I 
think the 11,000 dead people who get LIHEAP.
    So this is a program that screams out for reform. To the 
extent that our budget proposals have drawn attention to that, 
we welcome that, and would love to work with you on either 
fixing it or replacing it with something that actually works.
    Mr. Cartwright. Well, come on. I mean, auditing it and 
making sure that the right people are getting it is a lot 
different from eliminating it. Don't you agree?
    Mr. Mulvaney. Fine.
    Mr. Cartwright. I want to shift gears. I want to talk about 
infrastructure for a moment.
    Mr. Mulvaney. Sure.
    Mr. Cartwright. Your budget addresses the much-talked-about 
infrastructure plan by proposing $200 billion of Federal 
spending, which you believe will spur $1.5 trillion in 
investment from State and local governments and private firms. 
But the bald reality is that many States cannot afford their 
mandated match under your plan for Federal infrastructure 
funding. That would cost States $6.50 for every single Federal 
dollar invested.
    So the question is, do you have a plan for State and local 
government infrastructure investment where they can't afford to 
match the Federal funding and can't attract the attention of 
private investors?
    Mr. Mulvaney. Actually, they are doing it already. State 
and local governments account for about 86 percent I think of 
Federal--excuse me, total infrastructure spending. They are 
doing it already. What we are offering them is a way to 
leverage the money that they are already spending.
    The classic example I give is of a road. Let's say, in your 
State, they cost $100 million, and the State has figured out a 
way to raise $80 million toward that $100 million road. If we 
can kick in at the Federal level the additional $20 million, 
that road will get built. That is a 4-to-1 ratio. That is a 
really good return on Federal money. Your road gets built; 
everybody is happy. So that is one of the fundamental 
underpinnings of the proposal.
    Mr. Cartwright. Mr. Mulvaney, over half of State 
governments saw their revenue fall below projections last year, 
and they are not financially well off enough to match 
government spending the way your infrastructure plan envisions.
    Mr. Mulvaney. Again, they are already spending the money.
    Someone just handed me a note. They are absolutely right 
that the rural portion of the program, which I think is a full 
20 percent, which is $40 billion, is 100 percent Federal.
    Keep in mind--Mr. Cartwright, I apologize. I forget where 
you are from. Is it a rural part of Pennsylvania? Is it a big 
city?
    Mr. Cartwright. Northeastern Pennsylvania.
    Mr. Mulvaney. Anyway, the matching portion of the 
infrastructure, which you have just mentioned, where we 
leverage Federal dollars, is more aimed at the urban areas 
where we can monetize infrastructure. We are talking about 
bridges, toll roads, ports, that type of thing.
    In the more rural areas where I used to represent, you may 
represent, that is 100 percent federally funded. So we 
recognize those realities. Listen, what we are doing now 
doesn't work. And just throwing more money at it doesn't work.
    My guess is you voted for the stimulus package during the 
previous administration. It did not work. We need to figure out 
a way to actually build the stuff that people need, and we 
think we have done an effective way of proposing that.
    Mr. Cartwright. Mr. Chairman, I yield back.
    Mr. Graves. Thank you, Mr. Cartwright.
    Mr. Mulvaney, I have another quick question, Mr. Quigley 
may as well, and our understanding is that the ranking member 
of the full committee is on her way and wanted to ask a 
question.
    Mr. Mulvaney. If it would be possible then before she gets 
here to maybe take a 2-minute break, that would be lovely.
    Mr. Graves. I am happy to do that. Let me give you one 
question to think about during your break with regard to 
CHIMPs----
    Mr. Mulvaney. Goodness gracious.
    Mr. Graves. One of your favorites----
    Mr. Mulvaney. Yes. Everybody's favorite.
    Mr. Graves. I know that you sent up a proposal recently, I 
guess it was just last week, reflecting some changes to the 
2019 budget in regard to CHIMPs. We had a spirited debate about 
CHIMPs previously with the previous funding bill.
    Obviously, I am very supportive of efforts to reduce 
spending and to restore some of the fiscal sanity around here. 
So can you just--we will take a break--but when you come back, 
maybe just share with us a little bit about that.
    Mr. Mulvaney. I appreciate the accommodation. Thank you.
    Mr. Graves. We will take a 2-minute recess.
    [Recess.]
    Mr. Mulvaney. Thank you. I appreciate that, Mr. Chairman.
    Mr. Graves. Always happy to accommodate.
    Mr. Mulvaney. CHIMPs, I remember learning about them when I 
was here, and it is one of those wonderful parts of Washington 
bureau-speak that no one really understands outside of here. In 
fact, most people here don't understand what they are.
    Here is how I explain to the people and why we put them in 
the budget.
    It is hiding spending, right? It is a way for us to spend 
more money than we want to tell people that we are actually 
spending. And I just don't think it is a good practice.
    Did we get rid of all of them in the budget? No. It is 
actually very difficult to do that. Did we look at things like 
the Crime Victims Fund, which I think is the largest CHIMP that 
we use together on an annual basis to sort of move money 
around?
    It is a bad practice. To the extent we can limit it, I 
think we are doing the taxpayer a good service. Not the fund, 
but in terms of the abuse of the CHIMP system. Again, I know we 
are speaking in appropriations language here that no one is 
going to understand, but it is not a good practice, I don't 
think, in terms of how we tell people how much we spend.
    Mr. Graves. As you evaluate these, are you working with 
CBO? And how does CBO look at CHIMPs? How do they score CHIMPs 
reflected as a savings?
    Mr. Mulvaney. They are an graphic towards spending. So I 
think they count them the same way we do. The two systems are 
the same.
    Mr. Graves. Great.
    Mr. Quigley, any questions?
    Mr. Quigley. Thanks again.
    Mr. Mulvaney. Yes, sir.
    Mr. Quigley. We are waiting for our ranking member of the 
full committee to come back and just a couple of questions 
before then.
    As you know, last August, the administration reversed the 
previously approved EEOC collection of pay data, a collection 
that was the product of a 6-year process which included 
multiple lengthy public notice and comment periods. This was 
the pay transparency requirements. The requirement in question 
stated that companies with 100 or more employees report how 
much they pay their workers by race, gender, and ethnicity.
    My understanding is that OMB may review this data 
collection. It is my understanding that OMB may review and 
approve collection of information only if determines that the 
relevant circumstances related to the collection have changed 
or that the burden estimates provided at the time of initial 
submissions were material in error.
    What information, if any, did OMB have to suggest that 
either of these criteria were met and where did that 
information come from?
    Mr. Mulvaney. I don't have the exact figures in front of 
me. Mr. Quigley, I can get them to you. But off the top of my 
head, here is what we do. The reason it comes to OIRA in the 
first place is the Paperwork Reduction Act. My recollection is 
that, previously, the form had I want to say 180 data points on 
it. With the proposed change, it was 1,600 data points on it. 
So a firm would have to fill out 1,600 different pieces of 
information.
    The whole reason it comes to us is to try and reduce 
paperwork. We made the determination that that was not helpful. 
Specifically, when we got into the details of what the 
information was asking, this is what we found.
    I will give you this example. Under the heading of 
healthcare jobs, for example, the form did not differentiate 
between accountants and doctors. So, if you were a male 
accountant and a female doctor and you wanted to use this data 
form to try and determine whether or not genders were being 
paid properly, it would be completely worthless because 
accountants shouldn't make as much as doctors do; doctors 
should make more. This form failed to consider that.
    So there was a Paperwork Reduction Act component. There was 
a substantive component to it. That accounts for the changes 
that we proposed.
    Mr. Quigley. In your mind, was any of the changes 
requiring----
    Mr. Mulvaney. By the way, I want to make clear that those 
numbers--the factor of those numbers is correct; 180 to 1,600 
may be off by a lot, but it is the general concept.
    Mr. Quigley. I understand. I guess the question is, was 
there any data, in your mind, that is not being asked for that 
was asked before that would be pertinent to understanding pay 
disparity issues?
    Mr. Mulvaney. Again, I don't know if that is our call. That 
is up to the agency that promulgates the rules. We review it 
under the Paperwork Reduction Act. They are the ones who 
actually promulgate the rules.
    Mr. Quigley. But the changes that we are talking about that 
you referenced, did it have any diminution in terms of 
collecting data that was pertinent to its purpose?
    Mr. Mulvaney. It certainly had a diminution of value of the 
data. If the whole idea behind the form is to make sure that 
people aren't being discriminated against but the form itself 
actually makes that harder to do, then, yes, I would suggest 
that is a reasonable objection to the form.
    Mr. Quigley. I suspect this is--I am trying to buy a little 
time for our ranking member.
    Mr. Mulvaney. I am happy to wait, by the way.
    Mr. Quigley. Here she is. I appreciate that.
    Mr. Mulvaney. She is the ranking member. I understand how 
it works around here. I am happy to wait.
    Mrs. Lowey. You are so kind to wait. I am embarrassed.
    Mr. Mulvaney. Not at all----
    Mr. Quigley [continuing]. --reading from a cookbook.
    Mr. Mulvaney. Mrs. Lowey, how are you? Always good to see 
you again.
    Mrs. Lowey. Am I on?
    Mr. Graves. Mrs. Lowey, you are recognized at any time you 
are ready to ask a question of the Director.
    Mrs. Lowey. And I do apologize. There are so many hearings 
going on at the same time.
    Mr. Mulvaney. If anybody can understand that, Mrs. Lowey, 
it would be me, since I have been in the same shoes. But I am 
happy to answer your questions.
    Mrs. Lowey. Well, you are very kind, and I thank you.
    Thank you, Mr. Chairman.
    Okay. Director Mulvaney.
    Mr. Mulvaney. Yes, ma'am.
    Mrs. Lowey. I am really baffled by the White House plans to 
submit a rescissions package to Congress seeking deep cuts to 
the bipartisan omnibus spending bill the President just signed 
into law. And I want to emphasize the bipartisan nature of it 
because, when I came to Congress, we used to say there were 
Democrats, Republicans, and appropriators.
    Mr. Mulvaney. We still say that.
    Mrs. Lowey. I say that because there has been real 
cooperation between the Democrats and Republicans on the 
Appropriations Committee.
    In fact, the first media reports on this emerged within 
days of the President's signature, which I find particularly 
outrageous. After all, the White House had plenty of 
opportunity to weigh in during the lengthy negotiations.
    We keep hearing the administration's objection is 
fundamentally about the sum of dollars being allocated toward 
nondefense discretionary funding. This figure, as you know, was 
in the spending agreement and signed into law by the President 
just a few weeks earlier.
    So, I must say, this whole exercise seems to me a bit 
bizarre. We have a responsibility to the American taxpayer to 
provide Federal agencies with regular and certain budgets so 
they can adequately execute their missions in an efficient and 
transparent manner.
    So, by proposing to rescind funds that have just been 
distributed, it seems to me you are causing an even greater 
degree of chaos and confusion for the agencies. It certainly 
isn't a good way to govern.
    In fact, I was just talking to Chairman Frelinghuysen. We 
were talking about the next round. I said: Just give us the 
302(b)s now when we can get it all done earlier.
    So a couple of questions. Was the President aware of the 
details of the spending agreement and omnibus negotiations 
before signing them into law? If so, how can the President 
pretend the compromise was new to him? And if not, why is no 
one in the administration properly briefing the President of 
the United States?
    Mr. Mulvaney. Certainly. Thank you for that question. Let's 
go back to how this happened. Certainly, we knew the top lines. 
We knew the top lines for several months because we had agreed 
to them in the so-called caps deal I think that was in late 
January or early February; I can't remember when it was.
    But, in fairness, Mrs. Lowey, we didn't actually see the 
bill until I think Wednesday night. And you all voted on it on 
Thursday. The details, ma'am, the details are what----
    Mrs. Lowey. It was this big.
    Mr. Mulvaney. It was only 2,000 pages. You didn't hear the 
President complain about the top line numbers. You heard him 
complain about some of the individual line items. So that is 
what rescissions are designed to go after.
    Keep in mind he also said, look, he is signing this because 
he likes part of it, but he said on the day that he signed it 
that there were things he didn't like.
    Rescissions--and I am not familiar with how long you have 
been in Congress, but you may have been around the last time. 
We actually--we used to do rescissions here all the time. Both 
parties did. Presidents of both parties have done rescissions. 
In fact, the first President not to do one was George W. Bush. 
President Obama didn't do one either.
    Rescissions used to be the ordinary course of business 
around here. I think there have been over a thousand passed by 
the House and Senate, passed after other spending bills have 
been passed, usually on a bipartisan basis. Many folks who are 
saying now they don't want to vote for rescissions because it 
undoes an agreement have voted for them in the past.
    It may be that there is money in the rescission that you 
didn't know was in there or that you don't want to spend or 
that you have changed your mind about. There may also be--and 
this is critical, and this doesn't get nearly enough 
attention--money that we will ask to be rescinded, that is not 
in the omni. There are carryover funds to the tune of several 
hundreds of millions dollars, if not more, from previous years 
that we might just say: Look, the need for that money being 
spent is gone. Times have changed. We have new priorities. 
Let's rescind that money.
    So there are a bunch of different ways to look at a 
rescission. I don't think you can look it at through just the 
perspective that you have offered. There is an opportunity here 
to simply revisit it. You may agree with us; you may disagree 
with us. We do that all the time, but we don't think this is 
unusual. We don't think it is something that is unprecedented. 
And we certainly don't think it is something that indicates 
going back on any type of agreement.
    Mrs. Lowey. Well, except for the fact, I would like to 
remind all of us, that the deadline was October 1. That is 
normal procedure, correct?
    Mr. Mulvaney. Yeah. And we compliment the House. You all 
did----
    Mrs. Lowey. A few months after that. It took us a long time 
to get this bill done. And I am not going to say to you that I 
loved every line in the bill, but that is democracy.
    Mr. Mulvaney. Right.
    Mrs. Lowey. I was really so proud of all the--as the 
ranking member, proud of the Democrats and the Republicans, 
because they really worked together in a bipartisan way. And 
remember, what took all the time was getting that top number 
because, unless you have the 302(b)s, you really can't divide 
everything up.
    So, for me, I just wonder, do you really believe that, 
after spending countless hours of precious legislative time 
already this year to keep the government open--and remember, we 
are way past the deadline--that spending more time to unwind 
what Congress finally put to bed is a wise and responsible use 
of congressional and administrative time and money?
    And I also want to say I was honored to be appointed to 
this special committee that is supposed to be figuring out how 
we can operate more effectively and more efficiently. I said in 
our first meeting: Well, if we got our 302(b)s done early 
enough, we would be able to operate more effectively and more 
efficiently.
    So I guess my question to you: Are you planning to consult 
with the committee as you develop the rescission proposal? When 
will Congress be briefed?
    Hopefully, you won't have a rescission proposal, and you 
will take all your great, creative ideas and submit them to the 
committee.
    I know you looked up to see if I was serious about that.
    Mr. Mulvaney. You had a smile on your face as well when you 
said that.
    Mrs. Lowey. Well, you are correct. So I would hope, and I 
am sure all our chair and ranking members, you would give us a 
lot of input as we do the next round and we get the 302(b)'s 
earlier, which I certainly suggested to the chairs, so that we 
can do our work, and we don't have to put a couple of thousand 
page bill on the desk at the end.
    So are you going to consult with the committee as you 
develop the rescission proposal? And when will Congress be 
briefed?
    Mr. Mulvaney. A couple of different things. Thank you. I 
didn't realize you were on that committee. I assume that is the 
Committee on Budget Process Reform, which we absolutely 
welcome.
    We recognize the fact the House actually did its work last 
year. I think you all passed all 12 of your appropriations 
bills. So, when we say there is a problem with Congress passing 
its bills, we know where that problem lies, and it is not in 
this particular room.
    We encourage--I will make that very clear--we encourage 
anything that gets us back to regular order. The President is 
serious in his threat not to sign another omni. I think that 
would be a welcome threat to Members of both parties in this 
Chamber because you all don't want an omni either. As you have 
mentioned, you didn't like the whole thing, and that is the 
nature of compromise, but I think we all agree that omnibuses 
are not--omnibi?--omnibuses are not the way to run a 
government.
    I always laugh when folks ask me about keeping the 
government open because I was in the unusual circumstance 
several months ago of being the one trying to open the 
government with a lot of folks who accused me previously of 
wanting to shut down the government, having those folks being 
the folks who actually voted to shut down the government.
    I don't know how you voted on the CR during the government 
shutdown, but there are a lot of folks who--the roles were 
reversed, so to speak. It is always enjoyable to talk about 
that, to see some of my Democrat friends vote to shut the 
government down.
    We do think it is a good use of time. Again, it was a good 
use of time in previous administrations. We do look forward to 
working with the committees. I have already started to talk 
with the House leadership about this. It is probably too early 
to come to the committee specifically, but we will work with 
you.
    We don't have to, by the way. The law doesn't require us to 
do that. We can just send it to you. If we send it to you, I 
think we can freeze the spending for 45 days. We, actually, 
with a very small group of supporters in the House and Senate, 
can force a vote on the floor. We would much rather work with 
the House on this because we think, again, if we are able to 
find stuff we all agree on--in 2,000 pages, there might be one 
line that you and I both agree should not be in there. And that 
is what rescissions are for. So we do think it is a good use of 
time, and we will certainly get a chance to find out if it is.
    Mrs. Lowey. Mr. Chairman, if I may ask one other the 
question since you were kind enough to wait for me to come back 
from another hearing.
    You have campaigned as a fiscal conservative, Director 
Mulvaney, and you argued for major spending cuts when you were 
first elected to Congress in 2010. In 2013, you even supported 
major budget cuts to graphic the emergency disaster relief 
package passed through areas like mine, which were ravaged by 
Superstorm Sandy.
    However, as OMB Director, you have defended the GOP tax 
scam, despite the fact that the CBO shows it will add $1.8 
trillion to the deficit over the next decade. You defended a 
repeal of the Affordable Care Act, which would reduce health 
insurance coverage nationwide and increase the deficit. And you 
offered a budget which doesn't even attempt to balance.
    I would be interested, if you want to share it with us, why 
have your thoughts on this issue changed so dramatically, and 
we still haven't fully met our obligations to areas recovering 
from natural disasters? In fact, I listen to NPR every morning. 
Maybe your choice of stations is different.
    Mr. Mulvaney. I have listened before, ma'am. That doesn't 
bother me.
    Mrs. Lowey. I am just saying that I was really upset this 
morning because they were talking about Puerto Rico and how the 
electric grid still isn't up, and there are so many homes that 
still are not functioning.
    So I wonder, are tax cuts more valuable to you than relief 
for areas suffering extreme damage after a natural disaster 
strikes?
    Mr. Mulvaney. Let's talk about the tax cuts, and we can 
talk about the supplemental very quickly.
    I saw the CBO report. I would encourage you--we talked 
about this before you were here. I apologize for going over it 
again. But they make some very pessimistic assumptions about 
economic growth, the health of the American economy beyond 
about 2 years. They tell us we are going to go back to the 1.8, 
1.9 percent growth. That accounts for a lot of that $1.8 
trillion deficit you talked about.
    However, I think a lot of folks overlook that if you 
actually look at the revenue flows year by year, by the 10th 
year, even under the CBO numbers, we are generating more money 
than we would have before the tax bill. So the tax bill is 
actually generating new money to the government.
    Even the CBO, with its low assumptions on growth, projects 
that the American economy will be $6 trillion larger at the end 
of that 10-year window than it otherwise would be. That is 
huge. That is bigger than most countries. It is just the 
addition brought on by our policies.
    So we absolutely do defend the tax bill and think it has 
been a tremendous benefit to the American people. Most folks 
are much better off than they were before it, and we are 
welcome to defend that.
    On the Puerto Rico issue, goodness gracious, Mrs. Lowey, I 
think that the total supplemental emergency funding for 
disaster relief was over $100 billion.
    Money has not been the difficulty. I just got handed a 
note: 96 percent of customers have power now. The challenge is 
with the grid that--keep in mind, more people have power now in 
Puerto Rico than had it before the storm. The problem has been 
a structural deficiency down there that predates the storm. You 
and I both know that one of the limitations of disaster relief 
is you are not supposed to let people be better off than they 
were before the storm. We are actually doing that in Puerto 
Rico. They are going to be better off. We are making an 
exception for them.
    So I think I can make the argument we are treating them 
better than we treated the folks who were in New York and New 
Jersey during Superstorm Sandy.
    We look forward to working with you and with Puerto Rico on 
helping them get back on their feet, but I can assure you, in 
my mind, ma'am, the difficulty they are having is not for a 
lack of Federal funding.
    Mrs. Lowey. Well, let me just say to you--and I want to 
thank the chairman again for giving me the opportunity to have 
a discussion--I hope we can have further discussion as we 
approach the new--hopefully, it won't be an omnibus. Hopefully, 
we will be able to do regular order.
    Mr. Mulvaney. It will have to be something other than an 
omnibus because we are not signing one.
    Mrs. Lowey. Well, I am optimistic. Frankly, as I said to 
the chair just yesterday, give us the 302(b)'s now and let's 
know the rules of the road. Once we get the rules of the road, 
then we have to work together, and I hope in a bipartisan way, 
and there can be differences of opinions.
    Certainly, when we finish this bill, there are about, what, 
160 poison bills? Some of them may be perfume to some Members. 
I think they may be poison. We can have differences of opinion, 
but that is what democracy is all about.
    I do hope that, rather than creating a process with 
rescissions today, next week, we can work together on the next 
series--I am careful not to say an omnibus--and put these 12 
bills together in a constructive way, certainly with your 
input, and I hope it will be regular order.
    So, as soon as we get the 302(b)'s, then we know the 
framework, and we can move forward. So thank you very much.
    Thank you, Mr. Chair. I appreciate your waiting.
    Mr. Graves. It was good to have you join us today.
    Director, you will be pleased to know we are on an 
accelerated timetable when it comes to appropriations. We had 
success last year. It was the first time in over 10 years that 
the House passed all 12 appropriations on time--early, in 
fact--3 weeks early. This year, we are going to try to 
accelerate that and have everything out of the House by mid-
June, early July. So this team here has been working really 
hard. I know your team has been working really hard.
    Mr. Mulvaney. Notice the staff just rolled their eyes at 
that comment.
    Mr. Graves. But we are moving. We are moving quick. We look 
forward to having all of our bills out of committee within the 
month of May.
    Mr. Mulvaney. We appreciate everything you folks could do 
and your staff could do--and we look forward to working with 
you folks--to get back to regular order. Everybody is well 
served by that.
    Mr. Graves. We will work to that end, and we will be 
creative in some of the packages we put together. We refer to 
them as unified appropriations, as we reported all 12 out last 
year in a very open, regular order process in which every 
amendment was considered, and they all went to the Senate to 
sit and be peered at I suppose by the Senators. This year, I 
hope we get to see a little progress from the Senate.
    Let me commend your team. You have got a great team that 
surrounds you. They allowed you to get out of here today 
without saying ``I don't know'' for too long, right?
    Mr. Mulvaney. They even got Stewart's birthday. I mean, 
come on? What are the chances of that?
    Mr. Graves. Very good. We do appreciate your team. They 
have been fantastic to work with. We look forward to working 
with you in the days ahead.
    With that, the meeting is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

                                         Wednesday, April 25, 2018.

            FISCAL YEAR 2019 FINANCIAL SERVICES MEMBERS' DAY

    Mr.  Graves. All right. We will call this subcommittee to 
order.
    I want to welcome today some Members from both parties of 
the House to testify about priorities that they have submitted 
to the Financial Services and General Government Committee. We 
are here to hear these priorities. As a subcommittee, we have 
had over 2,000 requests submitted. And today, we have some 
individuals who want to come and present those requests in 
person. That is an increase of 36 percent over last year, which 
I would say is a testimony to this subcommittee and the full 
committee of advocating for the importance of getting 
priorities and ideas and policy into the appropriations 
process, because this is really how you get things done. So I 
am grateful that we have a few folks here today.
    In this hearing, we are going to do a couple of things. 
This is a member-to-member discussion about some of these 
priorities and good communication for us. And also, it shows a 
great example of coordination between Appropriations Committee 
and authorizing committees.
    And so as we take the opportunity to listen to one another 
today, we will give consideration to the Members as they 
present their ideas and have given us some time.
    And I am honored today to have the acting ranking member, 
Mr. Cartwright, join us as well. And he is welcome to commend 
any comments before we start.
    Mr.  Cartwright. Thank you, Mr. Chairman.
    The chairman is normally happy to have me as acting ranking 
member, because this is a role in which I have to behave 
myself.
    I want to say welcome to the Members. You know, they pay us 
to do this, talk to each other and listen to each other. And 
that is what I am here to do.
    So thank you for being here. And I look forward to your 
testimony.
    I yield back, Mr. Chairman.
    Mr.  Graves. Thank you very much, Mr. Cartwright.
    Well, first, I would like to recognize the gentleman from 
Missouri, Mr. Luetkemeyer, who is from the Financial Services 
Committee. He is chairman of the Financial Institutions and 
Consumer Credit Subcommittee on that committee. We will give 
you a moment here to get yourself settled in and get the mic 
set up.
    But, Mr. Luetkemeyer, we know that you have given a full 
testimony of your request, and that has been submitted to the 
committee. And we have all taken time to read that. I look 
forward to hearing your comments and your ideas. But I 
appreciate you taking time to join us, and you are welcome to 
share with us. You have 5 minutes at your disposal there.

   STATEMENT OF HON. BLAINE LUETKEMEYER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mr.  Luetkemeyer. Thank you, Chairman Graves, and Acting 
Ranking Member Mr. Cartwright. I appreciate your comments.
    My goodness, you certainly have my respect if you have got 
2,000 requests to go through. You have got to have awful good 
staff, or you are going to burn the candle at both ends. So I 
thank you for your service and for all your hard work.
    For millions of customers and small business owners who 
rely on our financial system each and every day, overregulation 
from Washington has meant increased fees, fewer services, and 
diminished access to credit. It has held back both growth and 
opportunity for the American people.
    As chairman of the Financial Services Subcommittee on 
Financial Institutions Consumer Credit, it is a message I hear 
multiple times every day, whether here in Washington, back home 
in Missouri, or traveling through any city or State around our 
great country.
    Through the appropriation's process, the Subcommittee on 
Financial Services and General Government has the ability to 
foster broader availability of credit and promote economic 
freedom. To me, economic freedom is what makes us, this 
country, what it is today.
    Consumer Financial Protection Bureau, CFPB, has buried 
consumers and our economy under an avalanche of regulations. To 
be clear, it is important to guard consumers against 
discriminatory practices. There is no doubt about that. Yet in 
doing so, we must be cautious the enforcement pendulum does not 
swing too far and do too much harm--do more harm than good. For 
these reasons, I respectfully request the subcommittee 
seriously pursue reforms to the CFPB. Chief among them, the 
placing of the Bureau on a regular appropriations schedule. 
Such a move would provide greater accountability and 
transparency at an agency until only very recently was neither 
accountable nor transparent. It is also a move that CFPB's 
Acting Director and our former colleague, Mick Mulvaney, has 
said is essential. He was in our committee last week and made 
this request along with three others as--reforms that he felt 
would be important to make the CFPB work better, to be more 
accountable and transparent.
    CFPB is not the only Federal financial regulator that has 
harmed American consumers and small businesses, in my judgment. 
We should all work to identify ways to end, once and for all, 
Operation Choke Point, the FDIC- and DOJ-led initiative that 
seeks to prohibit legally operating businesses from the 
financial services they need to not only do business, but to 
survive.
    Over the last several years, members of the Financial 
Services Committee and the broader House have expressed broad 
bipartisan concern surrounding Operation Choke Point. The 
underlying problem here is significant. The Federal Government 
should not be able to intimidate financial institutions into 
dropping entire sectors of the economy as customers, based not 
on risk or evidence of wrongdoing, but purely on personal and 
political motivations.
    In October last year, the Financial Services Committee 
passed H.R. 2706, my Financial Institution Consumer Protection 
Act by a vote of 59-1. That same legislation passed the House 
on December 11th, 2017, by a vote of 395-2. This commonsense, 
non-controversial bill would simply ensure that Federal 
financial regulators cannot suggest, request, or order a 
financial institution to terminate a banking relationship 
unless the regulator has material reason beyond reputational 
risk, which, quite frankly, the regulators have yet to tell me 
how they can define.
    This legislation is so non-controversial that the FDIC has 
already used its authority to put the provisions into place. 
For that reason and given that the House overwhelmingly 
approved the measure by a near unanimous vote, I respectfully 
request that the subcommittee consider inclusion of H.R. 2706 
in the upcoming FSGG package.
    I also urge the subcommittee to identify provisions to 
offer targeted regulatory relief to financial institutions.
    Under the leadership of Chairman Hensarling, the Financial 
Services Committee has advanced dozens of bills to offer 
targeted relief to financial firms, banks, and credit unions. 
Where appropriate, I would urge the subcommittee to consider 
inclusion of these provisions into your appropriations 
legislation.
    My colleagues and I stand ready to work with you in order 
to do that. Mr. Chairman, I thank you and the members of the 
subcommittee for your consideration of these ideas and 
opportunity to testify today. I look forward to working in a 
collaborative way on these issues and also working with 
Chairman Hensarling and my colleagues in the Financial Services 
Committee on these efforts to promote economic independence 
across our great Nation.
    With that, Mr. Chairman, I yield back.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr.  Graves. Thank you, Mr. Chairman. And let me just thank 
you for last year. I know you were a champion in this arena, 
and you have a unique background that lends you to be an expert 
in this area and a champion for the credit markets and for 
making sure that our consumers, our constituents, have access 
to credit.
    So thanks again for bringing these ideas forward. I don't 
have any questions for you.
    Mr. Cartwright, do you have any questions, or Mr. Bishop?
    Mr.  Cartwright. I do not have questions, Mr. Chairman. But 
I want to echo your praise for the member for that fine bill 
you brought up, the Financial Institution Consumer Protection 
Act. I voted for it. And, in fact, only two voted against it. 
So a nice piece of legislation.
    Mr.  Luetkemeyer. And, actually, one of those has 
actually--wished he had voted for it now. He has told me so. It 
is down to one. That is okay. We all make mistakes, right?
    Mr.  Cartwright. Thank you for your testimony today. Thanks 
for good work in Congress.
    Mr.  Luetkemeyer. Thank you.
    Mr.  Graves. Mr. Bishop.
    Mr.  Bishop. Thank you. I have no questions. Thank you for 
your testimony, and I think your points are well taken.
    Mr.  Graves. Thank you, Mr. Luetkemeyer. We look forward to 
doing our best to include some of your concepts, if not all, 
into the process, as we move forward.
    Mr.  Luetkemeyer. I appreciate your consideration, Mr. 
Chairman. Thank you.
    Mr.  Graves. Let's welcome Mr. Young to the hearing.
    Mr. Young, did you have a comment real quick before Mr. 
Luetkemeyer----
    Mr.  Young. It is just a pleasure to be on this committee 
with all of you.
    I yield.
    Mr.  Graves. Thank you for that.
    Next we have Mr. Barr, the gentleman from Kentucky. We 
thank you for joining us. Another member of the Financial 
Services Committee, and another leader on these issues. You 
engaged deeply with this subcommittee last year. We thank you 
for that and look forward to hearing your testimony that you 
have today. And we know that you submitted something for the 
record as well, which has been recorded.
    But the next 5 minutes are yours to use however you wish, 
Mr. Barr. Thank you.

STATEMENT OF HON. ANDY BARR, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF KENTUCKY

    Mr.  Barr. Thank you, Mr. Chairman and Ranking Member 
Cartwright. Thank you. Good to see all of you all here. Thanks 
for the opportunity for giving me a chance to talk a little bit 
about a couple of ideas for your appropriations bill.
    There is two bills in particular that I believe should earn 
your consideration for inclusion in the 2019 FSGG 
Appropriations package. First, the Taking Account of 
Bureaucratic Spending Act, known affectionally as the TABS Act, 
and the Preserving Access to Manufactured Housing Act.
    As appropriators, you know that one of the most important 
powers of Congress enumerated in the Constitution is the power 
of the purse, which is the most effective tool available to the 
legislative branch to told the executive branch accountable. 
Unfortunately, the Dodd-Frank Act exempts the Consumer 
Financial Protection Bureau from the appropriations process, 
instead allowing the Bureau to grew its funds directly from the 
Federal Reserve subject to an opaque and arbitrary formula. 
This arrangement means that the Bureau will draw about $6.7 
billion over the next decade without the approval of Congress, 
and without any oversight in how that money is spent. Our 
oversight in the House Financial Services Committee has exposed 
some abuses because of this.
    This deprives Congress of its most important oversight 
tool, the power of the purse, which, as Madison wrote in 
Federalist Number 58, may, in fact, be regarded as the most 
complete and effectual weapon with any constitution can arm the 
immediate representatives of the people for obtaining a redress 
of every grievance and for carrying into effect every just and 
salutatory measure.
    The Taking Account of Bureaucrat Spending Act would put an 
end to Bureau extravagances and bureaucratic overreach that 
come at the expense of our constituents by establishing, for 
the first time, Congress' proper oversight of this Federal 
agency.
    Specifically, the bill amends Dodd-Frank to limit the 
authorization of the agency and subjects the Bureau to the 
annual appropriations process. Congress and the American people 
deserve a say in how much taxpayer money the CFPB gets, how it 
spends it, and whether the Bureau is fulfilling congressional 
intent and whether it warrants reauthorization. No more blank 
checks to the CFPB.
    Now, for the second bill. Affordable housing is of critical 
importance to families across the Nation. But today's Federal 
regulations are making access to manufactured housing more 
difficult to obtain. This is particularly concerning, 
considering that 45 percent of current manufactured homeowners 
have an annual household income of less than $30,000, 13 
percent of manufactured homeowners are retirees, and 15 percent 
of owners are unable to work or are disabled.
    To these people and others, manufactured homes offer value 
at a price that can't be beat. The fact that our government has 
regulations in place that stifle their ability to purchase a 
manufactured home is frankly appalling. Earlier this year, a 
hospital worker in Kentucky applied for a loan of $38,500 to 
finance a manufactured home. He had an 8 percent downpayment. 
His monthly income was $2,200 a month, plenty to cover the all-
in housing cost of $670 per month.
    The payment for his own home would have been less than what 
he was spending on rent, but he was unable to get financing. He 
contacted his local banks and credit unions, but they no longer 
financed manufactured homes.
    So why are the lenders not lending? First, the CFPB has a 
definition of high-cost loan that fails to take into account 
the fact that the fixed costs associated with purchasing a 
house do not change relative to the cost of the housing. In 
other words, points and fees on a $70,000 manufactured home 
will likely be similar to the points and fees on a $400,000 
home. Nonetheless, the current definition discriminates against 
manufactured homes. And the banks, credit unions, and other 
lenders are following the rules set forth by the Bureau.
    Second, the government's definition of loan originator is 
limiting the ability of manufactured housing retailers to help 
potential buyers find the financing they need. Thus, because 
potential borrowers are getting less help in finding potential 
lenders, fewer manufactured homes are being purchased.
    Now, this second issue is included in the bipartisan 
Senate-passed financial services regulatory relief bill, and we 
think and are hopeful that that will ultimately find its way 
into law. But the first problem associated with manufactured 
housing lending, that still is not addressed by that package. 
So we think that that is--that the loan limit issue needs to be 
addressed in the Appropriations bill.
    So, again, the legislation that we are referring to here is 
the Preserving Access to Manufactured Housing Act. It will fix 
these problems. It will make it easier for Americans to afford 
a manufactured home for themselves and their families.
    Inclusion of this bill in the FSGG 2019 appropriations 
package would end the practice of the Federal Government 
protecting people right out of home ownership, and instead, 
more Americans will have access to affordable manufactured 
housing again. We all believe that greater access to affordable 
housing is something that all of us, Republicans and Democrats, 
can agree on.
    And, again, I thank you for the opportunity to speak today, 
and I am more than happy to answer any questions about either 
proposal.
    Thank you, Mr. Chairman.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Graves. Thank you for joining us today. You have been 
steadfast on these issues, and I share your same concerns. We 
had the Director of OMB before us last week in the Financial 
Services Subcommittee and in Appropriations. But for the first 
time ever, we actually had the Director of CFPB before us, and 
he shared some of the same concerns about being under our 
oversight and how currently that is not the case. So I am in 
agreement with you on that, and I think there are members of 
this panel that are as well.
    But thanks for your good work on this.
    Are there any questions from Mr. Cartwright, or comments?
    Mr. Cartwright. I have none.
    Mr. Graves. Mr. Young. 
    Mr. Young. No. Just a comment that the longer an agency 
develops a culture where they are not accountable to anybody, 
and that deepens, and they can become renegaded. And the only 
way to draw that back in is to have that oversight, and that is 
Congress. And using their funding as a leverage tool, and that 
is ultimately accountability to the taxpayers as well. And so I 
wholeheartedly support what you are doing with the TABS Act.
    Mr. Barr. Thank you, Mr. Young. Can I respond to that 
really quickly?
    Mr. Young. Yes.
    Mr. Barr. I would say that that should, for all of us, be a 
bipartisan concern. This is not at all a--and it should not be 
a partisan issue. It is really an issue of defending the 
institution of the legislative branch.
    Administrations come and go. Some of us prefer the current 
administration; some of us, maybe on this side of the aisle, 
prefer the previous administration. But in both cases, we had 
abdicated our oversight function to the executive branch to 
basically run itself. Republicans may like what is going on 
with the CFPB right now. Democrats may not. Similarly in the 
previous administration, Republicans may not have liked what 
was going on in the CFPB. Democrats may have actually liked 
what was going on.
    But in either case, we, as the legislative body, should 
have oversight. And I think that is where we can get a 
bipartisan agreement on this reform proposal.
    Thank you.
    Mr. Graves. The gentlemen yields.
    Mr. Cartwright.
    Mr. Cartwright. Mr. Barr, I appreciate your comments and 
your testimony. And everything that you have said, I understand 
it, it makes sense.
    But I guess the larger question I am wondering is, is there 
not a rule for a truly independent body? I mean, we want--and 
there are such bodies, like the Fed, for example. There are 
those who are running around say ``Audit the Fed'' and ``Let's 
get control of the Fed.''
    But I think it is for the very same reason, because of the 
frustration in not being able to control that body. How do you 
feel about that?
    Mr. Barr. Well, I actually support legislation that would 
bring the supervisory regulatory functions of the Fed also 
under congressional appropriations. I believe in independence 
of the Fed, particularly with respect to monetary policy. I 
respect the fact that we have independent regulatory agencies.
    But what makes the CFPB unique is that unlike other 
independent regulators, like the Securities and Exchange 
Commission, for example, this is not a bipartisan commission. 
This entity is a single director accountable to no one, a 5-
year term. And even the President that appoints the director 
cannot remove this person without cause. So there is 
restrictions on removal power; there is restrictions on 
congressional oversight, because we don't have control over--we 
don't have power of the purse over this entity. And there is 
even limits on judicial review. So there is just a lack of 
checks and balances that our Founding Fathers envisioned with 
any agency.
    Mr. Cartwright. Not to cut you off, but do you think that 
problem arises to the level of a constitutional violation?
    Mr. Barr. I do.
    Mr. Cartwright. Has that been litigated at all?
    Mr. Barr. It has been litigated in a district court. And 
the D.C. district court has actually struck--a judge, a Federal 
judge, struck down the structure of the CFPB as 
unconstitutional. That was appealed. But the question has not 
ultimately been taken under consideration by the U.S. Supreme 
Court.
    My view is, and we all have a responsibility in the 
Congress to assess the constitutionality of the laws that we 
pass.
    Mr. Cartwright. Don't wait for the court.
    Mr. Barr. Not just the courts. My personal view is that the 
structure of this Bureau is unconstitutional. There are such 
entities as independent regulatory agencies that I believe do 
satisfy constitutional scrutiny. I do not believe this one is 
one of those.
    Mr. Graves. Mr. Cartwright, I don't think Mr. Barr is 
advocating for the abolishment of the CFPB, just the oversight 
of it. Many of the other independent agencies are under the 
oversight of Congress through other authorizing committees that 
come and testify. But as the Director pointed out last week, he 
has no legal responsibility to do that other than to appear.
    Mr. Cartwright. He did point that out.
    Mr. Graves. I think Mr. Barr is saying there should be an 
act of responsibility, and the ability to question and give a 
little bit of direction, so----
    Mr. Barr. Right.
    Mr. Graves [continuing]. The gentleman's points are well 
made. Let me see if Mr. Bishop has any questions.
    Mr. Bishop. I have none.
    Mr. Graves. Mr. Barr, thank you very much. We appreciate 
your advocacy here. I think you know last year this same 
provision was carried within this bill, and we will give it the 
same consideration as well this year. I appreciate Mr. 
Cartwright's comment as well.
    Mr. Barr. Thank you.
    Mr. Graves. Next we will have the gentleman from Colorado. 
Mr. Tipton has joined us as well. Mr. Tipton, this is a very 
casual opportunity for you to share a concept with us. We want 
to thank you for bringing this before us. We have had over 
2,000 requests towards this Appropriations Subcommittee bill, 
and yours is one of those. If not, I think you might have made 
a couple of requests as well. We want to thank you for that, 
because you are bringing a unique idea to us, and we want to 
give it full consideration. So thank you for your 5 minutes 
presentation here, and we look forward to hearing from you.

STATEMENT OF HON. SCOTT R. TIPTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Tipton. Well, thank you, Chairman Graves. I want to 
thank the committee as well for this time and, frankly, all 
hard work that you all are doing. I know it is a tough left to 
be able to--actually, to be able to address.
    And I would like to be able to start out by saying that I 
really support the idea of being able to return to regular 
order in the appropriations process. And I am encouraged by the 
work that this committee is doing to be able to get Congress 
back on the right track.
    Our current system of dysfunction on spending measures will 
leave a wealth of uncertainty for our future generations. And I 
firmly believe that the way to be able to mitigate that 
uncertainty is going to be through an open appropriations 
process where all 12 appropriations bills are debated and 
passed. And obviously encourage our Senate counterparts to be 
able to do the same. We must also make sure that we provide 
certainty for the future generations, that their way of life 
will be preserved as well.
    There are two federally funded initiatives that will help 
our communities now and in the future. They are the Community 
Development Financial institutions Fund, and the High Intensity 
Drug Trafficking Area Program.
    The CDFI fund plays a unique role in generating economic 
growth across the United States, and especially in my district 
in Colorado. By fostering and creating and expanding capacities 
of community-based financial institutions that specialize in 
providing affordable credit, capital, and financial services, 
the CDFI fund builds businesses, creates jobs, and revitalizes 
neighborhoods.
    One CDFI-backed institution in Fort Garland, Colorado, for 
example, which is in my district, was able to finance a small 
grocery store in town. While this may not seem like much, to 
many of us, the presence of a grocery store can make a huge 
difference in a rural town.
    Because of the CDFI, I was able to use the funds Healthy 
Food Financing initiative, the small rural community of Fort 
Garland now has significantly improved access to fresh, healthy 
foods. This happened to be a grocery store I had the 
opportunity to be able to tour. A small town. Those couple of 
jobs, couple of part-time jobs, I don't think we can overstate 
in those communities.
    The impact of the CDFI having on those rural communities is 
obviously encouraging to economic growth, and I would encourage 
the committee to continue to support the program, especially as 
it serves to benefit home buyers, small businesses and families 
in communities across our country.
    And I would also like to be able to talk about something 
that is impacting many of our communities across the country in 
terms of drug trafficking. High Intensity Drug Trafficking Area 
program, called HIDTA, is a critical tool, utilized throughout 
the United States by local law enforcement, and officers to be 
able to combat drug trafficking and dealers.
    In my district, the HIDTA has enabled local law enforcement 
officials to yield big results in pursuing drug cartels and 
help control the inflow and movement of illicit substances, 
particularly in Pueblo County. In addition to Pueblo County, 
there are four HIDTA-designated counties in my district: La 
Plata, Mesa, Garfield and Eagle Counties. By expanding the 
resources to these communities, our smaller law enforcement 
agencies receive crucial assistance in combating illicit 
actors.
    In addition, my office is also working to extend the HIDTA 
designation to other counties in the four corners region of 
Colorado to further improve law enforcement's ability to combat 
cartels that are active and well-established in the area.
    The HIDTA program makes our communities safer and helps 
reduce the amount of violent crime that is often associated 
with narcotics activity. I understand that Federal resources 
are limited, and I appreciate your consideration for my request 
for continued funding of both of these programs, programs 
function as an active benefit to our communities in my part of 
Colorado and would encourage your support.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Graves. Thank you, Mr. Tipton. You bring up two very 
important topics. I want to thank you for your commitment to 
small business and investment in local communities, but also 
safe communities.
    The CDFI grants that you referenced represent the number 
one request we receive from all Members, Republican and 
Democratic. In fact, 14 percent of all the requests relate to 
that. So thank you for that. In the top five as well would be 
the safer communities and investments against illegal drug 
distribution and use. So you represent a lot of Congress here 
with your interest today. So you can be assured these will be 
taken into deep consideration as well.
    Mr. Cartwright, any thoughts or comments?
    Mr. Cartwright. No. I want to thank you for appearing 
before us today and for your testimony. I appreciate it.
    Mr. Tipton. Thank you.
    Mr. Graves. Mr. Bishop.
    Mr. Bishop. Likewise, I would like to thank you for your 
testimony. I don't have any questions.
    Mr. Graves. Thank you for joining us today and bringing 
these ideas forward. We spoke before you came in how this is 
great importance for authorizing committees to be working with 
appropriating committee, the Appropriations Committee, to 
advance some of these ideas. So thank you very much.
    Mr. Tipton. Great. Thank you, Chairman.
    Mr. Graves. Thank you.
    And for the subcommittee here, we had another submission, a 
request to attend but who cannot join us because of another 
conflict. I think a markup was scheduled, Mr. Schneider.
    So without objection, we will forego that testimony. But I 
think you have a print of his statement in your material here 
that you are welcome to read. I thank everybody for 
participating today, for the bipartisan feel here of requests 
and also input.
    So with that, and no other members before us, we will 
adjourn.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                          Thursday, April 26, 2018.

                   SECURITIES AND EXCHANGE COMMISSION

                                WITNESS

HON. JAY CLAYTON, CHAIRMAN, SECURITY AND EXCHANGE COMMISSION
    Mr. Graves. Well, good morning. We will call the 
subcommittee to order, and we welcome the Securities and 
Exchange Commission Chairman Jay Clayton with us this morning. 
Thanks for joining us and giving us your testimony this 
morning. I know this is your first appearance before this 
subcommittee, so we will look forward to spending some time 
with you.
    Before we discuss the proposed budget request that you 
submitted, I just want you to know a couple of things: that 
this has been an exciting time for our economy, as we have 
watched over the last year and working with the administration 
and with you.
    Congress has enacted the historic tax regulatory reform 
measures that we have seen over this past year, which have 
freed up businesses to grow and to thrive once again. And we 
have seen the results have been in the numbers.
    It has been clear: unemployment is at a 17-year low, 2.5 
million new jobs have been created just in the last 13 months. 
Wages are growing at nearly 3 percent, which is one of the 
fastest growth rates that we have seen in a decade. Small 
business optimism is at an all-time high. And from your perch 
you see that the stock market has reacted positively as well.
    So, in other words, it is a new day for American workers, 
and we are really excited right now to see what is happening 
throughout the economy.
    But we recognize there are still some challenges in the 
modern economy, such as new products in the financial 
technology sector, growing concerns about cybersecurity, and 
the ever-present challenge of keeping the markets open but also 
fair for everyone.
    So, I want to applaud you, Chairman Clayton, for your focus 
on the long-term interests of main street investors, as well as 
your commitment to reducing roadblocks for small businesses, as 
they face so many across our country.
    But you are helping them to secure capital that they need 
to hire, invest, innovate, and deliver economic opportunities 
for all our constituents. So, I was encouraged to see that the 
SEC voted on April 18th to propose a new regulation, what you 
refer to as the regulation best interest standard.
    We look forward to hearing about that this morning. I know 
you want to address that and share with us your direction, 
which is being designed to better protect the financial 
interest of our retail customers all across the country.
    So, as you begin this 90-day public comment period, I look 
forward to hearing more this morning and then, obviously, as 
you follow up with us in the future, about how this is going to 
positively impact our constituents across the country.
    But we are excited to have you today, and once again we 
welcome you, and I am joined by the ranking member here, Mr. 
Quigley from Illinois, who is a great member of this committee 
and has great interests as well in the topic of the day.
    So, Mr. Quigley, it is yours for any opening comments you 
might have.
    Mr. Quigley. Very good. Thank you, Mr. Chairman. Thank you 
for holding this hearing. I would like to join you in welcoming 
SEC Chairman Jay Clayton for his first appearance before this 
subcommittee.
    Chairman Clayton, I want to thank you for taking time to be 
here today. I am pleased to have the opportunity to discuss 
with you the SEC's first fiscal year 2019 budget with you. You 
and I have had the chance to meet in my office on a couple of 
previous occasions, which I appreciate.
    The SEC is responsible for promoting investor protection 
and education, as well as for overseeing the integrity and 
fairness of capital markets. These responsibilities are 
essential so that businesses have access to capital, so they 
can grow, add jobs, and continue to the Nation's economic 
strength.
    The Commission's budget request for fiscal year 2019 is 
just under $1.7 billion, including $37 million to finance a new 
lease procurement for the New York regional office. This amount 
represents a negligible increase to base funding of just $6 
million above the enacted fiscal year 2018 spending.
    While I am glad to see that the budget proposes retaining 
additional spending that Congress provided last year to fortify 
the Commission's cybersecurity infrastructure, I was 
disappointed that your request does not seek to bolster 
resources for enforcement staff to a level I believe is needed.
    After all, the core of the SEC's work is enforcement and 
examination. This is where predatory actors, big and small, are 
caught and punished. Your budget provides for an overall 
staffing level that is 1 percent lower than the current year 
and a steeper 3.5 percent decline in FTP, which we compared to 
2017.
    I am pleased that the request begins to restore positions 
that were lost during the hiring freeze, roughly one quarter 
one, I believe, but frankly, your proposal will still leave the 
enforcement division with dozens fewer staff than when the 
hiring freeze began. Not only do I consider imperative that you 
add enough people to accomplish your mission, but I think we 
also share a focused determination to arm you with the 
resources necessary to prevent criminals from deceiving 
investors trading on inside information and undermining 
competence in our markets. I look forward to hearing your 
testimony and discussing these and other issues with you today. 
Thank you again, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Quigley. Mr. Chairman, the 
subcommittee, this morning you will see members come and go. 
This an accelerated appropriations process now, so a lot of 
committee meetings are being assembled simultaneously, and I 
know you understand that.
    So, you will see members come and go throughout the 
morning, but there is great interest in what you are doing at 
the Commission. And, with that, we look forward to any opening 
remarks you may have before we ask you a few questions.
    Mr. Clayton. Thank you. Thank you, Chairman Graves. Thank 
you, Ranking Member Quigley. Members of the committee, I 
appreciate the opportunity to testify before you today about 
the President's fiscal year 2019 budget request for the SEC. On 
behalf of my fellow Commissioners and the 4,500 women and men 
at the SEC, I would like to thank this Committee for its 
support.
    Congress' recent funding for the agency will enable the SEC 
to make significant investments in furtherance of our efforts 
to modernize our information technology infrastructure and 
improve our cybersecurity risk profile. I recognize the vote of 
confidence that you have shown in the SEC, as does our staff.
    I am committed to ensuring that the agency is a prudent 
steward of this appropriation. In my interactions with our 
staff, it is always clear that they recognize and are motivated 
by the fact that tens of millions of Americans are invested in 
our securities markets. The touchstone for the SEC staff is the 
long-term interests of these Americans.
    In turn, we believe serving these interests furthers 
America's interests. Our fiscal year 2019 request of $1.658 
billion for SEC operations will enable the SEC to continue its 
work in a number of areas with a focus on five important 
components that I will highlight in a moment.
    A few threshold matters; first, the request will enable us 
to start lifting our hiring freeze and support 100 new hires to 
address current priority areas.
    Second, the budget request relies on the SEC having 
continued access to the Commission's Reserve Fund to invest in 
information technology improvements, including those related to 
cybersecurity.
    And, third, importantly, the SEC's funding is deficit-
neutral, and any amount appropriated to the agency will be 
graphic by transaction fees. Let me go through a few areas: 
information technology and cybersecurity.
    With regard to information technology and cybersecurity, 
Congress has enacted the fiscal year 2018 appropriation, and 
our fiscal year 2019 request will allow the SEC to make 
investments to modernize our information technology 
infrastructure and improve our cybersecurity risk profile.
    We will use this funding to advance the implementation of 
our multi-year IT strategic roadmap, including investments in 
cybersecurity resources and the agency's risk management 
capabilities.
    Capital formation: In facilitating capital formation, we 
have made progress, but I believe the SEC can and should do 
more to enhance capital formation in our public and private 
capital markets, and particularly for mid-sized, small, and 
emerging companies.
    Please be assured that, as we develop initiatives aimed at 
promoting access to the capital markets, we will also seek to 
maintain and enhance important investor protections. The 
request also will provide resources for staffing the office of 
the Advocate for Small Business Capital Formation. Turning to 
protecting Main Street investors; protecting Main Street 
investors and preserving their access to investments and 
opportunities is at the heart of the work of numerous offices 
and divisions at the SEC.
    Last week, the Commission voted to issue for public comment 
a comprehensive package designed to address retail investor 
confusion and potential harm in their relationship with 
investment professionals. Our rulemaking package will 
significantly enhance retail investor protection while 
preserving access, in terms of both availability and cost, to a 
variety of types of investment services and investment 
products.
    Our rulemaking is designed to serve our Main Street 
investors, and I hope that we will hear from them during the 
comment process, including in the investor roundtables I 
announced in Atlanta, Denver, Houston, and Miami.
    Enforcement, Compliance, and Examinations: over 50 percent 
of our workforce is devoted to enforcement, compliance, and 
inspections, and our 11 regional offices are primarily devoted 
to these areas. Our Enforcement division is committed to 
protecting our markets and investors, especially from fraud 
that impacts our most vulnerable.
    Our request will allow for critical investments in our 
ability to protect investors by supporting key enforcement 
priorities, including expanding the work of our new Cyber Unit 
and our Retail Strategy Task Force.
    The request will also allow for further advances in our 
examinations of market participants, including investment 
advisers. We increased our examination of investment advisers 
by more than 40 percent in fiscal year 2017 to cover 
approximately 15 percent of all SEC-registered investment 
advisers. But we are continuing to seek improvements, including 
through the use of technology.
    Trading and Markets: our trading markets constantly evolve 
and expand, demanding continuous effort to identify emerging 
issues and risks, and strive to ensure that, as technology 
changes, our regulations drive efficiency, integrity, and 
resilience.
    Our request will allow our Division of Trading and Markets 
to expand the agency's depth of experience in vital areas such 
as equity and fixed-income market structure, analysis of 
clearing agencies, broker-dealers, cybersecurity, and 
electronic trading.
    Leasing: Finally, our request supports our participation in 
the GSA's competitive procurement process for a success or 
lease for our New York Regional Office. As with the SEC's 
headquarters lease, none of these funds will be used for SEC 
operations, and the agency has proposed a mechanism whereby any 
unused portion of these funds would be returned to fee payers.
    In closing, I would like to again thank this Committee for 
its continued support of the SEC, its mission, and its people, 
and I look forward to answering your questions.
    [The prepared statement of Mr. Clayton follows:]
    Mr. Graves. Thank you, Chairman. I know I will have a 
couple of questions, and I am sure the other members will as 
well. And you will find this is a very thoughtful subcommittee. 
They have great questions, and we look forward to hearing your 
responses. The first, from me, is, just going back to something 
you indicated, which was one of your items for your long-term 
agenda, and that was reviewing shareholder engagement in the 
proxy process.
    In fact, in November, you made the comment that the SEC (or 
the Commission) should be lifting the hood and taking a hard 
look at whether the needs of shareholders and companies are 
being met. And so, I appreciate your willingness to do that, 
because we have heard from several companies regarding this 
process, relating to the proxy advisory firms and their 
concerns regarding those.
    So, can you update our committee regarding when the 
Commission will be taking an important first step to address 
this issue and others like that, and reopening the comment file 
on the 2010 proxy plumbing?
    Mr. Clayton. Great, great. The proxy area is an area in 
need of examination, and it is an area in need of at least some 
modernization. You will not see it on my short-term agenda, but 
that does not mean we are not thinking about it. It is on our 
long-term agenda, and some of the things you mention in your 
question are important. The landscape of corporate governance 
has actually changed significantly in the last 5 to 10 years. 
We have a greater concentration of shareholder holdings, we 
have greater access to the proxy from shareholders, we have the 
emergence of proxy advisory firms which have a great deal of 
influence in the voting process. Those are all things we should 
examine.
    With respect to Proxy plumbing, we have had some recent 
matters that have demonstrated what we all believe, and that is 
that our plumbing is out of date. I think, if you looked at 
some of the recent proxy contests and the amount of time that 
it took to resolve them, you would have to reach the same 
conclusion. So, broadly to your question, I am aware of the 
issues, we are looking at them, and I would say stay tuned for 
action.
    Mr. Graves. The difference in short-term, long-term agenda 
timeframes?
    Mr. Clayton. Well, the way the law works on our agenda, we 
have a short-term agenda, which are the things we think we can 
get done this year. This is not something that I think I can 
finish this year. I would say it is a higher priority on my 
long-term agenda.
    Mr. Graves. Fair enough, fair enough. And then you 
reference the comment period and that it is being reopened and 
discussing what we once knew as a fiduciary rule but now is 
being re-discussed as the best interest proposal for our 
constituents.
    And so, if you could just give us a little bit of an update 
on that, and then maybe go into a little bit more depth than 
you did in your opening comments there about how you see this 
process playing out, and what kind of pushback you might 
receive, and what kind of comments related to comments from the 
past.
    How do you see that folding into the future in your plan in 
the upcoming proposed rule?
    Mr. Clayton. OK. There is a lot in this area; let me try 
and get into detail in the time we have. I do not think there 
is any doubt in anyone's mind that action is required in this 
area, and action that coordinates across the various agencies 
that regulate the relationship between an investment 
professional and their client, whether that investment 
professional is an investment adviser or a broker-dealer. We 
have the Department of Labor, we have state securities 
regulators, we have the SEC, we have FINRA, we have state 
insurance regulators, we have banking regulators, all in this 
space.
    I think we all also agree that the duty, whether it is an 
investment adviser or a broker-dealer, owed to a client, should 
match that client's expectations. I think we all also agree 
that the client ought to be able to understand that duty and 
the type of relationship.
    I think we all also agree that that relationship should be 
governed by fiduciary principles. Now, we have called it the 
best interest standard, but I want to be clear. For broker-
dealers, there are core fiduciary principles embodied in that 
best interest standard. In fact, those fiduciary principles 
are, I believe, the same as the fiduciary principles that are 
embodied in the investment adviser standard.
    So, what have we done? We have recognized that the 
relationship between an investment adviser and their client is 
a different type of relationship than a broker-dealer and their 
client. But we have sought to harmonize the actual duties that 
are owed, recognizing those differences. And I look forward to 
engagement with all groups as we proceed across the rulemaking.
    Mr. Graves. Well, thank you for taking time to examine 
this. I know this has been an area of interest for a lot of 
individuals or broker-dealers or whomever they might be. And 
then what I heard is, you are incorporating some round tables 
as well to get community input and investor input and, I guess, 
industry input. And that is really important in this process, 
so we appreciate your transparency and work in this area and 
continue to move this in the right direction.
    Mr. Quigley. Thank you. May I make one more comment about 
this area? Do you mind?
    Mr. Graves. Yes, sir.
    Mr. Quigley. One of the lucky things about this job is, I 
get to interact with regulators around the world. We should 
never forget that the breadth and scope of participation in our 
markets by the American public is the envy of the world, and we 
should do everything we can to preserve that. Any other country 
would be delighted to have so many individuals investing in 
their capital markets.
    Mr. Graves. Thank you. Thank you for that reminder, Mr. 
Quigley. And then, Mr. Stewart.
    Mr. Quigely. Thank you, Mr. Chairman. And, again, Mr. 
Clayton, I appreciate your being here. And I appreciate your 
opening remarks. I made public pronouncements, and again today, 
talking about the importance of enforcement. I talked about 50 
percent of your staff being involved in this.
    Help me understand some of these issues, though: 2017 saw a 
decline in both the total number of SEC enforcement and actions 
and the amount of penalties assessed. Total penalties imposed 
in 2017 declined from 1.2 billion in 2016 to 832 million, a 
fall of nearly 35 percent.
    But I think, perhaps, more troubling is an outsider's 
perspective of your enforcement actions today could give the 
appearance that your agency is going after smaller fish instead 
of misconduct conducted by bigger fish firms. I understand it 
is more difficult, more challenging, and any of abusers are 
people you should be going after.
    But I would like you, if you can, to explain what appears 
to be a change in enforcement strategy. Georgetown University--
I am sure you saw this--released a study in November which 
found that cases brought against entities, as opposed to 
individuals, had changed quite substantially.
    A quote she wrote: ``Dropping from 47 percent in the first 
half of 2017, before you became chair, to 34 percent in the 
second half of the fiscal year after you took the helm.''
    The study went on to note that the median fine in settled 
cases was about 110,000 between 2007 and 2013, but in the most 
recent fiscal year SEC, which ended September 30th, that number 
had dropped by more than a third to about $70,000. These would 
be troubling to anyone. Can you help us understand these 
trends?
    Mr. Clayton. Yes, I can, and let me do this. Let me talk 
about those trends, and then let me talk about what statistics 
are appropriate. But accepting those statistics is one that we 
want to talk about.
    There is another statistic that is not in that study and 
actually bothers me about these comparisons. The gestation 
period for our cases is 22-24 months. That means the cases that 
are being reported on in 2017, are, from a median perspective, 
the ones that are were started in 2015. The ones that are 
reported in 2018 are the ones that started in 2016.
    So, those statistics actually reflect, I do not want to say 
exclusively, but for the majority part, enforcement decisions 
that were made before I arrived at the Commission.
    Mr. Quigley. Decisions in terms of who to go after.
    Mr. Clayton. Which cases to bring and how to start them, 
because those statistics are cases that have come for a vote 
and are being resolved. So, on average, they are just about two 
years old from when they were started. So, what the Enforcement 
Division under my leadership has are the cases that started 
when I got there.
    And I will tell you there has been no letup in terms of 
enforcement. We have, you know, a former Southern District of 
New York head of the Commodities and Securities Task Force as 
one of our Co-Directors of Enforcement.
    I retained one of the Acting Co-Directors of Enforcement. 
We have a number of prosecutors who are leading our offices. In 
Chicago, we have just hired Joel Levin, who was a prosecutor in 
Chicago, to come over and run our Chicago Regional Office. So, 
I have no doubt that they are pursuing bad actors.
    As far as, you know, specific actions, I am happy that we 
are pursuing individuals as opposed to entities. I think that 
individual actions have greater deterrence. And this is based 
on my experience.
    When I talk to people in the private sector, and I caution 
them to be careful, I do not point to a particular company. I 
point to an individual. Twenty years later, people still 
remember the individual harms, and it has great deterrent 
effect. They do not remember the company actions.
    Now, I am not saying I am not going after companies. 
Because, you know, if they are wrong; we will. But individual 
deterrence is very important. And just to give you some 
anecdotes that we announced two days ago, the Yahoo! action was 
the first action for failure to disclose a cybersecurity 
breach, and it was resolved with a significant fine for the 
former Yahoo.
    Mr. Quigley. So, to your knowledge, no one in your agency 
has been directed as to any sense of priorities? When they are 
told what to prioritize, is this a uniform analysis? I get that 
an individual can do a tremendous amount of damage.
    Mr. Clayton. Let me put this clearly: there are no big fish 
that should think we are not coming after them if they do 
things wrong.
    Mr. Quigley. My time is up. Thank you, sir.
    Mr. Graves. Thank you, Mr. Quigley. Mr. Stewart, and then 
Mr. Bishop.
    Mr. Stewart. Chairman and Mr. Chairman, welcome. This is 
not my area of expertise, but I do have some questions that I 
think a lot of Americans wonder. And you have experience in 
this, I believe, in some of your previous statements. And it is 
even indicated in your bio that we have here. And that is the 
role of cryptocurrencies. And I know CFTC has indicated that 
they would like to exert authority over them, and they believe 
there are more commodities in currency.
    Let's speak broadly, if we could. I have got to tell you, 
one of my sons invested $17 in a cryptocurrency. He has a 
greater net worth now than I do, or something like that. So, 
this has been a great success story for some people. Do you 
think that the cryptocurrencies provide economic utility?
    Let me ask that, and, if you would, elaborate on some of 
the concerns you have, and then tell us where is the proper 
regulator, and what is a proper regulating scheme that we 
should have in these currencies? Because, you know, there are 
many of them now, and I think sometimes people just do not have 
the information they need to make good decisions.
    Mr. Clayton. Well, I agree with your last comment. And it 
is a complicated area because, as you said, there are different 
types of crypto-assets. Let me try and divide them into two 
areas, and I will try to do this fast. A pure medium of 
exchange; the one that is most often cited is bitcoin. As a 
replacement for currency, that has been determined by most 
people to not be a security.
    Then there are tokens, which are used to finance projects. 
I have been on the record saying there are none that I have 
seen, tokens that are not securities. To the extent that 
something is a security, we should regulate it as a security. 
And our securities regulations are disclosure-based, and people 
should follow those and provide the information that we 
require.
    Mr. Stewart. And let me ask this very quickly. Are they 
clear in how they present themselves, that they are presenting 
themselves as a currency or as a token which is a security?
    Mr. Clayton. No. And this area has grown substantially 
without the usual respect for the law that you would expect to 
see in financial markets. That has happened. I will take this 
any way you want. I mean, I know our time is short. I can talk 
about currencies and regulations of currencies, or the security 
side of it, or try to do both.
    Mr. Stewart. OK, so let me rephrase the question very 
briefly, and we can make this yes or no, because I think the 
answer is yes. I mean, there are some economic utilities in 
these tools. Is that true?
    Mr. Clayton. Undoubtedly. And this technology undoubtedly 
has great promise.
    Mr. Stewart. OK. So, that being the case, where is the 
proper regulator? In the tokens, it would be for you, true?
    Mr. Clayton. Yes.
    Mr. Stewart. In the currency, it would be just the market?
    Mr. Clayton. That is a question that I have highlighted as 
well. To the extent that we do not have jurisdiction, to the 
extent that it is not a security, we need to look at these 
currencies because our laws did not anticipate them. Our laws 
anticipated sovereign-backed currencies. These currencies are 
not sovereign-backed.
    With a sovereign-backed currency, I would argue that the 
need for regulation to give people comfort is less than it is 
for something that is not sovereign-backed. For lots of 
reasons.
    Mr. Stewart. Well, I would maybe conclude with this. And 
that is that many times, when we regulate or when we legislate 
in a moment of crisis, we overkill.
    Mr. Clayton. Yes.
    Mr. Stewart. Dodd-Frank is a great example of it, in my 
mind. In the heat of the moment and the emotion, I think we 
went too far. I would say the Patriot Act, something that is 
more along my area and background. I would say the same thing. 
In the emotion of it, we went too far. And I worry a little bit 
that we have an event, or we have a series of things that draw 
a lot of concern and then we are not prepared on how to respond 
to it and we may not have the best answer.
    So, I would like us to lean into this, rather than wait for 
something that gets people's attention and then we draw upon 
Congress and others to respond to it when we are really not 
prepared. Is that a legitimate concern?
    Mr. Clayton. Not only is it a legitimate point, it is what 
we have been doing at the SEC. In the securities area, we have 
been leaning in, because I have been concerned about two 
things. I am concerned about people being taken and our laws 
not applying. I am also concerned that if we do not do 
anything, our inevitable reaction will make this technology 
less than it would have been.
    Mr. Stewart. Well, thank you, Chairman. My time is up. I 
yield back.
    Mr. Graves. Good questions. Mr. Bishop and Mr. Young.
    Mr. Bishop. Thank you very much. Chairman Clayton, I am 
very intrigued by the discussion on cryptocurrencies. But I 
think that is going to be a great drill for us going forward in 
the future. Let me go back. In the Fiscal Year 2019 Budget 
Justification and Annual Performance Plan, the Commission 
observed that nearly 35 percent of all SEC-registered 
investment advisors have never been examined. And as the 
population of advisors registered with the SEC continues to 
grow, would you please tell us how the Commission plans to fix 
such a problematic regulatory shortfall?
    Mr. Clayton. Well, we have shifted. And I want to 
congratulate our OCIE Division, our inspections and examination 
division, on shifting to a risk-based prioritization of who we 
examine and what areas we examine for using data analytics. The 
statistics you cite, about 35 percent. We are trying to reduce 
that number.
    I will tell you that those are the ones that rank as less 
risky in our analysis. But, we are making efforts to reduce 
that number and we are making efforts to increase the number of 
firms that we examine annually. We went to 15 percent this 
year, which was up 40 percent over the last couple of years.
    Mr. Bishop. Thank you for that. Now, according to a 2017 
GAO report, minorities account for only 20 percent of 
management positions in the financial industry. This is in 
contrast to a general minority population of 40.9 percent. What 
efforts has the SEC taken to help improve this drastic 
disparity? And what steps would you think would be appropriate 
for Congress to take to provide you with the tools to increase 
minority participation?
    Mr. Clayton. Well, my view on this is that efforts around 
diversity and inclusion begin at home. And I am committed to it 
at the SEC. I meet with our OMWI office, the Office of 
Minority, Women, and Inclusion, on a regular basis and this is 
a focus for me. In terms of what Congress should do, I do not 
know if it is my place.
    Mr. Bishop. What tools would you need, if any, that we, in 
the legislative branch, could help you to accomplish that?
    Mr. Clayton. I do not know that that is the role for the 
SEC, in terms of social policy. But, as I said, at the SEC, 
this is a priority for me. As far as how we deal with our 
public companies in that regard, I am all for disclosure, all 
for disclosure of material information.
    As far as micromanaging from the SEC, how people handle 
human capital, that is beyond our current role. I would like to 
see, and I have been clear on this, I would like to see more 
disclosure from public companies on how they think about human 
capital. If you do not mind, can I explain?
    Mr. Bishop. Yes, but you can also indicate to me what your 
level of inclusion is, in terms of your diversity 
representation, minority representation, at the SEC itself.
    Mr. Clayton. At the SEC? We do an annual report on this. 
And we are doing well throughout the agency. We can do better 
in leadership.
    Mr. Bishop. OK.
    Mr. Clayton. To your statistics, we roughly match the U.S. 
population.
    Mr. Bishop. Forty percent?
    Mr. Clayton. I mean, is it exact? I do not have the exact 
numbers in front of me. I can get back to you. But, we do not 
match the U.S. population in leadership at the SEC. And it is a 
priority for me to address that over time.
    Mr. Bishop. Thank you.
    Mr. Clayton. Thank you.
    Mr. Graves. Mr. Bishop. The gentleman from Iowa, Mr. Young 
is recognized. Then, Mr. Cartwright.
    Mr. Young. Thank you, Mr. Chairman. Welcome. The 
cryptocurrency issue is fascinating to a lot of people, kind 
of, watching what is going on. Would you invest in 
cryptocurrencies?
    Mr. Clayton. Well, let me say this.
    Mr. Young. That is not a fair question, I realize.
    Mr. Clayton. One of the unlucky and lucky things about this 
job is, I am not allowed to make investment decisions anymore.
    Mr. Young. That is the answer we were looking for, was it 
not? So, you know, when my counterpart, Mr. Stewart, was 
talking about, you know, leaning in on this or waiting for some 
kind of crisis to happen and Congress jumps in on this and 
tries to solve a problem, which we would probably come back in 
five years and try to readdress, what are your counterparts 
doing in other countries to address this from a regulatory 
standpoint?
    Mr. Clayton. So, this is a developing issue. What are other 
regulators doing to respond to this? If you asked me this 
question 6, 9 months ago, the range of what people are doing or 
not doing, I think, would have been pretty broad. It is 
narrowing. In the currency space, is it a substitute for the 
dollar? The yen? The euro?
    What I have seen is further skepticism around the world as 
to whether the cryptocurrencies will, in fact, be a substitute 
for our traditional sovereign currencies, including whether 
governments will allow cryptocurrencies to be integrated into 
their financial systems. Because our financial systems do not 
only work as mediums of exchange and lending; they do a lot of 
other work, including anti money laundering, preventing 
terrorist financing, you know, those types of things. Also, 
they allow us to affect monetary policy. Governments serve, I 
would say, they hold those rightfully. They hold those 
functions pretty dear. I think around the world, people are 
realizing that they would not want to give up those functions.
    Mr. Young. Well, we will be watching. I know you will be 
watching closely as well. The SEC has yet to finalize all of 
its title 7 rules for security-based swap dealers, unlike the 
CFTC, which has had their registration regime effectively in 
place for about five years, I think, maybe over.
    This lack of finalization has led to some uncertainty in 
the markets and I wonder if you have a timeline for where this 
going? And are you watching what the CFTC has done in trying to 
get rid of some of these duplicative regulatory requirements?
    Mr. Clayton. Yeah. So, do I have a specific timeline that 
would, you know, be precise enough to discuss? No. Do I have an 
initiative? Yes. I am very happy that Commissioner Peirce, who 
joined us recently, has agreed to oversee our efforts to move 
forward with Title VII rulemaking in, what I am going to say 
is, in coordination and, where possible, harmonization with the 
CFTC. What we regulate and they regulate overlaps a great deal, 
but not perfectly. And she is working on overseeing that work 
at the SEC. We have had several bilateral meetings, and I 
expect to see progress in this area.
    Mr. Young. In your SEC budget request for fiscal year 2019, 
there is a strong emphasis on cybersecurity. Is this being done 
from a reactionary standpoint? Or from a proactive standpoint?
    Tell me about what is happening in terms of hacking and 
what you are experiencing. And have there been some 
compromises? And to what level? And I worry about what this 
effect could have on a lot of different things, as well as just 
identify theft and fraud and manipulating, ultimately, 
possibly, the markets.
    Mr. Clayton. Well, there is a lot there. I will talk 
internally at the SEC, to start, both reactionary and 
proactive. When I arrived, I initiated a review of where we 
stand, from a cybersecurity posture. Shortly thereafter, we 
discovered that we had had a prior breach. We have been 
addressing the breach of our EDGAR system.
    Let me say we are addressing that specific issue, but then 
we are looking more broadly across the SEC, in terms of what 
are our vulnerabilities, either addressing them, reducing them, 
or both. And when I say reducing, it goes to one of the points 
you made, which is personally-identifiable information. We have 
done a review of the personally-identifiable information we 
take in and we have actually reduced that.
    We just had a rulemaking the other day that had the support 
of all my Commissioners, and I appreciate their support in this 
area; eliminating PII from our forms where it was not 
necessary.
    Mr. Young. Thank you for being proactive on that, with that 
rulemaking. I would be interested in learning more about that. 
So, thank you for your leadership on that because this is real. 
And we know it is real. And thank you for what you do. I yield.
    Mr. Graves. OK, Mr. Young, Mr. Cartwright, and then Mr. 
Yoder.
    Mr. Cartwright. Thank you, Mr. Chairman. And Chairman 
Clayton, thank you for being here. I know you spent a 
considerable amount of time around Philadelphia, and I hope you 
are an Eagles fan?
    Mr. Clayton. Absolutely.
    Mr. Cartwright. Good, good. I am going to be much nicer to 
you now. Chairman, I want to talk about protecting investors. 
That is what SEC is all about. And I want to talk particularly 
about protecting them when it comes to disclosure of climate 
change risk. I am concerned about SEC's continued lack of 
enforcement of its own 2010 guidance on climate disclosure. 
Investors want and need disclosures of climate risk, but all 
too often they are generic or entirely lacking. Full and 
complete disclosure is going to help investors allocate capital 
efficiently and put pressure on corporations better to manage 
climate risks.
    Now, I know you share this concern. You repeatedly stressed 
the importance of disclosing climate risks when you were at 
Sullivan and Cromwell. And also, while you were representing 
Crude Carriers Corporation, you made sure they included a very 
detailed discussion of climate risks in their IPO.
    When the 2010 guidance was released, the SEC issued around 
50 comment letters to companies that had provided insufficient 
disclosure of climate risk, but it is been years at the SEC 
since they have issued a single letter. In reviewing the 
disclosures, I can tell you that the answer is not that 
suddenly every company is adequately disclosing climate change 
risk.
    So, the question is, how can you explain a near-complete 
lack of evidence of any enforcement of the 2010 guidance? What 
evidence can you provide that you are taking climate risk 
disclosure seriously at the SEC right now?
    Mr. Clayton. Thank you for noting my prior work. We take 
all of our disclosure mandates seriously. We firmly believe 
that investors need to have the information required to make an 
investment decision. I think, if I may, the discussion around 
climate risk disclosure misses some of that point. A disclosure 
should be to your investors and what climate-related issues 
might affect your company.
    Mr. Cartwright. Right.
    Mr. Clayton. And companies should think long and hard about 
that. And that is not a uniform issue. There are many 
industries for which it is not a material risk at all, and 
there are industries for which it is clearly a material risk. 
But it is a risk that depends on many factors outside of the 
control of the company itself, including regulatory actions 
around the world, developments, and what not.
    You know, I am not disagreeing with you. I agree with you 
that this is something that companies and industries need to 
think long and hard about and how to communicate with their 
shareholders. But, I do not think you should take the lack of 
an enforcement actions as somehow indifference from the SEC in 
this area.
    Mr. Cartwright. It is inaction, though. It is not following 
up on the 2010 guidance.
    Mr. Clayton. Let me be clear. If there are cases where 
companies have had adverse effects on their shareholders as a 
result of climate matters and they have not disclosed them, and 
they knew about them, we should be investigating those.
    Mr. Cartwright. Well, let me talk about the Peabody Energy 
case. New York Attorney General investigated Peabody Energy in 
2015 because of their lack of candor in disclosing the risk of 
climate change. When Peabody came to a settlement with the New 
York Attorney General, Peabody then had to revise their SEC 
disclosures. Peabody admitted that concerns about the 
environmental impact of coal combustion could significantly 
affect demand for our products or our securities.
    So, this was something that the SEC disclosure process 
should have caught. The SEC remained silent as the New York AG 
took the lead, took the point, on that issue, investigating 
Peabody's false disclosures. SEC disclosure process needs to 
serve its intended purpose. When a company like Peabody makes 
misleading disclosures, it is disconcerting that SEC is taking 
a backseat to a State Attorney General.
    Do you feel like the SEC failed, proactively, to address 
this disclosure problem by Peabody?
    Mr. Clayton. I am not going to comment on a specific case, 
that would be inappropriate. But let me say this, Mr. 
Cartwright. Let me be absolutely clear on this; I want to 
partner with our state Attorneys General on enforcing our 
securities laws. But, one thing I am concerned about is having 
different disclosure standards at the state level and at the 
Federal level, whether de facto or generally. Let me leave it 
at that.
    Mr. Cartwright. Well, let me follow up with this last 
question. SEC lacks subpoena power. Companies disclose material 
risks to their investors in order to comply with the Federal 
securities laws. But, even if the SEC suspects that a company 
is not fully complying, the corporate finance division at SEC 
does not have the authority to subpoena additional information 
from companies. That is correct, is not it?
    Mr. Clayton. And I think it is good governance. The 
Corporation Finance Division, if they see something they do not 
like, they can refer it to the Enforcement Division, who will 
make a judgment as to whether to pursue it or not.
    Mr. Cartwright. Would not corporate finance be more 
effective if it could subpoena information from companies it 
suspects of withholding or misstating material information in 
their disclosures?
    Mr. Clayton. I do not believe so. I do not believe so. I 
think it is appropriate to have those functions, the 
enforcement function, and the corporation finance function 
separate.
    Mr. Cartwright. That is all I have. I yield back, Mr. 
Chairman.
    Mr. Graves. Thank you, Mr. Cartwright. Mr. Yoder and then 
Mr. Moolenaar.
    Mr. Yoder. Thank you, Mr. Chairman. Chairman Clayton, 
welcome to the committee. I appreciate your testimony this 
morning. As you know, liquidity is very constrained in some 
financial markets. And that constraint of liquidity affects our 
constituents who rely on retirement income, drives up the cost 
of their investment, does not provide them any sort of net 
benefit, but makes their investments less valuable.
    One regulation that is contributing to this constraint is 
that the Federal Reserve requires that banks clearing trades of 
liquidity providers to the market use the current exposure 
method, known as SEM.
    The Fed has acknowledged that SEM is insensitive to risk 
and it undervalues netting benefits and has stated that it 
plans to move away from SEM. However, the Fed plans to do this 
through rulemaking, a process that could take years. As a 
regulator of markets, what impacts do you see stemming from 
constrained liquidity, and what could the longer-term 
consequences be if this problem is not fixed?
    Mr. Clayton. Yeah. Liquidity is one of those difficult 
concepts to get your arms around because it only becomes really 
important when you do not have it and you need it; when you 
want to sell and there is no buyer. Let me say this. I am very 
happy with the coordination that has been present across the 
Federal financial regulators. I speak regularly with Randy 
Quarles and Jay Powell, Chris Giancarlo, and Secretary 
Mnuchin's people at the Treasury about these types of issues.
    And I am concerned about liquidity and whether we have 
sufficient liquidity, particularly in our fixed income markets. 
And I recognize, and we all recognize, that we are moving into 
a different monetary policy situation and that moving in that 
area, we need to be very cognizant of liquidity.
    Mr. Yoder. And I appreciate your leadership in that regard. 
As it relates to SEM, the Fed has acknowledged that it is 
insensitive to risk and it undervalues netting benefits, and it 
plans to move away from it. I think the challenge we see is 
that their intention to do that is going to take a number of 
years. And in the meantime, it tightens liquidity in markets.
    And so, if there are ways to get the Fed to accelerate that 
timeline to fix this, that would seem to be good for our 
constituents, good for investors, good for the markets.
    Mr. Clayton. Yeah. I do not want to get ahead of my 
brethren or comment on that. I will say that we are all focused 
on making sure there is sufficient or increasing liquidity 
without adding risk. That is really the mindset we have to have 
as we go forward.
    Mr. Yoder. All right. Well, I want to put the SEM, this 
issue, on your radar. I also want to ask you about the business 
development companies. They play a vital role in helping small 
businesses access badly needed capital. And these companies 
were created by Congress with bipartisan support. They play an 
important role as an alternative to conventional financing.
    But, in 2006, the SEC finalized its Acquired Fund Fees and 
Expenses rule, the AFFE rule, which required that a fund 
investing in other funds disclose its share of the acquired 
fund's expenses as a separate line item. Many believe this rule 
is incorrectly applied to BDCs and as a result, mutual funds 
and other types of funds overstate their expenses when they 
invest in BDCs.
    And, unlike other investments that a fund may purchase, a 
BDC's market price already reflects its expenses. Therefore, 
many believe the AFFE rule leads to double-counting of a BDC's 
expenses. When the SEC finalized the rule in 2006, it stated 
the regulation would benefit investors, not have an adverse 
impact on capital formation.
    Are you concerned that the AFFE rule has undermined the 
SEC's stated goals of benefiting investors and fostering 
capital formation, through its treatment of BDCs?
    Mr. Clayton. I am aware of this issue and the good points 
made on either side. The point about potential double-counting 
and whether the economics are all baked in or not is a good 
point. The point on the other side, that if you do not 
reference this issue, people are not aware of it, is also a 
good point. We are looking at it. I think--and we will look at 
it in connection with our obligation to promulgate rules in the 
BDC area for leverage as a result of what is going on.
    Mr. Yoder. I think getting your full consideration makes 
sense. You know, when the rule was finalized in 2006, there 
were only 11 BDCs in existence. They have grown significantly 
since then, with around 90 operating today. And, you know, 
REETs are very similar to BDCs, but they are exempted from the 
AFFE rule. So, I hope you will give it your consideration to 
take those factors into account and have the SEC review the 
rule and see if still applies properly today.
    Mr. Clayton. We will. We also recognize the growth in this 
industry. And I recognize that it is an industry that enables 
retail investors to have access to developing companies. And 
that is important to me.
    Mr. Yoder. OK. Thank you, Mr. Chairman.
    Mr. Graves. OK, Mr. Yoder. Mr. Moolenaar and then Ms. 
Herrera Beutler.
    Mr. Moolenaar. Thank you, Mr. Chairman, and welcome, 
Chairman Clayton. Appreciate you being here. I wanted to talk 
with you a little bit about cybersecurity, and I know that is 
an issue you have already talked a little bit about. But, I 
wanted to get your thoughts on, sort of, the role of the SEC, 
what you are doing there.
    But also, in the past, you have authored, or coauthored, 
some articles on cybersecurity and calling on Congress and the 
President to develop kind of a 9/11-type commission on 
cybersecurity and the threat. And I just wondered if you could 
give us your assessment on, kind of, where things stand, 
relative overall on the topic, as well as what you are doing at 
the SEC.
    Mr. Clayton. So, I talked a bit before about what we are 
doing at the SEC and our efforts to uplift our protection but 
also reduce our risk area. And we intend to continue to do 
that. Outward looking, we look at registrants. All public 
companies and their cybersecurity disclosure. And I referenced 
the recent action involving Yahoo.
    What I have not discussed and probably should, is oversight 
of what I will call market utilities, the nodes in our 
financial system that are very critical. One of our jobs is to 
inspect those entities. And including inspecting them for their 
ability to deal with cyber threats and cyber risks. And to your 
point on Federal coordination, we coordinate with other Federal 
regulators who either also oversee those nodes in the system, 
or other nodes that are important to our system. And I am happy 
that as a result of a directive from the White House, that 
coordination has gotten traction, particularly around these 
nodes in our financial system. So, do I feel great? No. I am 
supposed to worry. But I feel good that we are making progress 
in that area.
    Mr. Moolenaar. No, that was my question. Obviously, we are 
never totally secure, but you feel like progress is being made 
and that is encouraging to hear. I did a little research on 
your background. I noticed you were born in Newport News and 
spent time in Philadelphia and were a captain of a basketball 
team. And it kind of reminded me of the Allen Iverson 
trajectory. Have there been a lot of parallels made between 
your basketball and Allen Iverson's?
    Mr. Clayton. I do not like to practice either.
    Mr. Moolenaar. Thank you for that. Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Moolenaar. Ms. Herrera Beutler.
    Ms. Herrera Beutler. Thank you, Mr. Chairman. And thank 
you, Chairman Clayton for being here today. Now, I understand 
your office has been reviewing the rules governing broker-
dealers and advisors under the 1940s Advisors Act. And, in 
fact, I think it was last week, or not too long ago, your 
office solicited public comment on a proposal to modify the 
standard of care that both must provide their clients.
    And I agree. We need consistent principles and, given the 
differences in the business models, I was actually very happy 
to see that you addressed the two groups with a more tailored 
approach instead of a merged, one-size-fits-all solution.
    As you continue to review the various rules and possibly 
even the idea of arbitration, agreements between the investment 
advisors and their customers under Section 921 of the Dodd-
Frank Act, do you intend to continue to take a tailored 
approach with these two groups?
    Mr. Clayton. The short answer is yes.
    Ms. Herrera Beutler. Great. Because I have another 
question.
    Mr. Clayton. OK.
    Ms. Herrera Beutler. Unless you care to expand?
    Mr. Clayton. No. I appreciate your recognizing that what we 
tried to do was take the investment adviser model, which is 
generally a fee-based, portfolio-based, over time model and 
make sure the principles that we all care about are there, and 
then, the broker-dealer model, which is a transaction-based, 
episodic model, and apply the same principles there. And that 
is what we are trying to do, to match what an investor would 
expect.
    When an investor sits across the table from their financial 
advisor or their broker-dealer, what they would expect them to 
do. And as we go through the comment process, if people want to 
appeal to us at the SEC, I think that is the way they should 
look at it. What would I expect from my investment 
professional? How would I expect them to behave? And our 
standards should match that.
    Ms. Herrera Beutler. Good. Thank you. Second question; the 
SEC's recent fiduciary standard proposal provided guidance that 
the broker-dealer representatives and other financial services 
participants should not use the name adviser. And I agree that 
there is a difference between the various categories. And 
clarifying how they refer to themselves is going to help 
relieve customer confusion.
    Are you planning to provide guidance as to what these 
groups should call themselves to help customers who may be 
confused by new names that these groups may create?
    Mr. Clayton. This is something I want to hear comment on 
very much. One area of clear confusion is, am I dealing with a 
broker or am I dealing with an investment adviser? We want to 
clarify that. The title proposal is just one part of that.
    The relationship summary that would need to be provided to 
retail investors is another part of that. But if people have 
better ideas on how we can make that clear, make it clear from 
the outset, I am all ears.
    Ms. Herrera-Beutler. Great. That is what I needed to know. 
I yield back. Thank you.
    Mr. Graves. Thank you, Ms. Herrera-Beutler. Mr. Chairman, 
if you have a few more minutes with us I know I have a couple 
more questions, and members may as well. I want to just get 
back to cybersecurity for a minute because we made it a 
priority in the 2018 fiscal year spending bill that we passed, 
and the President signed recently, $45 million, I know we 
provided you. Do you anticipate you will need additional funds 
moving into 2019? Or is that sufficient to take care of some of 
the challenges you face?
    Mr. Clayton. Well, I want to say thank you because that 
money, what it enabled us to do was take what we had on tap for 
2019 and move it into 2018. And our 2019 request, 
serendipitously, asked for an additional $45 million for 
cybersecurity over 2017.
    So, basically, what you have done is enabled us to move 
forward what we were planning to do. So, to your question, I 
think we are on our way to meet our strategic plan a little 
sooner. In the area of cybersecurity, you could always spend 
more money, and things can always come up. So, I do not want to 
ever say I am good, but we are satisfied where we are.
    Mr. Graves. Well, I am glad to hear that you were able to 
bring things forward. That means you are accelerating some of 
the protections as well. I mean, we can see that.
    Mr. Clayton. Yes. To be clear, some of the protections, but 
also some of the things we are doing to add efficiencies, 
including in enforcement and whatnot.
    Mr. Graves. We have had conversations in the past about the 
Reserve Fund at the SEC, and we know that you have received 
substantial funding from 2018, but it looks like it is still 
drawing down from the Reserve Fund. Why is that, and what are 
those funds being used for?
    Mr. Clayton. Let's see if I have, I do have the specifics 
on what we use the Reserve Fund for. The majority of it is 
overall business process improvements; long-term upgrading of 
some of our legacy systems, and that includes our EDGAR system. 
So, that is the majority of it, and those are longer-term 
projects, which is what the Reserve Fund was intended for. So, 
basically, projects that go out over several years.
    Mr. Graves. Do you anticipate the unused balance of the 
reserve fund will be part of any rescission package coming from 
the administration?
    Mr. Clayton. I do not know.
    Mr. Graves. OK.
    Mr. Clayton. Let me put it this way.
    Mr. Graves. We will probably know soon, I guess.
    Mr. Clayton. I will know soon, and if it is, I will be 
scrambling a bit, because we need the money.
    Mr. Graves. Well, we will keep that in mind as we are 
formulating the bill here in the next couple of weeks. And 
then, back to the cybersecurity side of it, we are investing a 
lot. You are making a lot of changes. You have private sector 
experience. In your opinion, do you feel like the SEC is now 
secure? I know you had questions about it when you first came 
in. I mean, can you reassure us in the investment community, 
and our investors, and our constituents?
    Mr. Clayton. Anybody who would sit here and would say, ``I 
am 100 percent sure that we are 100 percent secure,'' you 
should look at very skeptically. We are subject to attempted 
penetrations, scans----
    Mr. Graves. Every day, I imagine.
    Mr. Clayton. Every day, as are others. Do I feel like we 
are more cognizant today of the risks and that we are trying to 
address them? Yes, I do. And we have brought in third parties 
to do penetration testing and those types of things. But it is 
a constant battle.
    Mr. Graves. Yeah, that is a fair assessment. And I think we 
all respect and understand that as much as anyone tries to 
secure and protect systems, agencies, personal identities, 
there are those out there that are trying to break in, bust, 
and use new technologies. So, to stay advanced, we are going to 
continue investing.
    We expect you to use it wisely, as you have been, and 
appreciate you doing that. And then, one last question--and Mr. 
Quigley may have some follow up--the Wells Fargo enforcement 
that we read about, can you give us an understanding of how 
much was the enforcement action against Wells Fargo, and where 
do those funds go? How are they utilized? Do they go to restore 
those that might have been injured, or do they go to SEC, or do 
they go to Treasury? How are those funds allocated?
    Mr. Clayton. I will talk generally. I do not want to talk 
about a specific situation. I will talk generally about what 
happens when we either issue a fine or seek restitution. We are 
focused on getting money back to investors. That is our primary 
focus if somebody has been wronged. In terms of a fine that 
goes beyond compensating investors to the extent we can, that 
goes to the Treasury.
    Mr. Graves. Just goes to the Treasury, in general?
    Mr. Clayton. Yeah.
    Mr. Graves. All right.
    Mr. Clayton. That is speaking generally. But that is how we 
look at it.
    Mr. Graves. Thank you, Mr. Chairman. Mr. Quigley.
    Mr. Quigley. Thank you again, Mr. Chairman and Mr. 
Chairman. You reference, following up on the chairman's 
question--the chairman to my left--the rescission, the Reserve 
Fund. This is financed by the registration fees, right? So, if 
used in a rescission, we are really not sending money back to 
the Treasury. We are just not using money that is set aside by 
registration fees, correct?
    Mr. Clayton. For all intents and purposes, our entire 
budget is deficit neutral.
    Mr. Quigley. So, I am just publicly questioning why, if you 
do a rescission, it is to send money back to the Treasury. But 
this is money coming from a different direction. So, I am just 
making a point. You talked about how the Reserve Fund is used. 
Generally, it can be used in what you are doing and using it 
for. It helps you deal with cybersecurity threats, correct?
    Mr. Clayton. Correct.
    Mr. Quigley. And you talked about the fact that if this is 
diminished, I think the word you used was maybe scrambling.
    Mr. Clayton. Right.
    Mr. Quigley. Right. You are more vulnerable.
    Mr. Clayton. I like the amount that we have allocated for 
tech dollars going forward, to the extent it was reduced. I 
might take away from other things to get it back to where it 
was because----
    Mr. Quigley. Sure.
    Mr. Clayton [continuing]. I think we have sharpened our 
pencils on where we should be spending tech dollars. And if I 
lost a fair amount of them, I would want to try and find a way 
to replace them.
    Mr. Quigley. Sharpening pencils is great. I am concerned 
that the administration's budget for 2019 proposes a partial 
rescission already for the IT Reserve Fund for the upcoming 
year and a complete termination of it for the year 2020. Your 
thoughts?
    Mr. Clayton. Well, look, I think I have said before. 
Whether the money comes from the Reserve Fund or it comes from 
some other area, I am somewhat agnostic. I do need an ability 
to plan for the long term. But the total amount, including the 
Reserve Fund that we have asked for, we----
    Mr. Quigley. You need the money.
    Mr. Clayton. Need the money.
    Mr. Quigley. Thank you. Let me just ask about subpoena 
authority. Following the SEC's failure to catch Bernie Madoff, 
Chairman Shapiro made the decision to delegate subpoena 
authority so that senior enforcement staff could initiate 
investigation.
    Mary Jo White inherited and retained this authority. Your 
predecessor, Commissioner Piwowar--I have always pronounced 
this wrong--revoked this authority in February of 2017 during 
his brief tenure as you were going through your Senate 
confirmation, I believe, restoring the requirement that 
subpoenas only be issued by one of the Enforcement Division's 
Co-Directors. Your thoughts on reversing that decision?
    Mr. Clayton. Let me give you the history.
    Mr. Quigley. Sure.
    Mr. Clayton. It used to be a Commission decision to issue a 
subpoena. It went down to the heads of Enforcement, and as you 
noted, out to the regional directors. When I got there, it was 
at the Co-Director level. I analyzed this and said, ``Are we in 
any way, by keeping it at the Co-Director level, inhibiting our 
ability to investigate?''
    Mr. Quigley. If you put these people in place, as you 
talked about, with Mr. Cohen go in there and trust in these 
people and delegating and having more people with this ability?
    Mr. Clayton. I do not know of an instance where someone 
from a region called up and said, ``I would like a formal order 
of authority'' but it has not been granted. I mean, maybe there 
have been, but I have never heard of one. What it does is it 
enables our Co-Directors of Enforcement to know what everybody 
in the region is doing, and I think, enhances coordination.
    So, my question I have asked them, and like your question, 
is a good one. Have we enhanced coordination without in any way 
impeding people's ability to get a subpoena when they need one? 
And the answer is yes.
    Mr. Quigley. In an environment like this, though, taking 
away that authority, does it not send a message to them?
    Mr. Clayton. No.
    Mr. Quigley. Someone could construe this as a lack of 
trust, or a lack of giving them the initiative to do this.
    Mr. Clayton. Well, I feel able to say this and confident in 
saying it. I have been to all of our Regional Offices. I have 
met one-on-one with all of our regional directors. They know 
that I have confidence in them. And I do.
    Mr. Quigley. OK. Thank you.
    Mr. Graves. Thank you, Mr. Quigley. Mr. Yoder has no 
further questions. Mr. Moolenaar.
    Mr. Moolenaar. Thank you, Mr. Chairman. Just really 
quickly, a few things. One is, we talked a little bit about 
what you are doing at the SEC with cybersecurity. We talked a 
little bit about across the different agencies. Is there any 
role with the private sector collaboration that we ought to be 
thinking about?
    Mr. Clayton. In terms of collaboration with the private 
sector, the large financial institutions have spent a 
tremendous amount of money on cybersecurity and have, to my 
mind, very good people. They have been helpful to us in things 
like risk assessment, both as a result of our oversight role 
and on a more informal basis, and I appreciate that. And I hope 
that that dialogue continues and continues across the Federal 
financial regulators as well as DHS.
    Mr. Moolenaar. All right. And then, just looking through 
the strategic plan that was from 2014 to 2018. That was prior 
to you getting there. I know you are working on an updated one. 
This one is still in effect. I just wondered if you would 
comment on some of these strategic goals. One was establishing 
and maintaining an effective regulatory environment. Two was 
foster and enforce compliance with Federal securities laws. 
Three was facilitate access to the information investors need 
to make informed investment decisions.
    And four was enhance the Commission's performance through 
effective alignment and management of human information and 
financial capital. I wonder if you can kind of assess how we 
are doing on those? And as you look forward, are there any of 
these that you are going to bolster or prioritize over other 
ones?
    Mr. Clayton. So, you are right. We are working on a new 
strategic plan. I expect it to be out soon. I have reviewed it 
with my fellow commissioners. The draft has gotten input from 
our various divisions and offices. It embodies many of the 
things that you just cited.
    I would say if there is a shift to note it is this: if an 
American retail investor knew what we knew, how would they want 
us to focus our attention? And a lot of it is already in there. 
But that is the perspective that we have taken in shaping the 
strategic plan that will come out. Do I think we are doing well 
in most of those areas? Yeah. Do I think there is room for 
improvement? Yes. And the new positions we are adding are the 
areas where I think there could be improvement.
    Mr. Moolenaar. Great. Well, thank you, and thank you, Mr. 
Chairman.
    Mr. Graves. Thank you, Mr. Moolenaar. Chairman, thanks for 
joining us today, giving your testimony, and presenting your 
budget request. And we will be working on this in the next 
several days and weeks. And hopefully, out of the subcommittee, 
full committee, and the House, by midsummer is our goal, which 
is aggressive. Will be reached
    But we have to have aggressive goals. We have got a lot to 
do. But we appreciate your responses today and your 
thoroughness in what you are doing at the SEC and look forward 
to seeing you again in the future. With that, this hearing is 
adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                          Thursday, April 26, 2018.

                   FEDERAL COMMUNICATIONS COMMISSION

                                WITNESS

HON. AJIT PAI, CHAIRMAN
    Mr. Graves. Good afternoon. We will call this hearing to 
order. I would like to recognize the Federal Communications 
Commission Chairman, Ajit Pai. Thank you for joining us today. 
I know you are familiar with this subcommittee. You have been a 
participant in many different capacities over the years. We 
thank you for joining us today in your role as chairman.
    The focus of today's hearing is going to be on the FCC's 
2019 budget request--although, like me, I am sure our 
subcommittee members have a few policy items they might want to 
discuss today as you are with us. Before I recognize Ranking 
Member Quigley for his opening remarks, I want to highlight a 
couple of topics that I am personally interested in and would 
love to learn a little bit more about today.
    First, the committee provided $1 billion over the next 2 
years, in the most recent government funding bill, to set the 
stage for the next generation of wireless service for our 
country, such as 5G phone networks, while helping keep local 
television and radio stations on the air, a process known in 
Washington-speak as repack. So, Mr. Chairman, we recognize that 
broadcasters and other entities participated in good faith to 
make sure that the spectrum auction was successful. And we here 
on the Appropriations Committee worked closely with our friends 
on the Authorizing Committee as well, particularly with 
Chairman Greg Walden, who has been a great champion on this 
issue, along with his committee members, to ensure that our 
broadcasters had all the resources necessary to make required 
moves. So, we are certainly interested in hearing about that 
process and the progress that you have made thus far, and what 
you plan to do in the days ahead.
    In addition, I know that rural broadband expansion is one 
of your top priorities with the FCC, and you will find many 
members of this subcommittee have interest in that as well. So, 
we share that same enthusiasm and believe that the deployment 
of broadband in rural and disadvantaged areas is a driver of 
economic development, jobs, and opportunity. We look forward to 
that discussion and hearing about the progress there.
    Finally, I want to commend you for the work that you have 
done to restore internet freedom. It is certainly 
controversial, but nothing that is new to you. You are very 
familiar with the topic and have been a great advocate for 
repealing the net neutrality regulations. You and your fellow 
commissioners engaged in a very transparent, very open, and I 
would say spirited process, letting the American people 
participate in that debate and the proceedings as well, in what 
many would say was an unprecedented fashion. So, thank you for 
that. We know that your work will help ensure that the online 
marketplace continues to be open, and free, and flourish, while 
increasing broadband access for rural and low-income Americans. 
So, we know that will be an issue today that you might want to 
touch on as well.
    But again, we welcome you. We look forward to hearing your 
testimony in a few minutes. And prior to that, I would like to 
recognize Ranking Member Quigley for any opening remarks he 
might have.
    Mr. Quigley. Thank you, Mr. Chairman. Thank you, chairman, 
for being here today. The FCC may have, at one time or another, 
for many folks, just be another alphabet soup agency in the 
sprawling government bureaucracy, but it has become more of a 
household name recently. To me, that either means you have made 
sweeping improvement to the agency, as the chairman seems to 
indicate. Or as other evidence indicates, we have taken a 
series of actions that could impact and disrupt the lives of 
nearly every American, every walk of life and sector in this 
economy.
    It is no secret that you certainly drew a newfound level of 
attention to the agency when you led the charge to roll back 
net neutrality protections. In our 21st century world, equal 
access to all online content is the cornerstone of freely-
moving communications and commerce. While the Obama era 
protections of net neutrality were not perfect, your efforts to 
eliminate these vital safeguards could cause severe harm to 
consumers, all while stifling innovation and curtailing free 
expression. This is not to mention that the FCC's rollout was 
handled in ways that seemed to violate the American Procedures 
Act and have already spawned numerous State attorneys general 
investigations into wrongdoing.
    If there were people who were not paying attention to the 
FCC after your actions on net neutrality, things may have 
changed when the video of dozens of Sinclair news anchors 
forced to read identical and highly political text went viral 
online in the news media. This, of course, brings us to the 
ongoing review of the proposed merger between Sinclair and 
Tribune Media, which has raised troubling concerns that have 
yet to be cleared up. The FCC has taken numerous actions to 
call into question, sir, your independence in the matter. And 
at the very least, demonstrate that appearance of preferential 
treatment for Sinclair, a broadcasting group with close ties to 
the White House.
    A swift series of FCC actions to ease limits on media 
ownership have cleared almost all restrictions for Sinclair to 
move forward with its merger proposal. An FCC commissioner that 
you served with has even said--and I quote--``Everything the 
FCC has done is custom-built for the business plan of one 
company, and that is Sinclair.'' Taken in context with reported 
meetings between you and your office, the White House 
officials, and Sinclair representatives in a relatively brief 
period of time, these actions reveal a disturbing pattern that 
jeopardizes the independence of the FCC--so much so that you 
yourself are now under an investigation by the FCC's Inspector 
General for improper coordination with Sinclair.
    If approved, Sinclair would control enough local TV 
stations to reach 72 percent of U.S. households, significantly 
harming media diversity and lowering consumer choice. To ease 
mounting antitrust concerns, Sinclair just announced it will 
divest 23 stations in 18 markets. However, Sinclair stretches 
the definition of divestiture under the plan to something 
unrecognizable.
    For example, WGNTV in my home market of Chicago would 
reportedly be sold to the CEO of a Maryland car dealership, 
which is owned by the executive chairman of Sinclair. Sinclair 
would have the option to buy back the station at a later date. 
Under this arrangement, Sinclair would also have control over 
all business decisions made by WGN, without having to claim 
technical ownership.
    While these are stations that currently enter into 
appropriate joint sales and shared service agreements, this 
arrangement makes a mockery out of the FCC's own rules. When 
you combine a media giant cozy with the President and the White 
House, the rolling back of ownership rules for the benefit of 
one company, and a sign-off on dubious ownership agreements, 
you get a recipe for less broadcasting competition, less high-
quality local content, and less diversity of views.
    In closing, I would just like to add that I am pleased to 
have you in front of the committee today, something we did not 
have the opportunity to do last year. I believe this committee 
has many questions for you today that have been unanswered 
during previous media interviews and public appearances. It is 
worth noting that most of these past appearances have occurred 
with conservative media outlets and friendly audiences. I hope 
if today's meeting goes well, you might consider making 
yourself to a more diverse range of outlets going forward. I 
look forward to hearing your testimony and discussing these and 
other issues with you today. Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Quigley. Chairman Pai, thanks 
again for joining us today. Know that members will be coming 
and going a little bit throughout the afternoon with other 
subcommittee meetings. We look forward to having you with us 
today. I know you want to discuss a little bit about your 
budget requests, but you are certainly no stranger to some of 
the policy questions. We look forward to hearing your opening 
remarks at this time.
    Mr. Pai. Well, thank you, sir. Chairman Graves, Ranking 
Member Quigley, members of the subcommittee, thank you for the 
opportunity to present the FCC's fiscal year 2019 budget 
request. We will use the requested funds to achieve our 
critical strategic goals. First, closing the digital divide; 
second, promoting innovation; third, protecting consumers and 
public safety; and fourth, reforming the FCC's processes.
    In fiscal year 2018, we received $322 million, a reduction 
of about 5 percent from 2017, minus the headquarters relocation 
funds. To put that number in perspective, in inflation-adjusted 
terms, our appropriation has declined by over 17 percent since 
fiscal year 2009. These reductions have required the FCC to 
operate more efficiently. Since I became chairman in January of 
2017, we have done just that: cutting costs and accomplishing 
more with less money.
    For example, we have saved a lot of money by closing a 
warehouse where we processed our mail, and instead contracting 
with a vendor that performs this task for many government 
agencies. And by the end of fiscal year 2018, we project that 
the commission's FTE count will have declined by over 10 
percent in just 2 years.
    In light of this, our fiscal year 2019 budget request 
proposes to freeze our FTE count rather than reduce it again. I 
believe that further reductions in staffing next year could 
compromise the commission's ability to accomplish its mission, 
particularly in light of the many additional responsibilities 
that Congress has assigned us in the omnibus appropriations 
bill. Pursuant to this legislation, we must revise our 
application and regulatory fee schedules, amend caller ID 
spoofing rules, complete a rule-making on 911 call location 
accuracy, use the Connect to Health tool to create a map 
overlaying opioid drug abuse with broadband access, and 
coordinate with NTIA and its use of $7.5 million in 
infrastructure funds for broadband mapping. We have also been 
tasked with writing reports for Congress on a variety of 
important topics.
    Now, in our budget request, we are asking for $8.5 million 
for one-time information technology--or IT--investments. Many 
of our IT systems and applications are quite old, and it is 
becoming harder to keep them running. And that is why we are 
seeking funding, to shift from outdated legacy systems and 
applications toward modern, cloud-based solutions. Taking this 
step will save money in the long run, improve resiliency, 
reduce cyber security vulnerabilities, and enhance the services 
that we provide to those we regulate and to the American 
people.
    These IT investments are the main reason why we are 
requesting a slight bump up in appropriations for our regular 
operations in fiscal year 2019, from $322 million to about $333 
million. But even with this modest increase, our fiscal year 
2019 spending level would be identical to the amount authorized 
in the fiscal year 2018 omnibus, and below our fiscal year 2017 
appropriation.
    In our budget request, the FCC's auctions program is 
projected to increase spending slightly, to $112,734,000, from 
the fiscal year 2018 level of $100,150,000, which was a 5 
percent drop from fiscal year 2017. And this is because next 
year we will be busy when it comes to auctions.
    We have two new spectrum auctions scheduled in the 28 
gigahertz and the 24 gigahertz bands that are critical to 
American leadership in 5G, the next general of wireless 
connectivity. And we have much work to do on the post-incentive 
auction repacking process. We need to develop rules for the new 
programs recently approved by Congress to extend funding to 
low-power television stations, and TV translators, and FM radio 
stations that incur costs from the repack. We also have to 
decide how to allocate money for consumer outreach related to 
the repack.
    And by the way, the billion dollars that you appropriated 
for fiscal year 2018 and 2019 for the incentive auction repack 
is already having an important impact. Just last week, we 
enabled full-power television broadcasters to get access to up 
to 92.5 percent of their estimated costs. This boost will make 
it easier for stations to move ahead with post-auction 
construction.
    Finally, despite our budget planning, unforeseen problems 
and disasters can upend our best efforts. For instance, during 
this fiscal year, we have had to use every tool in our toolbox 
to help people on the ground in hurricane-stricken regions, to 
get communications networks up and running, including using 
universal service fund money and experimental licenses. And we 
are not done yet. I have proposed a $750 million Uniendo a 
Puerto Rico Fund--or ``Bringing Puerto Rico Together Fund''--
and a $204 million Connect USVI Fund for the Virgin Islands, to 
provide more short-term assistance for restoring communications 
networks in the aftermath of Hurricanes Irma and Maria, as well 
as longer-term support for expanding broadband access 
throughout the islands.
    In short, we have accomplished a great deal in the past 
year and will have a full plate next year. And it is the 
appropriation that you provide, along with the hard work of the 
Commission's talented staff, that makes all of this possible. 
And so, I want to thank you for your dedication to helping our 
agency have the resources it needs to serve the public 
interest. I look forward to answering your questions and to 
working with you and your staffs in the time to come.
    Thank you, Mr. Chairman, for your indulgence.
    The information follows:

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    Mr. Graves. Thank you, Chairman Pai. We certainly have your 
prepared statement as well that I know each member has taken 
time to review.
    I wanted to ask you just a little bit about the billion-
dollar investment that we provided in the last government 
funding bill. Could you give us an overview of the process and 
how much of those resources have been allocated, and are out 
the door. Are the resources provided sufficient for the plan 
that you are putting in place to make sure that everything goes 
smoothly and it is all taken care of?
    Mr. Pai. Thank you for the question, Mr. Chairman. Prior to 
the legislation passing, we had made very strong efforts to 
make sure that the repack was proceeding apace and smoothly. 
There are approximately, I believe, something like 4,554 
licenses that we have allocated, which is a great many of them. 
Additionally, we have been working extensively with 
broadcasters to make sure that we get some of the criteria out 
there for what would constitute compensable funds.
    Thanks to this legislation, as I mentioned in my opening 
statement, we have now been able to increase the allocations 
available for broadcasters. So, now, up to 92.5 percent of 
their costs will be covered. Additionally, we have taken the 
legislation's instruction very seriously, and I have asked our 
incentive auction staff to start looking at ways to implement 
some of the instructions with respect to low-power TV stations, 
and translators, and FM stations--as well as looking at ways to 
promote consumer outreach, as Congress requested.
    So, we are very grateful to Congress on a bipartisan basis 
for extending those resources. And we are committed to making 
sure the incentive auction continues to go smoothly.
    Mr. Graves. Do you think there is sufficient funding for 
the low-power and FM stations?
    Mr. Pai. That is the decision that Congress made, and we 
respect that decision. And thus far, we do not have any reason 
to believe that it is inadequate.
    Mr. Graves. And so, a concern that this committee would 
have, too, is that making sure the reimbursements are for costs 
that would be reasonably incurred. How do you ensure that? What 
is your protocol for that?
    Mr. Pai. That is where we rely heavily on the 
determinations by our expert staff. There are some things, I 
think, that people can agree are reasonably related to the 
repack, and there are costs that we can agree are not. And that 
line-drawing exercise is something that we have to be very 
careful about. Because after all, these are limited funds. And 
we want to make sure that we are only allocating funding to the 
extent that is required under the law.
    Mr. Graves. And one last question related to this. $50 
million was allocated for consumer education. Can you share 
with us how you intend to use that for consumer education? What 
would be your vision for that? I do not know that I have seen a 
chairman in this role travel the country like you have to just 
meet with groups, whether they are students in schools, or 
civic groups, just to talk about what is important when it 
comes to the FCC. So, this $50 million out of your spending 
bill, what type of activities would you envision for it?
    Mr. Pai. Well, first, Mr. Chairman, thank you for the kind 
words. It is one of the great benefits of this job to be able 
to travel around the country and see how people are impacted, 
from Scottsville, Kentucky, to Utuado, Puerto Rico--each of 
those places I visited over the past couple of months.
    With respect to consumer outreach, as I said, we are still 
in the early stages. I have asked our staff to take a look at 
the range of options that are permitted under the law and given 
our resources. And we have some precedents. During the digital 
television transition, of course, we engaged in a very robust 
consumer outreach function. And so, we will be looking to that 
precedent, along with what some of the potential 
vulnerabilities are, in terms of consumer awareness, going 
forward. And we would be happy to keep the committee apprised 
as that effort develops.
    Mr. Graves. That is great. And then, one last thought on a 
different topic. I know we mentioned earlier that rural 
broadband expansion is one of your top priorities. In your 
travels across the country, you have certainly seen the need 
for that. As we go through this year and next year, how do you 
see that rolling out and your vision coming to be?
    Mr. Pai. Thanks for the question. I am very optimistic 
about what the future holds--for the next year in particular--
for rural broadband. In July, we will be starting our $2 
billion Connect America Fund Phase 2 auction to get fixed 
broadband to unserved parts of the country.
    Hopefully, next year, we will be kicking off the $4.5 
billion Mobility Fund, Phase 2, to get 4G LTE to unserved parts 
of the country. We have done rate of return forms to extend 
$500 million to rural carriers. As I mentioned in my opening 
statement, I have proposed $1 billion for Puerto Rico and the 
Virgin Islands in particular, given some of the challenges they 
have had. And aside from those subsidy programs, we have 
reformed our rules to make it easier for small companies in 
particular to build out the infrastructure in rural America.
    And the reason why it matters is because there are a lot of 
communities across this country that are simply on the wrong 
side of the digital divide. And the Scottsville example is a 
good one. I visited there a couple of weeks ago. Four thousand 
people in the town of Scottsville, not a single pediatrician in 
the entire county. And so, for a long time, the only option for 
a kid who got sick in school was to hope that the school nurse 
could help him or her. Well, now, thanks to a high-speed 
connection between Scottsville, Kentucky and the Vanderbilt 
University's Children's Hospital, they are able to engage in 
telemedicine. Kids are healthier. Parents do not have to take 
time off work. Teachers can focus on teaching. The community is 
healthier.
    And that one anecdote, I think, illustrates the fact that 
this not an academic debate. Rural broadband, broadband 
deployment generally means getting human capital off the shelf 
and empowering Americans to be participants in--rather than 
spectators of--the digital economy.
    Mr. Graves. Great. Thank you. Thanks for your vision there 
and the aggressive rollout. That is amazing. Mr. Quigley, you 
are recognized, and then Mr. Moolenaar.
    Mr. Quigley. Thank you, Mr. Chairman. Mr. Chairman, I 
respect you in the fact that I know you believe that those 
actions are important. And the chairman, I am sure, appreciates 
those kind words.
    There are some times, though, when we disagree, and these 
issues matter. So, I have got to ask these questions. And it 
begins with: have you recused yourself or do you plan on 
recusing yourself from any further actions relating to the 
Sinclair-Tribune merger until the IG investigation has 
concluded?
    Mr. Pai. Congressman, I have been advised by the Office of 
General Counsel that recusal is not required under the 
applicable rules and regulations.
    Mr. Quigley. Is this concerning and after and involved with 
the Inspector General's investigation?
    Mr. Pai. My understanding is that the career ethics 
officials have given general advice with respect to my 
participation in that transaction.
    Mr. Quigley. Are we told how long the IG investigation will 
take place?
    Mr. Pai. To my knowledge, they have not said anything 
publicly about the investigation. I have no knowledge of what 
their timeframe might be. I would refer you to the OIG for any 
answers.
    Mr. Quigley. Did representatives of Sinclair inform you or 
your staff about a proposed merger with Tribune before the 
FCC's vote to reinstate the UHF discount?
    Mr. Pai. They did not. Absolutely not.
    Mr. Quigley. Was there any communication at all before or 
after, involving this merger?
    Mr. Pai. About the merger?
    Mr. Quigley. Yes.
    Mr. Pai. Before they announced it? No. Not at all.
    Mr. Quigley. Nothing whatsoever?
    Mr. Pai. No. I have read about it, I think, in the press, 
as anybody else did.
    Mr. Quigley. Did President Trump or any other officials at 
the White House--the transition team--discuss Sinclair at all 
with you or any of your staff or people who would become your 
staff?
    Mr. Pai. To my knowledge, sir, no. No one ever told me 
about a pending proceeding of any kind.
    Mr. Quigley. Before the inauguration as well?
    Mr. Pai. No. No one.
    Mr. Quigley. After the inauguration?
    Mr. Pai. When I met with the President-elect, no.
    Mr. Quigley. Did anyone ever talk to you from the White 
House, generally, about a proposed Sinclair-Tribune merger with 
you, your staff, anyone else related at all?
    Mr. Pai. Not to my knowledge.
    Mr. Quigley. Has anyone from your staff talked to you about 
this--having told you that they talked with anyone at the White 
House or the administration?
    Mr. Pai. Not that I recall. No.
    Mr. Quigley. Both before and after the announcement of the 
proposed Sinclair-Tribune merger, did any representatives of 
Sinclair discuss with you or your staff changes to the main 
studio rule or local media ownership rules?
    Mr. Pai. I think a number of companies, including that one, 
have suggested over the years that the media ownership rules 
were in need of reform. That is a position I held well before I 
had those discussions.
    Mr. Quigley. But the discussions that Sinclair had, were 
those with you?
    Mr. Pai. When the----
    Mr. Quigley. You said that they and others have.
    Mr. Pai. Right.
    Mr. Quigley. When did Sinclair have these discussions with 
you?
    Mr. Pai. Oh, so, for example: I cannot recall the specific 
date, but I mean, I am aware generally that the media ownership 
rules are outdated; there is a need for reform there, and that 
is consistent with the views I have long-held.
    Mr. Quigley. But when did Sinclair specifically talk to you 
about this?
    Mr. Pai. Well, I do recall--I think it was in 2016, for 
example--that I made a presentation to the general managers of 
some of the Sinclair stations. And one of the points I made was 
that media ownership rules were in need of reform. And I think 
there might have been a couple of questions from some of the 
general managers about that.
    Mr. Quigley. Do you have a record at all of any meetings 
and correspondence that you or your staff have had with 
representatives of Sinclair, including lobbyists and lawyers 
representing Sinclair, since November 6th, 2016?
    Mr. Pai. If we have any such correspondence, it has been 
produced, I understand, in response to FOIA requests.
    Mr. Quigley. In response to FOIA requests from?
    Mr. Pai. From individuals who have requested information. 
In addition, my understanding is we supplied some documents to 
some of your colleagues on the House Energy and Commerce 
Committee as well.
    Mr. Quigley. And are those request up-to-date?
    Mr. Pai. As far as I know, yes.
    Mr. Quigley. And can you provide us with a summary of those 
meetings and copies of that correspondence as well?
    Mr. Pai. I will take a look at what we have and we would be 
happy to work with you on that.
    Mr. Quigley. Now, press reports indicate that the DC 
Circuit Court has expressed skepticism about the FCC's 
authority to reinstate the UHF discount. You are aware of this? 
So, let me ask you: what happens if the FCC approves a 
Sinclair-Tribune merger, which would be unlawful if not for the 
UHF discount reinstatement, and then the court rules against 
it? Will the FCC undo the merger? Can it? Either way, does not 
it make sense to you, sir, that we wait until the court rules 
on your authority before acting on the merger?
    Mr. Pai. Well, congressman, you are talking about two 
clashing hypotheticals. One is what the court might do.
    Mr. Quigley. It is a big deal, though.
    Mr. Pai. Oh, I understand that. But you are talking about 
two clashing hypotheticals. One is what the DC Circuit might 
do, and two is how the FCC might evaluate the company's newly 
issued proposal, which, as you point out in your opening 
statement, was just submitted a couple of days ago. The clock 
on that transaction has been stopped since January. And so, I 
am loath, at this point, to forecast what we might do in the 
event of either of the hypotheticals.
    Mr. Quigley. Could you forecast the timeframe before you 
would approve a merger?
    Mr. Pai. I cannot Congressman, because the clock is 
currently stopped. And as you pointed out, just a couple of 
days ago, they submitted this proposal, which we have not had a 
chance to fully evaluate.
    Mr. Quigley. And I will get into it in a later question, 
but given the magnitude of the court's decision, does it not 
make sense to put off a final decision until they rule? 
Hypothetical or not, given the fact that you would be making 
this decision and then the courts would be ruling against it 
probably shortly thereafter.
    Mr. Pai. Congressman, we will take that factor into 
account. But again, I do not want to forecast or give a 
specific timeframe, given the fact that the clock is currently 
stopped and we have not had a chance to fully evaluate the new 
proposal.
    Mr. Quigley. My time is up.
    Mr. Graves. Thank you, Mr. Quigley. Mr. Moolenaar and then 
Mr. Bishop.
    Mr. Moolenaar. Thank you, Mr. Chairman. Chairman Pai, thank 
you for being here with us today. And I wanted to follow-up on 
some of the questions Chairman Graves was asking about the 
rural broadband. And also, telemedicine is something you have 
been talking about. I just want to emphasize, in my district, 
which is 15 counties in Michigan, rural broadband is a huge 
priority, as well as the telemedicine opportunities. And I want 
to continue to encourage you in that direction.
    If I am speaking to people in our district and leaders in 
different communities who are concerned about these things, 
what message should I be giving them right now, in terms of 
timing, the expectations they can have in this regard?
    Mr. Pai. You can tell them that the FCC's number one 
priority is closing the digital divide, making sure that every 
part of this country is connected with internet access and 
other advanced technologies. Everyone wants internet access by 
yesterday. But nonetheless, we are moving very aggressively--
the fixed broadband program starting in July, the mobile 
broadband auction starting in 2019. We are moving very 
aggressively, and we are also talking about the value of 
telemedicine in particular. We have teed up some reforms to our 
rural healthcare program to make sure that healthcare providers 
all across the country--but especially in places like your 
district--have the resources that are needed to make sure the 
consumers in your district can take advantage of healthcare 
opportunities that folks in bigger cities do. And this is an 
issue I am really passionate about and we would be happy to 
work with you on it.
    Mr. Moolenaar. Wonderful. Thank you. And then, every day, 
our office receives calls from constituents complaining about 
scam phone calls. It is more than a nuisance. Some of these 
calls pose as everything from IRS agents threatening to arrest 
people, hospitals claiming to need more money to assist a 
relative. Why does not the Do Not Call list filter these out, 
and what can the FCC do to address this problem?
    Mr. Pai. The sad answer to your first question is that the 
scam artists do not respect the Do Not Call List. And so, then, 
it falls to the FCC as well to figure out ways to stop the 
supply, so to speak, of these unwanted robo-calls. And we have 
done that aggressively. For example, we took action last year 
to empower carriers to block spoof calls that are clearly from 
invalid or unassigned phone numbers.
    And we have also engaged technologists and others to come 
up with a call authentication standard--a digital fingerprint, 
as you will--for each phone number. So, if you see a phone 
number on your phone, you will know that it is coming from a 
specific person who has specifically been assigned that number. 
We have also taken aggressive enforcement actions. The largest 
fines proposed in the agency's history have been proposed over 
the last year to go after these robo-callers.
    And I personally have talked to my counterpart at the 
Federal Trade Commission and have spoken with foreign 
counterparts in places like India about the need for 
international cooperation. A lot of these scam calls come from 
abroad. Our jurisdiction does not extend, of course, beyond the 
U.S. border. We need their help. And I am glad to say that my 
counterparts, generally speaking, have been very supportive in 
doing that. This is an all hands on deck effort, and I am 
pleased to say that we are putting all hands on that deck.
    Mr. Moolenaar. OK. Thank you. If I could change course for 
just a minute, I appreciate your working on cleaning up the 
waste, fraud, and abuse in different programs which you have 
authority over. And one of the concerns that has been raised to 
me is regarding the Lifeline program.
    You know, I know, in my district, I believe there are 
almost 26,000 subscribers to Lifeline. There have been concerns 
raised about disruption based on a new proposal that you have 
on a reseller ban and some kind of a cost-sharing co-payer type 
program. And I just wondered if you have done some kind of a 
cost-benefit analysis on this that integrity, and make sure 
that, you know, we are-- but I am hearing these concerns 
raised, and I just wondered if you could speak to that.
    Mr. Pai. Thanks for the question, congressman. I have long 
said that every dollar in the Lifeline program, or any other 
program, that is wasted is a dollar that by definition is 
denied to a consumer who is in need. And that is why I have 
suggested that the FCC needs to prioritize consumers rather 
than the companies that are, you know, occasionally engaging in 
this waste, fraud, and abuse.
    And so, that is part of the reason why, for example, we got 
rid of the port freeze, which essentially prevented Lifeline 
consumers from changing providers for a year, preventing 
consumer choice. That is why we have made clear that the 
Lifeline program should support 3G or higher speeds, as opposed 
to premium WiFi, because some Lifeline consumers told us, 
``Well, we get these phones, but then we can only use them if 
we have WiFi, which we do not have at home.''
    That is part of the reason why we are taking steps to make 
sure that we, as you pointed out, maintain program integrity. 
We do not want companies, for example, to get multiple 
duplicate subscribers----
    Mr. Moolenaar. Is there some evidence of that kind of fraud 
taking place?
    Mr. Pai. There is. For example, in Michigan we uncovered a 
case in which one company was getting subsidies for 22,000 
subscribers per month. Those subscribers did not exist. And 
that is the kind of thing, again, every dollar that goes to 
somebody who does not exist or is not in need, it cannot go to 
somebody in your district who really does need to help.
    Mr. Moolenaar. Thank you. Thank you, Mr. Chairman.
    Mr. Graves. Thank you, Mr. Moolenaar. Mr. Bishop and then 
Mr. Yoder.
    Mr. Bishop. Thank you very much, Mr. Chairman. Again, 
Chairman Pai, I would like to welcome you. First off, though, I 
would like to take this opportunity to talk about Commissioner 
Mignon Clyburn and her legacy on the Commission. I would like 
to say that Commissioner Clyburn has really been an asset to 
the FCC and that she has done great work in advocating for the 
American people, particularly those who are in greatest need of 
government protection and assistance. She has been a consistent 
and a powerful voice on the commission, and her impending 
departure will be a great loss for everyone.
    It would be unfair to compare anybody's work to hers, but 
to that point, I want to know your thoughts on some of the 
aspects of the issues for which she was such a tireless 
champion. You have consistently opposed the notion that the FCC 
has the authority to determine rate caps for intrastate prison 
calls, which is essential for the rehabilitation of inmates by 
allowing them to feel connected to their families and their 
communities. What do you think that the FCC can do to mitigate 
the predatory practices of the companies charging excessive 
rates for inmates? And will you act on, in any way, on what you 
think the FCC can do?
    Let me just also say that Commissioner Clyburn was an 
advocate for enhanced accessibility for communications for 
individuals with disabilities. Tell us what the plans that the 
FCC has and what your thoughts are, in particular, to ensure 
that these individuals with disabilities are not left behind 
with regard to the rapid and ongoing communication advances.
    And I would like to go back to the Lifeline question, which 
is so very, very important. It assists low-income individuals 
with acquiring telecommunications services, which goes to the 
heart of the purpose of the Universal Service Fund. But the 
proposed ban on Lifeline Wireless resellers--which is a primary 
source of service for Lifeline customers--accounts for up to 8 
million current customers. And the ban is predicated on a GAO 
report that found that 5,500 duplicate Lifeline recipients and 
6,300 deceased individuals, who are receiving subsidies at a 
fraud of 0.16 percent. That is 0.16 percent, and 0.18 percent 
respectively.
    Overall, the improper payment rate for life is well below 
the government-wide average of 4.67 percent. And it outperforms 
many of the other popular government programs. So, would you 
just comment on the justification for such a drastic response 
to the situation and what the FCC plans to do to accommodate 
the millions of people who stand to be disconnected because of 
loss of the subsidy?
    Mr. Pai. Thank you, congressman. You have teed up a few 
questions. So, I will try to get to them in sequence. First, 
with respect to Commissioner Clyburn, I could not agree more. 
She has been a champion of the public interest during her time 
at the Commission. In fact, with the committee's indulgence, I 
would like to introduce into the record a joint op-ed that she 
and I did, perhaps her last of the Commission, in which we 
talked about the power of broadband to help rural cancer 
patients get access to the treatment they need. She and I 
worked together to forge an agreement between the FCC and the 
National Cancer Institute, and I think it is part of her legacy 
that she is promoting telemedicine and connected health as 
something that will help all Americans.
    Additionally, with respect to intrastate inmate calling 
rates, I have consistently said that, unfortunately, the plain 
language of the Communications Act gives the FCC jurisdiction 
over interstate rates, but intrastate rates are a different 
question. And unfortunately, the DC Circuit agreed with that 
interpretation. I understand that there is legislation in 
Congress to reform that system. We would be happy to work with 
you as well as members of the Senate who have expressed 
interest in that question.
    On the interstate side--going back to 2013--I specifically 
proposed a 0.26 cent and 0.19 tiered structure that I thought 
was consistent with the evidence and would have withstood 
judicial review. Going forward, we are still evaluating the 
issue, but we would be happy to work with you on the path 
forward.
    On disabilities, I could not agree with you more. One of 
the great benefits of technology, I think, is now bringing into 
the fold many millions of people who, in a previous analog 
area, might not have had the ability to participate in society. 
So, I am proud, for example, that we have really tried to push 
the availability of things like real-time text, allowing those 
with disabilities, for example, to text each other in real time 
instead of having to send an SMS, wait for a message, and get a 
message back with different reforms to the Telecommunications 
Relay Service and other programs, I think, we are going to 
bring more people disabilities into the connected era.
    Last, with respect to Lifeline, I agree with you. I have 
consistently said that Lifeline is an important tool for 
addressing the digital divide. And we are still taking input on 
some of our proposals from the most recent notice of proposed 
rulemaking. I will simply state in the interim that we have 
recognized the importance of this. I personally visited the 
Navajo Nation recently, and I got to hear firsthand about the 
importance of Lifeline to some of the folks on Tribal lands. 
And that is why we extended the deadline, for example, for 
folks in the Tribal Nation, to be able to continue to enjoy 
some of those benefits. So, these are very important issues 
that you have raised, and I look forward to working with you on 
that.
    Mr. Bishop. Thank you. My time is more than expired, but 
thank you very much.
    Mr. Pai. I am sorry for the long answer.
    Mr. Graves. Thank you, Mr. Bishop. Mr. Yoder and then Mr. 
Cartwright.
    Mr. Yoder. Thank you, Mr. Chairman. Chairman Pai, welcome 
to the committee, and welcome back, and welcome to the 
committee for the first as chairman of the FCC. I think you 
were here before, but maybe you were not actually fully 
confirmed.
    But it is great to have a Kansan in this role. And as a 
fellow Kansan, I know that you are concerned about rural 
broadband. And the chairman has asked about it, as well as 
others today. And I want to ask you a little bit about the 
rural healthcare program. For the past 2 decades, the rural 
healthcare has remained at $400 million per year. But in 2016 
and 2017, demand for this program exceeded the cap, and the FCC 
has rightly proposed adjusting the cap for inflation.
    However, in the meantime, the USAC--which administers the 
program--set the funding request for fiscal year 2017 were $521 
million, above the $400 million cap. And since the cap has not 
been raised, the USAC administered retroactive cuts to the 
program participants. They culled back 15 percent from 
individual participants and 25 percent from those who 
participated as part of a consortium.
    This concerns folks in Kansas because that method of 
calculating the cuts disproportionately affects Kansans where 
the majority of rural healthcare program participants are part 
of a statewide consortium. So, my first question is, why is the 
USAC moving forward with these clawbacks ahead of the 
rulemaking process that would raise the caps for 2017?
    Mr. Pai. Good question, Congressman. So, based on the rules 
that are existence, USAC had to make those determinations. We 
have tried to work with them to ameliorate the impact of those. 
So, for example, once my office saw the trend lines--that 
demand was going to exceed supply in terms of the rural 
healthcare budget--we asked them to use fiscal year 2017 unused 
funds to mitigate the impact of that. And I recognize it is not 
fully mitigating it, but we did what we could, given the 
resources we had.
    Moving forward, in December of 2017, we also took steps to 
give healthcare providers relief by teeing up, as you pointed 
out, a notice of proposed rulemaking to say, prospectively, 
should we revisit what that cap is, recognizing that there have 
been resource constraints in the past. And so, I hope that the 
combination of those two things will help.
    With respect to individual applicants for this consortia, 
this is an important issue. Our thinking was that individual 
healthcare provider facilities do not have the economies of 
scale, the bargaining powers that a larger group, a consortium, 
might have. Additionally, it might be difficult to discern 
which members of a consortia are urban versus rural. This is, 
of course, the rural healthcare program. And so, that was part 
of the rationale there. But we recognized that there are 
important services that the consortia provided as well. And so, 
we hoped that it would consider the notice of proposed 
rulemaking. I believe the comment cycle just recently closed. 
We will take that into account.
    Mr. Yoder. Well, I know, whether it is 15 percent for 
individuals or 25 percent for the consortium, those clawbacks 
are difficult to sustain and impactful. And so, the rulemaking, 
obviously, will fix this, hopefully, going forward, by raising 
those caps. Where is that process? Where are we in that 
timeline?
    Mr. Pai. The comment cycle recently closed. Our staff is 
evaluating the comments we have received. And we hope to make a 
judgment at some point in the near future. I recognize, having 
been to, you know, the KU Med Center in your district, I 
understand some of the great things they are doing. And we want 
to keep promoting that in the time to come.
    Mr. Yoder. OK. Last September, Representative Mark Takano 
and I, as co-chairs of the Congressional Deaf Caucus, sent you 
a letter regarding a petition for rulemaking--we have spoken 
about this before--that was supported by organizations that 
advocate on behalf of the deaf and hard-hearing. The petition 
requested that the FCC promulgate regulations to change the 
contribution methodology for the Telecom Relay Service Fund. As 
you know, the TRS provides vital services to the deaf 
community, but a shrinking revenue base for the fund has 
threatened those services.
    In our letter, we have voiced our hope that the FCC would 
prioritize this issue. And I thank you for responding to the 
letter, in which you stated that the Commission was working to 
conclude its review of this matter as quickly and as equitably 
as possible. I would like to get an update on where you are in 
this situation, where we stand on the issue. And I understand 
that you have been working on a Telecom Relay Service draft 
notice of proposed rulemaking. Can you give us the timeline 
when you expect that it will be issued and out for public 
comment?
    Mr. Pai. Sure. First and foremost, thanks to you and 
Congressman Takano for you interest in this matter. And second, 
I meant what I said in my response, and I am pleased to report 
this morning--or this afternoon, rather--that in the next 
couple of weeks, we hope to circulate that notice of proposed 
rulemaking. Hopefully soon thereafter, my fellow commissioners 
will vote on it and we will be able to hit the ground running 
with that proceeding.
    Mr. Yoder. Great. Thank you for your work there. That means 
a lot to a lot of our constituents who are deaf and hard of 
hearing. And we appreciate your leadership on that. And then, 
lastly, on the repack issue. You know, in fiscal year 2018, we 
included $50 million to cover reimbursable expenses of radio 
broadcasters that are impacted by the TV incentive auto repack. 
There has been some concerns that radio broadcasters facing 
these costs in the earlier phase of the repack lack the 
information they need to adequately plan for the mitigation 
efforts to ensure minimal impact to radio listeners.
    Can you give us a quick update on the rulemaking? And can 
the FCC include the update of its work on the radio repack 
rulemaking in their monthly reports to the committee?
    Mr. Pai. Sure. So, with respect to the first, we have asked 
the staff who are working on the incentive auctions, including 
folks in the media bureau, to take a look at the recent 
legislation and to figure out what steps need to be taken to 
implement that instruction. At this time, I do not have a 
specific timeframe that I can give you. But I can tell you that 
they are working as quickly as they can to make sure that FM 
stations have the certainty they need and that Congress gets 
the information it needs promptly.
    Mr. Yoder. Quickly and equitably as possible, as you say, 
on everything.
    Mr. Pai. Absolutely.
    Mr. Yoder. I appreciate it. Thank you.
    Mr. Graves. Mr. Cartwright and then Mr. Young.
    Mr. Cartwright. Thank you, Mr. Chairman. And Chairman Pai, 
thank you for being here.
    Mr. Pai. Thanks.
    Mr. Cartwright. And I want to talk more about rural 
broadband. One thing that we agree on, on both sides of the 
aisle, is the importance of getting going on this, connecting 
our rural residents to the worldwide Web. Now, you mentioned 
the Connect America Fund. It spent about $4.5 billion last 
year, attempting to expand coverage. And I certainly applaud 
those efforts. But I want to think the Commission could do more 
to promote innovation. And specifically, I am thinking of an 
exciting new technology that would use vacant television 
spectrum--or white space--to deliver broadband to rural areas.
    And now, the real benefit of this model is that utilizing 
it could cut the cost of bridging the digital divide by about 
80 percent, compared to fiber solutions alone. But nationwide 
deployment is impossible until the Commission sets aside 
sufficient TV white space spectrum for wireless unlicensed use 
in every market across the country. What do you think of this? 
Why has this step not been taken? And can you provide a 
timeline of when we might expect the Commission to act on TV 
white space?
    Mr. Pai. Thanks for the question, congressman. And I am 
pleased to see that we have common ground on that issue. It is 
very important, as I know, in Kansas as it is in Pennsylvania. 
With respect to that issue, I have met with Microsoft and some 
of the other entities that are advocating for it. I have 
personally been to South Boston, Virginia, a small town, where 
I got to meet Dylan Harris, who at the time was a high school 
student. He is now a student at Old Dominion University. And he 
told me that he had internet access because of this kind of 
technology and it helped him do his homework in a way he could 
not before.
    Now, I also have to say, though, that we have a low-power 
TV displacement window that is currently open in connection 
with the incentive auction. That window closes, I believe, on 
June 1st. And so, it is premature for me to give you a specific 
timeframe on when the Commission might reach resolution, 
because we do not know what the quantum of LPTV entities might 
be that might also be looking for the use of that spectrum.
    We would be happy to keep you posted as soon as that window 
closes and we get more information. Believe me, when it comes 
to rural broadband, I understand that time is not on the side 
of those folks in Easton, or in Parsons, Kansas, where I am 
from. But we want to make sure we do everything we can as 
quickly as we can.
    Mr. Cartwright. Thank you for that. And I will ask that you 
keep us posted.
    Mr. Pai. Happy to do it.

    The FCC provides updates on all incentive Auctions Actions 
to HAC and SAC on the 23rd day of each month, as per the FY18 
Explanatory Statement.

    Mr. Cartwright. Secondly, Congress recently made what some 
have called a down payment on investing in rural infrastructure 
by adopting a $600 million rural broadband loan/grant pilot 
program, to be administered by the USDA Rural Utilities 
Service.
    Now, with all the work on broadband network currently 
underway, pursuant to USF reforms--Universal Service Fund 
reforms--made by the FCC, how do we ensure that these 
additional infrastructure resources are coordinated with 
assisting programs to prevent duplication of effort and waste 
of money?
    Mr. Pai. That is a great question. And we want to make sure 
that every dollar stretches as far as it can. And that includes 
not duplicating effort. So, we have worked with the U.S. 
Department of Agriculture. I have personally spoken to 
Secretary Perdue several times over the last year. And I was 
just at the Ag Department a week ago to talk about the fact 
that we need to coordinate. I have asked our Wireline 
Competition Bureau--and I think they already have reached out 
to the U.S. Department of Agriculture staff--to make sure that 
we can combine forces. And I have also set up meetings with the 
Rural Utilities Service administrator, who works at the Ag 
Department, of course, to make sure that we are on the same 
page.
    We want Congress to be able to tell its constituents, the 
dollars we allocated in the omnibus are going to go towards 
unserved parts of the country, and there is not going to be a 
single wasted effort or dollar.
    Mr. Cartwright. Now, specifically--not to put too fine a 
point on it--are you at all concerned that the new 
infrastructure funding might overbuild existing USF-supported 
networks or even duplicate construction efforts underway 
through the CAF-II and other programs to deploy networks?
    Mr. Pai. I am not at this point. Again, the Ag Department 
is in the early stages. They are thinking about how to 
structure this program. But one of the things that have 
suggested to me, and I think the clear direction from Congress 
as well, is that we need to work together to make sure that we 
do not encounter that possibility.
    Mr. Cartwright. OK. And now, the omnibus spending bill also 
included some permitting reforms to speed up the process of 
securing easements and rights of way across Federal lands. Now, 
that your Broadband Deployment Advisory Committee--BDAC--had 
produced some recommendations on these issues, what do you see 
as next steps, and what changes would you prioritize?
    Mr. Pai. The Advisory Committee just came out with a few 
recommendations on State and local model codes, for instance. 
And they have identified some other barriers to infrastructure 
investment. And again, I am very grateful to Congress for 
addressing about the Federal lands issue as well.
    On average, it takes twice as long to deploy broadband on 
Federal lands as it does on privately-held land. That is a huge 
barrier in some cases, especially out West. We are looking 
forward to moving forward as quickly as we can on some of those 
recommendations and instructions from Congress. And hereto, I 
would be happy to keep you posted. We have been having a lot of 
balls in the air between the auctions and the regulatory 
reforms, but we are committed to solving those problems as soon 
as we can.
    Mr. Cartwright. Thank you, Chairman Pai. Back to you, Mr. 
Chairman.
    Mr. Pai. Thank you.
    Mr. Graves. Thank you, Mr. Cartwright. Mr. Young? And then, 
Ranking Member Quigley.
    Mr. Young. Thank you, Mr. Chairman. Hello, Mr. Chairman.
    Mr. Pai. Hello.
    Mr. Young. Nice to see you.
    Mr. Pai. You too.
    Mr. Young. Good to be with you. This past February, 
President Trump signed into law a bipartisan bill--a bill I 
introduced--called the Improving Rural Call Quality and 
Reliability Act. This is an issue that is pretty prevalent in 
rural areas where calls are just dropped, or they are not even 
connected, when they are rerouted through rural America.
    Recently, your commission dropped reporting requirements of 
originating providers that helps identify the rates of call 
completion problems. Can you explain to me how the Commission 
will ensure that rural public safety, hazards, businesses, 
families, customers, services are not compromised in the 
absence of these reporting requirements?
    Mr. Pai. Thanks for the question, congressman. First, 
congratulations on the passage of that important legislation. 
It is something that I have heard firsthand, including on the 
ground in Spencer, Iowa, where I heard from the local municipal 
utility how this was a problem that their consumers typically 
blame them for, as opposed to the company that started the 
call.

    As per the FY18 Explanatory Statement, on June 23rd, the 
FCC submitted to the HAC and SAC a Rural Call Completion 
Report.

    With respect to your question, we have taken steps to make 
sure that covered providers--that is, the entity that selects 
the long-distance provider who will carry the call--that they 
monitor the performance of those intermediate providers and 
take remedial steps, if necessary, to correct any problems they 
have. We do not want to see the problems we saw in the past, 
with respect to least-cost routing, where people would just 
pick the cheapest possible route without respect to call 
quality.
    Now, secondly, we have already asked our staff to take a 
look at the rural call completion legislation that you just 
passed and to make sure that we move with all deliberate speed 
to implement it, because we recognize that for too many rural 
consumers and businesses, those calls are dropping too often 
and we do not want that to happen.
    Mr. Young. Well, those quality assurances need to be there, 
and there needs to be some accountability, because folks in the 
rural areas should have just as good coverage and service as 
folks in urban areas, especially when it comes to trying to 
make sure that our rural economy is moving as fast and hard as 
in can. Businesses have to be able to communicate with one 
another in emergency services, families just wanting to talk to 
one another. So, thank you, and we will continue to work on you 
with that.
    I am on the Agriculture Subcommittee as well on this 
Appropriations Committee. And we have got the USDA's RUS--Rural 
Utility Service. Are they the best entity or are you the best 
entity to deal with helping to employ broadband out into rural 
America or anywhere else? And are you doing something in the 
same light, and do we have two different departments doing the 
same thing? Is it duplicative? Are you talking to one another? 
Is this the best use of the taxpayer dollars?
    Mr. Pai. That is a great question. And obviously, Congress 
holds in its hands the authority to make any necessary changes 
that it thinks are appropriate. We do work with them 
extensively. As I said, I have recently met with the Rural 
Utilities Service administrator. I am going to be sitting down 
with him for a more detailed discussion.
    As to whether it makes sense to have multiple agencies 
doing the same thing, I tend to think that our agency would 
take the lead on that, given the fact that we have established 
mechanisms for distributing universal service funding. We are 
the technical experts when it comes to the networks themselves. 
But nonetheless, we are working very well, collaboratively, 
with other agencies, including the RUS, to make sure that we 
are all on the same page here; we are not duplicating effort.
    Mr. Young. Well, I hope it is not duplicative, because 
there are plenty of holes out there that needs filled if you 
are, because there is so many underserved areas, let alone 
unserved areas as well. So, please coordinate in a transparent, 
accountable fashion between one another, and give taxpayers the 
best bang for their buck on this.
    Mr. Pai. Absolutely.
    Mr. Young. We had a hearing, as well, this morning, on the 
Transportation, Housing, Urban Development Subcommittee. And we 
talked about artificial intelligence, autonomous vehicles. Does 
the FCC have any role when it comes to our transportation 
systems and making sure you are working with the systems, that 
everybody is talking to one another, that there is going to be 
safety in the end, and vehicles are talking to one another? And 
wherever this goes, how do we ensure that space is available 
for the communications to make this all work?
    Mr. Pai. Absolutely. As cars become internet-connected 
vehicles--we are a long way from 1980 Caprice Classic with red 
velour trim----
    Mr. Young. That is a classic.
    Mr. Pai. It was for the short time it lasted. But we are 
working collaboratively with other agencies: for example, the 
Department of Transportation. And also internally, we are 
talking about the spectrum needs of industries like the 
automotive industries. We have been looking at a number of 
different bands.
    Early on in my administration, we extended 4 gigahertz 
from, I believe it was 77 to 81 gigahertz--to talk about 
vehicular radars--since, you know, obviously being able to see, 
so to speak, around you is very important in a connected 
environment. So, more and more often, I think, our agencies are 
converging because these industries are converging.
    Mr. Young. I appreciate that and pleased to engage with 
that. And let us know in Congress. We need to know regarding 
that to make this all work. I want to thank you for being here 
today. And we will be in touch with you and your commission 
regarding the rural call quality bill that was passed into law, 
make sure that works for everybody. I yield back, Mr. Chairman. 
Thank you. Thank you.
    Mr. Pai. You bet.
    Mr. Graves. Thank you, Mr. Young. You are a champion for 
rural America each and every time.
    Mr. Young. Can you say that again?
    Mr. Graves. Always the champion down there. Ranking Member 
Quigley, you are recognized, and Mr. Yoder.
    Mr. Quigley. Thanks again, Mr. Chairman. Mr. Chairman, you 
know the history. There is a reason that Congress created a 
statutory cap so that a single large national corporation 
cannot own so many stations that it can control the voices 
reaching more than 39 percent of all U.S. households. We had 
the UHF discount, as we talked about, at the time.
    But you and your own statements, in your mission, you 
eliminate these media outlets. One of the first acts as chair 
was to put the rule back in place. And I think you talked that 
this is a rule that should be in the dustbin of history. But 
now it is back in place. I am concerned that the FCC 
resurrected this antique loophole just to pave the way for more 
consolidation of companies like Sinclair. Can you tell us, is 
there any technical justification, as far as signal strength or 
reach, that the FCC relied on when you reinstated the UHF 
discount loophole?
    Mr. Pai. Congressman, my position on this issue has been 
clear from the beginning. Going back to the previous 
administration, I consistently said that the UHF discount and 
the national cap went in tandem. And to the extent that if you 
got rid of one, one had to consider changes to the other.
    In fact, the previous majority--if you go to the 2016 
order--they explicitly said that the FCC had the authority to 
adjust the national cap. My position has been now, and has 
always been, that we need to consider the two things in tandem. 
I do not take a prejudged view about what the FCC's authority 
should be or how it should exercise that authority. All I am 
simply saying is that that tandem approach is one that I 
believe Congress had in mind.
    Mr. Quigley. But when you first talked about it, it was not 
in tandem. You said the UHF discount should be relegated to the 
history books. It was put in place for technical reasons.
    Mr. Pai. Correct.
    Mr. Quigley. Because the UHF strength was different back 
then. All technology has changed.
    Mr. Pai. Correct.
    Mr. Quigley. So, the reason the rule was put in place was 
not in tandem with something else. It had to do with 
technology. When technology changed, how does that stay in 
tandem with anything?
    Mr. Pai. Because to the extent that getting rid of the 
discount, while technologically justified, would nevertheless 
have a major impact on the national cap, my point was simply--
--
    Mr. Quigley. Well, we had that cap. But we put the law in 
place for policy reasons. We did not want some corporate giant 
to have control over more than 39 percent. There was an 
exception because of signal strength. Once that changed, how do 
we not go back to the original concern?
    Mr. Pai. But, congressman, that is exactly why I said we 
need to tee this up, which we did in a notice of proposed 
rulemaking. I am one of the few at the Commission who has been 
consistent--in the past administration and this one--in saying, 
number one, that the UHF discount, the technological foundation 
has changed, and number two, that the FCC may have authority 
here to adjust the national cap.
    And so, all we are doing is teeing up the question for 
public input, but I have not said one way or the other what the 
ultimate resolution should be. That is precisely why we are 
engaged in this notice of proposed rulemaking.
    Mr. Quigley. One of your first acts as chair was to put the 
rule back in place.
    Mr. Pai. Correct.
    Mr. Quigley. Because?
    Mr. Pai. Because, again, as I have long said going back to 
the previous administration, a change the UHF discount 
implicates a change in the national cap. And as the previous 
administration found--not just me; the previous FCC majority--
they determined that the FCC had the authority to adjust the 
national cap. And my point in my 2016 dissent was the 
Commission could not do one without considering changes to the 
other, which it explicitly agreed that it could do, if it 
wanted to.
    Mr. Quigley. You have sufficiently convoluted what is 
simply a way to allow groups like Sinclair to get bigger. Mr. 
Chairman, I would like to introduce into the record a letter to 
the chairman from Senator Cochran. And this is signed by a 
significant number of his partners--not a particularly helpful 
answer, somewhat dismissive, at that--but it will indicate the 
consistency of the measure that I am talking about.
    I still do not understand how the two are not distinct and 
that you have created, through the magic of rhetoric, the 
ability to differentiate that from reality. The fact of the 
matter is, we created this policy law in law for a reason. You 
have creatively found way around that and say, ``We are going 
to do this for different reasons. But the only exception was 
for technology.'' The technology goes back to the old rule and 
the rule should be in place, that stations should not be 
allowed to have more than 39 percent of U.S. households. If you 
approve Sinclair, what are they going to have?
    Mr. Pai. Congressman, I respectfully disagree.
    Mr. Quigley. Seventy-two percent.
    Mr. Pai. Then I would ask, why did Acting Chairwoman 
Clyburn bring up this notice of proposed rulemaking about the 
UHF discount and the national cap back in 2013? I mean, I have 
consistently been on the same page, here. The two go together, 
because getting rid of one implicates the level of the other.
    Mr. Quigley. If it was fit for the dustbin of history, then 
why is not it now?
    Mr. Pai. That is exactly what we are teeing up, 
Congressman. That is the notice of proposed rulemaking. I mean, 
it would be easy to, you know, of course, for any agency, to 
simply say, ``You know the Administrative Procedure Act? Who 
needs it? We will simply rule by fiat.'' That is not how we do 
business. We tee up our proposals. We get public input for 
those proposals.
    Mr. Quigley. What concerns do you have that Sinclair would 
have control over 72 percent of the Nation's market?
    Mr. Pai. That is the one of the issues we have to look at.
    Mr. Quigley. Let me answer. What concerns would you have 
about that?
    Mr. Pai. I cannot prejudge exactly where we are going to 
be.
    Mr. Quigley. All right, any station. What concerns would 
you have? What is your policy belief of a single entity 
controlling more than 39 percent of the U.S. households? At 72 
percent, what concerns would you have?
    Mr. Pai. They are both legal and policy questions that are 
hard to answer.
    Mr. Quigley. What concerns do you have?
    Mr. Pai. With respect to policy, from sort of a quasi-
antitrust perspective, one wants to make sure that you have a 
competitive marketplace. One does not want any entity to 
consummate a transaction the effect of which would be to harm 
or otherwise impede the public interest. From a legal 
perspective as well, there the question is--as we discussed 
earlier--we want to make sure that we are acting----
    Mr. Quigley. Should any entity have 72 percent?
    Mr. Pai. That is what we have to decide.
    Mr. Quigley. In your mind.
    Mr. Pai. I cannot----
    Mr. Quigley. You get to vote on it.
    Mr. Pai. Exactly. That is part of the reason. We have not 
yet had a chance to----
    Mr. Quigley. Should any entity have 70 percent?
    Mr. Pai. We have not had a chance to evaluate the record, 
congressman. They just submitted the revised proposal two days 
ago. I have not had a chance to----
    Mr. Quigley. You know the law that we passed that dealt 
with 39 percent. What is your belief right now? Should any 
entity have more than 39 percent?
    Mr. Pai. I am not going to prejudge the outcome of a 
rulemaking proceeding which is still pending.
    Mr. Quigley. I am not talking about Sinclair. I am talking 
about any entity.
    Mr. Pai. I am not either. I am talking about the general 
national----
    Mr. Quigley. Should anybody have that much control?
    Mr. Pai. I am talking about the national cap----
    Mr. Quigley. Yes or no? Do you have a thought yourself?
    Mr. Pai. I am not going to prejudge----
    Mr. Quigley. We put you in this spot for these reasons.
    Mr. Pai. To judge the facts, and the facts are still coming 
in. We are still evaluating a pending notice of a proposed 
rulemaking. I cannot tell you in the fifth inning how the ninth 
inning is going to end.
    Mr. Quigley. You are talking about one case. I am talking--
--
    Mr. Pai. No, I am talking about----
    Mr. Quigley [continuing]. The general sense of what is 
fair. You said there could be policy implications for this. 
What are they, and what is the magic number in your mind right 
now? Do you not have some sense of what is fair, what is right?
    Mr. Pai. This is exactly the point of being a rulemaking 
agency. We do not say in the fifth inning where we are going to 
end up in the ninth inning.
    Mr. Quigley. You consider the laws that are in place now?
    Mr. Pai. Of course. That is the guiding light of everything 
we do.
    Mr. Quigley. The law that is in place now says 39 percent.
    Mr. Pai. That is one of the factors we have to consider. 
Why did the previous FCC majority say we have authority to 
increase that cap?
    Mr. Quigley. Mr. Chairman, I thank you for your indulgence 
and time.
    Mr. Graves. Mr. Cartwright, any questions?
    Mr. Cartwright. Not to beat a dead horse, Mr. Chairman. I 
would like to go back to rural broadband some more. Your 
agency--
    Mr. Pai. I will not stop you.
    Mr. Cartwright. Your agency recently adopted an order that 
put additional resources into the USF high-cost program that 
provides ongoing support for rural networks. And of course, 
this order was most welcome, as many members of Congress, 
particularly those of us that have rural areas, have weighed in 
on the high-cost budget, in recent years as small carriers have 
put off network investments in the face of steep cuts to 
support demanded by the hard cap on the program.
    But if nothing further is done, some rural carriers will 
face significant cuts to support, starting again on July 1st, 
and other carriers still do not have the resources needed to 
accomplish what the cost model was designed to do. So, the 
first question there is, how do we ensure that the high-cost 
program is set up for success over the long term?
    Mr. Pai. Well, that is a great question, congressman, and 
thank you for the kind words about that $500 million plan we 
adopted. I had heard from a number of different carriers--on 
their turf, not in DC--that that budget control mechanism could 
have a serious impact, because these are multiyear investment 
decisions they have to make.
    Going forward, in addition to that $500 million we advanced 
to rate-of-return carriers, we also teed up the possibility of 
two different proposals. One is increasing the amount of money 
that is generally available to rate-of-return carriers. And 
number two, to see whether a further offer of model support 
might be something that would appeal to some of those rate-of-
return carriers.
    That might be something that gives them more stability, the 
ability to plan out ``OK, for the next 10 years we would like 
to build out. We know for the next 10 years we are going to get 
X amount of dollars from the FCC.'' That is the kind of thing 
that hopefully would give them the certainty that they need to 
build out those networks.
    Mr. Cartwright. OK. And to follow up, I am interested in 
your comments. What further changes are needed for both model 
and nonmodel programs?
    Mr. Pai. Sir, could you repeat the question again?
    Mr. Cartwright. What further changes are needed for both 
model and nonmodel programs?
    Mr. Pai. Further changes? So, with respect to I guess 
nonmodel programs--legacy--that is one of the issues we have 
teed up in this notice of proposed rulemaking. With respect to 
the model programs, we are continuing to hear from a number of 
A-CAM carries about some of the issues they are facing. You 
know, they, too, would like additional funding. That is part of 
what we did in the $500 million program.
    I would be happy to work with you on some of the things we 
are thinking about. It is very much in the weeds, of course, as 
you know, but overall, we want to make sure that either legacy 
or nonlegacy carriers have certainty and have sufficient and 
predictable support, in part because that is what Congress has 
instructed us to do.
    Mr. Cartwright. I want to talk about speeds for a moment. 
My understanding that is in most cases the high-cost program 
requires that recipients deploy 10/1 broadband in rural areas, 
and in some cases the target speeds are even lower. Do you 
think these speeds are sufficient for rural consumers and 
businesses? And are they reasonably comparable to what urban 
Americans enjoy on average?
    Mr. Pai. I want every American, including rural Americans, 
to have access to the highest speeds possible, and that is part 
of the reason why, for example, in our Connect America fund it 
was important to me to support not just 10-megabit-per-second 
service, but also service at a much higher tier.
    In fact, we structured it so that the higher speed you 
offer to rural Americans the more of an advantage you get in 
terms of the reverse auction. In fact, the highest advantage is 
given to those companies that want to provide gigabit broadband 
to rural Americans. That is something I hope puts them on just 
as level a playing field as anybody else.
    Mr. Cartwright. Very good. Thank you, Mr. Chairman. I yield 
back, chairman.
    Mr. Pai. Thank you.
    Mr. Graves. Thank you, Mr. Cartwright. It is my 
understanding Mr. Young has no further questions. I have no 
further questions, and I believe Mr. Quigley has one follow-up 
on another issue.
    Mr. Quigley. Thank you, Mr. Chairman. So, I think I know 
how to get an answer today. I am going to pretend that I am in 
Iowa, in a rural area of beautiful Iowa, which I love. And I do 
not have internet connection because we have not gotten to all 
the issues that we want to on that. And I turn off Sinclair, 
because I do not want to hear a prepaid announcement from 
President Putin, because I have got a robocall, and it is a 
robocall for debt collection by the Federal Government. Now, I 
think I can get an answer.
    We passed the bipartisan budget act of 2015 that addressed 
this issue. The FCC later conducted rulemaking to implement 
that law. And the majority of the Commission voted to adopt 
strong consumer safeguards to make sure consumers were not 
overwhelmed by unwanted calls, and they have to come off their 
porch, drinking lemonade in Iowa, to take that call. Those 
protections just needed a sign-off from OMB to go into effect 
when you took over as FCC chairman.
    Despite the fact that these consumer protections were 
approved by a majority of the Commission, it appears, it seems, 
that you asked OMB to halt its review, stopping the protections 
from going into effect. Can you tell us what, if anything, 
happened in that regard?
    Mr. Pai. Congressman, I am sorry, which regulations are we 
talking about? The TCPA?

    Upon review, it was determined that this series of 
questions on pages 275-276 referred to rules governing federal 
debt collection calls and the TCPA. More specifically, Mr. 
Quigley was asking about the decision to withdraw the request 
for OMB approval of the Commission's 2016 Federal Debt 
Collection Rules (FDCRs) adopted for debts owed to or 
guaranteed by the Federal Government. The rules were adopted 
per the Bipartisan Budget Act of 2015, Pub. L. No. 114-74, 129 
Stat., amending the TCPA.
    The withdrawal decision referenced by Mr. Quigley was based 
on the existence of an outstanding petition for reconsideration 
alleging a lack of authority under the TCPA. On May 14, 2018, 
the FCC issued a public notice seeking comment on various 
outstanding TCPA issues including the issue referenced by Mr. 
Quigley. This matter remains pending.
    The PN specifically included the following request for 
comments, referencing the FDCRs, the Great Lakes petition for 
reconsideration, and the related Broadnet Declaratory Ruling:
    [W]e seek renewed comment on the pending petition for 
reconsideration of the 2016 Federal Debt Collection Rules, 
filed by Great Lakes Higher Education Corp. et al. Great Lakes 
asks the Commission to reconsider several aspects of the rules, 
including the applicability of the TCPA's limits on calls to 
reassigned wireless numbers. In light of the court's opinion on 
reassigned I numbers, we seek renewed comment on this and other 
issues raised by the petition.
    We also seek comment on the interplay between the Broadnet 
decision and the Budget Act amendments--if a federal contractor 
is not a ``person'' for purposes of the TCPA (as the Commission 
held in Broadnet), would the rules adopted in the 2016 Federal 
Debt Collection Rules even apply to a federal contractor 
collecting a federal debt? Do persons who are not federal 
contractors collect federal debts? Or does the Budget Act 
amendment underlying the 2016 Federal Debt Collection Rules 
undermine the rationale of Broadnet?

    Mr. Quigley. The ones dealing with robocalls for Federal 
debt collection.
    Mr. Pai. To be honest, I am trying to remember. Robocalls 
relating--if I could get back to you on that----
    Mr. Quigley. It was my lead-up to this question that threw 
you off.
    Mr. Pai. Well, I did live for 3 years in Chicago, for what 
it is worth, so I also know--you know, on the South Side, so I 
know Chicago as well.
    Mr. Quigley. You still got robocalls from the Federal 
Government, and we were trying to address that.
    Mr. Pai. I would be happy to get back to you on that. It is 
not coming to my mind immediately.
    Mr. Quigley. None of this rings a bell about the rulemaking 
that came and just needed a sign-off from OMB to go into 
effect? This is when you took over as FCC chairman.
    Mr. Pai. Right.
    Mr. Quigley. How long ago was that, sir?
    Mr. Pai. January 2017. The only 2015 rulemaking I remember 
relating to robocalls or TCPA was the 2015 order that was just 
struck by the DC Circuit.
    Mr. Quigley. Yes, but I am asking, did you have any 
communication in your recollection talking with OMB about 
reviewing that?
    Mr. Pai. I personally do not, no.
    Mr. Quigley. You do not recall that?
    Mr. Pai. No.
    Mr. Quigley. If you do not remember, could you review in 
your records what you--
    Mr. Pai. Yes, I would be happy to do that.
    Mr. Quigley. OK. And if any other recollections on this--
but you commit to go back and do everything in your power to 
make sure these protections are in place?
    Mr. Pai. Sure. I mean, my vague recollection is that the 
rules were not strong enough, but I would happy to take a look 
at what it was.
    Mr. Quigley. And if you could get back to the committee as 
a whole and give them the best of your recollection what 
exactly took place. Because we would like these protections to 
be put in place, because when I am in my field of dreams I do 
not want to have to rush in the house and answer some annoying 
question from some Federal person trying to get money. Thank 
you so much for your cooperation. It has been great.
    Mr. Graves. Thank you, Mr. Quigley. Chairman, thank you for 
joining us today. I know there have been some pointed 
questions. But I want to thank you for your service. I know you 
have served in the minority capacity on the Commission; you are 
serving in the majority now. You have been under multiple 
administrations. You have been consistent in your viewpoints, 
very open, very transparent, and you are continuing that 
process.
    And I know I speak on behalf of the full subcommittee here 
that your family has endured threats that they should never 
have to endure. And so, we thank you for your service, because 
we know it has not come without sacrifice for you, your wife, 
and your children. But we do dearly thank you, though, for 
joining us today, for your consistency, and for always being 
willing to come before this subcommittee and answer some tough 
questions regardless of the subject matter. Thank you again. 
With that, this hearing is adjourned.
    Mr. Pai. Thank you.
    Information submitted for inclusion in the record follows:
   
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    










                           W I T N E S S E S

                              ----------                              
                                                                   Page

Barr, Hon. Andy..................................................   199

Clayton, Hon. Jay................................................   215
    Answers to submitted questions...............................   234

Duff, Hon. James C...............................................   126

Kautter, David J.................................................    39
    Answers to submitted questions...............................    55

Luetkemeyer, Hon. Blaine.........................................   194

Lungstrum, Hon. John W...........................................    92
    Answers to submitted questions...............................   147

Mnuchin. Hon. Steven T...........................................     6
    Answers to submitted questions...............................    29

Mulvaney, Hon. Mick..............................................   151
    Answers to submitted questions...............................   190

Murphy, Emily W..................................................    67
    Answers to submitted questions...............................    89

Pai, Ajit........................................................   251

Schneider, Hon. Brad, submitted statement........................   211

Tipton, Hon. Scott R.............................................   206


                            [all]
                            
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
